APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Tenth Circuit, Nos. 183133, 18-3134
(April 29, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Findings of Fact and Conclusions of
Law in the United States District
Court for the District of Kansas
(June 18, 2018) . . . . . . . . . . . . . . App. 81
Appendix C Opinion in the United States Court of
Appeals for the Tenth Circuit, No. 163147
(October 19, 2016) . . . . . . . . . . . App. 238
Appendix D Constitutional Provisions
Involved . . . . . . . . . . . . . . . . . . . App. 334
Appendix E Statutory Provisions
Involved . . . . . . . . . . . . . . . . . . . App. 336

App. 1

APPENDIX A
PUBLISH
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
No. 18-3133
[Filed April 29, 2020]
______________________________________
STEVEN WAYNE FISH, on behalf of
himself and all others similarly situated;
DONNA BUCCI, on behalf of herself and
all others similarly situated; CHARLES
STRICKER, on behalf of himself and all
others similarly situated; THOMAS J.
BOYNTON, on behalf of himself and all
others similarly situated; DOUGLAS
HUTCHINSON, on behalf of himself and
all others similarly situated; LEAGUE
OF WOMEN VOTERS OF KANSAS,

)
)
)
)
)
)
)
)
)
)
)
)
Plaintiffs - Appellees,
)
)
v.
)
)
SCOTT SCHWAB, in his official capacity )
as Secretary of State for the State of
)
Kansas,
)
)
Defendant - Appellant.
)
______________________________________ )

App. 2
STATE OF TEXAS; STATE OF
ARKANSAS; STATE OF OKLAHOMA;
STATE OF WEST VIRGINIA; PAUL
LEPAGE,† Governor of Maine; STATE
OF MISSOURI; EAGLE FORUM
EDUCATION & LEGAL DEFENSE
FUND,

)
)
)
)
)
)
)
)
Amici Curiae.
)
______________________________________ )
No. 18-3134
______________________________________
CODY KEENER; ALDER
)
CROMWELL,
)
)
Plaintiffs,
)
)
and
)
)
PARKER BEDNASEK,
)
)
Plaintiff - Appellee,
)
†

Paul LePage is no longer Governor of Maine. In a letter dated
March 15, 2019, counsel for Maine’s Attorney General, informed
the court that Maine’s current Governor, Janet T. Mills, “does not
support the position taken [by several states and then-Governor
LePage] in the amicus brief filed in this case on October 5, 2018,”
and that “the position taken in the amicus [brief] does not reflect
the position of the State of Maine.” Letter of Susan P. Herman,
Deputy Attorney General to Tenth Circuit Clerk, Case Nos. 183133 & 18-3134, at 1 (Mar. 15, 2019). Although we acknowledge
this correspondence, it has no impact on our resolution of this
appeal.

App. 3
v.

)
)
SCOTT SCHWAB,
)
Kansas Secretary of State,
)
)
Defendant - Appellant.
)
______________________________________ )
STATE OF TEXAS; STATE OF
)
ARKANSAS; STATE OF
)
OKLAHOMA; STATE OF WEST
)
VIRGINIA; PAUL LEPAGE,
)
Governor of Maine; STATE OF
)
MISSOURI; EAGLE FORUM
)
EDUCATION & LEGAL
)
DEFENSE FUND,
)
)
Amici Curiae.
)
______________________________________ )
_________________________________
Appeals from the United States District Court
for the District of Kansas
(D.C. No. 2:16-CV-02105-JAR)
(D.C. No. 2:15-CV-09300-JAR)
_________________________________
Toby Crouse, Solicitor General of Kansas, (Derek
Schmidt, Attorney General of Kansas, Jeffrey A.
Chanay, Chief Deputy Attorney General, Bryan C.
Clark, Assistant Solicitor General, Dwight R. Carswell,
Assistant Solicitor General, with him on the briefs),
Office of Attorney General, Topeka, Kansas, for
Defendant- Appellant.

App. 4
Dale Ho, American Civil Liberties Union Foundation,
New York, New York, (R. Orion Danjuma and Sophia
Lin Lakin, American Civil Liberties Union Foundation,
New York, New York; Mark P. Johnson, Curtis E.
Woods and Samantha Wenger, Dentons US LLP,
Kansas City, Missouri; Neil A. Steiner and Rebecca
Kahan Waldman, Dechert LLP, New York, New York;
Angela M. Liu, Dechert LLP, Chicago, Illinois; Lauren
Bonds and Zal K. Shroff, ACLU Foundation of Kansas,
Overland Park, Kansas; Lino S. Lipinsky De Orlov,
Dentons US LLP, Denver, Colorado; Mark T. Emert,
Fagan, Emert & Davis LLC, Lawrence, Kansas;
Shannon Wells Stevenson, Davis Graham & Stubbs
LLP, Denver, Colorado, with him on the brief), for
Plaintiffs-Appellees.
Ken Paxton, Attorney General of Texas, Jeffrey C.
Mateer, First Assistant Attorney General, Kyle D.
Hawkins, Solicitor General, Matthew H. Frederick,
Deputy Solicitor General, Beth Klusmann, Assistant
Solicitor General, filed an amicus curiae brief for the
States of Texas, Arkansas, Missouri, Oklahoma, West
Virginia and Paul R. LePage, Governor of Maine, in
support of Defendant- Appellant.
Lawrence J. Joseph, Washington, D.C., filed an amicus
curiae brief on behalf of Eagle Forum Education &
Legal Defense Fund, in support of DefendantAppellant.

App. 5
_________________________________
Before BRISCOE, McKAY,* and HOLMES, Circuit
Judges.
_________________________________
HOLMES, Circuit Judge.
_________________________________
In these two consolidated appeals, we must
determine whether a Kansas law requiring
documentary proof of citizenship (“DPOC”) for voter
registration is preempted by section 5 of the National
Voter Registration Act (“NVRA”), 52 U.S.C. § 20504, or
violates the Fourteenth Amendment’s Equal Protection
Clause.
We addressed the first of these questions, i.e.,
whether Kansas’s DPOC requirement is preempted by
section 5 of the NVRA, in Fish v. Kobach (“Fish I”), 840
F.3d 710 (10th Cir. 2016). Section 5 of the NVRA
mandates that a voter-registration form must be a part
of any application to obtain or renew a driver’s license.

*

The late Honorable Monroe G. McKay was a member of the three
judge panel assigned to this case and heard the parties’ oral
arguments, but he passed away on March 28, 2020. He took no
part in the final disposition of this case, including the preparation
of this opinion. “The practice of this court permits the remaining
two panel judges if in agreement to act as a quorum in resolving
the appeal.” United States v. Wiles, 106 F.3d 1516, 1516 n.* (10th
Cir. 1997); see also 28 U.S.C. § 46(d) (providing that “[a] majority
of the number of judges authorized to constitute a court or panel
thereof . . . shall constitute a quorum”). The remaining two panel
members have acted as a quorum with respect to this appeal, and,
for the reasons stated herein, have voted to affirm the decision of
the district court.

App. 6
Such a registration form “‘may require only the
minimum amount of information necessary to’ prevent
duplicate registrations and to ‘enable State election
officials to assess the eligibility of the applicant and to
administer voter registration and other parts of the
election process.’” Id. at 715–16 (footnotes omitted)
(quoting 52 U.S.C. § 20504(c)(2)(B)). In Fish I, we held
that—on the factual record then before this court—”the
DPOC required by Kansas law [was] more than the
minimum amount of information necessary [to perform
the Kansas Secretary of State’s eligibility-assessment
and registration duties] and, therefore, [was]
preempted by the NVRA.” Id. at 717. Thus, we held
that “the district court did not abuse its discretion in
granting [a] preliminary injunction [against the
enforcement of the DPOC law] because the NVRA
preempts Kansas’s DPOC law as enforced against
those applying to vote while obtaining or renewing a
driver’s license.” Id. at 716. We remanded for a trial on
the merits where Kansas’s Secretary of State would
have an opportunity to demonstrate that the DPOC
requirement was not more than the minimum amount
of information necessary to perform his eligibilityassessment and registration duties.
On remand, the district court consolidated that
statutory challenge with a related case that raises the
second aspect of this appeal, i.e., whether the DPOC
requirement violates the Fourteenth Amendment’s
Equal Protection Clause. The Supreme Court and this
court have evaluated challenges to state-voteridentification requirements under the Equal Protection
Clause. See Crawford v. Marion Cty. Election Bd., 553
U.S. 181, 189–91 (2008) (plurality opinion of Stevens,

App. 7
J.); ACLU of N.M. v. Santillanes, 546 F.3d 1313, 1320
(10th Cir. 2008). Proceeding under that framework, the
Equal Protection Clause challenge to the DPOC
requirement is predicated on the idea that the DPOC
requirement unconstitutionally burdens the right to
vote because the interests asserted by the Kansas
Secretary of State (“the Secretary”) are insufficient to
justify the burden it imposes on that right.
After holding a joint bench trial, the district court
entered a permanent injunction against the
enforcement of the DPOC requirement under both
section 5 of the NVRA and the Equal Protection Clause.
The Secretary has appealed. His appeal raises the two
fundamental questions outlined above. First, in
Bednasek v. Schwab, No. 18-3134, does the DPOC
requirement violate the Equal Protection Clause?
Second, in Fish v. Schwab, No. 18-3133, does section 5
of the NVRA preempt the DPOC requirement?
Exercising jurisdiction under 28 U.S.C. § 1291, we
answer both questions in the affirmative and thus
affirm the district court’s judgment enjoining
enforcement of the DPOC requirement. In doing so, we
summarize the relevant background, assure ourselves
that the challengers possess standing, and then discuss
both challenges to the DPOC requirement, taking up
first (for organizational convenience) the constitutional
challenge.
I. Background
A. Kansas’s DPOC Requirement
Both suits on appeal challenge Kansas’s DPOC
requirement, and so we start by recounting Fish I’s

App. 8
summary of the statute and regulations that constitute
Kansas’s DPOC requirement:
Kansas adopted its DPOC requirement for
voter registration on April 18, 2011. Secure
and Fair Elections (“SAFE”) Act, ch. 56,
§ 8(l), 2011 Kan. Sess. Laws 795, 806, 809–11
(codified at Kan. Stat. Ann. § 25–2309(l)).
The requirement took effect January 1, 2013.
Id. at § 8(u), 2011 Kan. Sess. Laws at 812.
The SAFE Act requires that
(l) The county election officer or secretary
of state’s office shall accept any completed
application for registration, but an
applicant shall not be registered until the
applicant has provided satisfactory
evidence of United States citizenship.
Evidence of United States citizenship as
required in this section will be satisfied
by presenting one of the documents listed
. . . in person at the time of filing the
application for registration or by
including a photocopy of one of the
following documents with a mailed
registration application. After a person
has submitted satisfactory evidence of
citizenship, the county election officer
shall indicate this information in the
person’s permanent voter file.
Kan. Stat. Ann. § 25–2309(l). The statute
then lists thirteen forms of documentation
acceptable to prove U.S. citizenship,
including a birth certificate or passport. See

App. 9
§ 25–2309(l)(1)–(13). For citizens unable to
present DPOC, subsection (m) provides an
alternate means to prove citizenship by the
submission of evidence to the state election
board followed by a hearing. See
§ 25–2309(m). The state election board is
composed of “the lieutenant governor, the
secretary of state and the attorney general.”
§ 25–2203(a).
[Then-serving Kansas] Secretary [of State
Kris W.] Kobach promulgated regulations for
the DPOC requirement on October 2, 2015.
Kan. Admin. Regs. § 7–23–15 (the “90-day
regulation”). Those regulations provide that
applications unaccompanied by DPOC are
deemed to be “incomplete.” § 7–23–15(a).
Once an application is designated as
incomplete, a voter has ninety days to
provide DPOC or else the application is
canceled and a new voter-registration
application is required to register. See § 7-2315(b)-(c)
840 F.3d at 717.
B. Factual Background
1. Bednasek v. Schwab, No. 18-3134
Mr. Parker Bednasek—the only remaining plaintiff
in Bednasek v. Schwab, No. 18-3134—moved from
Texas to Kansas in order to attend the University of
Kansas. While he was a full-time student at the
University of Kansas, he canceled his Texas voter
registration and applied to register to vote in Kansas.

App. 10
He did so because he “considered [him]self to be a
resident in Kansas, and [he] wanted to vote in Kansas
elections.” Aplt.’s App., Vol. 38, at 9339 (Tr. of Bench
Trial, Day 2, P.M. Session, filed Mar. 30, 2018). In
applying, he swore that he was a Kansas resident and
that he had abandoned his former residence. He later
swore that he had “no intent to leave Kansas in the
future.” Id., Vol. 48, at 11692 (Aff. of Parker Bednasek,
filed Apr. 21, 2016). While at the University of Kansas,
Mr. Bednasek paid out-of-state tuition, had a vehicle
that he jointly owned with his parents that was
registered in Texas, had a car insurance policy on that
vehicle registered to his parents’ Texas home, and
applied for and received a Texas driver’s license.
When he submitted his application to register to
vote, Mr. Bednasek did not provide DPOC. He did not
do so because (1) his birth certificate was at his
parent’s home in Texas, and (2) “he [did] not agree with
the law” and was attempting to challenge it. Id., Vol.
47, at 11466 (Findings of Fact & Conclusions of Law,
filed June 18, 2018); see id., Vol. 38, at 9368–69. Mr.
Bednasek would later acquire a copy of his DPOC in
order to apply to the Navy but did not submit it to
Kansas. Because he never submitted DPOC to Kansas,
his application was canceled under the DPOC
requirement.
2. Fish v. Schwab, No. 18-3133
In Fish v. Schwab, No. 18-3133, multiple plaintiffs
attempted to register to vote as “motor voters” under
section 5 of the NVRA, but their applications to register
were denied because of the DPOC requirement. We
briefly recount some of their experiences. Mr. Steven

App. 11
Fish applied for a driver’s license and to register as a
voter. The driver’s license examiner did not inform him
that he needed to provide DPOC, but he subsequently
received notices informing him that he needed to
submit DPOC. However, he had difficulty locating his
birth certificate because “he was born on a
decommissioned Air Force base.” Id., Vol. 47, at 11460.
He thus was unable to vote in the 2014 general
election. A family member subsequently found his birth
certificate, and he has now registered. Similarly, Ms.
Donna Bucci applied to vote while renewing her
driver’s license. She was not told that she needed to
provide DPOC, but, like Mr. Fish, she later received a
notice informing her that she needed to provide DPOC
in order to register. However, Ms. Bucci did not possess
a copy of her birth certificate. The district court found
that “[s]he [could not] afford the cost of a replacement
birth certificate from Maryland and she credibly
testified that spending money to obtain one would
impact whether she could pay rent.” Id. at 11461. Her
application was canceled for failure to provide DPOC,
and she was unable to vote in the 2014 election. A third
plaintiff, Mr. Douglas Hutchinson, likewise applied to
register to vote while renewing his driver’s license but
did not provide DPOC. His application was also later
canceled.
Other plaintiffs did bring DPOC to register, but
various errors in the administration of the DPOC
requirement prevented their registration. Mr. Charles
Stricker applied to vote while renewing his driver’s
license and brought DPOC with him, but the clerk told
him that he did not need to provide anything. He only
learned that his application had been canceled for lack

App. 12
of DPOC when he was not allowed to vote at the polls.
Similarly, Mr. Thomas Boynton applied to vote, and his
application was suspended for failure to provide DPOC.
He had, however, brought DPOC with him to register
and provided the requested documentation.
Nevertheless, he was told that he was not registered
when he showed up at the polls. After the election, he
received a notice that he needed to resubmit DPOC in
order to complete the voter-registration process.
The final plaintiff is the League of Women Voters of
Kansas (“Kansas League”), “a nonpartisan, nonprofit
volunteer organization that encourages informed and
active participation of citizens in government.” Id. at
11452. The district court found that “the DPOC
requirement significantly hampered the Kansas
League’s voter registration work,” id. at 11453, “the
DPOC requirement forced the Kansas League to devote
substantial resources to assist voters whose
applications are in suspense due to the failure to
provide DPOC,” id. at 11455, and “the DPOC
requirement has forced the Kansas League to spend a
considerable amount of member resources—including
volunteer time—and money to educate the public about
registering under the DPOC law,” id.
C. Procedural Background
1. Fish I
The Fish plaintiffs brought suit seeking a
preliminary injunction against the enforcement of the
DPOC requirement. The district court granted the
preliminary injunction and “required [the Secretary] to
register to vote any applicants previously unable to

App. 13
produce DPOC and to cease enforcement of Kansas’s
DPOC requirement with respect to individuals who
apply to register to vote at the Kansas Department of
Motor Vehicles (‘DMV’) through the motor voter
process.” Fish I, 840 F.3d at 716. The Secretary
appealed the entry of the preliminary injunction, and
we affirmed. Id. at 716–17.
As recounted in more depth below, we held that
section 5 of the NVRA preempted Kansas’s DPOC
requirement. Id. at 716. The relevant portion of section
5 of the NVRA, known as the “motor-voter” provision,
states:
(2) The voter registration application portion
of an application for a State motor vehicle
driver’s license—
(A) may not require any information that
duplicates information required in the
driver’s license portion of the form (other
than a second signature or other
information necessary under
subparagraph (C));
(B) may require only the minimum
amount of information necessary to—
(i)
prevent
duplicate
voter
registrations; and
(ii) enable State election officials to
assess the eligibility of the applicant
and to administer voter registration
and other parts of the election process;

App. 14
(C) shall include a statement that—
(i) states each eligibility requirement
(including citizenship);
(ii) contains an attestation that the
applicant meets each such
requirement; and
(iii) requires the signature of the
applicant, under penalty of perjury
....
52 U.S.C. § 20504(c)(2)(A)–(C) (emphases added). In
Fish I, we read subparagraph (C)’s “attestation
requirement” as establishing “the presumptive
minimum amount of information necessary for a state
to carry out its eligibility-assessment and registration
duties [under subparagraph (B)].” 840 F.3d at 737.
However, we acknowledged that “whether the
attestation requirement actually satisfies the
minimum-information principle in a given case turns
on the factual question of whether the attestation
requirement is sufficient for a state to carry out these
duties.” Id. at 738. We held that “in order for a state
advocating for a DPOC regime to rebut the
presumption that the attestation requirement is the
minimum information necessary for it to carry out its
eligibility-assessment and registration duties,” section
5 of the NVRA requires “[the] state to show that ‘a
substantial number of noncitizens have successfully
registered’ notwithstanding the attestation
requirement.” Id. at 738–39 (quoting Kobach v. U.S.
Election Assistance Comm’n (“EAC”), 772 F.3d 1183,
1198 (10th Cir. 2014)).

App. 15
We held that the Secretary had failed to
demonstrate that a substantial number of noncitizens
had successfully registered. Id. at 746–47. In
particular, the Secretary had only shown that between
2003 and 2013 “thirty noncitizens registered to vote.”
Id. at 746. “These numbers [fell] well short of the
showing necessary to rebut the presumption that
attestation constitutes the minimum amount of
information necessary for Kansas to carry out its
eligibility-assessment and registration duties.” Id. at
747. Thus, we concluded that the plaintiffs’ challenge
was likely to succeed on the merits. Id. at 750. We went
on to address the remaining preliminary-injunction
factors and concluded that the district court did not err
in concluding that they, too, favored a preliminary
injunction. Id. at 751–56. We thus affirmed the district
court’s grant of the preliminary injunction. Id. at 756.
2. The Joint Fish and Bednasek Bench Trial
On remand, the district court consolidated
Fish—the statutory case—with Bednasek—the
constitutional case—for trial. We summarize the
district court’s factual findings, its legal conclusions in
both cases, and the remedies it imposed.
a. Factual Findings
In addition to the above evidence about individual
plaintiffs with suspended or canceled applications, the
plaintiffs put forward statistical evidence about the
overall number of suspended applications. The district
court found that, before the preliminary injunction in
Fish was issued, there were 14,770 individuals who
had applied to vote but whose applications were

App. 16
suspended for failure to provide DPOC. Of these, 5,655
were motor-voter applicants. Another 16,319
individuals had their applications canceled for failure
to provide DPOC. Of these, 11,147 were motor-voter
applicants. That “amount[ed] to 31,089 total applicants
who were denied registration for failure to provide
DPOC.” Aplt.’s App., Vol. 47, at 11447. Other numbers
and expert testimony demonstrated that “[c]anceled or
suspended applicants represented 12.4% of new voter
registrations between January 1, 2013[,] and December
11, 2015.” Id. at 11448. An expert opined that the total
number of applicants with suspended or canceled
applications would have increased but for the
injunction, “in part because voter registration activity
typically increases in the months leading up to a
presidential election.” Id. at 11449. However, while
there was significant evidence that would-be voters had
their applications suspended and canceled by the
DPOC requirement, the court acknowledged that
“[t]here was little admissible evidence presented at
trial about the rate of DPOC possession by suspended
and canceled applicants.” Id. at 11457.
The district court also made factual findings about
the number of noncitizens who had applied to register
to vote. The district court found that, “at most, 67
noncitizens registered or attempted to register in
Kansas over the last 19 years.” Id. at 11519. Of these,
“there [were] only 39 confirmed noncitizens who
successfully registered to vote between 1999 and 2013
when the DPOC law became effective.” Id. at 11508.
Those 39 individuals represented 0.002% of all
registered voters in Kansas as of January 1, 2013—the
date the DPOC requirement went into effect. Id. And

App. 17
specifically as to those applications that were
suspended, the court found that the estimated number
of suspended applications that belonged to noncitizens
was “statistically indistinguishable from zero,” while
“more than 99% of the individuals” whose voterregistration applications were suspended were citizens
who would have been able to vote but for the DPOC
requirement. Id. at 11491–92; see id. at 11481.
Moreover, even those few instances of noncitizens
attempting to register to vote may be explained by
“administrative anomalies.” Id. at 11520. For example,
Kansas’s voter-registration database included 100
individuals with purported birth dates in the 19th
century and 400 individuals with purported birth dates
after their date of voter registration.
While the district court only found these 39
instances of noncitizen registration, the Secretary
presented several anecdotes regarding noncitizens who
purportedly attempted to register to vote. There was
evidence that some noncitizens with temporary driver’s
licenses had been registered to vote and that one
citizen told Kansas officials that she had voted before
becoming a citizen. The Secretary also identified an
incident, summarized in a letter in the record, where
employees of a hog farm “were transported to [a
county] office by their employer to register to vote”
even though a county clerk stated that “some of these
employees felt they were pressured to register even
though they may not be legal.” Id., Vol. 30, at 7668
(Letter from Seward Cty. Clerk to Kan. S. Ethics &
Elections Comm., dated Mar. 3, 2011). In its
preliminary injunction analysis, the district court had
concluded that the evidence submitted about this

App. 18
incident was “insufficient to show that noncitizens
actually voted.” Id., Vol. 4, at 867 (Mem. & Order, filed
May 17, 2016). While the Secretary returns to these
examples in this court, it is unclear how they relate to
the 39 instances of noncitizen registration that the
district court identified.
Apart from the 39 confirmed instances of noncitizen
registration, Kansas presented expert testimony on
statistical estimates of noncitizen registration and on
noncitizen registration outside Kansas. But the district
court either gave little weight or entirely rejected
Kansas’s expert testimony on these topics. The court
found that one expert’s testimony contained “myriad
misleading statements” and “preordained opinions.”
Id., Vol. 47, at 11474; see id. at 11476 (“The record is
replete with further evidence of [the expert]’s bias.”).
The court also concluded that studies offered by a
different expert were “confusing, inconsistent, and
methodologically flawed.” Id. at 11491. “[L]ooking
beyond Kansas, [the Secretary’s] evidence of noncitizen
registration at trial was weak.” Id. at 11519. The
district court explained at length why it excluded large
portions of the Secretary’s expert testimony on
statistical estimates of noncitizen registration in
Kansas and found much of the remaining testimony
unpersuasive. Id. (explaining that one of the
Secretary’s experts was “credibly dismantled” by the
architect of the survey upon which the expert had
relied).

App. 19
b. Legal Conclusions in
Schwab, No. 18-3134

Bednasek

v.

In Bednasek, the court carefully evaluated these
facts under the equal-protection rubric established by
the Supreme Court’s opinion in Crawford v. Marion
County Election Board, supra. As discussed at length
below, Crawford instructs that we are to examine the
burden that a state law places on the right to vote and
then weigh the government’s asserted interests for
imposing that law against that burden. Guided by
Crawford, the district court here balanced the burdens
imposed by the DPOC requirement against the state’s
interests in preventing noncitizen voter registration,
maintaining accurate voter rolls, and maintaining
confidence in elections. The court concluded that “the
magnitude of potentially disenfranchised voters
impacted by the DPOC law and its enforcement scheme
cannot be justified by the scant evidence of noncitizen
voter fraud before and after the law was passed, by the
need to ensure the voter rolls are accurate, or by the
State’s interest in promoting public confidence in
elections.” Aplt.’s App., Vol. 47, at 11526.
c. Legal Conclusions in Fish v. Schwab, No.
18-3133
In Fish, the court held that the preemption
framework established in Fish I was the law of the
case. Applying that framework and considering the
evidence summarized above, the court concluded that
there was “no credible evidence that a substantial
number of noncitizens registered to vote under the
attestation regime.” Id. at 11507. Instead, it found that
the “evidence of a small number of noncitizen

App. 20
registrations in Kansas . . . is largely explained by
administrative error, confusion, [and] mistake.” Id. at
11509. The court concluded that “[the Secretary] ha[d]
failed to rebut the presumption that the attestation
clause meets the minimum information principle in § 5
of the NVRA, and [it] therefore order[ed] judgment in
favor of [the Fish] Plaintiffs.” Id. at 11515.
d. Remedies
Finding that the DPOC requirement violated the
Equal Protection Clause and section 5 of the NVRA, the
court ordered the Secretary “not [to] enforce the DPOC
law and accompanying regulation against voter
registration applicants in Kansas.” Id. at 11529. The
court also ordered various specific forms of relief not at
issue here, e.g., ordering the Secretary to update
websites and provide applicants with certificates of
registration. Id. at 11530. The Secretary timely
appealed.
II. Standing
The Secretary first argues that Mr. Bednasek—the
only remaining plaintiff in Bednasek v. Schwab, No. 183134—lacks standing.1 We summarize the relevant

1

The Secretary does not challenge the Fish plaintiffs’ standing.
Nevertheless, “[w]e have an obligation to assure ourselves of
litigants’ standing under Article III.” Frank v. Gaos, --- U.S. ----,
139 S. Ct. 1041, 1046 (2019) (per curiam) (quoting DaimlerChrysler
Corp. v. Cuno, 547 U.S. 332, 340 (2006)). We concluded that the
Fish plaintiffs had standing in Fish I, see 840 F.3d at 716 n.5 (“We
are confident on the current record that Plaintiffs–Appellees have
standing to sue.”), and we see no reason to depart from that
conclusion now.

App. 21
legal principles and conclude Mr. Bednasek has
standing.
A. Legal Principles Governing Standing
Article III of the United States Constitution
restricts the jurisdiction of federal courts to the
adjudication of “Cases” or “Controversies.” U.S. CONST.
art. III, § 2, cl. 1. To satisfy Article III’s case-orcontroversy requirement, a plaintiff must demonstrate
standing by establishing “(1) an ‘injury-in-fact,’ (2) a
sufficient ‘causal connection between the injury and the
conduct complained of,’ and (3) a ‘likel[ihood]’ that the
injury ‘will be redressed by a favorable decision.’”
Susan B. Anthony List v. Driehaus, 573 U.S. 149,
157–58 (2014) (alteration in original) (quoting Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560–61 (1992)); accord
Spokeo, Inc. v. Robins, --- U.S. ----, 136 S. Ct. 1540,
1547 (2016). “Put simply, a plaintiff must establish
three elements: an injury-in-fact, causation, and
redressability.” Bronson v. Swensen, 500 F.3d 1099,
1106 (10th Cir. 2007).
We are focused on the first two of these
requirements. As to the first, “[t]o establish injury in
fact, a plaintiff must show that he or she suffered ‘an
invasion of a legally protected interest’ that is ‘concrete
and particularized’ and ‘actual or imminent, not
conjectural or hypothetical.’” Spokeo, 136 S. Ct. at 1548
(quoting Lujan, 504 U.S. at 560); accord People for the
Ethical Treatment of Prop. Owners v. U.S. Fish &
Wildlife Serv., 852 F.3d 990, 996–97 (10th Cir. 2017).
And as to the second, causation is established when the
injury “is fairly traceable to the challenged conduct of
the defendant.” Spokeo, 136 S. Ct. at 1547 (citing

App. 22
Lujan, 504 U.S. at 560–61); accord Benham v. Ozark
Materials River Rock, LLC, 885 F.3d 1267, 1273 (10th
Cir. 2018) (“To satisfy the traceability requirement, the
defendant’s conduct must have caused the injury.”).
This requires proving that there is “a substantial
likelihood that the defendant’s conduct caused
plaintiff’s injury in fact.” Bronson, 500 F.3d at 1109–10
(quoting Nova Health Sys. v. Gandy, 416 F.3d 1149,
1156 (10th Cir. 2005)).
“We . . . review the district court’s rulings on
standing de novo.” Niemi v. Lasshofer, 770 F.3d 1331,
1344 (10th Cir. 2014); accord People for the Ethical
Treatment of Prop. Owners, 852 F.3d at 996. However,
we review the factual findings underlying the district
court’s standing determination for clear error. See
Protocols, LLC v. Leavitt, 549 F.3d 1294, 1298 (10th
Cir. 2008); see also McCormack v. Herzog, 788 F.3d
1017, 1024 (9th Cir. 2015) (“Questions of standing are
. . . reviewed de novo, but underlying factual findings
are reviewed for clear error.”); ASPCA v. Feld Entm’t,
Inc., 659 F.3d 13, 19 (D.C. Cir. 2011) (same); Me.
People’s All. v. Mallinckrodt, Inc., 471 F.3d 277, 283
(1st Cir. 2006) (same).
B. Application
The Secretary raises two arguments that Mr.
Bednasek lacks standing. First, the Secretary argues
that Mr. Bednasek did not suffer an injury-in-fact
because he was not a Kansas resident and so he was
ineligible to vote. Second, the Secretary argues that
Mr. Bednasek’s harm was not caused by the DPOC
requirement and was instead self-inflicted. We reject

App. 23
both arguments before briefly assuring ourselves that
Mr. Bednasek’s injury-in-fact is redressable.
1. Injury-in-fact
The Secretary argues that Mr. Bednasek did not
suffer “an invasion of a legally protected interest,”
Spokeo, 136 S. Ct. at 1548 (quoting Lujan, 504 U.S. at
560), when his application was cancelled because Mr.
Bednasek ostensibly was not a resident of Kansas and
so was ineligible to vote there. For purposes of
“determining the residence of a person offering to vote”
under Kansas law, a person’s residence is “the place
adopted by a person as such person’s place of
habitation, and to which, whenever such person is
absent, such person has the intention of returning.”
Kan. Stat. Ann. § 25-407. “That this determination is
not based solely on intent has been recognized by the
Kansas Supreme Court, which has stated that a citizen
has the right to change his residence permanently or
temporarily, and that ‘whether he does so, or which he
does, is determined by his acts and his intentions.’”
Warren v. Gaston, 55 F. Supp. 2d 1230, 1237 (D. Kan.
1999) (quoting State ex rel. Parker v. Corcoran, 128
P.2d 999, 1003 (Kan. 1942)). While Mr. Bednasek’s
family is from Texas, he was enrolled as a full-time
student at the University of Kansas when he attempted
to register to vote. Moreover, in the fall of 2015, he
cancelled his Texas voter registration and attempted to
register in Kansas because he “considered [him]self to
be a resident in Kansas, and [he] wanted to vote in
Kansas elections.” Aplt.’s App., Vol. 38, at 9339. In
applying to register in Kansas, he swore that he was a
Kansas resident and that he had abandoned his former

App. 24
residence. And, as part of this lawsuit, he submitted an
affidavit wherein he stated that he was a Kansas
resident and had “no intent to leave Kansas in the
future.” Id., Vol. 48, at 11692. The district court thus
concluded that Mr. Bednasek was a resident of Kansas.
The Secretary, however, points out that Mr.
Bednasek paid out-of-state tuition at the University of
Kansas, had a car that he jointly owned with his
parents that was registered in Texas, had a car
insurance policy—for which his parents are listed as
the policy holders—that was also registered to his
parents’ Texas home, and applied for and received a
Texas driver’s license. The Secretary argues that these
actions undermine Mr. Bednasek’s declared intentions.
But in rejecting a motion to dismiss on standing
grounds, the district court stated: “the Court finds that
neither Bednasek’s Texas driver’s license, nor his
Texas automobile registration and insurance,
objectively disprove Bednasek’s repeated attestations
of Kansas residency.” Id., Vol. 49, at 11825 (Mem. &
Order, filed July 29, 2016). This factual finding about
Mr. Bednasek’s residence was incorporated in the
summary judgment and trial rulings. We only review
the district court’s factual findings for clear error. See
Protocols, 549 F.3d at 1298; McCormack, 788 F.3d at
1024; ASCPA, 659 F.3d at 19; Me. People’s All., 471
F.3d at 283. And this factual finding was not clearly
erroneous: Mr. Bednasek had chosen to live in Kansas,
canceled his Texas voter registration, and sworn that
he intended to remain in Kansas. The district court
could weigh all of this evidence and make a credibility

App. 25
determination.2 We conclude that the district court’s
finding that Mr. Bednasek was a Kansas resident for
purposes of voter registration was not clearly
erroneous.
The Secretary counters by citing two Kansas cases:
Willmeth v. Harris, 403 P.2d 973 (Kan. 1965), and
Gleason v. Gleason, 155 P.2d 465 (Kan. 1945). But
these cases acknowledge that residency is a “question
of fact” that turns on “all the surrounding facts and
circumstances,” Gleason, 155 P.2d at 467; see also
Willmeth, 403 P.2d at 978 (concluding “[t]here is ample
evidence in the record to support the trial court’s
findings” about an individual’s residency); thus, those
authorities do nothing to change our conclusion that
2

Moreover, the standard for paying in-state tuition is more
onerous than that for voter residency. Kansas’s regulations
concerning in-state tuition state that “[v]oting or registration for
voting in Kansas,” “standing alone, ordinarily shall not constitute
sufficient evidence of a change to Kansas residence.” Kan. Admin.
Regs. § 88–3–2(c)(1). The regulations also create a presumption
that individuals enrolled in academic programs are not residents
for purposes of in-state tuition. Id. § 88–3–2(d). No similar
presumption is in the voter-residency statute. And the relevant
statute requires an individual to be a domiciliary resident of
Kansas for twelve months prior to receiving in-state tuition, see
Kan. Stat. Ann. § 76–729(a)(1); no such requirement is in the
voter-registration residency definition. Thus, the fact that Mr.
Bednasek paid out-of-state tuition does not tell us much.
Additionally, Kansas’s then-existing guidance on “Election
Standards” stated that residency for purposes of voter registration
“is not related to or affected by vehicle registration,” and so the
Texas vehicle registration also is far from dispositive here. Aplt.’s
App., Vol. 49, at 11825. Likewise, we do not find the fact that his
parents linked the auto insurance policy with their house to be
telling.

App. 26
the district court’s factual finding that Mr. Bednasek
was a Kansas resident was not clearly erroneous.
Moreover, neither case was interpreting residency
under the relevant voter-registration statute, and so
neither could provide a persuasive reason to depart
from the above analysis in any event.
In sum, we conclude that district court did not
clearly err in concluding that Mr. Bednasek was a
resident of Kansas and thus suffered an injury-in-fact
when the Secretary cancelled his registration
application.
2. Causation
The Secretary next argues that Mr. Bednasek did
not have standing to sue because his injury was “selfinflicted” and thus not fairly traceable to Kansas’s
conduct. Aplt.’s Opening Br. at 23. The Secretary’s
argument turns on the following facts: that Mr.
Bednasek possessed DPOC that was located at his
parent’s home in Texas, that he acquired a copy of this
DPOC at some point during his Kansas residency in
order to apply to the Navy, and that he stated that he
did not bring the DPOC when he attempted to register
to vote because he did not agree with the law. But we
rejected similar arguments in Fish I. See 840 F.3d at
716 n.5, 753–54. We stated that “our cases show that
typically a finding of self-inflicted harm results from
either misconduct or something akin to entering a
freely negotiated contractual arrangement, not from a
failure to comply with an allegedly unlawful regime.”
Id. at 753 (collecting cases). “[W]e reject[ed] the notion
that the source of an injury is a litigant’s decision not
to comply with an allegedly unlawful state regime,

App. 27
rather than the regime itself.” Id. at 754 (emphasis
added). “Were this notion to apply in a case like this
one, a court could never enjoin enforcement of an
unlawful statute if the plaintiffs could have complied
with the statute but elected not to; this hypothetical
scenario borders on the absurd.” Id. This all remains
true now.
Our opinion in ACLU of New Mexico v. Santillanes,
supra, underscores the point. There, in-person voters
were required to produce voter identification. We
concluded that the plaintiffs who intended to vote in
future elections and would be required to present
identification in those elections had standing. 546 F.3d
at 1319. This was the case even though “no individual
[plaintiff] lack[ed] photo identification.” Id. Kansas’s
denial of Mr. Bednasek’s application to register to vote
for lack of DPOC functions analogously to the voteridentification law in Santillanes; the requirement that
Mr. Bednasek provide DPOC is sufficient to establish
standing. Cf. Common Cause/Georgia v. Billups, 554
F.3d 1340, 1351–52 (11th Cir. 2009) (“Requiring a
registered voter either to produce photo identification
to vote in person or to cast an absentee or provisional
ballot is an injury sufficient for standing.”).
In arguing to the contrary, the Secretary relies most
heavily on Clapper v. Amnesty International USA, 568
U.S. 398 (2013). In that case, the plaintiffs asserted
they were “suffering ongoing injuries” because they had
chosen “to take costly and burdensome measures to
protect the confidentiality of their international
communications” from the potential of surveillance
under the Foreign Intelligence Surveillance Act. Id. at

App. 28
402, 415. The Supreme Court rejected the notion that
these expenditures established standing: “respondents
cannot manufacture standing merely by inflicting harm
on themselves based on their fears of hypothetical
future harm that is not certainly impending.” Id. at
416. But unlike the hypothetical enforcement in
Clapper, the DPOC requirement here actually was
enforced against Mr. Bednasek. And it was that
enforcement that caused Mr. Bednasek’s injury-in-fact,
not any decision he made to spend money to avoid a
hypothetical injury. Furthermore, the suit here
concerns the fundamental right to vote; it does not
concern “[the] actions of the political branches in the
fields of intelligence gathering and foreign affairs,”
where the Court engages in an especially rigorous
standing inquiry. Id. at 408–09. We thus conclude Mr.
Bednasek has demonstrated that there is a substantial
likelihood that his injury-in-fact was caused by the
Secretary’s actions. See Bronson, 500 F.3d at 1109–10.
3. Redressability
And while not challenged by the Secretary, we have
no doubt that there is “a ‘likel[ihood]’ that the injury
‘will be redressed by a favorable decision.’” Susan B.
Anthony List, 573 U.S. at 158 (alteration in original)
(quoting Lujan, 504 U.S. at 560–61). An order enjoining
the Secretary from enforcing the DPOC requirement
will ensure that approximately 30,000 voters whose
applications were canceled or suspended are registered
to vote. Cf. Santillanes, 546 F.3d at 1319.
We thus conclude Mr. Bednasek has established
standing.

App. 29
III. Discussion
Turning to the merits of the two challenges to the
DPOC requirement, we summarize our standard of
review before considering whether the DPOC
requirement unconstitutionally burdens the right to
vote and whether the DPOC requirement is preempted
by section 5 of the NVRA. We conclude that the DPOC
requirement is both unconstitutional and preempted by
section 5 of the NVRA, and thus affirm the district
court’s judgment.
A. Standard of Review
“We review the district court’s legal conclusions in
a bench trial de novo; findings of fact will not be set
aside unless clearly erroneous.” FTC v. Chapman, 714
F.3d 1211, 1216 (10th Cir. 2013) (quoting Ryan v. Am.
Nat. Energy Corp., 557 F.3d 1152, 1157 (10th Cir.
2009)); accord United States v. Estate of St. Clair, 819
F.3d 1254, 1264 (10th Cir. 2016). Because the
Secretary only challenges the court’s legal conclusions,
see Aplt.’s Opening Br. at 21 (explaining that “the State
asserts only legal error”), our review is de novo.
B. Whether Kansas’s DPOC Requirement
Violates the Fourteenth Amendment’s Equal
Protection Clause
We first ask whether Kansas’s DPOC requirement
violates the Fourteenth Amendment’s Equal Protection
Clause. We structure this inquiry by setting forth the
Anderson-Burdick balancing test that governs our
analysis, see Burdick v. Takushi, 504 U.S. 428 (1992);
Anderson v. Celebrezze, 460 U.S. 780 (1983), and then
analyzing the constitutionality of the DPOC

App. 30
requirement under that test by weighing the burdens
the voting requirement imposes against the interests
the government asserts. We conclude that the DPOC
requirement is unconstitutional and uphold the district
court’s injunction against its enforcement.
1. Governing Legal Principles
Crawford v. Marion County Election Board, supra,
instructs that when examining a claim that a state law
unconstitutionally burdens a plaintiff’s right to vote
under the Equal Protection Clause, we are to examine
the burden that the state law places on the right to
vote and then weigh the government’s asserted
interests for imposing that law against the burden. In
the following discussion, we introduce the so-called
Anderson-Burdick balancing test before summarizing
how it was applied in Crawford.
a. The Anderson-Burdick Balancing Test
The right to vote is “a fundamental political right,
. . . preservative of all rights.” Dunn v. Blumstein, 405
U.S. 330, 336 (1972) (omission in original) (quoting
Reynolds v. Sims, 377 U.S. 533, 562 (1964)); Fish I, 840
F.3d at 752 (“There can be no dispute that the right to
vote is a constitutionally protected fundamental
right.”); see also Harper v. Va. State Bd. of Elections,
383 U.S. 663, 670 (1966) (“[T]he right to vote is too
precious, too fundamental to be so burdened or
conditioned.”). “No right is more precious in a free
country than that of having a voice in the election of
those who make the laws under which, as good citizens,
we must live. Other rights, even the most basic, are

App. 31
illusory if the right to vote is undermined.” Wesberry v.
Sanders, 376 U.S. 1, 17 (1964).
Nevertheless, “[i]t does not follow . . . that the right
to vote in any manner and the right to associate for
political purposes through the ballot are absolute.”
Burdick, 504 U.S. at 433; accord Utah Republican
Party v. Cox, 892 F.3d 1066, 1076 (10th Cir. 2018), cert.
denied, 139 S. Ct. 1290 (2019). Instead, the
Constitution allows states to “prescribe ‘the Times,
Places and Manner of holding Elections for Senators
and Representatives,’ and the Court therefore has
recognized that States retain the power to regulate
their own elections.” Burdick, 504 U.S. at 433 (citation
omitted) (quoting U.S. CONST. art. I, § 4, cl. 1). These
regulations can help protect the right to vote by
ensuring that elections are “fair and honest” and that
“some sort of order, rather than chaos, . . .
accompan[ies] the democratic processes.” Id. (quoting
Storer v. Brown, 415 U.S. 724, 730 (1974)); accord
Campbell v. Buckley, 203 F.3d 738, 745 (10th Cir.
2000); see Timmons v. Twin Cities Area New Party, 520
U.S. 351, 358 (1997) (“States may, and inevitably must,
enact reasonable regulations of parties, elections, and
ballots to reduce election- and campaign-related
disorder.”).
However, there is “[n]o bright line,” Timmons, 520
U.S. at 359, that separates those regulations that
properly impose order—thereby protecting the
fundamental right to vote—from those that unduly
burden it—thereby undermining it. See Crawford, 553
U.S. at 190 (plurality opinion of Stevens, J.) (explaining
that instead of applying a “litmus test” courts must

App. 32
make a “hard judgment”); Anderson, 460 U.S. at 789
(explaining that instead of applying a “litmus-paper
test” “a court must resolve such a challenge by an
analytical process that parallels its work in ordinary
litigation”). Instead, the Supreme Court has instructed
that:
A court considering a challenge to a state
election law must weigh “the character and
magnitude of the asserted injury to the rights
protected by the First and Fourteenth
Amendments that the plaintiff seeks to
vindicate” against “the precise interests put
forward by the State as justifications for the
burden imposed by its rule,” taking into
consideration “the extent to which those
interests make it necessary to burden the
plaintiff’s rights.”
Burdick, 504 U.S. at 434 (quoting Anderson, 460 U.S.
at 789); accord Santillanes, 546 F.3d at 1320 (“[T]he
appropriate test when addressing an Equal Protection
challenge to a law affecting a person’s right to vote is to
‘weigh the asserted injury to the right to vote against
the precise interests put forward by the State as
justifications for the burden imposed by its rule.’”
(quoting Crawford, 553 U.S. at 190)). This balancing
test has become known as the Anderson-Burdick
balancing test. See Cox, 892 F.3d at 1077 (“[W]e
analyze electoral regulations using the now-familiar
Anderson-Burdick balancing test.”).3

3

The Supreme Court’s cases have equivocated over which
provision of the Constitution mandates this balancing test.

App. 33
Both parties agree that this Anderson-Burdick
balancing test applies here. We thus turn to examine
how the Anderson-Burdick test was applied to a related
voting restriction in Crawford v. Marion County
Election Board, supra.

Compare Anderson, 460 U.S. at 786 n.7 (“[W]e base our conclusions
directly on the First and Fourteenth Amendments and do not
engage in a separate Equal Protection Clause analysis. We rely,
however, on the analysis in a number of our prior election cases
resting on the Equal Protection Clause of the Fourteenth
Amendment. These cases, applying the ‘fundamental rights’ strand
of equal protection analysis, have identified the First and
Fourteenth Amendment rights implicated by restrictions on the
eligibility of voters and candidates, and have considered the degree
to which the State’s restrictions further legitimate state interests.”
(collecting cases)), with Crawford, 553 U.S. at 207 n.* (plurality
opinion of Scalia, J.) (“A number of our early right-to-vote
decisions, purporting to rely upon the Equal Protection Clause,
strictly scrutinized nondiscriminatory voting laws requiring the
payment of fees.” (collecting cases)). Our court, however, has traced
the Anderson-Burdick balancing test to the Equal Protection
Clause. See Santillanes, 546 F.3d at 1319–20; see also Edward B.
Foley, Due Process, Fair Play, and Excessive Partisanship: A New
Principle for Judicial Review of Election Laws, 84 U. CHI. L. REV.
655, 674 (2017) (explaining that the Supreme Court’s “equalprotection-for-voting jurisprudence has evolved into what is known
as the ‘Anderson-Burdick balancing test’”). Yet, as explained above,
the Anderson- Burdick balancing test does not entail “a traditional
equal-protection inquiry.” Democratic Exec. Comm. of Fla. v. Lee,
915 F.3d 1312, 1319 (11th Cir. 2019); see also Green Party of Tenn.
v. Hargett, 791 F.3d 684, 692 (6th Cir. 2015) (discussing
relationship between Anderson-Burdick and the Equal Protection
Clause, and collecting cases)

App. 34
b. Crawford v. Marion County Election
Board
Crawford involved “the constitutionality of an
Indiana statute requiring citizens voting in person on
election day, or casting a ballot in person at the office
of the circuit court clerk prior to election day, to
present photo identification issued by the government.”
553 U.S. at 185 (plurality opinion of Stevens, J.). The
Court—in two plurality opinions, one by Justice
Stevens and one by Justice Scalia—upheld the
constitutionality of the statute under the AndersonBurdick balancing test. Id. at 189–90 (plurality opinion
of Stevens, J.); id. at 204–05 (plurality opinion of
Scalia, J.). We have held that Justice Stevens’s opinion
is controlling, and so we focus on that opinion here. See
Santillanes, 546 F.3d at 1321 (“Following Crawford, it
appears that Justice Stevens’s plurality opinion
controls, a position advocated by the Plaintiffs in the
present case because it is the narrowest majority
position.”); id. at 1321–25 (citing, in the analysis, only
to Justice Stevens’s opinion); see also Foley, supra, at
676 (“The controlling opinion in [Crawford] was written
by Stevens and joined by Roberts and Kennedy.”).
Justice Stevens’s opinion—joined by Chief Justice
Roberts and Justice Kennedy—started its discussion of
the relevant legal standard with Harper v. Virginia
State Board of Elections, supra, a case that invalidated
a poll-tax under the Equal Protection Clause. Justice
Stevens explained that Harper had not invalidated the
poll-tax because of any racial classification or animus;
instead, it invalidated the poll-tax as “invidious
because it was irrelevant to the voter’s qualifications.”

App. 35
Crawford, 553 U.S. at 189; see Harper, 383 U.S. at 668
(“To introduce wealth or payment of a fee as a measure
of a voter’s qualifications is to introduce a capricious or
irrelevant factor. The degree of the discrimination is
irrelevant. In this context—that is, as a condition of
obtaining a ballot—the requirement of fee paying
causes an ‘invidious’ discrimination that runs afoul of
the Equal Protection Clause.” (citation omitted)
(quoting Skinner v. Okla. ex rel. Williamson, 316 U.S.
535, 541 (1942))).
Justice Stevens thus deduced the rule that “even
rational restrictions on the right to vote are invidious
if they are unrelated to voter qualifications.” Crawford,
553 U.S. at 189. At the same time, Justice Stevens
acknowledged “that ‘evenhanded restrictions that
protect the integrity and reliability of the electoral
process itself’ are not invidious and satisfy the
standard set forth in Harper.” Id. at 189–90 (quoting
Anderson, 460 U.S. at 788 n.9). But determining how to
“neatly separate valid from invalid restrictions” is not
always an easy task. Id. at 190. Notably, Justice
Stevens applied the Anderson-Burdick balancing test
even though the voter-identification law at issue was
not “unrelated to voter qualifications.” Id. at 189; see
id. at 193 (noting that Congress had indicated “that
photo identification is one effective method of
establishing a voter’s qualification to vote”). Instead,
“[h]owever slight th[e] burden [imposed on the right to
vote] may appear, as Harper demonstrates, it must be
justified by relevant and legitimate state interests
‘sufficiently weighty to justify the limitation.’” Id. at
191 (quoting Norman v. Reed, 502 U.S. 279, 288–89
(1992)). In other words, Anderson-Burdick scrutiny is

App. 36
required even when the burden imposed by a voteridentification law has some relationship to voter
qualifications and even when the burden imposed may
appear slight.
An important question then is exactly what this
scrutiny entails. Justice Stevens’s opinion explained
that the degree of scrutiny was “flexible.” Id. at 190 n.8;
see Burdick, 504 U.S. at 434 (explaining that under
Anderson the mere fact that a burden was imposed
does not itself mandate strict scrutiny; instead, “a more
flexible standard applies”); accord Campbell v.
Davidson, 233 F.3d 1229, 1233 (10th Cir. 2000)
(applying “the flexible standard of Burdick”). This
“flexib[ility]” acknowledges that we must engage in a
case-specific inquiry based on (1) “the character and
magnitude of the asserted injury to the rights . . . that
the plaintiff seeks to vindicate,” (2) “the precise
interests put forward by the State as justifications for
the burden imposed by its rule,” and (3) “the extent to
which those [state] interests make it necessary to
burden the plaintiff’s rights.” Burdick, 504 U.S. at 434
(quoting Anderson, 460 U.S. at 789). Thus, the scrutiny
we apply will wax and wane with the severity of the
burden imposed on the right to vote in any given case;
heavier burdens will require closer scrutiny, lighter
burdens will be approved more easily. Id. (“Under this
standard, the rigorousness of our inquiry into the
propriety of a state election law depends upon the
extent to which a challenged regulation burdens First
and Fourteenth Amendment rights.”).
We, and our sister circuits and commentators, have
referred to this as a “sliding scale” test. Navajo Nation

App. 37
v. San Juan Cty., 929 F.3d 1270, 1283 (10th Cir. 2019);
see Ariz. Libertarian Party v. Hobbs, 925 F.3d 1085,
1090 (9th Cir. 2019) (“We have described this approach
as a ‘sliding scale’—the more severe the burden
imposed, the more exacting our scrutiny; the less
severe, the more relaxed our scrutiny.” (quoting Ariz.
Green Party v. Reagan, 838 F.3d 983, 988 (9th Cir.
2016))); Foley, supra, at 675 (“Anderson and Burdick
create a kind of sliding-scale balancing test, whereby
the strength of the state’s justification required to
defend its law depends on the severity of the burden
that the law imposes on the would-be voter’s
opportunity to cast a ballot . . . .”); see also Ne. Ohio
Coal. for the Homeless v. Husted, 696 F.3d 580, 592
(6th Cir. 2012) (per curiam) (“While a rational basis
standard applies to state regulations that do not
burden the fundamental right to vote, strict scrutiny
applies when a state’s restriction imposes ‘severe’
burdens. For the majority of cases falling between
these extremes, we apply the ‘flexible’
Anderson/Burdick balancing test.” (citations omitted)).4

4

Justice Scalia would have abandoned this traditional
understanding of the Anderson-Burdick balancing test as a
flexible, sliding scale test. Instead, he characterized Burdick as
“forg[ing] Anderson’s amorphous ‘flexible standard’ into” a more
rigid “two-track approach.” Crawford, 553 U.S. at 205 (plurality
opinion of Scalia, J.). Under his view, strict scrutiny would be
applied to “severe” burdens while “nonsevere, nondiscriminatory
restrictions” would be reviewed under “a deferential ‘important
regulatory interests’ standard.” Id. at 204–05 (quoting Burdick,
504 U.S. at 433–34 ). Applying this framework to the law at issue
in Crawford, Justice Scalia would have concluded that the burden
imposed by Indiana’s photo-identification law was “simply not
severe” and thus justified by Indiana’s generalized interests under

App. 38
Justice Stevens—applying this “flexible”
approach—then concluded that the photographicidentification requirement at issue in Crawford
“impose[d] only a limited burden on voters’ rights.” 553
U.S. at 203 (quoting Burdick, 504 U.S. at 439). In
particular, Justice Stevens relied heavily on the district
court’s conclusion that the challengers “had ‘not
introduced evidence of a single, individual Indiana
resident who will be unable to vote’” as a result of the
law “or who will have his or her right to vote unduly
burdened by its requirements.” Id. at 187 (quoting Ind.
Democratic Party v. Rokita, 458 F. Supp. 2d 775, 783
(S.D. Ind. 2006)). Additionally, while Justice Stevens
acknowledged that the law could impose a burden on
those without photo identification, “the evidence in the
record d[id] not provide [the Court] with the number of
registered voters without photo identification.” Id. at
200. “Much of the argument about the numbers of such
voters c[ame] from extrarecord, postjudgment studies,
the accuracy of which ha[d] not been tested in the trial
court.” Id. Thus, he concluded that any costs associated
with requiring voters to acquire freely provided
photographic identification did not “qualify as a
a deferential standard. Id. at 209. But six Members of the
Court—Chief Justice Roberts, Justice Stevens, Justice Kennedy,
see id. at 190 n.8, and all three dissenters, see id. at 210 (Souter,
J., joined by Ginsburg, J., dissenting); id. at 237 (Breyer, J.,
dissenting)—rejected Justice Scalia’s reframing of the AndersonBurdick balancing test as involving only two distinct tracks. And,
as we have previously held that Justice Stevens’s opinion is
controlling, we must apply the “flexible” approach to the AndersonBurdick balancing test that was used by Justice Stevens, see
Crawford, 553 U.S. at 190 n.8, as well as by the Court’s earlier
cases, see Burdick, 504 U.S. at 434.

App. 39
substantial burden on the right to vote, or even
represent a significant increase over the usual burdens
of voting.” Id. at 198. This determination that the
burden was not substantial was “record-based.” Id. at
208 (plurality opinion of Scalia, J.); see id. at 189
(plurality opinion of Stevens, J.) (“[T]he evidence in the
record is not sufficient to support a facial attack on the
validity of the entire statute . . . .” (emphasis added));
id. at 200 (plurality opinion of Stevens, J.) (“[O]n the
basis of the evidence in the record it is not possible to
quantify either the magnitude of the burden on this
narrow class of voters or the portion of the burden
imposed on them that is fully justified.” (emphasis
added)).
In light of this weak evidence of a burden, Justice
Stevens concluded that the state’s justifications were
“sufficiently weighty to justify the limitation.” Id. at
191 (quoting Norman, 502 U.S. at 288–89). In
particular, Indiana had “unquestionably relevant”
interests in election modernization, preventing voter
fraud, and safeguarding voter confidence. Id. Justice
Stevens determined that these interests were
“legitima[te]” and “importan[t],” even though, for
example, “[t]he record contain[ed] no evidence of any
[voter-impersonation] fraud actually occurring in
Indiana.” Id. at 194, 196. Thus, the Crawford opinion
demonstrates that when there is limited evidence of a
burden on the right to vote, the state need not present
concrete evidence to justify its assertion of legitimate
or important generalized interests. See Santillanes, 546
F.3d at 1323 (“In requiring the City to present evidence
of past instances of voting fraud, the district court
imposed too high a burden on the City.”).

App. 40
However, when a more substantial burden is
imposed on the right to vote, our review of the
government’s interests is more “rigorous[].” Burdick,
504 U.S. at 434; see also Anderson, 460 U.S. at 789 (“In
passing judgment, the Court must not only determine
the legitimacy and strength of each of those interests;
it also must consider the extent to which those
interests make it necessary to burden the plaintiff’s
rights.”); League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224, 246 (4th Cir. 2014) (“North
Carolina asserts goals of electoral integrity and fraud
prevention. But nothing in the district court’s portrayal
of the facts suggests that those are anything other than
merely imaginable.”); Obama for Am. v. Husted, 697
F.3d 423, 433–34 (6th Cir. 2012) (holding voting
regulation was not justified by “vague interest[s]” when
the state had submitted “no evidence” to justify its
invocation of the interests); cf. Cal. Democratic Party v.
Jones, 530 U.S. 567, 584 (2000) (explaining that the
determination of whether the “four asserted state
interests—promoting fairness, affording voters greater
choice, increasing voter participation, and protecting
privacy—are . . . compelling . . . is not to be made in the
abstract, by asking whether fairness, privacy, etc., are
highly significant values; but rather by asking whether
the aspect of fairness, privacy, etc., addressed by the
law at issue is highly significant”).
Finally, in addition to Justice Stevens’s
consideration of the “facial attack on the validity of the
entire statute” in Crawford based on “the statute’s
broad application to all Indiana voters,” 553 U.S. at
189, 202–03, he also parsed the burden imposed on
specific categories of voters: “elderly persons born out

App. 41
of State, who may have difficulty obtaining a birth
certificate; persons who because of economic or other
personal limitations may find it difficult either to
secure a copy of their birth certificate or to assemble
the other required documentation to obtain a stateissued identification; homeless persons; and persons
with a religious objection to being photographed,” id. at
199 (footnote omitted). But the record evidence
concerning the burdens imposed on these voters was
once again lackluster: “on the basis of the evidence in
the record it is not possible to quantify either the
magnitude of the burden on this narrow class of voters
or the portion of the burden imposed on them that is
fully justified.” Id. at 200. “[T]he evidence in the record
d[id] not provide [the Court] with the number of
registered voters without photo identification,” “the
deposition evidence presented in the District Court
d[id] not provide any concrete evidence of the burden
imposed on voters who currently lack photo
identification,” and the “record sa[id] virtually nothing
about the difficulties faced by either indigent voters or
voters with religious objections to being photographed.”
Id. at 200–01. Furthermore, the Court noted that the
unique burdens on these classes of individuals would
be mitigated by a provision in the Indiana law that
allowed certain “voters without photo identification [to]
cast provisional ballots that will ultimately be
counted.” Id. at 199.5
5

Justice Scalia criticized the “lead opinion” for this focus on the
burden imposed on specific populations. 553 U.S. at 204–05. In his
view, traditional equal-protection principles required evaluating
the burden the voter-identification requirement imposed on all
voters, even if different populations felt the impacts of that single

App. 42
In sum, Crawford teaches that we must balance any
burden on the right to vote imposed by the DPOC
requirement against the government’s asserted
interests as justifications for imposing that burden. We
must apply the Anderson-Burdick balancing test
flexibly, i.e., “the rigorousness of our inquiry into the
propriety of [the DPOC requirement] depends upon the
extent to which [it] burdens” voters’ rights. Burdick,
504 U.S. at 434. And, while we are to evaluate “the
statute’s broad application to all . . . voters” to
determine the magnitude of the burden, Crawford, 553
U.S. at 202–03 (plurality opinion of Stevens, J.), we
may nevertheless specifically consider the “limited
number of persons” on whom “[t]he burdens that are
relevant to the issue before us” will be “somewhat
heavier,” id. at 198–99 (plurality opinion of Stevens,
J.); see also Harper, 383 U.S. at 668 (holding poll tax
facially unconstitutional while identifying the
specifically pernicious effect such a tax has on those
unable to pay it); Nathaniel Persily, Fig Leaves and
Tea Leaves in the Supreme Court’s Recent Election Law
Decisions, 2008 SUP. CT. REV. 89, 101 (2008) (“Voting
laws that are unconstitutional on their face are usually

burden differently. Id. at 205; see also id. at 206 (arguing that, in
its prior opinions, “when [the Court] began to grapple with the
magnitude of burdens, [it] did so categorically and did not consider
the peculiar circumstances of individual voters or candidates”). He
particularly thought Justice Stevens’s focus on the requirement’s
impact on the poor, disabled, and elderly was problematic because
these are not suspect classifications. Id. at 207. He would have
avoided “[t]he lead opinion’s record-based resolution” and instead
held that “[t]he burden of acquiring, possessing, and showing a free
photo identification is simply not severe.” Id. at 208-09.

App. 43
so because a minority (even a nonsuspect one) is
disadvantaged.”).
2. Application
In the following discussion, we (a) set out the
burdens imposed on the right to vote by the DPOC
requirement, (b) discuss the interests that the
Secretary offers to justify those burdens, and then
(c) arrive at the “hard judgment” Crawford demands.
We conclude that the significant burden quantified by
the 31,089 voters who had their registration
applications canceled or suspended requires us to
increase the “rigorousness of our inquiry,” Burdick, 504
U.S. at 434, and that such an inquiry demonstrates
that the precise interests put forward by the Secretary
do not justify the burden imposed on the right to vote.
Thus, we conclude the DPOC requirement is
unconstitutional.
a. Burden on Voters
Based primarily on the district court’s finding that
31,089 applicants were prevented from registering to
vote because of the DPOC requirement, we conclude
that the burden imposed on the right to vote by the
DPOC requirement was significant and requires
heightened scrutiny.6 In arriving at this conclusion, we
reject the Secretary’s counterargument that the burden

6

In labeling the burden “significant,” we—applying Justice
Stevens’s “flexible” approach in Crawford—conclude that the
burden is at least somewhere in between the two poles identified
by Justice Scalia, i.e., “severe” and “nonsevere.”

App. 44
imposed here compares favorably to the burden that
the Supreme Court found insubstantial in Crawford.
The district court found that—before the
preliminary injunction in Fish I was issued—14,770
individuals had applied to vote but had their
applications suspended by the Secretary for failure to
provide DPOC. In addition to these suspended
applications, another 16,319 individuals had their
applications canceled by the Secretary for failure to
provide DPOC. The district court thus found that
“31,089 total applicants . . . were denied registration for
failure to provide DPOC.” Aplt.’s App., Vol. 47, at
11447. Expert testimony demonstrated that “[c]anceled
or suspended applicants represented 12.4% of new
voter registrations between January 1, 2013[,] and
December 11, 2015,” or “approximately 12% of the total
voter registration applications submitted since the law
was implemented.” Id. at 11448–49. And an expert
opined that the total number of applicants with
suspended or canceled applications would have
increased but for the injunction. And despite the
eventual injunction, many of the would-be
voters—including both Mr. Fish and Ms.
Bucci—actually were disenfranchised and “were not
registered in time to vote in the [intervening] 2014
election by operation of the DPOC law.” Id. at
11450–51. The Secretary challenges none of these
findings on appeal.
These factual findings create a fundamental
distinction between this case and Crawford: based on
an extensive record, the district court here concluded
that the Kansas Secretary of State actually denied

App. 45
approximately thirty thousand would-be voters’
registration applications in his implementation of the
DPOC requirement, while, in Crawford, the scant
evidence before the Court left it with the unenviable
task of attempting to estimate the magnitude of the
burden on voting rights, largely from untested extrarecord sources. The district court in Crawford had
found that the challengers “had ‘not introduced
evidence of a single, individual Indiana resident who
w[ould] be unable to vote’” as a result of the law. 553
U.S. at 187 (quoting Ind. Democratic Party, 458 F.
Supp. 2d at 783). The Court concluded that “the
evidence in the record d[id] not provide [it] with the
number of registered voters without photo
identification.” Id. at 200. This was because the district
court had found the challengers’ experts “to be ‘utterly
incredible and unreliable.’” Id. (quoting Ind.
Democratic Party, 458 F. Supp. 2d at 803). Contrast
that with the district court’s factual finding here that
31,089 total applicants were denied registration for
failure to provide DPOC. While the record in Crawford
led Justice Stevens to conclude that the burden there
was slight, the record before us instead leads us to
conclude that the burden on the right to vote here was
significant.
Moreover, in finding Indiana’s statute
constitutional, Justice Stevens relied on the fact
that—even for that unquantified number of voters who
would lack a photo identification at the next
election—Indiana’s statute provided that, “if eligible,
voters without photo identification may cast
provisional ballots that will ultimately be counted.” Id.
at 199. In order to have such a provisional ballot

App. 46
counted, an eligible voter without photographic
identification only needed to execute the required
affidavit at the local circuit court clerk’s office. Id.
Additionally, “[p]resumably most voters casting
provisional ballots w[ould] be able to obtain photo
identifications before the next election,” and thus would
not bear this burden going forward. Id. at 199 n.19.
Thus, the Court concluded that the statute as a whole
“impose[d] only a limited burden on voters’ rights.” Id.
at 203 (quoting Burdick, 504 U.S. at 439).
But as the district court here concluded, Kansas’s
DPOC requirement offered no similar safety valve. See
Aplt.’s App., Vol. 47, at 11520 (“[U]nlike the Indiana
law in Crawford, an eligible Kansas applicant on the
suspense or cancellation list does not have the option to
fill out a provisional ballot, produce DPOC after the
election, and have their ballot counted.”). The Kansas
law allows voters who submit an application without
DPOC to supplement that application at any point
within the following ninety days. See Kan. Admin.
Regs. § 7–23–15(b). Counties have been instructed to
contact each voter that has submitted an application
without DPOC three times within this ninety-day
period. See Aplt.’s App., Vol. 47, at 11446. And, if they
do not have DPOC, they may apply for a hearing where
they are otherwise able to prove their citizenship. See
Kan. Stat. Ann. § 25–2309(m). But these provisions are
significantly less effective than the safety valve in
Crawford because that safety valve allowed certain
individuals to actually cast provisional votes while
these provisions do not. Thus, voters who were not
registered due to a lack of DPOC—including those who
did not know that they were not registered, like Mr.

App. 47
Boynton and Mr. Stricker—could show up to vote but
be turned away without a backup option for them to
cast votes.
Thus, we conclude that this case presents
fundamental differences with Crawford—differences
that make the burden on the right to vote more
substantial here than in Crawford. In sum, the burden
imposed on the right to vote by the DPOC requirement
was significant and requires heightened scrutiny.7
7

We acknowledge that the record also reflects certain instances
where the disenfranchisement of voters arguably was not directly
related to the burdens associated with the legal requirement that
voters produce DPOC. That is because, in some instances, the
voters in fact produced DPOC to Kansas state employees and their
disenfranchisement apparently stemmed from bureaucratic snafus
in Kansas’s implementation of the DPOC regime. Notably, in some
instances, disenfranchisement was the result of the apparently
inadvertent failures of state employees to record and to give effect
to the DPOC that prospective voters provided. For example, Mr.
Stricker and Mr. Boynton both brought DPOC when they went to
register and either provided it to the clerk or were told that they
did not need to. The Secretary does not argue that
disenfranchisement stemming from such bureaucratic or
administrative failures in the implementation of the DPOC regime
should not be considered by us to be part and parcel of that regime,
nor, relatedly, that such disenfranchisement should be excluded
from our analysis of the alleged burden caused by the DPOC
regime under Anderson-Burdick. Cf. Democratic Exec. Comm. of
Fla., 915 F.3d at 1319–21 (considering “the way in which Florida
implements the scheme” when determining the severity of the
burden imposed under Anderson-Burdick); Ne. Ohio Coal. for the
Homeless, 696 F.3d at 591–95 (considering burden imposed on the
right to vote by “poll-worker error” under Anderson-Burdick). In
particular, the Secretary does not argue that prospective voters
disenfranchised through such bureaucratic snafus should not be
counted, for purposes of the burden analysis, among the

App. 48
The Secretary offers several arguments to the
contrary, but we do not find any of them persuasive.
First, the Secretary argues that—as a matter of
law—the DPOC requirement here only imposes a
limited burden on voters. He bases his argument on
Justice Stevens’s statement in Crawford that “the
inconvenience of making a trip to the [Bureau of Motor
Vehicles], gathering the required documents, and
posing for a photograph surely does not qualify as a
substantial burden on the right to vote, or even
represent a significant increase over the usual burdens
of voting.” 553 U.S. at 198. But Justice Stevens made
that statement in light of the record then before the
Court. Id. at 189 (concluding “the evidence in the record
is not sufficient to support a facial attack on the
validity of the entire statute” (emphasis added)); id. at
200 (“[O]n the basis of the evidence in the record it is
not possible to quantify either the magnitude of the
burden on this narrow class of voters or the portion of
the burden imposed on them that is fully justified.”
(emphasis added)). But while there was no evidence in
Crawford that the inconvenience of going to the Bureau
of Motor Vehicles constituted a significant burden, the
approximately 30,000 would-be voters disenfranchised
in this case provide a concrete evidentiary basis to find
that a significant burden was imposed by the DPOC
requirement. Thus, the fundamental differences
between the record in this case and in Crawford lead us
to a different conclusion.

approximately 30,000 would-be voters that the district court found
to be disenfranchised. Therefore, we have no occasion to consider
any such argument further.

App. 49
Furthermore, we also reject the Secretary’s
argument that features of the DPOC requirement made
it—as a matter of law—less burdensome than the law
in Crawford. While the Secretary notes that Kansas
allows those without DPOC to register by meeting with
him and other officials, this procedure has only been
used five times, and we agree with the district court’s
finding that its byzantine nature “adds, not subtracts,
from the burdensomeness of the law.” Aplt.’s App., Vol.
47, at 11526; cf. Harman v. Forssenius, 380 U.S. 528,
541–42 (1965) (finding unconstitutional what was
“plainly a cumbersome procedure” to avoid a poll tax).
The Secretary also argues that Kansas accepts DPOC
through e-mail, fax, or mail, while the law at issue in
Crawford required voters without photo identification
to travel to the Bureau of Motor Vehicles. But the
provisions the Secretary cites do not mention e-mail or
fax. See Kan. Stat. Ann. § 25–2309(l), (t). Moreover, it
is far from clear that requiring all registrants to
provide DPOC—even though they need only submit it
once—is less burdensome than Crawford’s requirement
that voters bring identification to the polls. After all,
many Indiana voters in Crawford no doubt would have
driven to the polls and therefore already would have
had their driver’s licenses with them; consequently,
they would not have been obliged to take any further
steps to vote.
The Secretary also argues that there is no way to
determine how many of the 31,089 would-be voters
whose applications were suspended or denied “were
actually unable (as opposed to just unwilling) to obtain
a birth certificate or other evidence of citizenship.”
Aplt.’s Opening Br. at 32; cf. Frank v. Walker, 768 F.3d

App. 50
744, 749 (7th Cir. 2014) (“If people who already have
copies of their birth certificates do not choose to get free
photo IDs, it is not possible to describe the need for a
birth certificate as a legal obstacle that disfranchises
them.”). In support, he notes that the district court
acknowledged that “[t]here was little admissible
evidence presented at trial about the rate of DPOC
possession by suspended and canceled applicants.”
Aplt.’s App., Vol. 47, at 11457; see also id. (“There is no
evidence about how many canceled and suspended
applicants in fact lack DPOC . . . .”). And, as his
argument goes, if voters simply did not want to be
inconvenienced by providing DPOC, this inconvenience
does not necessarily constitute a cost that is beyond the
“usual burdens of voting.” Crawford, 553 U.S. at 198
(plurality opinion of Stevens, J.). But the concrete
record evidence of the disenfranchisement of the 31,089
would-be voters again provides reason to believe that
the DPOC requirement does impose a significant
burden on Kansas voters, even if some of those voters
could have registered with DPOC. While the district
court was unable to determine what percentage of the
disenfranchised voters lacked DPOC, it did recount
extensive testimony about individual voters like Mr.
Fish and Ms. Bucci who lacked DPOC or faced
significant costs to obtain it. When this testimonial
evidence was combined with the statistical evidence of
disenfranchised voters, the district court could properly
conclude here that the DPOC requirement imposed a
significant burden on the right to vote.8
8

We note that a sister circuit has concluded—in the NVRA
context—that this very DPOC requirement burdens the right to
vote by imposing “onerous” processes that can lead would-be voters

App. 51
The Secretary further argues that Crawford is
analogous to this case because the district court in
Crawford had “estimated” that, “when the statute was
enacted, around 43,000 Indiana residents lacked a
state-issued driver’s license or identification card.” Id.
at 187–88 (plurality opinion of Stevens, J.) (citing Ind.
Democratic Party, 458 F. Supp. 2d at 807). The
Secretary thus argues that, like here, there was
widespread and quantified evidence of
disenfranchisement in Crawford, and so we should
reach the same result as the Court did there. But this
argument ignores that the Supreme Court in Crawford
found that this 43,000 number was meaningless
because it told the Court “nothing about the number of
free photo identification cards [that had been] issued
since” the statute’s enactment and thus nothing about
how many voters actually would be turned away from
the polls. Id. at 202 n.20. We thus do not view the
Court in Crawford as implying that the
disenfranchisement of 43,000 voters would not be
significant. Furthermore, the Court in Crawford
concluded that “the evidence in the record d[id] not
provide [it] with the number of registered voters
without photo identification” and thus the number of
voters who might be unable to vote. Id. at 200
(emphasis added). In contrast, we know here that

to give up. See League of Women Voters of the U.S. v. Newby, 838
F.3d 1, 13 (D.C. Cir. 2016) (“It does not matter whether [would-be
voters were being held on a suspension list] because they lack
access to the requisite documentary proof or simply because the
process of obtaining that proof is so onerous that they give up. The
outcome is the same—the abridgment of the right to vote.”
(citations omitted)).

App. 52
approximately 30,000 Kansans took affirmative and
concrete steps to register to vote and were
disenfranchised by application of the DPOC
requirement. Therefore, we are not persuaded by the
Secretary’s attempt here to analogize Crawford to this
case.
The Secretary relatedly argues that the district
court overstated the burden by considering all 31,089
would-be voters with canceled or suspended
applications because some of them might have later
submitted DPOC to cure their applications if the
district court had not enjoined the DPOC requirement.
It is true that in Crawford Justice Stevens suggested
that certain estimates of the number of voters without
photographic identification were likely overstated
because some voters may have obtained identification
in the intervening months. Id. at 188 n.6, 202 n.20.
However, the Secretary’s argument disregards the
expert’s opinion here that the total number of
applicants with suspended or canceled applications
would have increased but for the injunction. The
Secretary’s argument, in contrast, is based on sheer
speculation: he makes no attempt to estimate how
many of the would-be Kansas voters with canceled or
suspended applications would have taken the step to
submit DPOC. And, as Justice Stevens rightly pointed
out in Crawford, “[s]upposition . . . is not an adequate
substitute for admissible evidence subject to crossexamination in constitutional adjudication.” Id. at 202
n.20. And the concrete, admissible evidence here
indicates that—because of Kansas’s DPOC
requirement—31,089 would-be voters were not

App. 53
permitted to vote; without doubt, that is a significant
burden.
In sum, we conclude that the DPOC requirement
imposed a significant burden on the right to vote.9
b. Asserted State Interests
We now turn to “evaluate the interests put forward
by the State as justifications for the burden imposed by
its rule.” Id. at 190 (plurality opinion of Stevens, J.).
The Secretary puts forward four interests:
“(i) protecting the integrity of the electoral process,
(ii) ensuring the accuracy of voter rolls,
(iii) safeguarding voter confidence, and (iv) preventing
voter fraud.” Aplt.’s Opening Br. at 33. We agree with
the Secretary that each of these interests is legitimate
in the abstract. However, the Secretary points to no

9

Mr. Bednasek also argues that the DPOC requirement is suspect
because it applies different registration requirements to those who
registered before the statute was enacted than to those who
registered after. See Kan. Stat. Ann. § 25-2309(n) (“Any person
who is registered in this state on the effective date of this
amendment to this section is deemed to have provided satisfactory
evidence of citizenship and shall not be required to resubmit
evidence of citizenship.”). But Mr. Bednasek concedes that this
distinction is justified in part by Kansas’s “legitimate state
interest” in protecting the reliance interests of voters who were
registered under the previous regime, Aplee.’s Resp. Br. at 76, and
the authority he provides that found certain grandfather clauses
unconstitutional in the voting context concluded that the statutes
were unconstitutional because they sought to avoid the import of
the Fifteenth Amendment. See Lassiter v. Northampton Cty. Bd.
of Elections, 360 U.S. 45, 49–50 (1959); Guinn v. United States, 238
U.S. 347, 363 (1915). No similar allegations have been made here,
and so we do not base our analysis of the burden on this argument.

App. 54
concrete evidence that “those interests make it
necessary to burden the plaintiff’s rights” in this case,
Burdick, 504 U.S. at 434 (quoting Anderson, 460 U.S.
at 789), and so—in the following section—we conclude
that, on this record, these legitimate interests are
insufficiently weighty to justify the limitations on the
right to vote imposed by the DPOC requirement.
While nominally distinct interests, three of the
Secretary’s asserted interests—protecting the integrity
of the electoral process, ensuring the accuracy of voter
rolls, and preventing vote fraud—largely overlap. Each
fundamentally can be boiled down to Kansas’s interest
in making sure that only eligible voters vote in its
elections. And we agree with the Secretary that “[t]here
is no question about the legitimacy or importance of the
State’s interest in counting only the votes of eligible
voters.” Crawford, 553 U.S. at 196 (plurality opinion of
Stevens, J.); see id. (“[T]he interest in orderly
administration and accurate recordkeeping provides a
sufficient justification for carefully identifying all
voters participating in the election process.”). Likewise,
when put in terms of electoral integrity, “[a] State
indisputably has a compelling interest in preserving
the integrity of its election process.” Purcell v.
Gonzalez, 549 U.S. 1, 4 (2006) (per curiam) (quoting Eu
v. S.F. Cty. Democratic Cent. Comm., 489 U.S. 214, 231
(1989)). And we agree that “[t]he State’s interest is
particularly strong with respect to efforts to root out
fraud,” Doe v. Reed, 561 U.S. 186, 197 (2010), because
fraud “drives honest citizens out of the democratic
process and breeds distrust of our government,” id.
(quoting Purcell, 549 U.S. at 4). “While the most
effective method of preventing election fraud may well

App. 55
be debatable, the propriety of doing so is perfectly
clear.” Crawford, 553 U.S. at 196 (plurality opinion of
Stevens, J.). Thus, we agree with the Secretary that
Kansas’s interest in counting only the votes of eligible
voters is legitimate in the abstract, but, on this record,
we do not see any evidence that such an interest made
it necessary to burden voters’ rights here.
The Secretary argues that—even if there is no
inaccuracy or fraud to correct—the DPOC requirement
furthers Kansas’s interest in increasing public
confidence and participation in the democratic process.
Aplt.’s Opening Br. at 35–36; see also id. at 34
(“Preventing Kansas from verifying the bedrock voter
qualification of United States citizenship would
undermine the integrity of the electoral
process—whether widespread voter fraud exists or not.”
(emphasis added)). Again, we agree with the Secretary
that “[c]onfidence in the integrity of our electoral
processes is essential to the functioning of our
participatory democracy.” Purcell, 549 U.S. at 4. Such
confidence is vital because “[v]oter fraud drives honest
citizens out of the democratic process and breeds
distrust of our government.” Id. Voters “will feel
disenfranchised” when they have reason to “fear their
legitimate votes will be outweighed by fraudulent
ones.” Id. Thus, the Supreme Court has recognized that
“public confidence in the integrity of the electoral
process has independent significance[] because it
encourages citizen participation in the democratic
process.” Crawford, 553 U.S. at 197 (plurality opinion
of Stevens, J.). While we agree with the Secretary that
Kansas has a legitimate interest in safeguarding voter

App. 56
confidence, we explain below why there is no evidence
that the DPOC requirement furthers that interest.
Thus, we agree that each of the interests asserted
by the Secretary is legitimate in the abstract. However,
we now turn to explain why—due to the significant
burden that the DPOC requirement imposes on the
right to vote and the lack of concrete evidence
supporting the relevance of these interests in this
case—we cannot conclude “those interests make it
necessary to burden the plaintiff’s rights.” Burdick, 504
U.S. at 434 (quoting Anderson, 460 U.S. at 789).
c. Balancing
As we have discussed, “the rigorousness of our
inquiry into the propriety of [the DPOC requirement]
depends upon the extent to which [it] burdens” voters’
rights. Id. Here, the evidence of the approximately
30,000 disenfranchised voters means that heightened
scrutiny is appropriate. Thus, we must look at more
than whether the proffered interests are legitimate in
the abstract; we must ask whether the concrete
evidence demonstrates that “those interests make it
necessary to burden the plaintiff’s rights” in this case.
Id. (quoting Anderson, 460 U.S. at 789); see Cal.
Democratic Party, 530 U.S. at 584; League of Women
Voters of N.C., 769 F.3d at 246; Obama for Am., 697
F.3d at 433–34. Doing so, we conclude that the
Secretary has failed to introduce sufficiently weighty
evidence to justify the burdens imposed on voters.
To start, the district court found essentially no
evidence that the integrity of Kansas’s electoral process
had been threatened, that the registration of ineligible

App. 57
voters had caused voter rolls to be inaccurate, or that
voter fraud had occurred. In particular, it found that,
“at most, 67 noncitizens registered or attempted to
register in Kansas over the last 19 years.” Aplt.’s App.,
Vol. 47, at 11519. Of these, “[a]t most, 39 noncitizens
have found their way onto the Kansas voter rolls in the
last 19 years.” Id. at 11520. The Secretary does not
argue that these factual findings are clearly erroneous.
Thus we are left with this incredibly slight evidence
that Kansas’s interest in counting only the votes of
eligible voters is under threat. Indeed, even as to those
39 noncitizens who appear on the Kansas voter rolls,
the district court effectively found that “administrative
anomalies” could account for the presence of many—or
perhaps even most—of them there. Id. Supporting this
determination is the fact that Kansas’s voterregistration database included 100 individuals with
purported birth dates in the 19th century and 400
individuals with purported birth dates after their date
of voter registration. And so it is quite likely that much
of this evidence of noncitizen registration is explained
by administrative error.
The Secretary also presented the district court with
out-of-state evidence about election fraud and
noncitizen registration. But the district court concluded
that, “looking beyond Kansas, [the Secretary’s]
evidence of noncitizen registration at trial was weak.”
Id. at 11519. It explained at length why it excluded
large portions of the Secretary’s expert testimony and
found much of the remaining testimony unpersuasive.
Id. (explaining that one of the Secretary’s experts was
“credibly dismantled” by the architect of the survey
upon which the expert had relied and that the court

App. 58
“d[id] not fully credit” a second expert’s testimony
“given its inclusion of misleading and false assertions”).
We have no doubt that inaccurate voter registrations
exist in our country, see, e.g., Husted v. A. Philip
Randolph Inst., --- U.S. ----, 138 S. Ct. 1833, 1838
(2018) (“It has been estimated that 24 million voter
registrations in the United States—about one in
eight—are either invalid or significantly inaccurate.”),
but the Secretary fails to connect this generalized
information to the DPOC requirement at issue here or
to argue that the district court clearly erred in finding
that “the trial evidence did not demonstrate the
largescale problem urged by [the Secretary].” Aplt.’s
App., Vol. 47, at 11520. In light of the significant
burden on the right to vote, we thus do not rely on the
Secretary’s out-of-state evidence of voter-fraud and
nonvoter registration.
Finally and relatedly, while much of the above
discussion focused on Kansas’s interest in counting
only the votes of eligible voters, it is also true that the
evidence did not demonstrate that Kansas’s interest in
safeguarding voter confidence made it necessary to
enact the DPOC requirement. In particular, the district
court found that “the evidence in this case d[id] not
show that the DPOC law furthers” Kansas’s
“significant interest” in “maintaining confidence in the
electoral process.” Id. at 11527–28. The district court
found that, even under calculations from one of the
Secretary’s experts, the estimated number of suspended
applications that belonged to noncitizens was
“statistically indistinguishable from zero,” while “more
than 99% of the individuals” whose voter-registration
applications were suspended were citizens who

App. 59
presumably would have been able to vote but for the
DPOC requirement. Id. at 11491–92; id. at 11528
(“[T]he DPOC law disproportionately impacts duly
qualified registration applicants, while only nominally
preventing noncitizen voter registration.”). Thus, the
district court found that this disproportionate impact
on qualified registration applicants “also may have the
inadvertent effect of eroding, instead of maintaining,
confidence in the electoral system.” Id. at 11528. Again,
while the Secretary casts aspersions on these factual
findings, he does not contest them as clearly erroneous.
See Aplt.’s Opening Br. at 21 (“[T]he State asserts only
legal error . . . .”).
In sum, the burden on the right to vote evinced by
the approximately 30,000 disenfranchised voters
elevates “the rigorousness of our inquiry into the
propriety of [the DPOC requirement].” Burdick, 504
U.S. at 434. And when we look at “‘the precise interests
put forward by the State as justifications for the
burden imposed by its rule,’ taking into consideration
‘the extent to which those interests make it necessary
to burden the plaintiff’s rights,’” id. (quoting Anderson,
460 U.S. at 789), we see that the Secretary’s proffered
justifications are not supported—and indeed in several
places are undercut—by the facts found by the district
court. We thus make the “hard judgment,” Crawford,
553 U.S. at 190 (plurality opinion of Stevens, J.), that
the DPOC requirement unconstitutionally burdens the
right to vote and uphold the district court’s judgment.
To be sure, the Secretary argues that Crawford and
our opinion in Santillanes prohibit us from examining
whether there is any evidence behind his proffered

App. 60
justifications. In Crawford, Justice Stevens’s opinion
accepted three justifications—election modernization,
protection against voter fraud, and safeguarding voter
confidence—in the abstract, i.e., without requiring
evidence that these interests were at risk in Indiana or
remedied by the photographic-identification
requirement at issue. Id. at 191–97 (plurality opinion
of Stevens, J.). Similarly, in Santillanes, we concluded
that “[i]n requiring the City to present evidence of past
instances of voting fraud, the district court imposed too
high a burden on the City.” 546 F.3d at 1323. Guided
by Crawford, we relied on the city’s general invocation
of its interest and Crawford’s citation to “flagrant
examples of such fraud in other parts of the country,”
id. (quoting Crawford, 553 U.S. at 195 (plurality
opinion of Stevens, J.)), in concluding that “[p]revention
of voter fraud and voting impersonation as urged by
the City are sufficient justifications for a photo
identification requirement for local elections,” id.
But in Crawford and Santillanes, the Supreme
Court and our court had concluded that there was only
a light burden on the right to vote. Crawford, 553 U.S.
at 202–03 (plurality opinion of Stevens, J.); Santillanes,
546 F.3d at 1322–23. While both of those decisions
acknowledged that the laws at issue there could impose
a burden on the right to vote, those burdens were
limited and were further mitigated by the possibility of
casting provisional ballots. But the evidence here that
31,089 voter-registration applications were either
suspended or canceled differentiates the magnitude of
the burden here from the magnitude of the burdens in
those cases. Because “the rigorousness of our inquiry
into the propriety of [the challenged law] depends upon

App. 61
the extent to which [it] burdens” voters’ rights,
Burdick, 504 U.S. at 434, and neither of those decisions
confronted the level of disenfranchisement that the
record evidence establishes that the DPOC
requirement produced here, neither of those decisions
applied the more robust scrutiny that we must here.
And it is only after engaging in that heightened
scrutiny that we find that the facts in this case do not
support the conclusion that the Secretary’s legitimate
interests justify the burdens that the DPOC law
imposes on the right to vote. Thus, our approach here
is entirely consistent with Crawford and Santillanes;
the different result is driven by the different record of
burdens and, consequently, the different level of
judicial scrutiny applied.
In sum, we conclude that the DPOC requirement is
unconstitutional and uphold the district court’s
injunction in Bednasek v. Schwab, No. 18-3134.10

10

While the Secretary argues that we should not facially invalidate
the statute based on “the allegedly ‘confusing’ implementation of
Kansas law,” Aplt.’s Opening Br. at 33, or “the unique
circumstances of one individual,” Aplt.’s Reply Br. at 16, he does
not offer a broader challenge to the scope of the relief that the
district court ordered. We do not rely here on the confusing
implementation of the DPOC law or the circumstances of any
individual plaintiff, instead finding that the demonstrated
disenfranchisement of approximately 30,000 would-be voters
demonstrates that the “broad application” of the DPOC
requirement imposed an unjustified burden on “all [Kansas]
voters.” Crawford, 553 U.S. at 202–03 (plurality opinion of
Stevens, J.)

App. 62
C. Whether Section 5 of the NVRA Preempts the
DPOC Requirement
We also uphold the district court’s entry of the
injunction against the enforcement of the DPOC
requirement with regard to motor-voter registrants
(i.e., the appeal in Fish v. Schwab, No. 18-3133)
because section 5 of the NVRA preempts Kansas’s
DPOC requirement. In coming to that conclusion, we
(1) summarize our opinion in Fish I, (2) explain why
that opinion establishes the law of this case, and
(3) hold that, under the Fish I framework, Kansas’s
DPOC requirement is preempted by section 5 of the
NVRA because Kansas failed to demonstrate
substantial numbers of non-citizen voters attempted to
register or vote. Thus, even apart from our
constitutional holding in Bednasek v. Schwab, No. 183134, we affirm the district court’s injunction—as to
the class of voters who sought to register under section
5 of the NVRA.
1. Preemption Framework Established in
Fish I
In Fish I, we addressed the fundamental question of
whether Congress—through the NVRA—had utilized
the authority vested in it by the Elections Clause to
preempt state regulations—namely, the DPOC
requirement. The Constitution’s Elections Clause
states:
The Times, Places and Manner of holding
Elections for Senators and Representatives,
shall be prescribed in each State by the
Legislature thereof; but the Congress may at

App. 63
any time by Law make or alter such
Regulations, except as to the Places of
chusing Senators.
U.S. CONST. art. I, § 4, cl. 1. This provision makes clear
that while states must set the “Times, Places and
Manner” of their elections, “Congress can step in,
either making its own regulations that wholly displace
state regulations or else modifying existing state
regulations.” Fish I, 840 F.3d at 724; see Arizona v.
Inter Tribal Council of Ariz., Inc., 570 U.S. 1, 8 (2013)
(“Upon the States [the Elections Clause] imposes the
duty (‘shall be prescribed’) to prescribe the time, place,
and manner of electing Representatives and Senators;
upon Congress it confers the power to alter those
regulations or supplant them altogether.”). In other
words, “[t]he Clause is a default provision; it invests
the States with responsibility for the mechanics of
congressional elections, but only so far as Congress
declines to preempt state legislative choices.” Foster v.
Love, 522 U.S. 67, 69 (1997) (citation omitted); accord
Fish I, 840 F.3d at 725–26.
In Fish I, we explained that, in order to answer the
fundamental preemption question, “the Elections
Clause requires that we straightforwardly and
naturally read the federal and state provisions in
question as though part of a unitary system of federal
election regulation but with federal law prevailing over
state law where conflicts arise.” Fish I, 840 F.3d at 729;
accord Gonzalez v. Arizona, 677 F.3d 383, 394 (9th Cir.
2012) (en banc), aff’d sub nom. Inter Tribal, 570 U.S. 1
(2013). We then turned to the relevant portions of
Kansas’s DPOC requirement and the NVRA. Kansas’s

App. 64
DPOC requirement provides: “The county election
officer or secretary of state’s office shall accept any
completed application for registration, but an applicant
shall not be registered until the applicant has provided
satisfactory evidence of United States citizenship.”
Kan. Stat. Ann. § 25–2309(l). The statute then
“enumerates thirteen forms of documentation,
including a birth certificate and a passport, that meet
this requirement.” Fish I, 840 F.3d at 732. We then
turned to the relevant portion of section 5 of the NVRA,
which states:
(2) The voter registration application portion
of an application for a State motor vehicle
driver’s license—
(A) may not require any information that
duplicates information required in the
driver’s license portion of the form (other
than a second signature or other
information necessary under
subparagraph (C));
(B) may require only the minimum
amount of information necessary to—
(i)
prevent
duplicate
voter
registrations; and
(ii) enable State election officials to
assess the eligibility of the applicant
and to administer voter registration
and other parts of the election process;
(C) shall include a statement that—
(i) states each eligibility requirement
(including citizenship);

App. 65
(ii) contains an attestation that the
applicant meets each such
requirement; and
(iii) requires the signature of the
applicant, under penalty of perjury
....
52 U.S.C. § 20504(c)(2)(A)–(C).
We read subparagraph (B) as “restricting states’
discretion in creating their own DMV voter-registration
forms” by establishing what we referred to as the
“minimum-information principle.” Fish I, 840 F.3d at
733. The minimum-information principle “establishes
a ceiling on what information the states can require” on
the motor-voter form. Id.; see id. (“Under NVRA section
5, a state motor voter form ‘may require only the
minimum amount of information necessary’ for state
officials to carry out their eligibility-assessment and
registration duties.” (quoting 52 U.S.C.
§ 20504(c)(2)(B))). This principle “calls on states to
include the least possible amount of information
necessary on the motor voter form.” Id. at 736. We also
noted subparagraph (C)’s command to “states to list
qualifications and also to require applicants to attest
that they meet them and to sign the attestation under
penalty of perjury.” Id. Subparagraph (C) “mandates
that states include an attestation requirement” on the
motor-voter form. Id.
Reading subparagraphs (B) and (C) harmoniously,
see FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120, 133 (2000) (“A court must . . . interpret the
statute ‘as a symmetrical and coherent regulatory
scheme,’ and ‘fit, if possible, all parts into an

App. 66
harmonious whole.’” (citations omitted) (first quoting
Gustafson v. Alloyd Co., 513 U.S. 561, 569 (1995); then
quoting FTC v. Mandel Bros., Inc., 359 U.S. 385, 389
(1959))), we concluded that “section 5 is reasonably
read to establish [subparagraph (C)’s] attestation
requirement as the presumptive minimum amount of
information necessary for a state to carry out its
eligibility-assessment and registration duties [under
subparagraph (B)],” Fish I, 840 F.3d at 737; id. at
737–38 (inferring “from the statutory structure that
Congress contemplated that the attestation
requirement would be regularly used and would
typically constitute the minimum amount of
information necessary for state officials to carry out
their eligibility-assessment and registration duties”).
While subparagraph (C)’s attestation requirement
provides the presumptive minimum amount of
information necessary for a state to carry out its
subparagraph (B) duties, we “recognize[d] that in a
given case [the attestation requirement] may not be
sufficient for a state to carry out its eligibilityassessment and registration duties.” Id. at 737.
“[W]hether the attestation requirement actually
satisfies the minimum-information principle in a given
case turns on the factual question of whether the
attestation requirement is sufficient for a state to carry
out these duties.” Id. at 738. Thus, “in order for a state
advocating for a DPOC regime to rebut the
presumption that the attestation requirement is the
minimum information necessary for it to carry out its
eligibility-assessment and registration duties, it must
make a factual showing that the attestation
requirement is insufficient for these purposes.” Id.

App. 67
“More specifically, in order to rebut the presumption as
it relates to the citizenship criterion, we interpret[ed]
the NVRA as obliging a state to show that ‘a
substantial number of noncitizens have successfully
registered’ notwithstanding the attestation
requirement.” Id. at 739 (quoting EAC, 772 F.3d at
1198). And so we observed that “if Kansas fails to rebut
this presumption that attends the attestation regime,
then DPOC necessarily requires more information than
federal law presumes necessary for state officials to
meet their eligibility-assessment and registration
duties (that is, the attestation requirement).” Id. In
that circumstance, “Kansas’s DPOC law would be
preempted.” Id.
Finally, we then applied this preemption framework
and concluded that the Secretary had failed to
demonstrate that a substantial number of noncitizens
had successfully registered. Id. at 747–48. In
particular, the Secretary had only shown that between
2003 and 2013 “thirty noncitizens registered to vote.”
Id. at 746. “These numbers [fell] well short of the
showing necessary to rebut the presumption that
attestation constitutes the minimum amount of
information necessary for Kansas to carry out its
eligibility-assessment and registration duties.” Id. at
747. Thus, we concluded that the plaintiffs’ challenge
was likely to succeed on the merits. Id. at 750–51. We
then concluded that the district court did not err in
holding that the remaining preliminary-injunction
factors also favored a preliminary injunction, and thus
affirmed the district court’s grant of a preliminary
injunction. Id. at 751–56. However, we acknowledged
that if, on remand, “evidence comes to light that a

App. 68
substantial number of noncitizens have registered to
vote in Kansas during a relevant time period, inquiry
into whether DPOC is the minimum amount of
information necessary for Kansas to carry out its
eligibility-assessment and registration duties would
then be appropriate.” Id. at 750–51. In other words,
while the Secretary had not demonstrated that a
substantial number of noncitizens had registered to
vote at the preliminary-injunction stage of the
litigation, we left open the possibility that he would be
able to make that showing at a trial on the merits. As
noted, however, the district court subsequently
concluded that the Secretary failed to make that
showing.
2. The Fish I Framework Governs
We conclude that the Fish I framework governs our
inquiry into whether section 5 of the NVRA preempts
Kansas’s DPOC requirement. However, the Secretary
argues against this conclusion, claiming that Fish I “is
not binding on this panel” and that we should
reevaluate the Fish I framework. Aplt.’s Opening Br. at
18, 41–42. Thus, before we turn to evaluating whether
the Secretary has demonstrated that a substantial
number of noncitizens registered to vote, we explain
why, under the law-of-the-case doctrine, Fish I’s legal
determinations are the law of the case.
The law-of-the-case doctrine provides that, “when a
court rules on an issue of law, the ruling ‘should
continue to govern the same issues in subsequent
stages in the same case.’” Bishop v. Smith, 760 F.3d
1070, 1082 (10th Cir. 2014) (quoting United States v.
Graham, 704 F.3d 1275, 1278 (10th Cir. 2013)); accord

App. 69
Arizona v. California, 460 U.S. 605, 618 (1983). “Under
this doctrine, ‘the decision of the appellate court
establishes the law of the case and ordinarily will be
followed by both the trial court on remand and the
appellate court in any subsequent appeal.’” Cressman
v. Thompson, 798 F.3d 938, 946 (10th Cir. 2015)
(quoting Zinna v. Congrove, 755 F.3d 1177, 1182 (10th
Cir. 2014)). The doctrine serves “important” functions.
Entek GRB, LLC v. Stull Ranches, LLC, 840 F.3d 1239,
1240 (10th Cir. 2016). “Without something like it, an
adverse judicial decision would become little more than
an invitation to take a mulligan, encouraging lawyers
and litigants alike to believe that if at first you don’t
succeed, just try again.” Id.; see also 18B CHARLES
ALAN WRIGHT ET AL., FEDERAL PRACTICE & PROCEDURE
§ 4478, Westlaw (2d ed., database updated Apr. 2020)
(“Law-of-the-case rules have developed to maintain
consistency and avoid reconsideration of matters once
decided during the course of a single continuing
lawsuit.”).
However, despite its importance, “the decision
whether to apply law of the case doctrine remains a
matter of judicial discretion.” Entek GRB, 840 F.3d at
1242; see Rimbert v. Eli Lilly & Co., 647 F.3d 1247,
1251 (10th Cir. 2011) (“This doctrine is designed to
promote finality and prevent re-litigation of previously
decided issues, but does not serve to limit a court’s
power.”). “Although the law of the case doctrine is not
a limit on our power, nor ‘an inexorable command,’”
United States v. Irving, 665 F.3d 1184, 1192 (10th Cir.
2011) (citations omitted) (quoting United States v.
Alvarez, 142 F.3d 1243, 1247 (10th Cir. 1998)), it “is
subject to very limited exceptions,” id. In particular,

App. 70
“[w]e will only deviate from the law of the case ‘(1)
when the evidence in a subsequent trial is
substantially different; (2) when controlling authority
has subsequently made a contrary decision of the law
applicable to such issues; or (3) when the decision was
clearly erroneous and would work a manifest
injustice.’” Cressman, 798 F.3d at 946 (quoting Irving,
665 F.3d at 1192 n.12); accord United States v. Trent,
884 F.3d 985, 995 (10th Cir. 2018).
In light of all this, it is clear that, at least
ordinarily, a panel of our court would follow any
rulings made in prior appeals in the same case; thus,
we ordinarily would follow Fish I’s framework. But the
Secretary argues that “Fish I does not bind this panel”
because that opinion was considering a preliminary
injunction while we are now considering the merits.
Aplt.’s Opening Br. at 41–42 (bold-faced font omitted).
His argument relies centrally on Homans v. City of
Albuquerque, 366 F.3d 900 (10th Cir. 2004). In that
case, a two-judge motions panel of this court granted
an emergency motion for a preliminary injunction that
enjoined the relevant law pending review of the merits.
Id. at 903. “In doing so, the motions panel held that
[the plaintiff] established a likelihood of success on the
merits” on his claim that the relevant statute was
unconstitutional. Id. On remand, the district court
stated its own view that the statute was constitutional,
but it nevertheless—under its perceived duty—entered
judgment enjoining enforcement of the statute based on
the motions panel’s ruling. Id. In an appeal of that
order, i.e., a second appeal, we held that the motions
panel’s preliminary ruling was not the law of the case
and thus did not bind the district court’s or our

App. 71
subsequent merits determinations. Id. at 904–05. This
was because “the two judge panel decision of our court
constituted an interlocutory ruling, and its holding was
limited to the conclusion that [the plaintiff] had shown
a likelihood of success on the merits of his claim.” Id. at
904. Furthermore, “[t]o the extent that any language in
[the motions-panel’s decision] c[ould] be read as an
assessment of the actual merits of [the plaintiff’s]
claim, as opposed to his likelihood of success on the
merits, such language [was] dicta” and “not subject to
the law of the case doctrine.” Id. at 904 n.5; see Univ. of
Tex. v. Camenisch, 451 U.S. 390, 395 (1981) (“[T]he
findings of fact and conclusions of law made by a court
granting a preliminary injunction are not binding at
trial on the merits.” (citations omitted)).
The Secretary argues, based on Homans and
Camenisch, that Fish I is not entitled to law-of-the-case
effect. We disagree. As Camenisch indicates, the
normal rule is that “[r]ulings—predictions—as to the
likely outcome on the merits made for preliminary
injunction purposes do not ordinarily establish the law
of the case, whether the ruling is made by a trial court
or by an appellate court.” 18B WRIGHT ET AL., supra, at
§ 4478.5 (footnotes omitted); cf. Attorney Gen. of Okla.
v. Tyson Foods, Inc., 565 F.3d 769, 776 (10th Cir. 2009)
(“In affirming the district court’s denial of a
preliminary injunction, we do not address the
underlying merits of Oklahoma’s ultimate claims at
trial.”). This rule exists because “the court of appeals
must often consider such preliminary relief without the
benefit of a fully developed record and often on briefing
and argument abbreviated or eliminated by time
considerations.” Sherley v. Sebelius, 689 F.3d 776, 782

App. 72
(D.C. Cir. 2012). And so our sister circuits and a
leading treatise agree that “[a] fully considered
appellate ruling on an issue of law made on a
preliminary injunction appeal . . . become[s] the law of
the case for further proceedings in the trial court on
remand and in any subsequent appeal.” 18B WRIGHT ET
AL., supra, at § 4478.5 (emphasis added) (footnote
omitted); see Rodriguez v. Robbins, 804 F.3d 1060,
1080–81 (9th Cir. 2015) (explaining that conclusions on
pure issues of law made during appeal of preliminary
injunction constitute law of the case), rev’d on other
grounds sub nom. Jennings v. Rodriguez, 138 S. Ct. 830
(2018); Howe v. City of Akron, 801 F.3d 718, 740 (6th
Cir. 2015) (collecting cases from other circuits reaching
the conclusion that “when a court reviewing the
propriety of a preliminary injunction issues a fully
considered ruling on an issue of law with the benefit of
a fully developed record, then the conclusions with
respect to the likelihood of success on the merits are
the law of the case in any subsequent appeal”).
Guided by this authority, we note that, in Homans,
the motions panel granted the emergency motion two
days after it was made, and so it made sense there that
we would not afford law-of-the-case effect to the motion
panel’s decision—made, as it was, under (necessarily)
severe time constraints. 366 F.3d at 903. Here,
however, the Fish I panel was able to consider the issue
fully and issue a lengthy opinion discussing pure issues
of law. See Sherley, 689 F.3d at 783 (“The time
constraints and limited record available to the court in
those cases are not present here. We therefore follow
the other circuits in concluding that the exception [to
the law-of-the-case doctrine] is not present either.”).

App. 73
“[W]here the earlier ruling, though on preliminaryinjunction review, was established in a definitive, fully
considered legal decision based on a fully developed
factual record and a decisionmaking process that
included full briefing and argument without unusual
time constraints, why should we not follow the usual
law-of-the-case jurisprudence?” Id. at 782. We, like our
sister circuits, think that it makes eminent sense to
apply the law-of-the-case doctrine in these
circumstances.
Arguing against this conclusion, the Secretary also
cites to the concurring opinion in Prairie Band
Potawatomi Nation v. Wagnon, 402 F.3d 1015, 1029
(10th Cir.) (McConnell, J., concurring), vacated, 546
U.S. 1072 (2005). But the majority opinion in that case
adopted the same position set out above—namely that
an opinion that robustly addresses legal issues at the
preliminary-injunction stage of the litigation will
provide “the district court with the appropriate legal
framework within which to view th[e] case.” Id. at
1020; see id. at 1021 (“In so ruling [on an issue in the
earlier appeal of the preliminary injunction], it would
appear that [the prior ruling] is the law of this case
. . . .”). In responding to the concurring opinion cited by
the Secretary, “we specifically recognized that the
principles of law of the case are flexible,” and so “while
it [wa]s true that we [we]re not bound by Prairie Band
I, it [wa]s not true that ‘the law of the case doctrine
does not apply’ merely because Prairie Band I dealt
with a preliminary injunction.” Id. at 1026 (quoting id.
at 1030 (McConnell, J., concurring)).

App. 74
We think this gets it exactly right: because the Fish
I panel was able to consider the issue fully and issue a
lengthy opinion discussing pure issues of law, we
conclude that the law-of-the-case doctrine applies to
Fish I’s legal conclusions. Of course, this doctrine “does
not serve to limit a court’s power.” Rimbert, 647 F.3d at
1251. And exceptions to the doctrine’s effect exist when
there is new and different evidence, an intervening
change in controlling authority, or the prior ruling was
clearly erroneous and would work a manifest injustice.
Id. But it is undisputed that none of these exceptions
applies here, and thus we adhere to the “thorough and
sound” discussion of the applicable preemption
framework found in our prior opinion, Fish I. Prairie
Band Potawatomi Nation, 402 F.3d at 1026.
In sum, we conclude that Fish I’s preemption
framework is the law of the case.
3. Whether
the
Secretary Presented
Sufficient Evidence to Satisfy Fish I
The Secretary argues that he satisfied the Fish I
framework on remand. But the district court’s factual
findings undermine this argument, and the Secretary’s
remaining arguments turn on his already-rejected view
that Kansas must be afforded “sufficient discretion [for
it] to determine whether the problem of unqualified
voters becoming registered is ‘substantial.’” Aplt.’s
Opening Br. at 57. We thus conclude that the Secretary
has failed to show that a substantial number of
noncitizens registered to vote.
In Fish I, we held that “to overcome the
presumption that attestation constitutes the minimum

App. 75
amount of information necessary for a state to carry
out its eligibility-assessment and registration duties,
the state must show that a substantial number of
noncitizens have successfully registered to vote under
the attestation requirement.” 840 F.3d at 739. At that
stage, “[t]he district court found that between 2003 and
the effective date of Kansas’s DPOC law in 2013, only
thirty noncitizens registered to vote,” and we concluded
that “[t]hese numbers [fell] well short of the showing
necessary to rebut the presumption that attestation
constitutes the minimum amount of information
necessary for Kansas to carry out its eligibilityassessment and registration duties.” Id. at 746–47. But
we acknowledged that “[i]f evidence comes to light that
a substantial number of noncitizens have registered to
vote in Kansas during a relevant time period, inquiry
into whether DPOC is the minimum amount of
information necessary for Kansas to carry out its
eligibility-assessment and registration duties would
then be appropriate.” Id. at 750–51. Thus, to overcome
the presumption that the attestation requirement
satisfies the minimum-information principle, the
Secretary needed to provide greater evidence of
noncitizens registering to vote.
But, at the trial on the merits, the district court
found that only 39 noncitizens “successfully registered
to vote despite the attestation requirement.” Aplt.’s
App., Vol. 47, at 11472; see id. at 11508. Yet recall that,
even as to those 39 noncitizens who appear on the
Kansas voter rolls, the district court effectively found
that “administrative anomalies” could account for the
presence of many—or perhaps even most—of them
there. Id. at 11520. In other words, even the figure of

App. 76
39 registered noncitizens could be more the product of
such anomalies than of the voluntary registration
actions of noncitizens in the face of the attestation
requirement. But, accepting that figure at face value,
the confirmed noncitizens who successfully registered
to vote from 1999 to 2013 was equivalent to less than
three noncitizen voters a year. In Fish I we concluded
that the 30 noncitizens who had registered to vote
between 2003 and 2013—which also equated to “no
more than three per year”—were “well short” of
“substantial.” 840 F.3d at 746–47. Following Fish I’s
guidance, we reach a similar conclusion here.
Specifically, we conclude that the addition of nine
voters spread over four more years means that the
Secretary has still failed to demonstrate that
substantial numbers of noncitizens successfully
registered to vote notwithstanding the attestation
requirement. Thus, we conclude that the Secretary has
failed to rebut the presumption that the attestation
requirement satisfies the minimum-information
principle.
The Secretary does not argue that the district
court’s factual findings concerning the number of
noncitizens who registered to vote were clearly
erroneous. Nevertheless, he references statements
made in the legislative record by certain legislators
who believed noncitizens had registered to vote, cites a
letter from a court clerk asserting that employees of a
hog farm “were transported to [the county clerk’s] office
by their employer to register to vote” and that “some of
these employees felt they were pressured to register
even though they may not be legal,” Aplt.’s App., Vol.
30, at 7668, and notes possible instances of noncitizens

App. 77
registering to vote, including one where a citizen told
Kansas officials that she had voted before becoming a
citizen, see Aplt.’s Opening Br. at 57–58 (citing Aplt.’s
App., Vol. 38, at 9460–65, 9522–23). But because the
Secretary does not directly contest the district court’s
factual findings about how many noncitizens registered
to vote, he may not wage a guerilla war on the district
court’s factual findings through these ad hoc, anecdotal
references to other purported incidents of noncitizen
registration. This evidence does not establish that
substantial numbers of noncitizens registered to vote.
The Secretary also cites to two cases from the
Seventh Circuit that identified individual noncitizens
who registered to vote using motor-voter forms, see
Kimani v. Holder, 695 F.3d 666, 668, 671 (7th Cir.
2012); Keathley v. Holder, 696 F.3d 644, 645 (7th Cir.
2012), and provides a citation to an internet story
about another noncitizen whom Illinois officials
registered to vote, see Aplt.’s Opening Br. at 58–60.
These anecdotes, even were we to consider them, do not
establish that “substantial” numbers of noncitizens
registered to vote in Kansas during a relevant time
period and thus are not pertinent to the registration of
noncitizen voters in Kansas. See Aplee.’s Resp. Br. at
37. This showing thus cannot satisfy the Secretary’s
burden.
The Secretary falls back on arguing that “[t]he
elected representatives of the people of the State of
Kansas determined that requiring proof of citizenship
as a condition of voter eligibility was a permissible
response to the threat posed by voter fraud.” Aplt.’s
Opening Br. at 57. But this is just an argument that

App. 78
states should be able to determine what
§ 20504(c)(2)(B)’s term “necessary” means—an
argument that we expressly rejected in Fish I. See 840
F.3d at 743 (noting that “the Supreme Court in Inter
Tribal rejected such an understanding of federal
election regulation and confirmed that the NVRA’s
plain language evinces Congress’s intent to restrain the
regulatory discretion of the states over federal
elections, not to give them free rein”).
Moreover, the Secretary relatedly argues that the
attestation requirement does not provide the minimum
information necessary if even one noncitizen registers
to vote because even a small number of noncitizens
registered to vote could be “determinative” in certain
close elections. Aplt.’s Opening Br. at 60 (pointing to
various close elections in Kansas between 2000 and
2016, including 33 elections decided by fewer than 100
votes and one that was tied (citing Aplt.’s App., Vol. 27,
at 6938; id., Vol. 39, at 9765–69)); see Aplt.’s Reply Br.
at 33–34. But we rejected this argument in Fish I: “The
NVRA does not require the least amount of information
necessary to prevent even a single noncitizen from
voting.” 840 F.3d at 748. As we explained there,
“Congress adopted the NVRA to ensure that whatever
else the states do, ‘simple means of registering to vote
in federal elections will be available.’” Id. (quoting Inter
Tribal, 570 U.S. at 12). “This purpose would be
thwarted if a single noncitizen’s registration would be
sufficient to cause the rejection of the attestation
regime.” Id. The Secretary provides no reason here to
deviate from that conclusion, and, for that reason
alone, we could reject his argument. And, furthermore,
if the Secretary is correct that Kansas’s recent history

App. 79
is sprinkled with some hotly contested, close elections
such that he reasonably could have an especially keen
interest in ensuring that every proper vote counts, we
are hard-pressed to see how that interest is furthered
by the DPOC law—a law that undisputedly has
disenfranchised approximately 30,000 would-be Kansas
voters who presumably would otherwise have been
eligible to vote in such close elections. Indeed, the
DPOC law would appear to undercut, rather than
further, the Secretary’s professed interest in ensuring
that every proper vote counts.
Finally, the Secretary argues that “even if there
were no widespread problem of voter fraud in Kansas,
the Supreme Court has recognized that the States can
proactively fight against the prospect of fraud.” Aplt.’s
Opening Br. at 61. To make this point, he cites to
Justice Stevens’s discussion in Crawford of Indiana’s
undisputed interest in preventing voter fraud even
though “[t]he record contain[ed] no evidence of any
such fraud actually occurring in Indiana at any time in
its history.” 553 U.S. at 194. But this interest was
asserted in an entirely different context: Justice
Stevens was analyzing a constitutional challenge in a
case where the relevant law only imposed a limited
burden on voters. Id. at 202–03. He said nothing about
the evidentiary burden required to displace the
statutory presumption created by section 5 of the
NVRA and thus the citation is inapt.

App. 80
In short, we conclude that the Secretary has failed
to show that a substantial number of noncitizens
successfully registered to vote.11
***
The Secretary has failed to show that a substantial
number of noncitizens have successfully registered in
Kansas notwithstanding section 5 of the NVRA’s
attestation requirement. Thus, the DPOC requirement
necessarily requires more information than federal law
presumes necessary for state officials to meet their
eligibility-assessment and registration duties. And so
we conclude that Kansas’s DPOC law is preempted by
section 5 of the NVRA. We uphold the district court’s
entry of a permanent injunction against the
enforcement of the DPOC requirement as to the those
voters who sought to register under section 5 of the
NVRA.
IV. Conclusion
In Bednasek, No. 18-3134, we conclude the DPOC
requirement unconstitutionally burdens the right to
vote and thus AFFIRM the district court’s injunction.
Likewise, in Fish, No. 18-3133, we AFFIRM the
district court’s injunction because section 5 of the
NVRA preempts the DPOC requirement.

11

We do not reach the district court’s separate analysis concerning
whether—if the number of noncitizen voters here did count as
substantial—the DPOC requirement nevertheless satisfied the
minimum-information principle.

App. 81

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
Case No. 16-2105-JAR-JPO
[Filed June 18, 2018]
________________________________
STEVEN WAYNE FISH, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
KRIS KOBACH, in his official
)
capacity as Secretary of State for )
the State of Kansas,
)
)
Defendant.
)
________________________________ )
Case No. 15-9300-JAR-JPO
________________________________
PARKER BEDNASEK,
)
)
Plaintiffs,
)
)
v.
)
)
KRIS KOBACH, in his official
)
capacity as Secretary of State for )

App. 82
the State of Kansas,

)
)
Defendant.
)
________________________________ )
CASES CONSOLIDATED FOR TRIAL
FINDINGS OF FACT AND CONCLUSIONS
OF LAW
To register to vote, one must be a United States
citizen. The Kansas legislature passed the Secure and
Fair Elections (“SAFE”) Act in 2011, which included a
new requirement that Kansans must produce
documentary proof of citizenship (“DPOC”) when
applying to register to vote. These cases were
consolidated for trial because they both challenge the
DPOC law as a method for enforcing the citizenship
qualification. In Case No. 16-2105, the Fish Plaintiffs
challenge the law as it applies to “motor voter”
applicants—individuals who apply to register to vote at
the same time they apply for or renew their driver’s
license online or at a Division of Motor Vehicles
(“DOV”) office. Plaintiffs include the Kansas League of
Women Voters, as well as several Kansas residents
who applied to register to vote when applying for a
driver’s license, but were denied voter registration for
failure to submit DPOC. One claim remained for trial
in that case alleging that under the Election Clause in
Article 1 of the United States Constitution, the Kansas
DPOC law is preempted by § 5 of the National Voter
Registration Act (“NVRA”), which provides that voter
registration applications may only require the
minimum amount of information necessary for a State

App. 83
to determine applicants’ eligibility to register to vote,
and to perform its registration duties.
In Case No. 15-9300, Plaintiff Parker Bednasek
challenges the DPOC law on constitutional grounds.
His remaining claim for trial is brought under 42
U.S.C. § 1983, based on a violation of the right to vote
under the Fourteenth Amendment’s Equal Protection
Clause.1 Mr. Bednasek’s claim is not limited to motorvoter applicants.
The seven-day bench trial in these matters
concluded on March 19, 2018. After hearing and
carefully considering the evidence presented by the
parties at trial, this Court first resolves the remaining
motions by Plaintiffs to exclude expert testimony, and
next issues its Findings of Fact and Conclusions of Law
under Fed. R. Civ. P. 52(a). As explained more fully
below, the Court grants in part and denies in part the
motion to exclude Dr. Steven Camarota, and grants the
motion to exclude Patrick McFerron. Under the test set
forth by the Tenth Circuit Court of Appeals that
governs whether the DPOC law violates § 5 of the
NVRA, the Court finds in favor of Plaintiffs in the Fish
case. The Court further finds in favor of Plaintiff
Bednasek on his constitutional challenge to the law.
Declaratory and injunctive relief is granted in both
matters as set forth in this opinion. Further, the Court
imposes specific compliance measures given
Defendant’s history of non-compliance with this Court’s

1

The docket numbers referenced throughout this opinion are to the
Fish matter, Case. No. 16-2105. References to documents filed in
the Bednasek case will be preceded by that Plaintiff’s last name.

App. 84
orders. And, the Court imposes sanctions responsive to
Defendant’s repeated and flagrant violations of
discovery and disclosure rules.
I. Motions to Exclude Defense Experts Camarota
and McFerron
The parties filed several motions to exclude expert
testimony before trial. The Court orally ruled on all but
two: Plaintiffs’ written Motion to Exclude the
Testimony and Report of Steven A. Camarota,2 and
Plaintiffs’ oral and written motion to exclude the expert
testimony of Patrick McFerron under Rule 702,
Daubert, and the rule against hearsay.3 These experts
were offered by Defendant in both cases. The Court
discusses each in turn after setting forth the
appropriate legal standards.
A. Standards
The Court has broad discretion in deciding whether
to admit expert testimony.4 The proponent of expert
testimony must show “a grounding in the methods and
procedures of science which must be based on actual
knowledge and not subjective belief or unaccepted
speculation.”5 First, the Court must determine whether

2

Doc. 429.

3

Doc. 460; Bednasek Doc. 183.

4

Kieffer v. Weston Land, Inc., 90 F.3d 1496, 1499 (10th Cir. 1996)
(quoting Orth v. Emerson Elec. Co., White Rodgers Div., 980 F.2d
632, 637 (10th Cir. 1992)).

5

Mitchell v. Gencorp Inc., 165 F.3d 778, 780 (10th Cir. 1999).

App. 85
the expert is “qualified by ‘knowledge, skill, experience,
training, or education’ to render an opinion.”6 “[A]
district court must [next] determine if the expert’s
proffered testimony . . . has ‘a reliable basis in the
knowledge and experience of his discipline.’”7 To
determine reliability, the court must assess “whether
the reasoning or methodology underlying the testimony
is scientifically valid.”8 The district court must further
inquire into whether the proposed testimony is
sufficiently “relevant to the task at hand.”9
It is within the discretion of the trial court to
determine how to perform its gatekeeping function
under Daubert.10 The most common method for
fulfilling this function is a Daubert hearing, although
such a process is not specifically mandated.11 In this
case, the parties proffered each experts’ testimony,

6

Milne v. USA Cycling, Inc., 575 F.3d 1120, 1133 (10th Cir. 2009)
(quoting Ralston v. Smith & Nephew Richards, Inc., 275 F.3d 965,
969 (10th Cir. 2001)).

7

Norris v. Baxter Healthcare Corp., 397 F.3d 878, 884 (10th Cir.
2005) (quoting Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579,
592 (1993)).
8

BG Tech., Inc. v. Ensil Int’l Corp., 464 F. App’x 689, 703 (10th
Cir. 2012).

9

Daubert, 509 U.S. at 597.

10

Goebel v. Denver & Rio Grande W. R.R., 215 F.3d 1083, 1087
(10th Cir. 2000).
11

Id.

App. 86
which the Court provisionally admitted subject to later
review under Rule 702 and Daubert.
B. Steven A. Camarota
Defendant called Dr. Camarota to testify about the
impact of the Kansas DPOC law on voter registration
and participation rates. Specifically, Defendant offered
Dr. Camarota “as an expert . . . in the fields of
demography, census data, voter registration statistics,
and voter participation statistics.”12 Dr. Camarota
earned a Ph.D. in American Government with a focus
on policy analysis from the University of Virginia. He
is currently the Director of Research at the Center for
Immigration Studies (“CIS”), where his primary
responsibility for the last nineteen years has been to
analyze United States Census Bureau data. In this
position, he helped construct the American Community
Survey, which is a large annual survey conducted by
the Census Bureau that includes questions about
citizenship and voting. Dr. Camarota has also
published peer-reviewed articles and book chapters
about census data relating to immigration issues, but
not on any issue related to voting. He has served as a
peer reviewer for several scholarly journals. Dr.
Camarota has published many non-peer-reviewed
conference papers and reports for the Census Bureau
and CIS, and he has testified before Congress several
times about Census Bureau Data, mostly as it relates
to immigration issues.

12

Doc. 510, Trial Tr. at 1264:5–8.

App. 87
In his report and testimony, Dr. Camarota looked at
Kansas administrative data provided by the SOS’s
Office, and data from the Current Population Survey
(“CPS”), a large Census Bureau survey that asks about
registration and voting in November of every other
year when federal elections are held. Dr. Camarota
observed that the administrative data showed an
increase in registration and turnout between October
2010 and October 2014. Dr. Camarota then compared
registration and voting rates in Kansas between
November 2010 and November 2014, before and after
the effective date of the DPOC law, based on the CPS
data. Dr. Camarota also compared the Kansas
registration and turnout rates to those rates nationally,
and in neighboring states without DPOC laws, and
found that there was no significant deviation. Dr.
Camarota opined that because registration and turnout
rates in Kansas increased between 2010 and 2014, the
DPOC law did not unduly burden Kansans’ ability to
register and vote.
The Court finds that Dr. Camarota is qualified to
testify as an expert in this case about Census Bureau
data, including the CPS. His education and work
experience qualify him to explain and present this
Census data. However, the Court does not find him
qualified to interpret these survey results as they
relate to the DPOC law, particularly to the extent he
challenges Professor Michael McDonald, whose
expertise and scholarship in election law is extensive,
and who more closely evaluated the administrative
data. Dr. Camarota’s experience at CIS is limited to
scholarship and reports that generally deal with
immigration and citizenship issues, not election issues

App. 88
such as voter registration. He has never published
peer-reviewed research on the subjects relevant to this
litigation, nor do his non-peer-reviewed articles contain
analysis of the issues relevant to this case. To the
extent Defendant offers Dr. Camarota as an expert on
“voter registration statistics, and voter participation
rates” beyond presenting Census Bureau data, that
opinion is excluded. Dr. Camarota is qualified as an
expert to explain the results of CPS data showing voter
registration and turnout changes in Kansas between
2010 and 2014. And he is certainly qualified to explain
how the CPS data was collected and whether it is
reliable. But Dr. Camarota is not qualified to explain
the reasons for the change in data between 2010 and
2014, or to insert assumptions into the record based on
studies or academic literature regarding voter
registration and turnout. These are not his areas of
expertise.
The limitations of Dr. Camarota’s expertise in this
field were similarly evident in the recent NVRA case of
Bellitto v. Snipes.13 There, the district court initially
limited his testimony because he was not qualified to
“offer testimony as to the degree of accuracy of . . .
rates [of voter registration from the Census Bureau’s
American Community Survey].”14 That case went to
trial and the district court issued its findings of fact
and conclusions of law after this trial concluded, on
March 30, 2018. In that order, the court found Dr.

13

Case No. –F. Supp. 3d–, 2017 WL 2972837, at *9 (S.D. Fla. July
12, 2017).
14

Id.

App. 89
Camarota’s population analysis to be misleading and
inaccurate by comparing mismatched data.15
Plaintiffs further challenge the reliability of Dr.
Camarota’s opinions in this matter on several grounds:
(1) he fails to control for confounding factors, such as
general interest in the election, whether an advocacy
group took an interest in the election, get-out-the vote
efforts, competitiveness of the election, laws governing
registration, education levels, ethnicity, age, and
natural population growth; (2) the choice to compare
non-presidential election year data fails to account for
any change that may be due to the DPOC law as
opposed to other factors; (3) he relied on and cherrypicked flawed statistical data from the SOS’s Office;
and (4) he relied on conclusory assumptions, such as
that some noncitizens mistakenly believe they are
citizens when they register to vote.16 Plaintiffs also
point to evidence of Dr. Camarota’s bias based on
public positions taken by CIS, and based on statements
made by executives at CIS. Defendant maintains that
these issues go to the weight and not the admissibility
of the evidence.

15

Case. No. 16-61474, slip. op. at 18–20 (S.D. Fla. Mar. 30, 2018),
ECF No. 244.
16

Dr. Stephen Ansolabehere, Plaintiffs’ rebuttal expert whose
opinions are discussed in the Court’s findings of fact, found that
some citizens mistakenly report that they are noncitizens on
another survey, the CCES. In contrast to Dr. Camarota’s
conclusory assumption, this opinion was supported by empirical
research, and rendered by the chief architect of the CCES survey.

App. 90
The Court agrees with Defendant that Plaintiffs’
reliability challenges largely go to the weight and not
the admissibility of Dr. Camarota’s report and
testimony, to the extent the testimony relates to his
area of expertise. As described below in its findings of
fact and conclusions of law, the Court does not credit
Dr. Camarota’s opinion that: (1) CPS data about
registration and turnout is a better measure of
registration and turnout than the actual numbers
maintained by the SOS’s Office; (2) comparing election
years 2010 and 2014 is an accurate measure for
determining how the SAFE Act impacted registration
and voting rates; (3) that election years 2010 and 2014
in Kansas are comparable to one another, or to other
states; and (4) registration rates and voter turnout is
the best measure of how burdensome the DPOC law is.
The Court therefore grants in part and denies in part
Plaintiffs’ motion to exclude Dr. Camarota’s testimony.
As to the Census Bureau data described in Dr.
Camarota’s report, the Court gives it little weight in
determining the overall burdensomeness of the DPOC
law, as described in the Court’s findings of fact and
conclusions of law.
C. Patrick McFerron
In May 2016, Patrick McFerron conducted a
telephone survey of 500 Kansans by CHS & Associates
to help determine the rates of possession of DPOC. The
survey purports to control “for gender, age, and
geographic region in order to replicate US Census
information.”17 The executive summary of the survey
17

Ex. 863 at 1.

App. 91
concludes that it “reveals requiring proof of citizenship
in order to register to vote is not a concern for residents
and is not hampering voter registration.”18 The study
surveyed a sample of 500 Kansans, and found 83% are
registered to vote. Of those not registered, only one
reported that lack of DPOC was the reason.
Mr. McFerron drafted the survey results, but did
not complete his own expert report, nor was he ever
designated as an expert in this case. Instead, Hans von
Spakovsky, one of Defendant’s other experts, attached
it to his expert report. Mr. McFerron is listed on the
executive summary as the President of CHS &
Associates, which is in Oklahoma City, Oklahoma.
Plaintiffs deposed him on June 7, 2016, during which
Plaintiffs’ counsel asked him whether he purported to
testify as an expert in this case, and he testified that he
did not believe so. Mr. McFerron testified about the
survey, its methodology, and its results. On January
30, 2018, Defendant filed his final witness
disclosures,19 listing Mr. McFerron as a fact witness by
written deposition.
Plaintiffs moved in limine to exclude McFerron’s
testimony, strike and exclude from trial his deposition
designations, and exclude his survey. They argued that
his testimony is inadmissible lay opinion, that it should
be excluded as expert opinion because it was not
disclosed under Rule 26(a)(2), and Defendant’s failure
to disclose was neither harmless nor substantially

18

Id.

19

Docs. 443–44.

App. 92
justified. The Court ruled that McFerron’s testimony
was not lay opinion, and as a sanction for failing to
designate him as an expert witness, the Court required
him to testify at trial as a live witness instead of by
deposition. The Court took under advisement Plaintiffs’
motion to exclude as inadmissible hearsay, and at trial,
Plaintiffs also moved to exclude the survey under Rule
702 and Daubert. The Court provisionally admitted his
testimony, subject to a later admissibility ruling.20
Defendant vacillated at trial between offering Mr.
McFerron as a fact and expert witness, despite the
Court’s ruling that his testimony was not admissible
lay opinion. Mr. McFerron testified for the first time on
cross-examination that he was paid an hourly rate of
$100 per hour for research, and $150 per hour for his
testimony based on an agreement reached with
Defendant two weeks before trial that was not
previously disclosed to Plaintiffs.21 This fact, in
conjunction with the nature of Mr. McFerron’s
substantive testimony, reinforces this Court’s previous
ruling that he is clearly offered as an expert witness.22
He testified not only about the methodology of his
survey, but about its accuracy and conclusions,
including that the DPOC law is not burdensome
because most Kansans possess DPOC, or can obtain it
easily. Mr. McFerron’s testimony illustrates the

20

Doc. 480.

21

Defendant previously disclosed only the $9,000 fee for conducting
the survey.
22

See Doc. 480.

App. 93
prejudice involved in allowing an expert to testify
without first meeting the requirements of Rule
26(a)(2)(B). Mr. McFerron’s “Report” contains a twopage summary of the survey’s results; it does not
contain a statement of his compensation, qualifications,
or a list of all publications he has either authored or coauthored in the last ten years. He did not sign the
report. In fact, Mr. McFerron admitted during his
testimony that he was not sure whether he was being
paid to testify as a fact or expert witness.
The Court has already excluded Mr. McFerron’s
testimony to the extent Defendant offers it as lay
opinion. With respect to the admissibility of Mr.
McFerron’s expert testimony, the Court grants
Plaintiffs’ motion to exclude because he is not qualified
to render the opinion contained in the report’s
summary, and because his survey is unreliable and not
relevant. Also, because it fails to adhere to generally
accepted survey principles, the survey lacks the indicia
of trustworthiness required for survey evidence to meet
an exception to the hearsay rule.
1. Qualifications
Plaintiffs argue that Mr. McFerron is not qualified
to provide expert testimony on the subject matter of his
survey because he is a pollster, and not a trained
statistician. The Court agrees. It is true that
McFerron’s qualifications are based on his experience,
and not an academic background in statistics. It is also
true that Mr. McFerron has spoken to numerous
university classes regarding polling, and that the firm
he works for conducts approximately 50 to 70 public
opinion surveys in any given year. Mr. McFerron has

App. 94
conducted approximately 15 to 20 polls in Kansas since
1993. But, as Plaintiffs point out, Mr. McFerron only
took one statistics course as an undergraduate and one
while he was studying for his master’s degree, though
he cannot recall the name of the graduate statistics
course. Mr. McFerron has never written a peerreviewed article, nor has he ever served as a peer
reviewer for a journal. Mr. McFerron has not published
anything on survey methodology or polling
methodology. At the time of deposition, Mr. McFerron
was not familiar with the American Association of
Public Opinion Research, nor other standard survey
research principles described by Dr. Matthew Barreto,
Plaintiffs’ rebuttal expert. He is unfamiliar with the
basic concept of social desirability bias leading to
overreporting in survey research, a concept that applies
to surveys concerning voter registration and voting, or
that asks if one possesses an underlying document
deemed socially important.23 Notably, Mr. McFerron

23

See Doc. 513, Trial Tr. at 1847:18–1850–13 (Dr. Hersh
explaining that “[s]ocial desirability bias is when someone does
something in a study because it’s either socially desirable outside
of the context of the study or socially desirable inside the context
of the study,” and discussing studies showing an overreporting bias
for voter registration and voting); Doc. 515, Trial Tr. at
2074:11–2077:20 (Dr. Barreto describing best practices in survey
research and explaining extensive political science literature
recognizing over-reporting when a question is worded in such a
way that suggests a particular answer that people socially desire,
especially those dealing with important “underlying documents”);
see also Ex. 102 ¶25–26 (explaining with citations that “lengthy
academic literature on registration and voting has noted that
people substantially over-report registration and turnout, and that
considerable caution should be drawn from survey data that

App. 95
has never previously testified as an expert witness.
While an academic background is not required to
testify as an expert witness, the expert testimony in
this case requires a background in survey methodology
that Mr. McFerron does not have. In sum, while the
Court finds that Mr. McFerron obviously is an
experienced pollster, particularly in the Midwest, he is
not qualified to render an expert opinion about the
accuracy of the results of this study about DPOC
possession under well-accepted survey principles.
2. Reliability and Trustworthiness
Survey evidence is admissible in this circuit as an
exception to the hearsay rule “if the survey is material,
more probative on the issue than other evidence and if
it has guarantees of trustworthiness.”24 The Court will
find a survey trustworthy “if it is shown to have been
conducted according to generally accepted survey
principles.”25 Therefore, the survey standards for
reliability under Daubert and trustworthiness under
the hearsay exception are parallel. Assuming Mr.
McFerron is qualified to render an expert opinion about
the survey’s methodology and the accuracy of the
conclusions stated in the report’s summary, the survey
must be excluded because Plaintiffs established during

purport to measure registration based on self-reports of survey
respondents as to their registration status.”).
24

Id. (quoting Brunswick Corp. v. Spirit Reel Co., 832 F.2d 513,
522 (10th Cir. 1987)).
25

Id.

App. 96
Mr. McFerron’s cross-examination, and with their
rebuttal expert Dr. Matthew Barreto, that the survey
relies on flawed methodology and is thus unreliable
and untrustworthy for several reasons.
The Court finds Dr. Barreto credible and qualified
to discuss accepted survey methodology.26 He explained
the myriad flaws with the McFerron Survey that
render it inadmissible under Rule 702, Daubert, and
the rule against hearsay. First, the McFerron Survey
does not contain a large enough sample for reliable
estimates about individuals who might be burdened by
the DPOC requirement. The survey targeted eligible
Kansas voters generally, rather than the pool of
individuals who are subject to the DPOC requirement:
eligible Kansas voters who are not yet registered to
vote. The McFerron Survey contained a sample of only
65 individuals who were not yet registered to vote.27

26

Dr. Barreto is a Professor of Political Science in Chicano Studies
at the University of California, Los Angeles. He has taught several
classes on research methodology and survey methodologies, as well
as classes on statistical analysis. He has authored four books and
about 60 articles and book chapters—all of which were subject to
peer review. He is also the co-founder of the research and polling
firm Latino Decisions. He has testified extensively as an expert
witness in the areas of survey research, specifically as it applies to
voting rights issues. See Ex. 137.
27

This flaw also severely limits the probative value of the
McFerron Survey. The DPOC law became effective on January 1,
2013. K.S.A. § 25-2309(u) (repealed 2016). A person already
registered to vote on the Act’s effective date is not required to
submit evidence of citizenship. Id. § 25-2309(n). Defendant later
promulgated K.A.R. § 7-23-14(c), which provides that “[a]
registered voter who has previously provided sufficient evidence of

App. 97
This is substantially less than the sample size of
300–500 people that Mr. McFerron himself testified
would be necessary for reliable statistical results at the
statewide level.
Second, the sample of 500 Kansas adults in the
McFerron Survey was not a representative sample of
the entire eligible voting population. The “most
important and single first principle” one considers in a
survey is whether the survey sample is representative
of the population as a whole.28 But the McFerron
Survey did not look at respondents’ educational
attainment, household income categories, and
homeownership or renter status to ensure
representativeness. Moreover, as Mr. McFerron
admitted during his testimony, surveys typically use
weights to achieve a representative sample, yet he
relied on a quota-based approach. He acknowledged
that academic literature for decades has discredited
quotas, but believes that criticism is outdated because
it was based on the prevalent use of landlines to
conduct surveys, which does not pose a concern today.
He could provide no citation to authority that
contradicted Dr. Barreto’s strongly-cited opinion that
generally accepted survey methodology relies on
weighting, and not quotas. Indeed, the results of Mr.
United States citizenship with a voter registration application in
this state shall not be required to resubmit evidence of United
States citizenship with any subsequent voter registration
application.” Therefore, the burden at issue in this case is not on
Kansans who are already registered to vote, but on those who were
not registered before January 1, 2013.
28

Doc. 515, Trial Tr. at 2057:12–2058:1.

App. 98
McFerron’s survey, which substantially differ from the
Census Bureau data relied on by Dr. Camarota,
illustrates the problems with Mr. McFerron’s approach.
For example, Mr. McFerron reported in his survey that
39% of households had incomes below $50,000, while
the Census data shows that this figure is 48%.
Third, the McFerron Survey was only conducted
over a three-day period in the evening hours between
a Monday and a Wednesday. This sampling schedule
precluded participation from individuals who, due to
their work schedule, may not have been available
during those limited days and hours. This practice
violated the norms of survey research.
Fourth, when reporting his survey results, Mr.
McFerron did not include a response rate, which makes
it impossible to assess the reliability and the
generalizability of the data collected. As another
district court explained, “[n]on-response bias typically
becomes a concern when the response rate falls below
eighty percent. Response rates below that point—even
far below that point—are commonplace and do not
necessarily invalidate a survey, but they do require an
analysis as to the reasons for the nonresponses and the
effect they may have on the results.”29 Here, Mr.
McFerron has provided no response rate to evaluate.

29

Hostetler v. Johnson Controls, Inc., No. 15-CV-226 JD, 2016 WL
3662263, at *13 (N.D. Ind. July 11, 2016) (citing David H. Kaye &
David Freeman, Reference Guide on Statistics, in Fed. Judicial
Ctr., Reference Manual on Scientific Evidence 211, 285 (3d ed.
2011)) (citation and footnote omitted).

App. 99
Fifth, the questions on the McFerron Survey about
DPOC possession are contaminated by bias because
their wording primed respondents to state that they
possessed DPOC even if they did not. Before any
questions about possession of DPOC were asked,
respondents were asked a series of nine questions
prefaced by the following:
Now I want to read you a short list of
documents. Only one of these documents
is needed in order to register to vote in
Kansas. For each of these, please let me
know if you have that document at your
home, office, or other location or if
someone else keeps the document for you
and could get it to you if necessary, or if
the document does not exist.30
The following nine questions asked about the types of
documents that can be used to meet the DPOC
requirement (e.g., birth certificates). The prefatory
statement to that series of nine questions, “primed” the
respondent that one of the documents on a list he/she
would hear was needed to register to vote in Kansas.
Extensive political science research suggests that such
priming will lead to overreporting of access to
documents.
Respondents were also asked in Question 18: “In
2011 because of evidence that aliens were registering
and voting in Kansas elections, the Kansas legislature
passed a law requiring that people who register to vote

30

Ex. 863 at 3.

App. 100
for the first time must prove that they are United
States citizens before they can become registered. Do
you support or oppose this law?”31 The Court easily
finds that this question primed the respondent to
answer that they support the law. Indeed, the at 6.
Defendant himself drafted this loaded question and
demanded that Mr. McFerron include it. Mr. McFerron
“had reservations about” the question, so much so that
he decided to place it toward the end of the survey so
that it would not impact the earlier questions.
For these reasons, the Court finds the McFerron
Survey is neither reliable nor trustworthy.
3. Relevance
Finally, even assuming the reliability of Mr.
McFerron’s methodology, the relevance of the survey is
nominal at best. As already discussed, only 65 of the
survey’s 500 respondents were unregistered voters.
Because the law does not apply to registered voters,
there is no constitutional burden to assess for these
individuals as a matter of law. Setting aside the fact
that this percentage of the sample does not match the
Census data touted by Defendant’s other expert, Dr.
Camarota,32 it is simply not relevant how burdensome
the law is on individuals who need not comply with the
law because they were registered before the law’s
effective date.

31

32

Id.

Ex. 1140 at 10 (showing a registration rate among Kansans of
67.9% in 2014, compared to McFerron’s 83%)

App. 101
The survey also failed to ask several relevant
questions. The survey’s possession questions were
compound, so it is impossible to know whether each
respondent did not have the particular document
addressed in the question, or whether someone else
keeps the document for them. Respondents were not
asked how long it would take for them to get a copy of
their DPOC if they did not personally possess it. Nor
were they asked how much it would cost them to obtain
a birth certificate or other form of DPOC. Respondents
were also not asked whether the name on any
document that could have been used to meet the DPOC
requirement matches their current name. Mr.
McFerron acknowledged that people sometimes change
their names, and thus, a person who answered that
they do possess DPOC might still be unable to satisfy
the DPOC requirement because of a name mismatch.
For these reasons, the Court does not find the
McFerron Survey is helpful to the trier of fact.
For all of these reasons, the Court grants Plaintiffs’
motion to entirely exclude the McFerron Survey and
his expert testimony. He is not qualified to render an
expert opinion on the survey’s methodology or
conclusions. Moreover, the survey is unreliable and
untrustworthy because it fails to follow accepted survey
methods and practices. Finally, the survey is not
helpful to the trier of fact. Even if the Court admitted
Mr. McFerron’s testimony and report, for the same
reasons identified above, the Court would give it little
to no weight.

App. 102
II. Findings of Fact
A. Kansas Law Governing Citizenship Eligibility
Under Kansas law, legally qualified voters must
register to be eligible to vote,33 and only United States
citizens over the age of 18 may register to vote.34 Before
January 1, 2013, Kansas voter registration applicants
met these eligibility requirements by signing an
attestation of eligibility on the registration application.
The attestation states: “I swear or affirm that I am a
citizen of the United States and a Kansas resident, that
I will be 18 years old before the next election, that if
convicted of a felony, I have had my civil rights
restored, that I have abandoned my former residence
and/or other name, and that I have told the truth on
this application.”35 Kansans may apply to register to
vote in person, by mail, through a voter registration
agency, in conjunction with applying for a Kansas
driver’s license, or “by delivery to a county election
officer to be registered.”36
Defendant Kansas Secretary of State (“SOS”) Kris
Kobach does business in and is an elected official of the
State of Kansas. In his capacity as SOS, he is the Chief
Election Officer for the State of Kansas. During his
campaign to become SOS, news stories about the

33

K.S.A. § 25-2302.

34

Kansas Constitution art. 5, § 1.

35

Ex. 80.

36

K.S.A. §§ 25-2309(a), -2352(a)(1).

App. 103
problem of noncitizen voting fraud began to increase.
Defendant campaigned on that issue, asserting it was
a pervasive problem. After becoming SOS, he helped
craft the SAFE Act, which became law in April 2011.37
In addition to an attestation of eligibility, the SAFE Act
requires that voter registration applicants submit
DPOC at the time they apply to register to vote. The
law provides thirteen forms of acceptable
documentation:
(1) The applicant’s driver’s license or
nondriver’s identification card issued by
the division of vehicles or the equivalent
governmental agency of another state
within the United States if the agency
indicates on the applicant’s driver’s
license or nondriver’s identification card
that the person has provided satisfactory
proof of United States citizenship;
(2) the applicant’s birth certificate that
verifies United States citizenship to the
satisfaction of the county election officer
or SOS;
(3) pertinent pages of the applicant’s
United States valid or expired passport
identifying the applicant and the
applicant’s passport number, or

37

Defendant asked the Court to judicially notice the entire 592page legislative history of the SAFE Act. The Court agreed to take
judicial notice that Exhibit 1209 is the legislative history, but
explained that judicially noticing this exhibit does not entail
admission of the documents contained therein for the truth of the
matter asserted.

App. 104
presentation to the county election officer
of the applicant’s United States passport;
(4) the applicant’s United States
naturalization documents or the number
of the certificate of naturalization. If only
the number of the certificate of
naturalization is provided, the applicant
shall not be included in the registration
rolls until the number of the certificate of
naturalization is verified with the United
States bureau of citizenship and
immigration services by the county
election officer or the SOS, pursuant to 8
U.S.C. § 1373(c);
(5) other documents or methods of proof of
United States citizenship issued by the
federal government pursuant to the
immigration and nationality act of 1952,
and amendments thereto;
(6) the applicant’s bureau of Indian
affairs card number, tribal treaty card
number or tribal enrollment number;
(7) the applicant’s consular report of birth
abroad of a citizen of the United States of
America;
(8) the applicant’s certificate of
citizenship issued by the United States
citizenship and immigration services;
(9) the applicant’s certification of report of
birth issued by the United States
department of state;
(10) the applicant’s American Indian card,
with KIC classification, issued by the
United States department of homeland

App. 105
security;
(11) the applicant’s final adoption decree
showing the applicant’s name and United
States birthplace;
(12) the applicant’s official United States
military record of service showing the
applicant’s place of birth in the United
States; or
(13) an extract from a United States
hospital record of birth created at the
time of the applicant’s birth indicating
the applicant’s place of birth in the
United States.38
The DPOC requirement became effective on January 1,
2013.39
If an applicant is a United States citizen but unable
to provide one of the thirteen forms of identification
listed in subsection (l), the statute allows that
applicant to submit another form of citizenship
documentation by directly contacting the SOS’s Office.
Although information about the subsection (m) hearing
alternative has been available on the SOS’s website, it
is not publicized to applicants at the time they apply to
register to vote. To avail oneself of this option, an
applicant must submit a “RCD” form with the SOS’s
Office, and schedule a hearing. The form requires a
declaration under penalty of perjury that the applicant
does “not possess any of the documents . . . that may be

38

K.S.A. § 25-2309(l).

39

Id. § 25-2309(u) (repealed 2016).

App. 106
used for proof of citizenship according to Kansas law.”40
The form also states that a false statement on the
affirmation is a severity level 9 nonperson felony.
The hearing must be before the State Election
Board, which will assess the alternative evidence of
citizenship to determine whether it is satisfactory.41
The State Election Board is comprised of three highranking State officials: the SOS, the Attorney General,
and the Lieutenant Governor.42 The RCD form states
that the Board will give the applicant five days’ notice
of the date, time, and location of the hearing. In
practice, a hearing may be held with two out of the
three members of the Board, and one representative of
the third member. Personal attendance by the
applicant is not required.
There is no statute, regulation, or list maintained
by the SOS of specific documents that would satisfy the
State Election Board. Bryan Caskey, the Director of
Elections at the SOS’s Office, testified and Defendant
argued that an applicant’s own declaration explaining
his or her circumstances and why he or she does not
possess a proof of citizenship document would satisfy
the board. Five individuals have completed this hearing

40

Ex. 837.

41

Id. § 25-2309(m).

42

K.S.A. § 25-2203(a)..

App. 107
process since the law became effective, and all had
their citizenship approved.43
If a voter registration applicant fails to submit the
requisite DPOC before the registration deadline in
Kansas, that applicant can still submit DPOC to the
county election office in person, by mail, or
electronically (including by text message) before
midnight on the day before an election.44
On June 25, 2015, Defendant Kobach promulgated
K.A.R. § 7-23-15, which became effective on October 2,
2015. The regulation applies to registration
applications that have been deemed “incomplete” and
therefore held “in suspense.” Such applications are
“canceled” if they do not produce DPOC, or otherwise
cure the deficiency in the application, within 90 days of
application. The applicant must submit a new,
compliant voter registration application in order to
register to vote.
The Bednasek case was filed on September 30, 2015,
just before K.A.R. § 7-23-15 became effective. The Fish
case was filed on February 18, 2016. On May 17, 2016,
this Court issued an extensive Memorandum and
Order granting in part the Fish Plaintiffs’ motion for a
preliminary injunction barring enforcement of the
Kansas DPOC law until the case could be decided on

43

Ex. 150. One additional person requested a hearing, but
Defendant represented that his office believes that sixth person did
not go through with the hearing. See Doc. 510, Trial Tr. at 1236:4 1237:22.
44

K.A.R. § 7-23-14(b).

App. 108
the merits.45 It was effective on June 14, 2016.46 The
Tenth Circuit affirmed that ruling on October 19, 2016,
providing significant guidance on Plaintiffs’ preemption
claim that § 5 of the NVRA displaces the Kansas DPOC
law.47 On remand, the Court reopened discovery in Fish
as to evidence relevant to the Tenth Circuit’s guidance.
B. DOV Policies and Procedures
Driver’s license applicants in Kansas must provide
proof of lawful presence when they apply for the first
time.48
As part of this requirement, the Kansas
Division of Vehicles (“DOV”)
shall require valid documentary evidence
that the applicant: (A) Is a citizen or
national of the United States; (B) is an
alien lawfully admitted for permanent or
temporary residence in the United States;
(C) has conditional permanent resident
status in the United States; (D) has an
approved application for asylum in the
United States or has entered into the
United States in refugee status; (E) has a
valid, unexpired nonimmigrant visa or
nonimmigrant visa status for entry into
the United States; (F) has a pending
45

189 F. Supp. 3d 1107 (D. Kan. 2016).

46

Doc. 145.

47

840 F.3d 710 (10th Cir. 2016).

48

Despite the statutory language, Mr. Caskey testified that proof
of lawful presence is not required for renewals.

App. 109
application for asylum in the United
States; (G) has a pending or approved
application for temporary protected
status in the United States; (H) has
approved deferred action status; or (I) has
a pending application for adjustment of
status to that of an alien lawfully
admitted for permanent residence in the
United States or conditional permanent
resident status in the United States.49
The DOV website identifies five documents that
purportedly “show your date of birth, identity, and
lawful status as a U.S. citizen” when applying for an
original Kansas driver’s license or nondriver
identification card: a certified U.S. birth certificate, an
unexpired United States Passport or Passport Card, a
U.S. Consular Report of Birth Abroad, a Certificate of
Naturalization, and a Certificate of Citizenship. These
documents also meet the DPOC requirement for voter
registration.50 In order to renew a Kansas driver’s
license, the applicant must also provide the DOV with
proof of identity (such as an expiring Kansas driver’s
license), a Social Security number, and proof of Kansas
residency.
After reviewing an applicant’s documentation, a
DOV employee enters the applicant’s name and date of
birth into the DOV database and takes the applicant’s
photo as well as captures their signature. Currently,

49

K.S.A. § 8-240(b)(2).

50

See K.S.A. § 25-2309(l)(2), (3), (4), (7), (8).

App. 110
DOV procedure and training provides that driver’s
license examiners are to scan all documents an
applicant provides during a driver’s license renewal.51
If a proof of citizenship document was scanned into the
DOV system during a prior transaction and a voter
applies to register to vote during a renewal, the DOV is
to inform the SOS’s Office that such document is on
file. The DOV only has documents scanned into the
system since 2013.
As part of the driver’s license application and
renewal processes, the driver’s license examiner is to
ask each applicant if they want to register to vote. The
DOV currently has a policy of not offering voter
registration to driver’s license applicants who selfidentify as noncitizens, such as TDL applicants or
driver’s license applicants who show a green card to
demonstrate lawful presence while applying for a
driver’s license. The examiners are trained to enter a
“Y” in the appropriate field of the computer interface if
a customer answers “yes” to the voter registration
question. The examiner then directs the applicant to
read a voter oath located on the counter in front of the
applicant and to ask the applicant to read that oath.52
Next, the examiner is to ask the applicant if he/she
affirms the voter oath. Applicants are not required to
provide a signature after reading the voter oath. The
signature occurs during the photo and signature

51

52

The record does not indicate when this policy was implemented.

The exhibit referenced in the parties’ stipulation containing the
oath was not attached to the stipulation. See Doc. 494.

App. 111
portion of driver’s licensing process before the voter
registration part of the process begins.
The examiners are to ask applicants who affirm the
voter oath a series of questions including whether they
are citizens of the United States, whether they will be
18 years of age before the next election, whether they
want to register with a political party, and whether
they want to provide their telephone numbers. The
examiners are to record the customers’ answers to
these questions in the computer interface.
Noncitizens who apply for a driver’s license may
receive a temporary driver’s license (“TDL”), the
duration of which is tied to the length of time that the
documentation they provided to the DOV permits their
presence in the United States. Noncitizen lawful
permanent residents who apply for a driver’s license
receive a standard six-year license. Lawful permanent
residents are not required to provide a lawful presence
document when they renew their driver’s license. The
DOV does not keep statistics on the number of driver’s
licenses issued to permanent residents.
A voter registration receipt prints automatically
when someone applies to register to vote at the DOV.
DOV procedure requires examiners to provide the
applicant with the voter registration receipt. The
receipt is on a small piece of paper that resembles a
fast-food receipt, according to one witness, and it
contains the applicant’s picture. The following
language appears on the receipt in small font:
Thank you for your voter registration
application. Your application will be sent

App. 112
to your county
processing.

election

office

for

Unless you already submitted to the
division of vehicles a document proving
U.S. citizenship, you need to submit one
to your county election office before you
will be added to the voter registration list.
Visit www.gotvoterid.com for a list of
acceptable documents. If you were a
registered voter in Kansas before 2013
and are still registered, you do not need to
provide a citizenship document.
A notice will be mailed to you when
processing is completed. If you have
questions about your application, please
call the county election office . . . or call
the Kansas SOS . . . .53
C. Impact of the DPOC Law on Kansas Applicants
1. Administrative Data
The Kansas Election Voter Information System
(“ELVIS”) is a statewide voter registration database,
maintained by Defendant; ELVIS assigns a unique
identification number to all voters. Each county
election office is responsible for maintaining the voter
lists for its county, so this central database reflects
data that is entered by the counties. When a voter
registration application is received by the relevant

53

Ex. 825. Mr. Stricker testified emphatically that this exhibit does
not resemble the size of the receipt provided by the DOV.

App. 113
county election office, a record is created in the ELVIS
database. County election officers have been instructed
to enter into ELVIS all voter registration applications
regardless of whether the applicant provided proof of
citizenship. When a person applies for a driver’s license
or a renewal at the DOV but does not apply to register
to vote at that time, an ELVIS file is not created and
the SOS is not notified.
ELVIS contains codes for “source of information
description,” showing how the applicant registered to
vote. “MV” is the code recorded in ELVIS to indicate
that an applicant has applied to register to vote at the
DOV in conjunction with a driver’s license application.
ELVIS contains status codes, including “A” for Active,
“R” for Canceled, and “S” for Suspense. ELVIS contains
voter registration reason codes, which explain the
reason an applicant is or is not registered to vote.
“CITZ” is the code recorded in ELVIS to indicate that
an applicant has failed to provide DPOC.
Defendant and county election officers may accept
DPOC at a different time or in a different manner than
an application for voter registration, as provided in (l),
“as long as the applicant’s eligibility can be adequately
assessed by the SOS or county election officer as
required by this section.”54 Under this authority,
Defendant has established interagency agreements
with two Kansas agencies to verify whether one of the
thirteen forms of DPOC listed in § 25-2309(l) may be on
file.

54

K.S.A. § 25-2309(t).

App. 114
First, on January 7, 2014, Defendant and Robert
Moser, MD, Secretary of the Kansas Department of
Health and Environment (“KDHE”), entered into an
Interagency Agreement called the “Birth/Voter
Registration Data Link,” whereby the KDHE agreed to
crosscheck the names of incomplete voter registration
applicants with the database of birth certificates and
marriage licenses on file with the Kansas Department
of Vital Statistics (“OVS”), and provide Defendant with
the results. Defendant sends a list of new voter
registration applicants on the suspense list to the
KDHE on approximately a monthly basis. The
agreement makes clear that “The Kansas OVS
maintains records only on Kansas vital events
occurring in the State of Kansas. The voter registration
form does not collect State of birth for the voter.”55 The
SOS’ Office does not currently check with any agencies
outside of Kansas to verify citizenship of voter
registration applicants.
Second, in May 2016, after the preliminary
injunction hearing in the Fish case, Defendant
implemented an interagency policy for coordinating
with the Kansas Department of Revenue (“KDOR”) to
verify citizenship documents that may have been
provided by voter registration applicants when they
applied for a Kansas driver’s license. Defendant and
the county clerks were given access to a secure internet
portal whereby they may check the DOV database for
records of any registration applicant on the suspense
list to determine if the DOV possesses DPOC for that
resident. Defendant has instructed the counties to
55

Ex. 1027 at 6.

App. 115
check for every applicant on their suspense list to
determine whether incomplete voter registration
applicants may have provided acceptable DPOC to the
DOV when applying for a driver’s license.
The SOS’s Office has instructed the counties to
contact each voter registration applicant on the
suspense list at least three times before the 90-day
period under K.A.R. § 7-23-15 expires. The notices from
Douglas County in evidence at trial list the various
acceptable forms of citizenship under § 25-2309(l), and
state the applicant can send copies to the county
election office by regular mail or e-mail. The notices do
not reference the hearing procedure in § 25-2309(m).56
According to ELVIS records, as of January 1, 2013,
there were 1,762,330 registered voters in Kansas. As of
October 2016, there were 1,817,927 registered voters.57
As of March 28, 2016, before the preliminary injunction
was issued requiring Defendant to register to vote
applicants suspended or canceled for failure to provide
DPOC, there were 14,770 applicants on the suspense
list. Of these, 5,655 were motor voter applicants. As of
March 28, 2016, 16,319 individuals had their
applications canceled under K.A.R. § 7-23-15 due to
lack of DPOC.58 Of these, 11,147 were motor voter

56

See, e.g., Exs. 859, 860.

57

This number includes those registered by operation of the
Court’s May 2016 preliminary injunction. See Doc. 495 ¶ 3.
58

The March 2016 statistics of canceled and suspended
registration applicants are the most recent figures disclosed to
Plaintiffs in discovery. See Ex. 41, 42, 43, 44. They were also

App. 116
applicants. These figures amount to 31,089 total
applicants who were denied registration for failure to
provide DPOC, 16,802 of whom applied through the
DOV.
Professor Michael McDonald testified as an expert
witness for Plaintiffs about the composition of the
suspense and cancellation lists. Dr. McDonald is an
Associate Professor of Political Science at the
University of Florida and a leading scholar on
American elections, voter registration, and factors
affecting voter behavior and turnout.59 He has received
numerous research grants and honors for his academic
work. Dr. McDonald has offered expert testimony in
numerous election law cases, including cases involving
voter registration and the NVRA.60 He has written

stipulated by the parties in the June 13, 2017 Pretrial Order. Doc.
349. Therefore, the Court excluded Defendant’s attempt to
introduce new, updated figures into the record at trial.
59

Ex. 139.

60

The Court takes judicial notice of the admission of Prof.
McDonald’s expert testimony in the many cases referenced in his
CV. Ex. 139 at 12–13. Defendant pointed the Court to two previous
decisions where his testimony was criticized: Backus v. South
Carolina, 857 F. Supp. 2d 553 (D.S.C. 2012), and Page v. State
Board of Elections, No. 3:13cv678, 2015 WL 3604029 (E.D. Va.
June 5, 2015) (Payne, J., dissenting). The Court took judicial notice
of these cases, see Exs. 898–99.
In Backus, a Voting Rights Act case challenging South
Carolina’s 2011 redistricting plan, the court determined that Dr.
McDonald relied on incomplete information in concluding that race
was a predominant factor in the redistricting plan. 857 F. Supp. 2d
at 561–63. The court determined that he did not consider all of the

App. 117
numerous peer-reviewed books, book chapters, and
articles about elections and voter registration.
Dr. McDonald examined data extracts from the
ELVIS database to evaluate the individuals whose
applications were canceled or suspended for lack of
DPOC, and he offered opinions about the effect of the
law based on that analysis. He looked at three sources
of information: (1) a list of suspended applicants as of
September 24, 2015, provided to him by the Plaintiffs;
(2) the electronic voter registration file dated December
11, 2015, including the list of suspended applications as
of that date, provided by Defendant; and (3) a list of
race-neutral factors considered by the legislature. Dr. McDonald
fully conceded on cross-examination that he did not consider all of
these factors, but explained it was impossible for him to do so. Doc.
503, Trial Tr. at 189:15–23. Defendant fails to explain how the
criticism in Backus is relevant to Dr. McDonald’s analysis in this
case of the composition of the suspense and cancellation lists under
the Kansas DPOC law.
In Page, another redistricting case, the dissenting judge found
that Dr. McDonald’s opinion that race was a predominant factor in
the challenged 2012 redistricting was inconsistent with a law
review article Dr. McDonald authored before being retained as an
expert, in which he opined that protecting incumbents was the
primary motivator in the 2012 redistricting. Page, 2015 WL
3604029, at *20–22. The dissenting judge also criticized Dr.
McDonald’s analysis of the racial composition of the populations
moved in and out of the district at issue, relied on by the plaintiffs
in that case. Id. at 31–34. However, the majority found his
opinions credible and persuasive, finding the dissent’s rejection of
Dr. McDonald and endorsement of the Defendant’s expert
“puzzling” given the disparity in their qualifications. Id. at *9 n.16.
This dissenting opinion concerning a different type of statistical
analysis does not convince the Court Dr. McDonald’s testimony
lacks credibility in this case.

App. 118
canceled and suspended applicants as of March 31,
2016, disclosed by Defendant.
Dr. McDonald examined the voter registration data
and determined that most of the individuals on the
suspense list as of September 25, 2015 did not become
registered by December 11, 2015. 22,814, or 70.9% of
the applicants on the September 2015 list, remained on
the December 2015 list. Canceled or suspended
applicants represented 12.4% of new voter registrations
between January 1, 2013 and December 11, 2015. Dr.
McDonald acknowledges that a few of these suspended
or canceled applicants may in fact be noncitizens,
however given the individual-level data he reviewed, he
believes that the majority are eligible citizens.
As of March 31, 2016, the confidential ELVIS data
provided to Dr. McDonald pursuant to the protective
order in this case showed a total of 30,732 voter
registration applications were either held in suspense
or canceled due to the DPOC requirement—16,749
applications were canceled, and 13,983 applications
were suspended. These 30,732 unregistered applicants
represented approximately 12% of the total voter
registration applications submitted since the law was
implemented in 2013. Of the 30,732 applicants whose
applications were, as of March 31, 2016, suspended or
canceled due to failure to provide DPOC, approximately
75% were motor-voter applicants.61 Dr. McDonald
61

The Court acknowledges that the figures in Dr. McDonald’s
report are slightly higher than the stipulated figures as of March
28, 2016—three days earlier. The total number of suspended and
canceled applicants evaluated by Dr. McDonald was higher by 356
applicants. Neither party elicited testimony about this difference

App. 119
opined that these numbers would have increased
further before the 2016 presidential election but for the
Court’s preliminary injunction order, in part because
voter registration activity typically increases in the
months leading up to a presidential election. Indeed,
Mr. Caskey’s testimony and Defendant’s own
statements during the contempt hearing that followed
this trial support Dr. McDonald’s opinion. They
suggested that problems coordinating certificates of
registration to those affected by the preliminary
injunction were tied to their increased activity and
workload associated with the runup to that election.
Dr. McDonald further credibly opined that the
DPOC law disproportionately affects the young and
those who are not politically affiliated. He testified that
43.2% of motor voter applicants held in suspense or
canceled were between the ages of 18–29, and 53.4% of
suspended and canceled motor voter applicants were
unaffiliated. To be sure, the law only applies to new
voter registration applicants—those registering for the
first time in Kansas after January 1, 2013. Those
and what might explain it, although it may be explained by the
fact that some of the ELVIS records Dr. McDonald reviewed were
coded as CITZ but were also underage. Also, he identified several
hundred applicants coded with CITZ who had a registration date
on or before the end of 2012, before the effective date of the law.
Although Defendant challenged the reliability of Prof. McDonald’s
conclusions drawn from the ELVIS records, he did not challenge
the underlying data which was provided by his office to this expert.
Further, the Court does not find that this discrepancy had any
impact on Dr. McDonald’s evaluation of the composition of these
lists, nor the Court’s ultimate finding that the DPOC law
prevented tens of thousands of eligible Kansans from registering
to vote.

App. 120
voters tend to be young and unaffiliated with a political
party. But that is the point: the fact that the law
affects only new applicants means that it
disproportionately affects certain demographic groups.
Dr. McDonald explained that there is a consensus in
social science that barriers to voter registration
increase the cost of voting and dissuade individuals
from participating in the political process. Moreover,
these groups—the young and unaffiliated—already
have a lower propensity to participate in the political
process and are less inclined to shoulder the costs
associated with voter registration. This opinion is borne
out by Ms. Marge Ahrens’ testimony, discussed infra,
which provided examples of how difficult it has been for
the Kansas League of Women Voters to help register
young voters due to the DPOC law.
2. Current Population Survey Data
As described in the Court’s Daubert ruling, Dr.
Camarota disagrees with Dr. McDonald about whether
the DPOC law poses a burden on voter registration and
voting. He primarily relies on the Census Bureau’s
Current Population Survey to opine that the burden
must be low because voter registration and turnout
rates in Kansas increased between 2010 and 2014. The
Court has already ruled that Dr. Camarota’s
qualifications limit his expert opinion to explaining the
CPS data; he is not qualified as an expert in voter
registration, voting trends, or election issues, so he is
not qualified to opine on issues of causation.
Even if Dr. Camarota is deemed qualified, the Court
gives little weight to his ultimate opinion for several
reasons. Primarily, the Court finds that the best

App. 121
evidence about the DPOC law’s burden is the actual
data from the suspense and cancellation lists,
evaluated by Dr. McDonald. This data demonstrates a
concrete burden for thousands of voter registration
applicants, many of whom were not registered in time
to vote in the 2014 election by operation of the DPOC
law. Because this data was presented to the Court, it
need not look at indirect survey data that is based on
sampling, nor must the Court look at how Kansas
compares in terms of Census data to neighboring
states. As Dr. McDonald explained, the individual-level
data that he analyzed is the “gold standard,” so there
is no need to rely on statistical sampling. In the same
vein, the Court gives no weight to Dr. Camarota’s bare
observations about the uptick in new registration and
voter turnout numbers between 2010 and 2014, as
shown in the administrative data. As the Court
discussed in its Daubert ruling, Dr. Camarota is not
qualified to opine about this administrative data. He
did not verify this data, as Dr. McDonald did, with the
individual data. Importantly, Dr. Camarota’s
observation that the stipulated registration and
turnout numbers are larger in 2014 is not helpful to the
trier of fact—the Court has accepted the parties’
stipulations as to these numbers and can glean for
itself that the 2014 figures are higher. For the reasons
described below, such a comparison tells the Court
little about the impact of the DPOC law.
Moreover, comparing 2010 and 2014 election data is
not a reliable way to measure the impact of the DPOC
law. To make a valid comparison between the voter
registration and turnout statistics between these two
election years, one would have to assume that the only

App. 122
difference in Kansas between 2010 and 2014 is the
DPOC law. But as Plaintiffs submitted, this isn’t true.
First, the 2014 election in Kansas was highly
competitive compared to 2010. The Gubernatorial and
U.S. Senate races were close elections. Sam Brownback
won the race for governor by only 3.7 points; the
Democratic candidate for U.S. Senate withdrew and
consolidated support behind an independent candidate.
Also, there were several Kansas Supreme Court
justices on the ballot and a strong advertising effort
had been made by groups urging Kansans to vote
against retention. The states with which Dr. Camarota
compared, Oklahoma and Nebraska, did not have
similarly competitive races. The competitiveness of
these high-profile races could easily account for the
increased registration and turnout between 2010 and
2014. Dr. Camarota conceded that he did not take these
facts into account when comparing 2010 to 2014, nor
when comparing Kansas rates to those of other states.
Similarly, he did not control for differences in state
laws between 2010 and 2014 that may have explained
his observation that Kansas “bucked the national
trend” of a decline in voter registration.
Importantly, comparing 2010 and 2014 registration
data does not provide a reliable measure of the impact
of the DPOC law because there is no way to know when
the increased registration occurred—the 2014 data
represents an increase from 2010, but the DPOC law
did not become effective until January 1, 2013. Dr.
Camarota’s analysis does not demonstrate when the
increased registrations occurred, before or after the law
was passed. Similarly, as Dr. McDonald testified,
because the DPOC law only applies to new registrants,

App. 123
it makes sense that the law would not have a large
impact on the overall registration numbers and turnout
rates, as measured by survey data. Most registered
voters surveyed in Kansas in 2014 were registered
before January 1, 2013, before the law became
effective, and were thus exempt from the DPOC
requirement.
3. Kansas League of Women Voters
Margaret Ahrens, the immediate past co-president
of Plaintiff League of Women Voters of Kansas (the
“Kansas League”) and an advisor and mentor to the
current leadership, testified on behalf of the Kansas
League. The Kansas League is a nonpartisan, nonprofit
volunteer organization that encourages informed and
active participation of citizens in government and
works to influence public policy through education and
advocacy. Founded almost 100 years ago, the Kansas
League is active throughout Kansas, with nine local
affiliates and more than 800 members. The Kansas
League was established to encourage and assist voters
to access the vote, register, and “participate in the vote”
in an informed manner. As Ms. Ahrens testified, “[t]he
biggest passion of the [Kansas L]eague is to engage
every possible citizen in the vote.”62
To accomplish this mission, the Kansas League
provides educational resources and holds voter
registration drives at various locations including
schools, libraries, grocery stores, nursing homes,
naturalization ceremonies and community events. The

62

Doc. 504, Trial Tr. at 330:12–16.

App. 124
Kansas League also performs studies on a variety of
public policy issues to inform membership action and
advocacy efforts as well as to educate its members and
the public on these issues. The Kansas League assists
all prospective voters, but it is particularly committed
to engaging individuals who are “underrepresented in
the vote,” including the first-time voter, the elderly,
and individuals with limited resources and time.
Ms. Ahrens was President of the Kansas League
from 2015–2017, after the DPOC law became effective.
She explained that the Kansas League has opposed the
SAFE Act since before its passage because it “saw [the
law] as a complex network of hoops and jumps for the
average Kansas citizen” that would “create barriers to
the vote.”63
Once it went into effect, the DPOC requirement
substantially affected the Kansas League’s work in at
least three respects. First, the DPOC requirement
significantly hampered the Kansas League’s voter
registration work. Ms. Ahrens described the impact of
the DPOC Law on the Kansas League’s ability to fulfill
its mission as “huge. It was a dead hit. It was
absolutely a blow and I found the word shock to be
appropriate in thinking about this.”64 When the law
came into effect, the Kansas League initially stopped
all registration activity in every county but one, to
protect volunteer members from any liability that could
arise from handling or copying applicants’ personal

63

Id. at 337:21–338:7.

64

Id. at 338:16–18.

App. 125
documents. The Kansas League leadership spent
considerable resources on developing a copying policy
to mitigate the risks associated with handling DPOC.
Once the copying policy was in place, the Kansas
League re-initiated registration efforts, but the number
of individuals the Kansas League could successfully
register declined significantly. Ms. Ahrens provided
several examples during her testimony. In Wichita, the
Kansas League estimated that it helped register 4,000
individuals the year before the DPOC became effective.
In 2013, after the law became effective, the Kansas
League estimated it registered 400. Ms. Ahrens
explained that this decline was because many
individuals do not have the necessary documents at
hand, or are not willing to provide such documents to
League volunteers, to satisfy the DPOC requirement.
She estimated that before the law passed, it took the
League 3–4 minutes to assist a voter registration
applicant, but after the DPOC law, it would take an
hour per applicant.
In one registration effort, Kansas League volunteers
in Douglas County went to high schools to register
voters but returned with such “large numbers of
incomplete voter registrations” due to the fact that the
students did not have DPOC at hand that the
volunteers called the students’ families and schools and
went back three times “to try to get as many young
people registered [as possible].”65 During another voter
registration effort at Washburn University, Kansas
League volunteers provided multiple opportunities for
65

Id. at 346:19–349:17.

App. 126
students to complete their voter registration
applications and to provide DPOC, by maintaining a
voter registration table at the university over multiple
weeks. Despite this concerted effort, out of
approximately 400 students who attempted to register
to vote, only about 75 students successfully completed
their registration applications.
Second, the DPOC requirement forced the Kansas
League to devote substantial resources to assist voters
whose applications are in suspense due to the failure to
provide DPOC. To reach these suspended voters, the
Kansas League purchased from the SOS both the
suspense list as well as the full voter file several times.
The Kansas League has published the suspense list on
the Kansas League website and circulated the list to
local newspapers to do the same to notify applicants
that their registrations are not complete. Kansas
League volunteers also spent considerable time and
effort to reach individuals on the suspense list directly
to assist them in completing their registration
applications. Ms. Ahrens provided the notable example
of efforts by Kansas League volunteers in Douglas
County who, after unsuccessful attempts to reach
individuals on the suspense list by phone and email,
visited the residences of 115 people whose voter
registration applications were on the suspense list with
a mobile copy machine. Of those 115 people, only 30
ultimately registered. At least half of these 30
individuals who completed their registrations did not
personally possess or were not able to provide DPOC to
the Kansas League volunteers and were unable to
complete their registrations immediately onsite. Since
the DPOC Law went into effect, the Kansas League has

App. 127
devoted thousands of hours to contacting the tens of
thousands of voters on the suspense list and
attempting to help them satisfy the DPOC
requirement.
Third, the DPOC requirement has forced the
Kansas League to spend a considerable amount of
member resources—including volunteer time—and
money to educate the public about registering under
the DPOC law. The Kansas League created thousands
of informational trifolds “to help people understand the
changes in the law and how to participate in the vote”
that volunteers distributed to community colleges,
public libraries, and high schools across the state. The
Kansas League had in the past developed written
educational materials to assist voters in registering but
“not to this extent.”66 The Kansas League also
developed a teaching module and an accompanying
instructional video to distribute on its website and to
universities, community colleges, vocational and
technical schools, and high schools throughout the
state in order to educate new voters about how to
register to vote under the SAFE Act.
Following the Court’s preliminary injunction in this
case, the Kansas League again obtained a copy of the
suspense list from the SOS. This list included the
names of voters who were registered under court
orders, including this Court’s preliminary injunction

66

Id. at 413:3–6; Ex. 13.

App. 128
ruling.67 The SOS refused the Kansas League’s request
for a list of suspended applicants that did not include
voters registered under court orders.68 As a result, the
Kansas League is no longer able to effectively use the
suspense list to inform and reach voters who are
unable to vote because their registration applications
are on the suspense list because it lacks confidence that
the list is accurate.
4. Access to DPOC by
Canceled Applicants

Suspended

and

There was little admissible evidence presented at
trial about the rate of DPOC possession by suspended
and canceled applicants. As already discussed, the
McFerron Survey is inadmissible, but even if

67

This evidence is consistent with other evidence in the record that
the SOS’s Office continued to treat registered voters under this
Court’s preliminary injunction order as unregistered and held in
suspense. See Doc. 520.
68

In addition to the Court’s order in this case requiring Defendant
to register all motor voter registrants who had been deemed
incomplete or cancelled for failure to provide DPOC, there is a
preliminary injunction in place prohibiting state-specific
instructions on the Federal mail-in form that would require an
applicant to produce DPOC. League of Women Voters v. Newby, 838
F.3d 1 (D.C. Cir. 2016), rev’g 195 F. Supp. 80 (D.D.C. 2016). Also,
on September 23, 2016, Shawnee County District Court Judge
Larry D. Hendricks ordered Defendant to provide notice to all
voters impacted by this Court’s preliminary injunction ruling that
they would be “deemed registered and qualified to vote for the
appropriate local, state, and federal elections for purposes of the
November 8, 2016 general election, subject only to further official
notice.” Brown v. Kobach, No. 2016-CV-550, slip op. at 3–4
(Shawnee Cty. Dist. Ct. Sept. 23, 2016).

App. 129
admissible, the Court gives its findings no weight due
to its many methodological flaws. There is no evidence
about how many canceled and suspended applicants in
fact lack DPOC, although the Court can reasonably
infer from the suspense and cancelation numbers that
either (1) these applicants lack immediate access to
such documents because they were repeatedly notified
of the need to produce DPOC in order to register, yet
they did not complete the registration process; or
(2) these applicants were not well enough informed
about the DPOC requirement to locate their DPOC and
provide it to the county election office in order to
become registered; or (3) these applicants were
otherwise unable or unwilling to go through the steps
to produce DPOC.
Dr. Jesse Richman estimates that only 2.2% of the
applicants on the suspense list lack access to DPOC,
based on a survey he conducted of individuals on the
suspense list.69 Yet Dr. Richman’s results are not
statistically distinguishable from zero, as the margin of
error is 2.7%.70 Furthermore, Dr. Richman concludes
that 97.8% of citizens on the suspense list have what he
describes as “immediate access” to DPOC, but his
estimate includes individuals who do not personally
possess DPOC, but have someone who “keeps” such a
document for them. Obtaining a document from
another person constitutes an additional step in the
voter registration process, which increases the costs of

69

70

Ex. 952 at 9.

Ex. 102 at 33 ¶ 74; see also Part II.D.3.a.ii, infra, for further
discussion about Dr. Richman’s margin of error calculations.

App. 130
voting. As Dr. Richman himself has written in
published articles, “electoral rules that increase the
costs of voting are expected to diminish voter
participation.”71
Although Dr. Richman speculated that it would be
relatively easy for a registration applicant to obtain a
citizenship document from another person who “keeps”
the document for them, his survey provides no support
for this conclusory statement. As such, Dr. Richman
conceded during his trial testimony that it was an
overstatement to say that a respondent has “immediate
access” to DPOC when answering yes to his survey
question.72
Defendant argues that the suspense list is dynamic
and constantly in flux, therefore it does not represent
the universe of applicants prevented from registering
to vote—many are ultimately registered under the
State’s interagency agreements, or because they later
submit DPOC. There are several problems with this
argument. First, while the suspense list may be
dynamic, the cancelation list (before the preliminary
injunction) is not. More than 16,000 voter registration
applicants had been canceled under K.A.R. § 7-23-15 at
the time of the Court’s preliminary injunction.
Moreover, at the time of the Court’s preliminary
injunction, more than 13,000 individuals were on the
suspense list. To be sure, the evidence established that
some portion of this number may come off the list due

71

Doc. 512, Trial Tr. at 1567:24–1570:11.

72

Id. at 1593:4–1594:8.

App. 131
to the State’s interagency agreement with the DOV,
but as of March 2016, the KDHE agreement had been
in place for three years. Yet, each time Dr. McDonald
took a snapshot of the suspense list between September
2015 and March 2016, the combined number of
suspended and canceled applicants represented about
12% of all new voter registration applications. Dr.
McDonald found that 22,814, or 70.9% of the applicants
on the September 2015 list, remained on the December
2015 list. While that number certainly was lower by
March 2016, that is undoubtedly because many of those
on the suspense list were canceled under the regulation
by that point, given that in December 2015, the 90-day
rule had not yet been effective for 90 days. Defendant,
by contrast, provided no data about the number of
those on the suspense list who have come off because
DPOC was ultimately verified, or provided, as opposed
to cancellation. The Court finds that the majority of
those on the suspense list ultimately did not become
registered.
5. Lay Testimony by Individuals Lacking
DPOC
Dr. McDonald’s analysis demonstrates that tens of
thousands of individuals who applied to register to vote
after the DPOC law became effective were held in
suspense or canceled for failure to submit DPOC. He
further credibly opined that the clear majority of those
suspended or canceled are in fact United States
citizens. Ms. Ahrens’ testimony demonstrates that the
DPOC law made the Kansas League’s mission of
helping register voters difficult, by substantially
reducing the number of individuals it could assist in

App. 132
registering to vote, particularly within the groups it
targets: first time voters, the elderly, and individuals
with limited resources and time. This evidence leads
the Court to the conclusion that tens of thousands of
eligible citizens were blocked from registration before
this Court’s preliminary injunction, and that the
process of completing the registration process was
burdensome for them.
The experiences of several lay witnesses, including
the individual Plaintiffs in both cases, illustrate Dr.
McDonald’s findings and Ms. Ahrens’ concerns about
the barriers to registration after the DPOC law became
effective. Plaintiff Steven Wayne Fish is a U.S. citizen,
a resident of Kansas, and over 18 years old. He works
the overnight shift at an American Eagle distributor. In
August 2014, he applied to register to vote while
renewing a Kansas driver’s license at the DOV in
Lawrence, Kansas. Mr. Fish brought documents to
fulfill the Kansas residency requirement for obtaining
a driver’s license. The driver’s license examiner did not
inform him that he needed a citizenship document to
register to vote; when he left the DOV, he believed he
had registered to vote. Subsequently, he received
notices in the mail from the Douglas County election
office telling him that he needed to provide DPOC in
order to become registered. Those notices listed the 13
acceptable forms of DPOC under the K.S.A. § 252309(l). They make no mention of the alternative
hearing process under subsection (m).73 He searched for
his birth certificate but could not find it. He attempted
to obtain a replacement birth certificate but could not
73

Exs. 859, 860.

App. 133
determine how to do so—he was born on a
decommissioned Air Force base in Illinois. Mr. Fish
was unable to vote in the 2014 general election, and his
voter registration application was subsequently
canceled for failure to provide DPOC under the 90-day
rule.
Later, in May 2016, Mr. Fish’s sister located a copy
of his birth certificate that had apparently been placed
in a safe by Mr. Fish’s mother, who passed away in
2013. Although the birth certificate was ultimately
located, it took nearly two years to find it. Due to the
preliminary injunction in this case, Mr. Fish became
registered to vote in June 2016. In September or
October 2016, Mr. Fish relocated within Douglas
County and changed his address with the DOV in
person. At that time, Mr. Fish filled out a second voter
registration application and provided his birth
certificate. He is now registered to vote based on this
October 2016 application, having provided DPOC. He
voted in the 2016 general election.
Plaintiff Donna Bucci is a U.S. citizen, a resident of
Kansas and over 18 years old. She was born in
Baltimore, Maryland. Ms. Bucci has been employed at
the Kansas Department of Corrections for the last six
years. She is a cook in the prison kitchen on the 3:00
a.m. to 12:00 p.m. shift. She is provided with limited
time off, and must provide two-weeks’ notice to use it.
In 2013, Ms. Bucci applied to register to vote while
renewing a Kansas driver’s license at the DOV in

App. 134
Sedgwick County, Kansas.74 The driver’s license
examiner did not tell Ms. Bucci that she needed to
provide proof of citizenship, and did not indicate that
she lacked any necessary documentation. When she left
the DOV, she believed she had registered to vote.
Later, she received a notice in the mail informing her
that she needed to show a birth certificate or a passport
to become registered to vote. It did not include
information about how to pursue the hearing process in
K.S.A. § 25-2309(m). Ms. Bucci does not possess a copy
of her birth certificate or a passport. She cannot afford
the cost of a replacement birth certificate from
Maryland and she credibly testified that spending
money to obtain one would impact whether she could
pay rent. Ms. Bucci’s voter registration application was
canceled for failure to provide DPOC. She could not
vote in the 2014 election, but was able to vote in the
2016 election by operation of the preliminary
injunction. Ms. Bucci first learned of the alternative
hearing procedure when defense counsel informed her
of it during her deposition in this case. She testified
that it would be hard for her to even participate in a
telephonic hearing because she is not allowed to use
her cell phone on a work break.
Plaintiff Charles Stricker is a U.S. citizen, a
resident of Kansas, and over 18 years old. He was born
in Missouri and has lived in Kansas since late 2013,
after a period of living in Chicago. Prior to living in
Chicago, Mr. Stricker lived in Kansas and was
registered to vote in Kansas during that time. He
74

Ms. Bucci testified that she renewed her driver’s license in 2014.
The ELVIS records show that she applied in August 2013. Ex. 2.

App. 135
works as a hotel manager in downtown Wichita. Mr.
Stricker applied to register to vote while renewing a
Kansas driver’s license at the Sedgwick County DOV in
October 2014. He was told that he had insufficient
documentation, and a clerk provided him with a list of
documents he needed. Mr. Stricker was attempting to
register on the last day of registration before an
election, it was so important to him to become
registered that he took the day off work to accomplish
it. Mr. Stricker rushed home and “grabbed every single
document that I could and started shoving them into a
file folder to try to get back before the DMV closed,”75
including his birth certificate. He made it back to the
DOV in time to complete his application, and recalls
telling the clerk that he wanted to register to vote. The
DOV clerk did not tell him that he needed any further
documentation to register. The clerk printed a small
receipt for Mr. Stricker and explained to him that it
would be his temporary driver’s license until he
received his license in the mail. He asked the clerk if
there was anything else he needed to do, including
whether he needed a voting card. The clerk told him
nothing more was necessary. He believed that he was
registered to vote.
Mr. Stricker attempted to vote in the 2014 midterm
election. He presented his driver’s license to the poll
worker, but she could not find a record of his
registration. He was given a provisional ballot to fill
out at an open table with another voter. Mr. Stricker
testified that he was confused and embarrassed by the
experience. Election day was the first time Mr. Stricker
75

Doc. 502, Trial Tr. at 68:20–25.

App. 136
learned that he was not registered to vote. He testified
that he learned about the DPOC law sometime later
through a press report and wondered if it could explain
why he was not allowed to vote. He does not recall
receiving any notices from Sedgwick County asking
him to provide proof of citizenship.
In 2015, Mr. Stricker’s voter registration application
was canceled in the ELVIS system. His registration
was reinstated by operation of the preliminary
injunction on June 22, 2016. At some point in advance
of the November 2016 election, Mr. Stricker attempted
to check his registration status online and by calling
the Sedgwick County election office. The person with
whom he spoke told him that it was unclear whether he
would be able to vote in the upcoming election because
there were legal issues that were still up in the air.
When he checked online, there was no record of his
registration. On October 26, 2016, the Sedgwick
County Election Office sent Mr. Stricker a “Notice of
Voter Registration Status.”76 It states:
This notice is to inform you that you have
been granted full voter registration status
in Kansas and that you are qualified to
vote in all official elections in which
voters in your precinct are eligible to
participate.
According to Kansas Statutes Annotated
25, 2309(l), any person registering to vote
for the first time in Kansas on or after

76

Ex. 838 at 9.

App. 137
January 1, 2013, must provide evidence of
United States citizenship along with the
registration application in order to be
granted full registration status.
Our records indicate that you submitted
a voter registration application during the
above-mentioned time period, but you did
not provide evidence of your U.S.
citizenship. We have since received
information from the Kansas Department
of Health and Environment’s Office of
Vital Statistics indicating that you have a
Kansas birth certificate on file. Based on
that determination, your registration
status is deemed complete, and we have
granted you full voter registration
status.77
This notice was signed by Tabitha Lehman, the
Sedgwick County Election Commissioner. Ms. Lehman
testified that, despite Fed. R. Evid. 615 being invoked
at the beginning of trial, she read media reports about
the trial, including reports of Mr. Stricker’s testimony.
She testified that ELVIS records indicate Mr. Stricker
is active and “fully registered,” and that after reviewing
his file prior to her testimony, she believes that the
notice he received erroneously referenced his Kansas
birth certificate, when in fact his citizenship document
was in the DOV’s database. She testified that in
October 2016, just prior to the election, her office had
not updated the generic notice sent to applicants whose
77

Id.

App. 138
DPOC was verified by the county to include the DOV
database check, a policy that had changed in May 2016.
Therefore, between May 2016 when the DOV policy
went into effect, and the 2016 election, Sedgwick
County—the second largest county in the State—was
apparently sending out erroneous and confusing notices
to individuals stating that citizenship was confirmed
through the department that maintains Kansas birth
certificates, when in fact that was not true.
Plaintiff Thomas Boynton is a U.S. citizen, a
resident of Kansas, and over 18 years old. He was given
a code of “suspense” in ELVIS for failure to provide
DPOC. He moved to Kansas for the first time in July
2014 to begin teaching as a professor of English at
Wichita State University. In August 2014, Prof.
Boynton attempted to register to vote at a DOV in
Wichita. He recalls being asked if he would like to
register to vote, and responded that he did. Prof.
Boynton brought several documents with him that he
suspected he might need to obtain a driver’s license,
including his Illinois birth certificate. He does not
recall which documents he specifically showed the
clerk, but he produced the documents the clerked
requested during the transaction. The DOV clerk did
not tell him that he did not have the necessary
documentation to register to vote, and when he left the
DOV, Prof. Boynton understood he was registered to
vote. He went to his polling place in November 2014,
but the poll worker told him that his name was not on
the rolls and offered him a provisional ballot. He was
surprised to learn for the first time that his
registration had not been completed at the DOV.

App. 139
In December 2014 or January 2015, Prof. Boynton
received a notice in the mail informing him that he
would need to submit DPOC to complete the voter
registration process. It did not advise him about the
hearing process under K.S.A. § 25-2309(m). Prof.
Boynton was frustrated upon receiving this notice,
believing that he had registered before the November
2014 election, and understanding that his provisional
ballot had not been counted. He was disappointed and
irritated upon learning that his vote did not count.
Voting is important to him and he had regularly voted
in federal elections up until that point.
Prof. Boynton visited the DOV two times in 2015 to
obtain replacement driver’s licenses. Both times he
declined when the clerk asked him if he wanted to
register to vote. He testified that he was dissuaded
from registering after his 2014 attempt failed. “I
thought to myself, this doesn’t seem to be the kind of
process that leads to me being successfully registered,
so I might as well just save myself the effort and say no
this time . . . .”78
Prof. Boynton’s ELVIS file shows that a certified
United States birth certificate was submitted on
August 4, 2014, contradicting Mr. Caskey’s testimony
that Prof. Boynton did not apply to register to vote
until November 4, 2014, Election Day. On November 5,
2015, Prof. Boynton’s voter registration application was
canceled. According to Mr. Caskey, the SOS found a
citizenship document through the DOV web portal
after access had been granted in 2016. The fact that the
78

Doc. 503, Trial Tr. at 270:7–11.

App. 140
web portal located a citizenship document—likely the
birth certificate he took to the DOV that day—supports
Prof. Boynton’s testimony that he in fact applied to
register to vote in August 2014. His ELVIS record now
shows that he is active based on the citizenship
document the SOS office located on June 20, 2016, after
this Court issued its preliminary injunction.
Plaintiff Douglas Hutchinson is a U.S. citizen, a
resident of Kansas, and over 18 years old. Mr.
Hutchinson applied to register to vote while renewing
a Kansas driver’s license at a Johnson County DOV in
2013. His application was suspended for failure to
provide DPOC and it was ultimately canceled on
January 27, 2016. He was later registered by operation
of this Court’s preliminary injunction order. On July
30, 2016, his status changed to active after he
submitted DPOC at the Johnson County Election Office
and is now considered “fully registered.”
Plaintiff Parker Blake Bednasek is a United States
citizen over the age of 18, who moved to Kansas in
August 2014 to attend school at the University of
Kansas (“KU”). Plaintiff was born in Oklahoma. His
parents, who live in Texas, possess his Oklahoma birth
certificate. Prior to moving to Kansas, Mr. Bednasek
was registered to vote in Tarrant County, Texas. In the
fall of 2015, Mr. Bednasek volunteered with the Kansas
Democratic Party. Through this work, he discussed the
issue of voter registration, including the DPOC law,
with the party’s field and political director. He canceled
his Texas voter registration on December 3, 2015. On
December 4, 2015, Mr. Bednasek applied to register to
vote in person at the Douglas County Election Office.

App. 141
He did not provide DPOC for two reasons: (1) he did
not physically possess DPOC at the time of application;
and (2) he does not agree with the law requiring DPOC.
The Douglas County Clerk’s Office accepted Plaintiff’s
application, but deemed it incomplete for failure to
submit DPOC. Mr. Bednasek received two or three
letters from the Douglas County election office,
informing him that he needed to provide his DPOC and
advising him that he had been placed on a 90-day
waiting list. Plaintiff’s voter registration application
was canceled on March 4, 2016 under K.A.R. § 7-23-15.
Since the DPOC law was passed, 6 individuals have
applied for a hearing under § 25-2309(m) with the
State Election Board. One of these individuals, Ms. Jo
French, lost her birth certificate after moving several
times. She testified about the lengthy and burdensome
process of registering to vote without a citizenship
document. Ms. French’s many encounters with the
SOS’s office led her to characterize her relationship
with former-Deputy SOS Eric Rucker as a friendship.
She testified that she hoped her testimony would make
Defendant “look good.” But her testimony contradicted
Defendant’s position that the DPOC requirement is not
burdensome. As she testified, Ms. French’s first of
many hurdles was to pay $8 for the State of Arkansas
to search for her birth certificate to prove that it did
not exist, even though she already knew did not exist
because she had requested it twice before. Second, she
had to collect documents with the help of several other
people—her baptismal record through an old friend in
Arkansas and school records from her old school
district in Arkansas. Third, she spoke with Mr. Rucker,
who in turn reached out to her friends and cousin to

App. 142
vouch for her citizenship. Fourth, Ms. French relied on
a friend to drive her 40 miles to the hearing; it was
difficult for her to drive because she had recently had
knee replacement surgery.
Ms. French’s hearing before the State Election
Board lasted 30 to 35 minutes and was attended by
Defendant, the Lieutenant Governor, and a
representative from the Kansas Attorney General’s
office. Also present were members of the media. The
entire process from application to the date of her
hearing took more than five months. After the hearing,
Ms. French was interviewed, and stated: “I just
thought it was strange that I had to go through this
procedure to be able to vote. And any other state, you
go in, throw down your driver’s license and that gives
you the right to vote. So this was totally off the wall for
me. . . . I don’t look funny. I don’t talk funny, I’ve been
here all my life.”79
The hearing records contain information on the
other four individuals who availed themselves of the
hearing process. One established citizenship through a
hearing and was represented by retained counsel.
Another individual, Mr. Dale Weber, stated that he did
not possess DPOC and that procuring such a document
would be cost-prohibitive. The State Election Board
ultimately accepted an affidavit that Mr. Weber
executed on his own behalf as proof of his citizenship,
attesting that he had been born on a military base and

79

Doc. 511, Trial Tr. at 1421:16–1422:11.

App. 143
was a U.S. citizen.80 The State Election Board
apparently found that Mr. Weber’s mere attestation
was sufficient to establish his citizenship.
D. Noncitizen Registration in Kansas Before and
After the DPOC Law
1. Empirical Cases of Noncitizen Registration
or Attempted Registration
Pretrial, Defendant stipulated that it had confirmed
instances of 127 noncitizens who either registered to
vote, or attempted to register to vote since 1999, based
on data collected from Mr. Caskey and Tabitha
Lehman, the Sedgwick County Election Officer. Of the
127 individuals identified by Mr. Caskey and Ms.
Lehman, 43 had successfully registered to vote, and 11
have voted. 88 are motor-voter applicants, 25 of whom
successfully registered to vote; 5 have voted.
At trial, Mr. Caskey asserted that his office had
uncovered 129 instances where noncitizens had
registered or attempted to register to vote. But the
documentary evidence does not fully support this
testimony. The underlying ELVIS records reveal that
many of these instances are a result of false positive
matches, confusion, or administrative error by either
the county election office or a driver’s license examiner.
At trial, Defendant submitted evidence of: (1) 38
incidents of noncitizen registration or attempted

80

Ex. 150. The State Election Board orders and records from these
§ 25-2309(m) hearings were produced to Plaintiffs for the first time
during trial

App. 144
registration in Sedgwick County;81 (2) 79 possible
incidents of noncitizen registration by comparing the
voter rolls with the DOV’s list of TDL holders;82 and
(3) 3 noncitizens who were found because they stated
on juror questionnaires that they were noncitizens.83
Ms. Lehman testified about the first category, based
on a spreadsheet she helped maintain for several years,
reflecting incidents of noncitizen registration in
Sedgwick County. She did not create the spreadsheet;
it was created by and is now maintained by the SOS’s
Office. The spreadsheet was last updated in January
2018, reflecting 38 incidents of noncitizen registration
or attempted registrations going back to 1999, 18 of
whom successfully registered to vote between 1999 and
2011, 5 of whom voted. The other 13 were on the voter
rolls for extended periods of time, but never voted.
Between 2013 and November 2016, the spreadsheet
reflects 16 noncitizens who attempted to register to
vote. And the spreadsheet reflects 4 individuals who
are now citizens, but had been held in suspense
because they applied to register to vote before becoming
naturalized citizens. Because these 4 applied to
register after the DPOC law passed, they were
registered to vote pursuant to the Court’s preliminary
81

Ex. 1133 (updated January 2018).

82

Doc. 507, Trial Tr. at 752:23–753:5.

83

Id. at 753:9–755:12. Mr. Caskey testified that his office has
received additional unsubstantiated reports of noncitizen
registration from members of the public and county election offices,
but he could not identify any specific instance of noncitizen
registration through such an informal report.

App. 145
injunction order. Most of the individuals on this
spreadsheet were discovered during naturalization
ceremonies held in Wichita, Kansas, which members of
Ms. Lehman’s office regularly attend to help register to
vote newly-naturalized citizens.
The ELVIS records for many of the individuals on
the Lehman spreadsheet demonstrate instances of
applicant confusion and administrative error. For
example, one individual listed an “A-number” in the
field for “Naturalization number (if applicable)” on the
voter registration form.84 Another individual voted four
times between 2004 and 2008, but stated that she “was
a permanent resident of the U.S. and did not know she
wasn’t allowed to vote until after 2008 when one of her
friends told her she couldn’t, she then stopped
voting.”85
The records for several “attempted registrations” on
this spreadsheet are in fact instances where a
noncitizen applicant did not intend to register to vote.
One person Ms. Lehman lists as an attempted
registrant on January 1, 2014, indicated to the DOV
that she was not a citizen, but the DOV processed the
voter registration application anyway. In fact, Ms.
Lehman had an email exchange about this applicant
with former election director Brad Bryant, who stated,
“I just wish DMV would not register people who they
know to be noncitizens.”86 This applicant also wrote to
84

Ex. 143 at 29.

85

Exs. 1133 at 1, 1205.

86

Ex. 22.

App. 146
the DOV “Please put in the record that I am not a
citizen. I cannot vote.” She underlined “am not” and “I
cannot vote.”87
Another applicant indicated to the DOV that she
was not a citizen, but the DOV nonetheless processed
the application. This applicant “came into the office w/a
POC notification letter and stated that her registration
was a mistake on the part of the DMV when she
renewed her license. She is not a U.S. citizen. She filled
out a [c]ancellation form.”88 Another applicant replied
in the negative when the DOV clerk asked if she was a
United States citizen and produced a “Resident Alien”
card, yet the DOV submitted an application, prompting
the applicant to request cancellation. There are also
two examples of voter registration forms being
submitted to the county election office despite the
applicants’ failure to answer the question, “Are you a
citizen of the United States of America” on the form.
Ms. Lehman personally transmitted to Defendant
an application that had checked “no” to the citizenship
question on the form. Ms. Lehman disingenuously
testified that this “would be a case where it would be
something anomalous to report up. . . . I think it’s a
dicey one so I send it on.”89 The Court does not find this
testimony credible. Ms. Lehman testified that she is
one of four county election commissioners directly
appointed by Defendant, and that she reports directly
87

Ex. 99 at 4.

88

Ex. 101 at 4; Ex. 1133 at 5.

89

Doc. 505, Trial Tr. at 529.18–530:22.

App. 147
to him. She stated that her office was charged with
helping determine instances of noncitizen registration,
and that when they “see something they suspect” could
be noncitizen registration, her staff reports that to her,
and she in turn reports it to Defendant. It appears that
Ms. Lehman was either instructed or took it upon
herself to pass along to Defendant even noncolorable
attempts at noncitizen registration caused by State
employee oversight or lack of training, rather than
deliberate attempts to register to vote.
For his second category of empirical evidence,
Defendant identified 79 instances of purported
noncitizen voter registration by comparing a list of TDL
holders generated by the DOV, with the voter rolls. Mr.
Caskey testified that he compared these lists 4 times,
in 2009, 2011, 2016, and 2017. Plaintiffs’ expert Eitan
Hersh was retained to conduct his own matching
analysis of these two lists. Dr. Hersh is an expert in
voter registration records and matching analysis. He is
a tenured professor of political science at Tufts
University, whose academic research is focused on
studying large-scale individual databases, such as the
ELVIS system, and matching those databases to other
sources of individual-level data. The Court finds Dr.
Hersh qualified, and that his testimony was credible as
to the significance of Mr. Caskey’s TDL list matches.
Dr. Hersh conducted an extensive and thorough
matching analysis, which is fully set forth in his report.
He found that of the 79 individuals matched by Mr.
Caskey, only 14 successfully registered to vote, and 12
had the “CITZ” code in their ELVIS records at some
point, indicating they applied to register to vote and

App. 148
were suspended or canceled for lack of DPOC.90
Therefore, of these 79 individuals, 26 either
successfully registered to vote or were stopped from
registering under the DPOC requirement. One of these
26 individuals voted. Nine of the 79 individuals
successfully registered to vote at a DOV, 1 of whom had
a “CITZ” code at some point.91
Moreover, as Dr. Hersh testified, Mr. Caskey’s TDL
matches to the voter file do not necessarily represent
cases of noncitizen registration or attempted
registration. Even where there are correct matches, as
with the 79 individuals identified by both Mr. Caskey
and Dr. Hersh, it is possible a person could obtain a
TDL and later naturalize prior to registering to vote.
Dr. Richman agreed with Dr. Hersh, testifying that a
person is not necessarily a noncitizen simply by virtue
of appearing in the TDL file. Thus, Defendant has not
demonstrated that all 79 individuals matched on the
TDL list were noncitizens at the time they registered to
vote.
Giving full credit to Mr. Caskey’s evidence that 3
noncitizens were discovered to be registered voters
through juror questionnaires, and ignoring evidence
that several of the Lehman spreadsheet applicants
were confused about whether they had the right to
register to vote, and/or State employees submitted their
applications despite having knowledge that they were

90

Ex. 107 at 3 (showing 11 matches in “Active” status, and 3
matches in “inactive” status and 12 matches with the “CITZ” code).
91

Id.

App. 149
noncitizens, the evidence shows that 67 noncitizen
individuals registered to vote under the attestation
regime, or attempted to register after the DPOC law
was passed. Of these, 39 successfully registered to vote
despite the attestation requirement,92 and 28
noncitizens attempted to register to vote after the
DPOC law was passed but were thwarted by operation
of that law. Extrapolating percentages based on these
numbers, the total number of confirmed noncitizens
who successfully registered to vote between 1999 and
2013 is .002% of all registered voters in Kansas as of
January 1, 2013. Of the estimated 115,500 adult
noncitizens in Kansas,93 .06% have successfully
registered or attempted to register to vote since 1999.
And, the number of attempted noncitizen registrations
since the DPOC law became effective in 2013 is .09% of
the total number of individuals canceled or suspended
as of March 31, 2016, for failure to provide DPOC.
2. Expert Testimony Regarding Incidents of
Noncitizen Registration in Kansas
The Court admitted in part the expert opinion and
testimony of Defendant’s expert Hans von Spakovsky
in the areas of elections, election administration, and
voter fraud. Mr. von Spakovsky is a senior legal fellow
at The Heritage Foundation, “a think tank whose
mission [is to] formulate and promote conservative
92

Included in this number are the 4 noncitizens listed on the
Lehman spreadsheet who apparently registered to vote after the
Court’s preliminary injunction became effective.
93

See Ex. 958 at 28 (citing the American Community Survey’s 5year estimate of the noncitizen population in Kansas).

App. 150
public policies.”94 He is an adjunct, non-tenured
professor at the Law School of George Mason
University. He has never testified as an expert witness
before and has published no peer-reviewed research on
any subject. Notably, Mr. von Spakovsky could not
identify any expert on the subject of noncitizen voter
registration. The methodology Mr. von Spakovsky
utilized in his expert report entailed collecting
information on prosecutions, and various other reports
of noncitizens voting and summarizing that
information.
Mr. von Spakovsky opined that there is a problem
with noncitizen voter registration and that attestation
is not sufficient to prevent noncitizens from registering
to vote. These opinions are premised on his assertion
that any time a noncitizen registers to vote, regardless
of that person’s intent, it defrauds the votes of
legitimate citizens. In his view, the numbers of
individuals held in suspense or canceled under the
Kansas DPOC law is irrelevant because those
individuals could become fully registered with effort.
Although he could provide no example of a noncitizen
vote affecting the outcome of a close election, he opines
that the mere possibility of that happening justifies the
DPOC law.95 He based his opinions on the summary of
noncitizen voting in his expert report.

94

95

Doc. 509, Trial Tr. at 1099:25–1100:2.

Mr. von Spakovsky proffered evidence of noncitizen registration
in Virginia since the time of his last report. The Court excluded
this evidence because it was not disclosed in a supplemental report
before trial.

App. 151
The Court gives little weight to Mr. von Spakovsky’s
opinion and report because they are premised on
several misleading and unsupported examples of
noncitizen voter registration, mostly outside the State
of Kansas. His myriad misleading statements, coupled
with his publicly stated preordained opinions about
this subject matter, convinces the Court that Mr. von
Spakovsky testified as an advocate and not as an
objective expert witness.
As to Kansas noncitizen registration, Mr. von
Spakovsky is aware of only 30 instances of noncitizen
registration or attempted registration provided to him
on the Lehman spreadsheet at the time he prepared his
report. He did nothing to verify this information. Yet,
he opined that “[c]learly aliens [in Sedgwick County]
who applied to register at the DMV were not dissuaded
from falsely asserting U.S. citizenship by the oath
requirement.”96 He later admitted during crossexamination that he had no personal knowledge as to
whether or not any of these individuals had in fact
falsely asserted U.S. citizenship when they became
registered to vote and that he did not examine the facts
of these individual cases. As the Court has already
discussed, several of the individual ELVIS records for
those on the Lehman spreadsheet include noncitizens
who disclosed their noncitizen status to the DOV clerk,
so his statement that they “were not dissuaded from
falsely asserting U.S. citizenship” is not supported by
the record.

96

Id. at 1151:10-16; see also Ex. 865 at 3.

App. 152
Mr. von Spakovsky stated in his report that a local
NBC television station in Florida identified 100
individuals excused from jury duty who were possible
noncitizens on the voter rolls; but on crossexamination, he admitted that he failed to include a
follow-up story by the same NBC station that
determined that at least 35 of those 100 individuals
had documentation to prove that they were, in fact,
U.S. citizens. He claimed that, at the time of his expert
report, he was unaware of the NBC follow-up report,
and only learned about it at his deposition. Yet after
his deposition Mr. von Spakovsky never submitted a
supplement or correction to his expert report to
acknowledge this omission.
Mr. von Spakovsky also cited a U.S. GAO study for
the proposition that the GAO “found that up to 3
percent of the 30,000 individuals called for jury duty
from voter registration rolls over a two-year period in
just one U.S. district court were not U.S. citizens.”97 On
cross-examination, however, he acknowledged that he
omitted the following facts: the GAO study contained
information on a total of 8 district courts; 4 of the 8
reported that there was not a single-noncitizen who
had been called for jury duty; and the 3 remaining
district courts reported that less than 1% of those
called for jury duty from voter rolls were noncitizens.
Therefore, his report misleadingly described only the
district court with the highest percentage of people
reporting that they were noncitizens, while omitting
any mention of the 7 other courts described in the GAO

97

Ex. 865 at 5.

App. 153
report, including 4 that had no incidents of noncitizens
on the rolls.
Mr. von Spakovsky wrote an editorial in 2011,
alleging that 50 noncitizens from Somalia voted in an
election in Missouri. Yet, nearly one year earlier, the
Missouri Court of Appeals issued an opinion, Royster v.
Rizzo,98 affirming the trial court’s finding that no fraud
had taken place in that Missouri election. While he
testified that he was not aware of the court opinion at
the time he wrote the op-ed, Mr. von Spakovsky
admitted that he never published a written retraction
of his assertion about Somalian voters illegally
participating in that election.
The record is replete with further evidence of Mr.
von Spakovsky’s bias. Dr. Minnite testified to, and Mr.
von Spakovsky’s CV demonstrates, his longtime
advocacy of voting restrictions. He admitted during his
testimony that, at least as early as 2012, he was
already an advocate for DPOC requirements like the
one at issue in this case. Moreover, as early as 2001,
Mr. von Spakovsky was already of the view that the
NVRA was “a universal failure,” and “was so flawed as
to actually undermine our registration system.”99 Mr.
von Spakovsky also contributed to Defendant’s first
campaign for SOS and wrote an email promoting a
fundraiser for that campaign. He did not disclose these
98

326 S.W.3d 104, 114 (Mo. Ct. App. 2010) (“Royster has failed to
demonstrate that the trial court erred in concluding that all of
these voters were registered and voted for whom the individual
chose without any illegal or fraudulent interference.”).
99

Doc. 509, Trial Tr. at 1118:13–17.

App. 154
facts in his report or on direct examination. When Mr.
von Spakovsky opined in his report that the incidence
of noncitizen registration collected by Ms. Lehman in
Sedgwick County is likely just the “tip of the iceberg,”
he used the exact same phrase employed by Defendant
to describe the same 30 incidents of noncitizen
registration in Sedgwick County in a press release
issued just a few months earlier.100 Indeed, that phrase
has been Defendant’s refrain in this case in describing
the problem of noncitizen voter registration.
As stated above, the Court gives little weight to Mr.
von Spakovsky’s opinions. While his lack of academic
background is not fatal to his credibility in this matter,
the lack of academic rigor in his report, in conjunction
with his clear agenda and misleading statements,
render his opinions unpersuasive. In contrast,
Plaintiffs offered Dr. Lorraine Minnite, an objective
expert witness, who provided compelling testimony
about Defendant’s claims of noncitizen registration. Dr.
Minnite is an associate professor at Rutgers
University-Camden, a tenured position, where her
research focuses on American politics and elections. Dr.
Minnite has extensively researched and studied the
incidence and effect of voter fraud in American
elections. Her published research on the topic spans
over a decade and includes her full-length, peer
reviewed book, The Myth of Voter Fraud, for which Dr.
Minnite has received grants and professional
distinction, and numerous articles and chapters in

100

Compare Ex. 865 at 3 with Ex. 147.

App. 155
edited volumes.101 This topic has been the focus of her
work and research for the past seventeen years. Dr.
Minnite has been offered and accepted as an expert on
the incidence and effect of voter fraud in numerous
cases.102
Notably, Dr. Minnite testified that when she began
researching the issue of voter fraud, which includes
noncitizen voter fraud, she began with a “blank slate”
about the conclusions she would ultimately draw from
the research. This stands in stark contrast to Mr. von
Spakovsky’s starting point as an advocate. In forming
her opinions on the incidence of voter fraud and
noncitizen registration in Kansas, Dr. Minnite relied on
numerous quantitative, qualitative and archival
sources. These include, among other sources, thousands
of news reports, publicly available reports, court
opinions, as well as various documents relied on by
Defendant as evidence of noncitizen registration,
including various iterations of Ms. Lehman’s
spreadsheet and underlying voter registration records.
To evaluate these sources, Dr. Minnite employed a
“mixed methods” research approach, in which different
data sources are triangulated in order to identify
patterns across the sources. This Court found on the
record at trial Dr. Minnite’s methodology is reliable
under Daubert.
Although she admits that noncitizen registration
and voting does at times occur, Dr. Minnite credibly

101

Ex. 140.

102

See id. The Court took judicial notice of these cases at trial.

App. 156
testified that there is no empirical evidence to support
Defendant’s claims in this case that noncitizen
registration and voting in Kansas are largescale
problems. Of the nominal number of noncitizens who
have registered and voted, many of these cases reflect
isolated instances of avoidable administrative errors on
the part of government employees and/or
misunderstanding on the part of applicants.
This testimony is supported by the ELVIS records
underlying the Lehman spreadsheet, discussed supra.
Although the ELVIS records at times are less than
pellucid, mostly due to the many codes insisted upon by
Defendant’s office to continue to track individuals
registered by operation of law pursuant to this Court’s
order, Dr. Minnite could comment and interpret them
without undergoing training as “an election
administrator or DMV clerk.” In fact, both Dr. Minnite
and this Court can draw the reasonable inference from
an ELVIS record where the applicant replied “No” they
were not a United States citizen, that a State employee
erroneously completed the voter registration
application in the face of clear evidence that the
applicant was not qualified.
Dr. Minnite’s testimony is further supported by Dr.
Hersh’s expert testimony. Dr. Hersh explained that the
number of purported incidents of noncitizen
registration found by Defendant is consistent with the
quantity of other low-incidence idiosyncrasies in ELVIS
and in voter files more generally, and is suggestive of
administrative errors. For example, 100 individuals in
ELVIS have birth dates in the 1800s, indicating that
they are older than 118. And 400 individuals have birth

App. 157
dates after their date of registration, indicating that
they registered to vote before they were born. In a state
with 1.8 million registered voters, issues of this
magnitude are generally understood as administrative
mistakes, rather than as efforts to corrupt the electoral
process. Accidental registrations could have occurred as
a result of clerks’ administrative errors in inputting
handwritten data from paper forms. Moreover, the very
low incidence of voting among purported noncitizen
registrants suggests that those individuals ended up in
ELVIS due to accidents, as opposed to intentional
unlawful registrations. The voting rate among
purported noncitizen registrations on Mr. Caskey’s
TDL match list is around 1%, whereas the voting rate
among registrants in Kansas more generally is around
70%. If these purported noncitizen registrations were
intentional, one would expect these individuals to vote
more frequently; the fact that they do not suggests that
these registrations are the product of administrative
mistakes by State employees or by the applicants
themselves.
In short, the Court gives more weight to the careful,
documented, and nonmisleading testimony of Dr.
Minnite and Dr. Hersh on the issue of the significance
of noncitizen voter registration in Kansas.
3. Statistical Estimates
Registration in Kansas

of

Noncitizen

The remaining category of evidence offered by
Defendant to demonstrate the degree of noncitizen
registration in Kansas is statistical estimates
generated by his expert, Dr. Jesse Richman. The Court
admitted Dr. Richman’s expert report and testimony,

App. 158
finding him qualified as an expert in the fields of
elections, voter registration, survey construction and
analysis, and political methodology.
Dr. Richman holds a M.A. and a Ph. D. in Political
Science from Carnegie Mellon University. He is an
associate professor at Old Dominion University and
was the Director of University Social Science Research
Center there for 3 years. Dr. Richman teaches
research, research design, and advanced statistics,
including statistical analysis. His academic research
includes, among other topics, voting and participation,
and he has published 12 or 13 peer-reviewed articles,
several of which involve elections or voting.
Dr. Richman has published one peer-reviewed
article on noncitizen registration, in the British
journal, Electoral Studies. The article was based on
data collected through a survey known as the
Cooperative Congressional Elections Study (“CCES”),
a large online survey concerning American voting
behavior. Dr. Richman is not and has never been
involved in designing or implementing the CCES. He
has published one peer-reviewed paper based on a
survey that he designed, and he has never published
any peer-reviewed research addressing the accuracy of
survey responses for a survey that he designed, or any
peer-reviewed research involving his own efforts to
compare survey responses to government records to
assess the validity of those survey responses. He has
never, other than in this case, designed or implemented
any survey to measure citizenship rates of survey
respondents.

App. 159
Plaintiffs offered the testimony of their rebuttal
expert, Dr. Stephen Ansolabehere to assess Dr.
Richman’s various statistical estimates. Dr.
Ansolabehere is the Frank G. Thompson Chair at
Harvard University in the Department of Government.
He has been on the board of American National
Election Studies for 12 years, which is the longest
running political science research project in the
country, was the founding director of the Caltech/MIT
voting technology project, and has worked for CBS
News since 2006 on the election night decision desk
that designs the surveys used and the data collection
process. He has published a substantial body of peerreviewed work: 5 books and approximately 80 articles
on a variety of topics, including survey research
methods, statistics for analyzing large sample data,
and for matching large surveys. He has received a
variety of research grants. Dr. Ansolabehere has
testified in numerous voting rights cases, which all cite
to his testimony favorably.103
Dr. Ansolabehere is the creator and principal
investigator of the CCES, the survey on which Dr.
Richman relied in his Electoral Studies article on
noncitizen registration. Dr. Richman considers Dr.
Ansolabehere to be knowledgeable about survey
research, and believes that Dr. Ansolabehere has a
good reputation as a political scientist among other
political scientists. Indeed, the Court found his
testimony and report to be persuasive, consistent,
supportable, and methodologically sound. Dr.
Ansolabehere opined that Dr. Richman’s various
103

Ex. 136 at 14–15. The Court took judicial notice of these cases.

App. 160
estimates—collectively and individually—did not
provide statistically valid evidence of noncitizen
registration in Kansas. For the following reasons, the
Court credits Dr. Ansolabehere’s testimony and finds
that Dr. Richman’s estimates are not statistically valid.
a. Estimates of Noncitizen Registration or
Attempted Registration in Kansas
Dr. Richman offers four different estimates based
on four different data sources of noncitizen registration
or attempted registration in Kansas: (1) 14 Kansas
respondents in the 2006–2012 CCES who stated that
they were noncitizens, out of which 4 stated that they
were registered to vote,104 (2) records of approximately
800 newly-naturalized citizens in Sedgwick County, 8
of whom had records of pre-existing registration
applications;105 (3) a survey of 37 TDL holders, 6 of
whom stated that they were registered or had
attempted to register to vote;106 and (4) 19 survey
responses from a group of “incidentally-contacted”
noncitizens, 1 of whom stated that they were registered
or had attempted to register to vote.107 Dr. Richman

104

Ex. 952 at 5.

105

Id.

106

Id. at 10.

107

Id. at 11–12. These individuals were incidentally contacted
during the January 2017 telephone survey commissioned by the
State of Kansas, and conducted by a national polling firm, Issues
and Answers. It surveyed the TDL holders referenced in Dr.
Richman’s third estimate, as well as individuals on the suspense

App. 161
failed to provide margins of error with his original
report for the first three estimates he discussed, and he
admitted during his testimony that such failure does
not conform to peer-review standards for statistical
estimates. Dr. Richman issued a supplemental report
that included margin of error calculations, under
various alternative methods. Nonetheless, all four of
these estimates, taken individually or as a whole, are
flawed.
i. CCES Survey Results—4 of 14 respondents
After extrapolating the CCES survey results of 4 out
of 14 noncitizen registrations to an estimated
noncitizen adult population in Kansas of 114,000, Dr.
Richman estimated that 28.5%, or 32,000 noncitizens,
were registered to vote, with a confidence interval of
between 11.7% and 54.6%.108 The first problem with Dr.
Richman’s estimate is that the sample size is too small.
As both Dr. Richman and Dr. Ansolabehere testified,
estimates based on such small samples have large
margins of error, and do not amount to reliable or
probative statistical evidence.109 To be sure, Defendant
list, and registered voters in Ford, Seward, Finney, and Grant
counties.
108

Defendant attempted to introduce new extrapolated figures
during trial based on a more updated estimate of the noncitizen
voting population. The Court excluded this evidence for failure to
timely supplement.
109

See, e.g., Blackwell v. Strain, 496 F. App’x 836, 843–44 (10th
Cir. 2012) (finding statistical evidence unreliable because sample
size of 7 was too small); Fallis v. Kerr-McGee Corp., 944 F.2d 743,
746 (10th Cir. 1991) (finding sample size of 9 too small to provide

App. 162
discounted this estimate in his opening statement due
to this flaw.
Second, Dr. Richman failed to demonstrate that the
14 CCES respondents were in fact noncitizens. Dr.
Ansolabehere credibly testified, as the creator and
principle investigator of that survey, that individuals
who are U.S. citizens sometimes mistakenly respond
that they are noncitizens, and published a peer
reviewed article explaining this error. He explained
that while this “citizenship misreporting” error
occurred relatively infrequently, the number of errors
is large when compared to the number of individuals
who identify themselves as noncitizens on the CCES,
and thus fatally contaminates any attempt to use the
CCES to make statistical estimates about noncitizens.
Indeed, Dr. Richman’s published findings about
noncitizen voting can be accounted for entirely by
citizenship misreporting. In fact, a group of
approximately 200 political scientists signed an open
letter criticizing Richman’s work on essentially the
same grounds.
Third, Dr. Richman’s CCES estimate suffers from
registration overreporting. Dr. Hersh testified that
social desirability bias sometimes causes individuals to
respond to survey questions that they are registered to
vote when they are not. In a peer-reviewed article, Drs.
Ansolabehere and Hersh have documented
reliable statistical results). Dr. Ansolabehere calculated the
margin of error on this estimate as plus or minus 27.7%. He
testified that a statistician would normally seek a sample size of
1,000 or greater to guarantee a margin of error of plus or minus
3%.

App. 163
overreporting of registration in the CCES. Dr. Richman
testified that he has no reason to doubt Dr.
Ansolabehere’s findings on this issue. In fact, Dr.
Ansolabehere explained that registration overreporting
in Dr. Richman’s survey sample is supported by the
survey results— of the 4 respondents in the CCES
sample who stated that they were registered to vote,
only 1 can be validated to an actual voter file.
Finally, Dr. Richman did not weight the CCES
sample to accurately reflect the population of Kansas.
Even though Dr. Richman weighted his national
estimates of noncitizen registration using CCES data
in his Electoral Studies article, among other things, by
race and Hispanic ethnicity, he did not conduct any
weighting for his estimates of noncitizen registration
based on the same underlying data in his expert
reports.
For all of these reasons, the Court gives no weight
to Dr. Richman’s estimate that 32,000 noncitizens
registered or attempted to register to vote based on
responses to the CCES.
ii. Records of Newly-Naturalized Citizens in
Sedgwick County—8 of 791
To reach a total estimate based on the Sedgwick
County naturalization records, Dr. Richman observed
that in that county, “roughly 1 percent of newly
naturalized citizens since January 1 2016 (8/791)
turned out to have previously registered to vote while
non-citizens.”110 In his supplemental report, Dr.
110

Ex. 952 at 5.

App. 164
Richman applied 1.01% to the updated statewide
estimate of noncitizens in Kansas, estimating that
1,169 noncitizens registered to vote across the state.111
This estimate contains the largest sample size of Dr.
Richman’s various estimates, and therefore should
offer the greatest statistical certainty. But as Dr.
Ansolabehere explained, his results are not statistically
distinguishable from zero, meaning there is so much
uncertainty about this estimate that the number could
be zero or close to it. “[I]t’s just an expression of how
much uncertainty there is and whether we accept the
hypothesis that this is any more than a—a minimal or
de minimus amount of non-citizens in the state
attempting or registering to vote.”112
Dr. Ansolabehere calculated a theoretical margin of
error of plus or minus 3.6%, meaning that Dr.
Richman’s 1% estimate is within the margin of error.
Dr. Richman vehemently disagreed with Dr.
Ansolabehere’s calculation of the theoretical margin of
error, which assumed that “the only source of variation
in estimates is due to random sampling.”113 He
contends that his estimate is within the bounds of
several alternative confidence intervals he calculated
in the supplemental report, although he claims the

111

Ex. 958 at 28. Dr. Richman also provided a lower confidence
boundary of .51%, estimating 576 noncitizen registrations, and an
upper confidence boundary of 1.98%, estimating 2,354 noncitizen
registrations.
112

Doc. 513, Trial Tr. at 1835:1–14.

113

Ex. 102 at 36.

App. 165
“Wilson Score” method is recommended in the field for
the types of estimates he utilizes in this case. Dr.
Richman also points to the fact that his sample
includes confirmed examples of individuals who
registered and then re-registered upon naturalization,
so to suggest that the true figure is zero or below is
plainly erroneous.
But Dr. Ansolabehere explained that he applied a
margin of error that uses a “P” of .5 because that is “the
standard approach to calculating the standard errors”
where, as here, there is no information about the
assumptions of the survey researcher.114 Dr.
Ansolabehere testified that is the conventional method
used by political scientists.115 The “Exact,” “Agresti”,
“Jefferys” and “Wilson Score” methods used in Dr.
Richman’s supplemental report “are all under specific
assumptions and there’s no reporting of any of the
assumptions for the sample data collection, so I have no
reason to believe that those were appropriate methods
as opposed to just applying a bunch of methods that are

114

Doc. 513, Trial Tr. at 1873:21–1874:2; 1810:5–1811:10;
1815:6–25 (“I only received—the only information I had was the
information in Professor Richman’s report. It told me nothing
about what the assumptions of the people were who designed the
study. Those assumptions are what informs the margin of error
calculation. So in the absence of that, we used the conventional
margin of error calculation.”).
115

Dr. Richman admitted during cross-examination that he used
this method in his peer-reviewed Electoral Studies article to
calculate a rate of noncitizen registration nationally. Doc. 512,
Trial Tr. at 1610:1–20.

App. 166
in a toolbox.”116 Dr. Richman points to no assumption
contained in his report that would justify a different
method. The Court is more persuaded by Dr.
Ansolabehere’s testimony about the appropriate
margin of error for Dr. Richman’s estimates and
therefore finds that Dr. Richman’s estimate based on
Sedgwick County data from naturalization ceremonies
is not statistically distinguishable from zero.
Additionally, the estimate of noncitizen registration
based on Sedgwick County naturalization data is not
based on a representative sample of noncitizen adults
in Kansas. This sample includes only newlynaturalized citizens, and categorically excludes
undocumented immigrants and legally present
noncitizens who have not naturalized. Dr.
Ansolabehere testified that noncitizens who naturalize
tend to be older, more stable in their living situations
and better-educated than noncitizens who do not. All of
these factors tend to correlate with higher registration
rates. As a result, an estimate of noncitizens based on
naturalized citizens is likely to overestimate the
number of noncitizens who are registered to vote in
Kansas. Dr. Richman speculated that registration rates
among those about to naturalize are likely to be lower
than registration rates among other noncitizens, but he
acknowledged that he has never done any research that
attempts to quantify or compare registration rates
among those noncitizens who naturalize and those who
do not, and the only authority he cites in support of
that proposition is a news interview with a single
former Immigration and Customs Enforcement officer.
116

Doc. 513, Trial Tr. at 1874:9–1875:2.

App. 167
Dr. Richman did not weight the sample of newlynaturalized citizens to accurately reflect the noncitizen
population of Kansas. Even though he weighted his
estimates of noncitizen registration in his published
research by, among other things, race and Hispanic
ethnicity, and he weighted his suspense list survey by
age and gender, he did not conduct any weighting for
his estimates of noncitizen registration. Dr. Richman
did not collect information from the voter registration
applications of these individuals that, for example,
could have enabled him to weight his sample by age.
Finally, Defendant did not establish that this estimate
is based on noncitizens who had successfully registered
to vote prior to naturalizing. In his initial report in this
case, quoting Ms. Lehman, Dr. Richman noted that the
8 identified noncitizen registrants “were already in
ELVIS,”117 but he admitted that individuals who
merely attempt to register to vote can be found in
ELVIS, even if they never successfully registered.
For these reasons, the Court gives no weight to Dr.
Richman’s estimate that 1,169 noncitizens registered
or attempted to register to vote based on responses to
the CCES.
iii.

TDL List Survey—0 or 6 of 37

Extrapolating the TDL list survey results statewide,
Dr. Richman estimated in his initial report that 16.5%,
or up to 18,000 noncitizens,118 could be registered to
vote. In his opening statement, Defendant cited this
117

Ex. 952 at 5.

118

Id. at 10.

App. 168
figure of 18,000, and described it as the “best estimate”
of noncitizen registration in the State of Kansas. Yet,
Dr. Richman ultimately weighted his estimate based on
the TDL sample to match the overall noncitizen
population in Kansas, which reduced his original
estimate to about 13,000 noncitizen registrations. Dr.
Richman testified that he considers this weighted
estimate to be more reliable than his original 18,000
estimate.
Like the previous two estimates, Dr. Richman’s
estimate based on the TDL list suffers from flaws that
give it little probative value. First, the sample size of
37 is too small to draw credible estimates. Dr. Richman
himself admitted that the TDL sample has “a very
modest sample size,” and that the estimate therefore
has “substantial uncertainty.”119 Assuming the validity
of Dr. Richman’s confidence interval using the Wilson
Score method, it is still a large interval of over 20
percentage points. As the Court has already explained,
this is too uncertain to produce a reliable estimate of
noncitizen registration.
Second, Dr. Richman’s estimate of noncitizen
registration based on the TDL list survey is
attributable entirely to registration overreporting, i.e.,
individuals who said that they had registered or had
attempted to register, but who in fact had done neither.
Dr. Hersh looked for the 6 individuals who selfreported being registered to vote or having attempted
to register to vote in the ELVIS database, but was
unable to find them. This indicates that none of them
119

Doc. 512, Trial. Tr. at 1640:22–1642:7.

App. 169
even attempted to register to vote. Dr. Richman did not
conduct a similar analysis, and did not dispute Dr.
Hersh’s findings in this regard.
Third, as with the newly-naturalized citizen list, Dr.
Richman’s calculations do not provide information
about the number of noncitizens who successfully
registered to vote. The survey instrument he used
asked what Dr. Ansolabehere referred to as a “doublebarreled” question: did the person register to vote or
attempt to register to vote.120
Finally, Dr. Richman did not provide a response
rate for the TDL survey. Although he provided an
estimate for the overall response rate for all of the
surveys performed by Issues and Answers of 16%, he
was unable to provide a response rate for his survey of
TDL holders. It is therefore impossible to assess the
statistical reliability of the TDL survey. He explained
on direct examination that this response rate compares
well to the response rate for national polling, but fails
to consider whether non-response bias could have
affected the results of this survey.121 Dr. Richman’s
failure to consider the response rate for the TDL survey
and whether it was affected by non-response bias
further reduces the value in this estimate of noncitizen
registration.

120

See ex. 109 at 1, qu. 3.

121

See supra note 29 and accompanying text.

App. 170
iv.

Incidentally-Contacted Individuals—1 of
19

Finally, as to the 19 incidentally contacted
noncitizens from his survey, Dr. Richman estimates
that 5.3%, or 6,000 noncitizens, registered or attempted
to register to vote, with a confidence level of between
.9% and 24.6%.
Again, there are several methodological flaws with
this estimate. First, using the conventional method for
calculating the margin of error, the estimate is not
statistically distinguishable from zero. Second, the
sample size is “extremely small,” as Dr. Richman
conceded in his report,122 and therefore has low
statistical power. Using any of the methods of
calculating margins of error that Dr. Richman employs
in his supplemental report, the confidence interval for
this estimate is more than 20 percentage points, which
is too large to form a probative estimate of noncitizen
registration in Kansas.123 Third, the estimate is based
on the same faulty survey question as the TDL survey,
so there is no way to distinguish between a respondent
who registered or attempted to register to vote. And
finally, the sample was not weighted to match the
noncitizen population in Kansas. For all of these
reasons, the Court agrees with Dr. Richman’s

122

123

Ex. 952 at 12.

See Ex. 102 at 19–20 (“The margin of error on that estimate is
so wide that one can have no confidence that the number of noncitizens in Kansas who are registered to vote is larger than the
single case found.”).

App. 171
assessment in his report that his extrapolation based
on this single survey response is “very uncertain.”124
v. Survey of Registered Voters—0 of 576
Included in Dr. Richman’s report, but discounted by
him during his testimony, are survey results from
another component of the Issues and Answers survey.
This survey contacted more than 500 registered voters
in 4 Kansas counties: Ford, Finney, Grant, and Seward.
Dr. Richman explained in his report that these counties
were selected due to their “large non-citizen
populations.”125 Zero respondents indicated that they
were noncitizens, yet Dr. Richman did not calculate an
estimate of noncitizen registration based on this
particular survey, and gave the results short shrift. He
testified that if he had estimated the rate of noncitizen
registration based on this survey, it would be zero.
In his supplemental report, Dr. Richman argued
that because this sampling included citizens, “it is
inappropriate to include as analogous to the other
items,” as it “is an estimate of the percentage of 2008
through 2012 voter registrants who are still on the
voter rolls and still at the phone number provided
when the [sic] registered, and also non-citizens.”126
Given that the Court’s task in this matter is to
determine the number of noncitizens who successfully

124

Id.

125

Ex. 952 at 11.

126

Ex. 958 at 10.

App. 172
registered to vote during the attestation regime, i.e.,
before 2013, the Court is not persuaded by Dr.
Richman’s conclusory legal assertion about the
relevance of this data. To the contrary, this data
appears to be highly relevant to the Court’s endeavor.
If Defendant’s contention is true that substantial
numbers of noncitizens registered to vote before the
DPOC law was passed, one would expect this number
to be higher than zero, particularly given the robust
sample size as compared to Dr. Richman’s other
estimates, and even assuming some level of social
desirability bias. These results do not support Dr.
Richman’s overall opinion, and the Court is not
persuaded by his attempt to eliminate it from his
analysis.
vi.

Meta-Analysis

Because Dr. Richman failed to identify a “best
estimate” among his myriad calculations, Dr.
Ansolabehere performed a “meta-analysis” of Dr.
Richman’s four estimates along with the results of the
registered voters survey, weighting them based on
sample size. Assuming all this data is accurate, taken
together Dr. Ansolabehere estimates a 1.3% rate of
noncitizen registration with a wide margin of error of
7.6%. Given this margin of error, a collective estimate
of Dr. Richman’s results is not statistically
significant—there is so much uncertainty associated
with them that “there can be no confidence that the
number of non-citizen registration is more than the
nominal cases in the sample. It is not possible to reject
the hypothesis that the rate of non-citizen registration

App. 173
in the State of Kansas is different from zero.”127 Dr.
Richman responded to these calculations in his
supplemental report, producing his own meta-analysis
for the first time with his own confidence interval
calculations, ranging from 1.1% to 1.8%. As already
described, the Court was more persuaded by Dr.
Ansolabehere’s explanation of the appropriate margin
of error that applies to Dr. Richman’s calculations.
The Court finds Dr. Richman’s testimony and report
about the methodology and basis for concluding that a
statistically significant number of noncitizens have
registered to vote in Kansas, are confusing,
inconsistent, and methodologically flawed. Most
importantly, his refusal to opine as to the accuracy of
any one estimate undercuts this Court’s ability to
determine that any one of his wildly varying estimates
is correct. The extrapolations included in his report and
testimony range from 0 to 32,000 noncitizen
registrations. Given this range of estimates, most of
which are based on sample sizes that cannot produce
reliable results, this Court finds none of them
represents an accurate estimate of the numbers of
noncitizens registered to vote in Kansas.
b. Survey Results
Dr. Richman further testified about his survey of
over 1,300 individuals on the suspense list. Seven of
these respondents reported that they were noncitizens.
After weighting, he estimated that these results
demonstrate that .7% of the suspense list are

127

Ex. 102 at 6.

App. 174
noncitizens, although his report concedes that “given
the small sample size, any inference about the precise
magnitude of the non-citizen presence on the suspense
list is fraught with substantial uncertainty.”128 Beyond
Dr. Richman’s admission that the sample size renders
this estimate substantially uncertain, there are other
problems with the estimate. First, although Dr.
Richman did not provide a margin of error, Dr.
Ansolabehere did, and determined that Dr. Richman’s
estimate that 0.7% of the people on the suspense list
are noncitizens is statistically indistinguishable from
zero. Dr. Richman did not dispute Dr. Ansolabehere’s
finding in this regard. Moreover, taken at face value,
the corollary to Dr. Richman’s estimate that 0.7% of
people on the Suspense List are noncitizens, is that
more than 99% of the individuals on the suspense list
are United States citizens.
Second, Dr. Richman weighted his sample by
various characteristics that, in his view, could correlate
with citizenship status, including age, gender, party
identification, geographic region, year of registration,
and “foreign name,” in order to account for differences
between the sample and the suspense list. After
weighting the sample, he concluded that 117
individuals on the suspense list are noncitizens. Dr.
Richman and a graduate student assistant went
through the suspense list and determined which names
were, in their view, foreign. Neither Dr. Richman nor
his assistant had any experience in identifying socalled foreign names. By his own admission, their
determinations were subjective and based primarily on
128

Ex. 952 at 8.

App. 175
whether the name was “anglophone,”129 meaning
originating in the British Isles. Dr. Richman also
testified that their work was performed quickly, and
that they made many mistakes along the way. A review
of their coding revealed inconsistencies; for example, of
five individuals with the last name of “Lopez,” two were
coded as foreign and three were coded as non-foreign.
On cross examination, Dr. Richman admitted that he
would have coded Carlos Murguia, a United States
District Judge sitting in this Court, as foreign.
E. Alternative Methods of Enforcing Citizenship
Eligibility
The parties presented evidence about several
methods of enforcing the State’s citizenship eligibility
requirement for voter registration, other than the
DPOC law.
1. DOV List Comparisons
The DOV has compared the list of individuals on the
suspense list to information in the DOV database
concerning driver’s license holders who presented proof
of permanent residency (or “green cards”) in the course
of applying for a driver’s license, and identified possible
noncitizens. There is no evidence that the SOS’s Office
has conducted vigorous follow-up investigations on
these individuals to determine if they were still
noncitizens at the time they applied to register to vote.
Similarly, as the Court has already found,
Defendant’s office has compared the TDL list to the

129

Doc. 512, Trial Tr. at 1595:18–1598:6.

App. 176
ELVIS database four times in the last decade. As of
January 30, 2017, Defendant has identified 79
individuals through matching these lists. While
showing some false positives, this method has allowed
Defendant to identify some noncitizens on the voter
rolls.
2. DOV Training
Brad Bryant, the former Elections Director for the
SOS’s Office, testified by deposition that in the mid1990's into the early 2000’s, the DOV believed that
under the NVRA it was required to offer voter
registration to any driver’s license applicant, regardless
of citizenship. “[T]here was nobody telling them be
careful if somebody is not a citizen.”130 Mr. von
Spakovsky testified that after the NVRA was passed,
there was a nationwide problem with State motor
vehicle offices offering voter registration to noncitizens.
He opined that motor vehicle officials did not want
their clerks making judgment calls about whether an
applicant should be offered the right to register to vote.
He testified that several states took the position that
voter registration should be offered to every applicant.
Bryant recalls a greater effort in 2010 when Chris
Biggs was SOS, to make clear to the DOV that its
employees need not offer voter registration forms to
noncitizens.131 The SOS’s Office relied primarily on
posters sent to each DOV office throughout the State,
to clarify that noncitizens could not register to vote.
130

Doc. 493 at 83:12–25.

131

Id. at 85:16–88:7.

App. 177
Nonetheless, since the time of this effort in 2010, there
is evidence that DOV employees sometimes mistakenly
offered noncitizens voter registration applications, and
that even when applicants denied U.S. citizenship, the
application was completed by the clerk, creating an
ELVIS file. This evidence included the email between
Ms. Lehman and Mr. Bryant lamenting this problem
with DOV registration of obvious noncitizens. Since Mr.
Caskey has been Elections Director, it has been the
SOS’s Office’s policy that noncitizens should not be
offered the opportunity to register to vote at the DOV,
yet his office has not drafted a written instruction to
DOV clerks to not offer voter registration applications
to noncitizens.
Another problem revealed by this record, and
confirmed by Mr. Caskey, is that at least for some
period the DOV did not accept DPOC offered by
applicants if it was unnecessary to fulfill the proof of
residency requirement to obtain a driver’s license. Mr.
Caskey testified, “I’m aware of many cases where a
person brought a documentary proof of citizenship
document and it was not needed as part of their
driver’s license application and was not scanned in the
system and as part of their voter registration record.”132
Mr. Caskey testified as follows about the scope of
the SOS’s role in training DOV staff:
Our office routinely talks with the
Division of Motor Vehicles executive staff
as well as their trainers concerning

132

Doc. 507, Trial Tr. at 740:3–7.

App. 178
requirements that the Division of Motor
Vehicles has to comply with the National
Voter Registration Act as it relates to
offering the opportunity to register to vote
to anyone who conducts a transaction at
the Division of Motor Vehicles.
We also periodically review any changes
in the state and federal law regarding
elections. Previously we have reviewed
the training materials that their trainers
use. DMV routinely uses kind of a train-atrainer approach where they have a group
of trainers who then train their individual
field offices. So we have provided—in
years past, we provided posters and
reviewed their training materials, you
know, over the last 10 to 15 years.133
DOV clerks in Kansas receive, on average, no more
than 30 minutes of training regarding motor voter
registration laws during their two-day in-classroom
training. They were provided updated training after
the SAFE Act became effective in 2013. Between
February 2015 and June 2016, the SOS’s Office did not
provide any new written training materials to the DOV
concerning motor voter registration laws. And Mr.
Caskey testified that there have been no recent
changes to DOV training or procedures.
Mr. Caskey is also charged with providing
instruction and training to the 105 county election

133

Id. at 881:13–882:3.

App. 179
officials on the rules and regulations governing
elections. There is an electronic training manual
maintained by Mr. Caskey that used to be available
online. It was last revised in 2012 to reflect the DPOC
law. The office does not update the document as
procedures change. Instead, Mr. Caskey testified that
his office provides training to the counties by e-mail
and phone, and that they attend regional and statewide
meetings. Mr. Caskey and Defendant insist, however,
that they have no authority to force the counties to
comply, and that it is impractical to monitor whether
they are implementing the SOS’s policies.
3. Department of Homeland Security’s
Systematic Alien Verification for
Entitlements Program
The Systematic Alien Verification for Entitlements
(“SAVE”) program is overseen by the United States
Department of Homeland Security (“DHS”). In a letter
dated August 20, 2012, DHS notified Kansas that
States will be able to access SAVE to
verify the citizenship status of individuals
who are registered to vote in that state
provided that the requesting state has a
signed information sharing agreement
with the Department of Homeland
Security and that each state be able to
supply for each individual it seeks to
verify (1) a specific type of unique
identifier like an alien number or
certificate number that appears on
immigration-related documentation, and
(2) a copy of the immigration-related

App. 180
documentation in question to complete
the verification process.134
On this basis, Defendant maintains that “A-numbers”
or Alien Verification Numbers (“AVNs”) are required to
run SAVE searches, such that this is not a viable
option because this information is not required on the
registration application.
But the trial record demonstrates two instances
where the SOS’s Office has confirmed noncitizenship
status of registrants through DHS: (1) it confirmed
noncitizenship of three individuals who stated they
were noncitizens on juror questionnaires in 2017; and
(2) it confirmed noncitizenship of 6 respondents to Dr.
Richman’s TDL survey.135 Moreover, Mr. Caskey
acknowledged in his testimony that other states such
as Florida, Virginia, and Colorado use, or have
attempted to use, SAVE for voter registration purposes.
Mr. Caskey has not contacted any of these states’
election officials to learn how they utilized SAVE.
Other agencies in Kansas have access to noncitizen
documentation that could be used for SAVE searches.
For example, DOV collects noncitizen documents when
it issues TDLs. While the SOS obtains information
from the DOV to confirm whether a driver’s license
applicant has provided DPOC, it does not obtain Anumber information or copies of noncitizen documents
from the DOV. The SOS has not requested from the
Legislature a law that would enable it to obtain A134

Pretrial Order Stipulation, Doc. 349 ¶ 106.

135

See Ex. 952 at 10.

App. 181
number information or copies of noncitizen documents
from the DOV, and has not investigated whether other
agencies in Kansas (such as the KDHE) have AVN
information that could be used for SAVE searches.
4. Prosecutions
Former Deputy SOS Eric Rucker, an experienced
prosecutor, testified by deposition that criminal
prosecutions can prevent and deter criminal conduct.
Since July 1, 2015, Defendant has had the independent
authority to prosecute any person who has committed
or attempted to commit any act that constitutes a
Kansas elections crime.136 Since July 1, 2015, the SOS’s
Office has become aware of multiple instances of
noncitizens registering to vote in Kansas. Since
obtaining prosecutorial authority over Kansas elections
crimes, the SOS has filed zero criminal complaints
against a noncitizen for allegedly registering to vote. As
of June 20, 2017, Defendant has filed one criminal
complaint and obtained one conviction against an
individual who actually voted while being a noncitizen.
5. Juror Questionnaires
In Kansas, people who are called for jury service are
sent jury duty questionnaires that include a question
about U.S. citizenship. District Courts send to the
SOS’s Office on at least a monthly basis the lists of
individuals who requested to be excused from jury
service based on their claims of noncitizenship. The
SOS’s Office has compared lists of individuals who

136

K.S.A. § 25-2435(a).

App. 182
answered on their jury questionnaires that they were
not citizens with the voter registration roll.
As of March 24, 2017, Defendant identified 3
individuals who were on the voter rolls but who had
self-identified as noncitizens on their jury
questionnaires. An investigator employed by Defendant
provided the full names and dates of birth of the 3
individuals who had self-identified as noncitizens on
their jury questionnaires to the DHS via email. After
receiving the full names and dates of birth of the 3
individuals who had self-identified as noncitizens on
their jury questionnaires from the investigator, DHS
responded with an email describing information known
to DHS about the immigration and citizenship status
of these 3 individuals. The response from DHS was the
first time in Mr. Caskey’s experience that DHS has
aided the SOS, despite seeking assistance in the past.
Only noncitizens called for jury duty can be identified
by comparing ELVIS records with jury questionnaires.
III. Justiciability Challenges
Defendant has challenged Plaintiffs in both cases
repeatedly on standing and mootness grounds.
Defendant challenges Plaintiff Bednasek’s standing
because he has access to DPOC yet fails to produce it,
and because he is a Texas resident. Defendant asserts
that the claims of the individual Fish Plaintiffs are
moot. The Court has addressed these challenges in
detail in prior orders, but briefly addresses them again
to the extent they are raised in Defendant’s proposed
findings of fact and conclusions of law, and addresses
the mootness of Mr. Fish’s claim sua sponte.

App. 183
A. Parker Bednasek
Defendant challenges Bednasek’s standing on the
basis that he is a Texas, not Kansas, resident, and
because he has access to DPOC. The Court has twice
addressed and rejected Defendant’s standing
arguments in prior, lengthy orders.137 The Court
incorporates by reference those rulings, and finds no
further evidence presented at trial changes those
decisions.
B. William Stricker, III, Thomas Boynton,
Douglas Hutchinson, and Steven Wayne Fish
Defendant challenges the claims asserted by
Plaintiffs Stricker, Boynton, and Hutchinson in Case
No. 16-2105 on mootness grounds because they have
become fully registered while this case has been
pending and a favorable decision would not change
their status. These challenges have been raised and
rejected. The record shows that all 3 Plaintiffs’ voter
registration applications were canceled under the
DPOC law before they were resurrected by operation of
the Court’s preliminary injunction order. But for that
order, which required Defendant to register motor
voter applicants whose applications had been
suspended or canceled, these Plaintiffs would have
been required to file new applications for registration
to become registered.
Mr. Stricker’s voter registration application was
canceled in the ELVIS system in 2015. His registration
was reinstated by operation of the preliminary
137

Bednasek Docs. 107 at 8–15, 165 at 15–17.

App. 184
injunction on June 22, 2016. Only after his registration
was reinstated pursuant to the Court’s preliminary
injunction order did Defendant investigate behind the
scenes and locate a citizenship document.
Unfortunately for Mr. Stricker, this was well after he
was denied the right to vote in the 2014 election.
On November 5, 2015, Prof. Boynton’s voter
registration application was canceled. According to Mr.
Caskey, the SOS’s Office later found a citizenship
document through the DOV web portal after that
access was granted in May 2016, after Prof. Boynton’s
registration was reinstated by operation of the
preliminary injunction. Prof. Boynton’s ELVIS file
shows that a certified United States birth certificate
was found and added on August 4, 2014
notwithstanding the fact that Mr. Caskey testified that
Mr. Boynton did not apply to register to vote until
November 4, 2014, Election Day.
Plaintiff Hutchinson’s 2013 motor voter application
was suspended for failure to provide DPOC, and it was
ultimately canceled on January 27, 2016. He was
registered by operation of this Court’s preliminary
injunction order. On July 30, 2016, his status changed
to active after he submitted DPOC at the Johnson
County Election Office and is now considered “fully
registered.”
But for this lawsuit and the preliminary injunction,
these applications would not have been reinstated and
they each would have been required to reapply to
register to vote. Under these circumstances, the Court
finds Defendant has not met his burden of
demonstrating mootness for the same reasons

App. 185
explained in the Court’s May 4, 2017 Memorandum
and Order.138 Defendant’s unilateral enforcement
actions of the statute, which have been a moving target
since this case’s inception, and which were possible due
to this Court’s Order, do not render these Plaintiffs’
claims moot. In fact, this Court previously warned
Defendant that if he “continues his pattern of picking
off Plaintiffs through targeted back-end verifications in
an attempt to avoid reaching the merits of this case,
the Court may be inclined to revisit its previous
decision denying Plaintiffs’ motion for class
certification.”139
There is one exception to the Court’s mootness
ruling, which this Court addresses sua sponte because
it is jurisdictional. “If an intervening circumstance
deprives the plaintiff of a ‘personal stake in the
outcome of the lawsuit,’ at any point during litigation,
the action can no longer proceed and must be dismissed
as moot.”140 Mr. Fish testified that in September or
October 2016, he relocated within Douglas County and
changed his address with the DOV in person. At that
time, Mr. Fish filled out a second voter registration
application and provided his birth certificate. He is now
registered to vote, having provided DPOC. The
evidence demonstrates that Mr. Fish’s active
registration status is therefore not due to the Court’s
138

Doc. 334 at 14–19.

139

Id. at 19.

140

Campbell-Ewald Co. v. Gomez, 136 S. Ct. 663, 669 (2016)
(quoting Genesis Healthcare Corp. v. Symczyk, 569 U.S. 66, 72
(2013)).

App. 186
preliminary injunction, but his voluntary action of
reapplying to register to vote at which time he provided
DPOC. Unlike the other 3 Plaintiffs, whose
applications were canceled but resurrected due to the
unilateral efforts of Defendant, Mr. Fish filed a new
application in full compliance with the DPOC law while
this action was pending. Therefore, although he
suffered an injury at the time the Complaint was filed,
he no longer suffers an injury that can be redressed in
this case and his remaining claim must be dismissed as
moot.
IV. Conclusions of Law in Fish v. Kobach, 16-2105
The parties in the Fish case went to trial on the only
remaining claim in this case—Count 1, which alleges a
violation of § 5 of the National Voter Registration Act
(“NVRA”) based on preemption under the Election
Clause in Article 1 of the United States Constitution.
Section 5 of the NVRA requires that every application
for a driver’s license, “shall serve as an application for
voter registration with respect to elections for Federal
office.”141 Subsection (c)(2)(B)–(C) of § 5 provides:
(2) The voter registration application
portion of an application for a State motor
vehicle driver’s license—
....
(B) may require only the minimum
amount of information necessary to—
141

52 U.S.C. § 20504(a)(1). The Court refers to the sections of the
NVRA as they appear in Pub. Law No. 103-31, 107 Stat. 77, 77–89
(1993), but cites to the codified version of the Act.

App. 187
(i) prevent duplicate voter registrations;
and
(ii) enable State election officials to assess
the eligibility of the applicant and to
administer voter registration and other
parts of the election process;
(C) shall include a statement that—
(i) states each eligibility requirement
(including citizenship);
(ii) contains an attestation that the
applicant meets each such requirement;
and
(iii) requires the signature of the
applicant, under penalty of perjury.142
Under the NVRA, Defendant is “responsible for
coordination of State responsibilities” under the
NVRA.143
Shortly after this case was filed, Plaintiffs
successfully moved for a preliminary injunction based
on their likelihood of success on the merits of their § 5
claim. Defendant appealed, and the Tenth Circuit
affirmed, providing detailed guidance on whether the
Kansas DPOC law is preempted by § 5's mandate that
a motor-voter registration application contain the
minimum-amount of information necessary for the
state to exercise its eligibility-assessment and
registration duties.

142

Id. § 20504(c).

143

52 U.S.C. § 20509.

App. 188
In its opinion, the Tenth Circuit set forth the
applicable rules of statutory interpretation and
preemption under the Elections Clause, interpreted the
NVRA’s requirements under § 5, and applied that
interpretation to the facts as found by this Court in its
preliminary injunction order. In the course of its
detailed analysis, the Tenth Circuit “rejected Secretary
Kobach’s readings of the NVRA.”144 As the Court
previously explained on summary judgment, under
both the law of the case doctrine, and the mandate
rule, the Tenth Circuit’s opinion with regard to issues
of law governs at all subsequent stages of the
litigation.145 The Court therefore proceeds to apply the
standards announced by the Tenth Circuit in its
October 19, 2016 published opinion in this case to the
trial record. The Court once again declines to revisit
Defendant’s arguments that were resolved by that
opinion.146

144

Fish v. Kobach, 840 F.3d 710, 746 (10th Cir. 2016).

145

See, e.g., Dish Network Corp. v. Arrowwood Indem. Co., 772 F.3d
856, 864 (10th Cir. 2014).

146

On June 13, 2018, Defendant submitted a Notice of
Supplemental Authority (Doc. 540), pointing the Court to the
recently-decided Supreme Court decision, Husted v. A. Philip
Randolph Inst., No, 16-980, 2018 WL 2767661 (June 11, 2018). In
Husted, the Court construed § 8 of the NVRA, which governs the
States’ ability to remove voters from registration rolls on changeof-residence grounds. See id. at * 3–5 (discussing 52 U.S.C.
§ 20507(b)(c) and (d)).
Defendant argues that the Husted decision calls into question
the Tenth Circuit’s interpretation of § 5 in this case because, like
the lower courts in Husted, it reads an implicit prohibition into the

App. 189
The Tenth Circuit held that the attestation
requirement in § 5(c)(2)(C) presumptively satisfies the
minimum-information requirement for motor voter
registration in subsection (c)(2)(B).147 However, this
presumption is rebuttable if the state can demonstrate
“that the attestation requirement is insufficient for it

NVRA that is not permitted by the text. The Court does not read
Husted so broadly. That decision entails a statutory interpretation
of a different section of the NVRA, which construes different
language. Absent an on-point ruling that applies to § 5, this Court
is bound by the Tenth Circuit’s guidance and leaves it to that court
to determine whether Husted impacts its prior ruling.
Defendant also suggests that the policy arguments advanced
by Plaintiffs about less burdensome alternatives to the DPOC law
are policy arguments foreclosed by Husted. Again, the Court reads
Husted to deal only with the issue of statutory interpretation of § 8
of the NVRA. The majority rejected the dissents’ arguments, which
it characterized as “policy disagreement[s],” and stated that the
“only question before us” is whether Ohio’s law violated federal
law, specifically § 8 of the NVRA. The less burdensome
alternatives argument in this case, referenced by Defendant, is not
a policy justification for rejecting the DPOC law as preempted by
§ 5 of the NVRA. Instead, it is part of the test formulated by the
Tenth Circuit, which only applies if Defendant makes a showing
that substantial numbers of noncitizens successfully registered to
vote under the attestation regime. This two-part test was
formulated as a method of interpreting the minimum-information
principle in § 5(c)(2)(B), language not at issue in Husted. Again,
the Court remains bound by the Tenth Circuit’s statutory
construction of § 5, and leaves Defendant’s challenges to that court
to accept or reject.
147

Fish, 840 F.3d at 738.

App. 190
to carry out its eligibility-assessment and registration
duties.”148 The court went on:
More specifically, in order to rebut the
presumption as it relates to the
citizenship criterion, we interpret the
NVRA as obliging a state to show that “a
substantial number of noncitizens have
successfully registered” notwithstanding
the attestation requirement. In EAC, we
held that the EAC was not under a
nondiscretionary duty to add statespecific DPOC instructions to the Federal
Form at two states’ behest. We reached
this conclusion because “[t]he states have
failed to meet their evidentiary burden of
proving that they cannot enforce their
voter qualifications because a substantial
number of noncitizens have successfully
registered using the Federal Form.” The
failure to make such an evidentiary
showing was seemingly dispositive there
of Secretary Kobach’s Qualifications
Clause challenge
....
This results in the preemption analysis
here being quite straightforward: if
Kansas fails to rebut this presumption
that attends the attestation regime, then
DPOC necessarily requires more

148

Id.

App. 191
information than federal law presumes
necessary for state officials to meet their
eligibility-assessment and registration
duties (that is, the attestation
requirement). Consequently, Kansas’s
DPOC law would be preempted.149
In a footnote, the court explained that if a state could
show that attestation does not satisfy the minimuminformation standard by demonstrating that
substantial noncitizens are able to register to vote
notwithstanding attestation of citizenship, then this
Court would need to consider whether DPOC should be
deemed “adequate to satisfy” the minimum-information
standard.150 This second inquiry would require the
state to “show that nothing less than DPOC is
sufficient to meet those duties.”151
In its preliminary injunction order, this Court found
that between 2003 and the effective date of the DPOC
law, 14 noncitizens had registered or attempted to
register to vote in Sedgwick County, Kansas. The
Tenth Circuit found that this number “fall[s] well short
of the showing necessary to rebut the presumption that
attestation constitutes the minimum amount of
information necessary for Kansas to carry out its

149

Id. at 738–39 (quoting and citing Kobach v. U.S. Election
Assistance Comm’n, 772 F.3d 1183 (10th Cir. 2014)).
150

Id. at 738 n.14.

151

Id.

App. 192
eligibility-assessment and registration duties.”152 In
addressing this evidence, the court considered and
rejected Defendant’s argument that “even if one
noncitizen successfully registers under the attestation
regime, then DPOC is necessary to ensure applicant
eligibility.”153 This is because in adopting the NVRA
registration procedures, Congress intended “to ensure
that whatever else the states do, ‘simple means of
registering to vote in federal elections will be
available.’”154 If 1 vote by a noncitizen is too many, then
states would be able to justify even harsher means of
verifying citizenship.155 The court explained, “[t]he
NVRA does not require the least amount of information
necessary to prevent even a single noncitizen from
voting.”156
After remand, the Court reopened discovery in the
Fish matter related to the Tenth Circuit’s test.
Defendant was given the opportunity to retain experts
and marshal evidence to meet his burden of
demonstrating that “a substantial number of
noncitizens have successfully registered to vote under
the attestation requirement” in order to rebut the
presumption that attestation meets the minimum-

152

Id. at 747.

153

Id. at 747–48.

154

Id. at 748 (quoting Arizona v. Inter Tribal Council of Ariz., Inc.
(“ITCA”), 133 S. Ct. 2247, 2255 (2013)).
155

Id.

156

Id.

App. 193
information requirement of § 5157 and that nothing less
than DPOC is sufficient to meet his eligibilityassessment and registration duties under the NVRA.
As described below, the Court finds that on the trial
record Defendant has failed to make a sufficient
showing on the first inquiry. Moreover, even if
Defendant could demonstrate a substantial number of
noncitizen registrations, he has not demonstrated that
nothing less than the DPOC law is sufficient to enforce
the State’s citizenship eligibility requirement.
A. Substantial Number of Successful Noncitizen
Registrations Under Attestation
Under the first part of this test, the parties dispute
the meaning of “substantial.” Defendant has argued
that “substantial” should be interpreted to mean any
number that can change the outcome an election.
Plaintiffs argue that “substantial” must be evaluated in
comparison to the number of total registered voters. In
its summary judgment order, the Court provided the
parties with guidance as to how it would apply the
standard. After reviewing the Tenth Circuit’s opinion
in this case, and the decisions upon which it rested,158
157

Id. at 739. Defendant cites this Court’s summary judgment
order for the proposition that this is a purely legal question. See
Doc. 523 at 52 (citing Doc. 421 at 18). That is not an accurate
recitation of the Court’s ruling when read in context. The Court
must decide the meaning of “substantial” as a matter of law under
the test formulated by the Tenth Circuit. However, the Court must
determine as the trier of fact whether Defendant’s evidence of
noncitizen registration meets that definition.
158

Fish, 840 F.3d at 733–39; ITCA, 133 S. Ct. at 2259–60; Kobach
v. U.S. Election Assistance Comm’n, 772 F.3d 1183, 1195–96 (10th

App. 194
this Court found that Defendant’s showing must go
beyond the number of registrations that would impact
the outcome of an election to be substantial. Instead,
the Court considers the number of noncitizen
registrations in relation to the number of registered
voters in Kansas as of January 1, 2013, when the
DPOC law was passed, and is otherwise guided by legal
authority cited with approval by the Tenth Circuit in
its October 2016 ruling when determining whether
Defendant’s evidence meets the threshold of
“substantial.”159
During his opening statement at trial, Defendant
invited the Court to adopt a third approach to
substantiality he deemed a “functional failure test.”
Under Defendant’s test, the Court would determine
whether a reasonable person would find that the
attestation requirement failed to perform the function
of preventing noncitizens from registering to vote.
Defendant offers no explanation about how the Court
is to apply this test, nor any authority for using a
“reasonable person” test. Moreover, Defendant’s
proposed approach effectively modifies the Tenth
Circuit’s test by removing the words “substantial
number.” The plain meaning of the word “substantial”
when describing an amount, means “considerable in

Cir. 2014) (reviewing Mem. Decision Concerning State Requests to
Include Add’l Proof-of-Citizenship Instructions on the National
Mail Voter Registration Form, Case No. EAC-2013-0004 (U.S.
Election Assistance Comm’n Jan. 17, 2014), attached as Doc. 36725).
159

Doc. 421 at 29.

App. 195
quantity; significantly great.”160 By asking this Court to
consider whether attestation “functions” a certain way,
instead of quantifying the noncitizens allowed to vote
under attestation—a straightforward question— this
inquiry runs afoul of the test formulated by the Tenth
Circuit.
Defendant makes no mention of his “functional
failure test” in his proposed findings of fact and
conclusions of law. Instead, he argues for the first time
that the Court should look to social security cases
construing “substantial” in the context of reviewing
administrative law judges’ (“ALJ”) decisions about
whether “substantial gainful activity exists in
significant numbers in the national economy,” an
inquiry relevant to a disability determination under the
Social Security Act.161 The Court does not find this line
of cases helpful or relevant in determining the meaning
of substantial in this case. First, the social security
cases review ALJ decisions to determine if they are
supported by substantial evidence in the record, a
different standard of review than this Court employs
during a civil bench trial.162 Second, those cases
construe the term “significant number,” not
“substantial number,” in an entirely different context,
guided by such factors as “the level of claimant’s
disability; the reliability of the vocational expert’s
160

Merriam Webster’s Collegiate Dictionary at 1174 (10th ed.
1996).
161

See, e.g., Trimiar v. Sullivan, 966 F.2d 1326, 1329 (10th Cir.
1992).
162

Id. at 1330.

App. 196
testimony; the distance claimant is capable of
travelling to engage in the assigned work; the isolated
nature of the jobs; the types and availability of such
work, and so on.”163 Obviously, none of these factors are
relevant to the question before the Court in this case.
Instead, the Court considers whether Defendant’s
evidence of noncitizen registration is substantial
according to the guidance provided at summary
judgment, which relied on cases determining this
question in the context of noncitizen voter registration.
For the reasons already explained, the Court finds
no credible evidence that a substantial number of
noncitizens registered to vote under the attestation
regime. The only information about Kansas
registration rates relied upon by Mr. von Spakovsky
was provided to him by Mr. Caskey, and the Court has
already evaluated that underlying data in more detail
than Mr. von Spakovsky, who simply accepted the
numbers as true. His generalized opinions about the
rates of noncitizen registration were likewise based on
misleading evidence, and largely based on his
preconceived beliefs about this issue, which has led to
his aggressive public advocacy of stricter proof of
citizenship laws. The Court likewise does not find Dr.
Richman’s opinion as to the numbers of noncitizen
registration carry weight given the numerous
methodological flaws set forth in the Court’s findings of
fact.
That leaves Defendant’s empirical evidence of
noncitizen registration. He has submitted evidence of
163

Id.

App. 197
129 instances of noncitizen registration or attempted
registration since 1999, but looking closely at those
records reduces that number to 67 at most. Even these
67 instances are a liberal estimate because it includes
attempted registrations after the DPOC law was
passed, a larger universe than what the Tenth Circuit
asked the Court to evaluate. Only 39 successfully
registered to vote. And several of the individual records
of those who registered or attempted to register show
errors on the part of State employees, and/or confusion
on the part of applicants. They do not evidence
intentional fraud. As discussed below, in determining
whether nothing less than requiring DPOC is sufficient
to enforce the citizenship requirement, it matters
whether noncitizens are intentional registrants or not.
Moreover, the Court is unable to find empirical
evidence that a substantial number of noncitizens
successfully registered to vote under the attestation
regime. As stated in the Court’s findings of fact, there
are only 39 confirmed noncitizens who successfully
registered to vote between 1999 and 2013 when the
DPOC law became effective. This is but .002% of all
registered voters in Kansas as of January 1, 2013
(1,762,330). Furthermore, the 67 confirmed
registrations and attempted registrations between
1999 and 2018 amounts to only .004% of registered
voters.164 Of the estimated 115,500 adult noncitizens in

164

The Court’s finding would be no different if it fully credited the
129 instances cited by Defendant.

App. 198
Kansas,165 .06% have successfully registered or
attempted to register to vote since 1999. The number of
attempted noncitizen registrations since the DPOC law
became effective is .09% of the total number of
individuals canceled or suspended as of March 31,
2016, for failure to provide DPOC. The Court finds
none of these numbers are substantial when compared
to the total number of registered voters, the total
number of noncitizens in Kansas, or the number of
applicants on the suspense/cancellation list as of March
2016. They all fall below 1%. Instead, these numbers
support the opinions of Drs. Minnite, McDonald, and
Hersh that while there is evidence of a small number
of noncitizen registrations in Kansas, it is largely
explained by administrative error, confusion, or
mistake.
Defendant insists that these numbers are just “the
tip of the iceberg.” This trial was his opportunity to
produce credible evidence of that iceberg, but he failed
to do so. The Court will not rely on extrapolated
numbers from tiny sample sizes and otherwise flawed
data. Dr. Richman’s estimates were not only
individually flawed and wildly varied, but his refusal to
opine as to the best method of estimating the iceberg
renders them all suspect. Mr. von Spakovsky’s opinions
fare no better. His advocacy led him to cherry pick
evidence in support of his opinion, and he failed to
demonstrate knowledge of Kansas noncitizen
registration that would allow him to reliably quantify
the iceberg beyond Mr. Caskey and Ms. Lehman’s
165

See Ex. 958 at 28 (citing the American Community Survey’s 5year estimate of the noncitizen population in Kansas).

App. 199
testimony. While the Court acknowledges that
Defendant has limited tools at his disposal to quantify
the statewide numbers of noncitizen registrations, the
Court does not assume as Defendant does that this
means there must be additional, substantial cases of
noncitizen registration. Instead, the Court draws the
more obvious conclusion that there is no iceberg; only
an icicle, largely created by confusion and
administrative error.
B. Alternatives to DPOC
Although the Court finds Defendant has not met his
burden of showing a substantial number of successful
noncitizen registrations under attestation in Kansas,
out of an abundance of caution it proceeds to consider
whether “nothing less than DPOC is sufficient to meet”
Kansas’s NVRA eligibility-assessment and registration
duties. The parties presented evidence about the
following alternatives to enforcing the Kansas
citizenship requirement: (1) better training of State
employees, particularly at the DOV; (2) list matching;
(3) reviewing juror questionnaires; (4) the SAVE
program; and (5) prosecution and enforcement of
perjury for false attestations.166
The Court begins its analysis of this part of the test
by finding that no system for detecting noncitizen

166

There was evidence at trial about the Electronic Verification of
Vital Events (“EVVE”) program as a possible alternative
enforcement mechanism. Plaintiffs did not pursue this as an
acceptable alternative, and the evidence showed that it required
information such as the applicant’s state of birth, not captured by
the voter registration application.

App. 200
registration is perfect because there is no way to
completely eliminate human error. The experts for both
sides agree on this point. But the evidence at trial
showed that a greater effort to pursue several of these
alternatives, taken together or individually, would be
sufficient to meet Kansas’s NVRA duties. The
testimony of Drs. Minnite and Hersh established that
many confirmed instances of noncitizen registration or
attempted registration in Kansas were due to either
applicant confusion or mistake, or errors by DOV and
county employees, not intentional voter fraud. Lack of
intent matters not as a means of determining legal
liability, but because it frames the acceptable
alternative approaches that would allow Defendant to
better enforce the State’s citizenship requirement while
imposing a less burdensome process on Kansans who
apply to register to vote. If most noncitizen
registrations are due to mistake or administrative
error, as opposed to intentional fraud, that fact shapes
the best method for enforcing the citizenship
requirement.
1. Training
The evidence made clear that several noncitizens
who registered or “attempted” to register, according to
Defendant, either did not intend to register to vote or
did not understand that they were prohibited from
registering to vote. Some applicants told the DOV clerk
that they were not citizens, yet the clerk completed a
voter registration application. For some period of time
prior to 2010, the evidence established that the DOV
had been offering voter registration to all applicants as
a matter of course, even if the clerk knew that the

App. 201
applicant was a noncitizen. It is not difficult to
understand why many noncitizens registered to vote
during this period if they were offered a voter
registration application notwithstanding their
disclosure to the DOV clerk of noncitizen status. These
applications are part of the universe forwarded to the
county clerks that were flagged as attempted
registrations instead of mistakes. There was also
evidence of DOV and county clerk error in
implementing the DPOC law prior to and after the
preliminary injunction order became effective in June
2016. There was evidence that DOV clerks continued to
offer voter registration to noncitizens after 2010. And
there was evidence that DOV clerks did not accept
DPOC presented by driver’s license applicants, and
therefore applicants were suspended or canceled
despite fully complying with the law.
The SOS’s Office could make better, more
meaningful efforts toward training DOV employees
charged with completing motor voter applications.
While it is true that an effort was made back in 2010 to
train DOV clerks that noncitizens should not be offered
voter registration, Mr. Caskey could not quantify a
sustained effort by his office to train these workers not
to fill out applications for those who disclose they are
noncitizens either by providing evidence of
noncitizenship during the application process, or by
answering “no” to the question about U.S. citizenship.
The evidence suggests a shift in policy around 2010
when the SOS’s Office came up with training posters
for the DOV on this issue. Yet, the errors identified
during Ms. Lehman’s testimony involved applications
after 2013, suggesting that the problems continued

App. 202
after 2010. Mr. Caskey’s testimony provided no
indication of how often he or the SOS’s Office “talks
with” DOV trainers about these policies, nor what
“periodically review[ing]” their training materials
entails. Although drivers’ license clerks received
updated training between February 2015 and June
2016, there have been no new written training
materials since that time. Despite the interagency
agreement between the SOS’s Office and the DOV that
became effective in May 2016, and the Court’s
preliminary injunction that became effective in June
2016, the record does not establish that robust,
updated training was provided to the DOV. The Court
is convinced that a greater effort at training DOV staff
would reduce the amount of inadvertent noncitizen
registrations. The Court is further convinced that
without the burdensome DPOC law to enforce, Mr.
Caskey and his staff would have far more resources to
devote to this endeavor.
Mr. Caskey testified that there is a training manual
for the counties that was last updated in 2012, which
used to be available online. Instead of updating the
manual, he sends out emails and holds regular
conference calls with the counties when items must be
updated. Therefore, there is no centralized, updated
training manual at the counties’ disposal containing
policy guidance from the SOS. Instead, the counties
apparently must maintain their own index of emails
and conference call notes to determine current policy
on voter registration under the SAFE Act, the
enforcement of which has been a moving target for the
last 5 years given the many changes in internal policy
since the law was passed. Since the law was passed,

App. 203
Defendant implemented the cancellation regulation
under K.A.R. § 7-23-15, and it has established
interagency agreements with the DOV and KDHE. In
addition, the preliminary injunction created additional
duties for the counties. There is no record of exactly
how many updates to the training manual have been
implemented through informal emails and phone calls,
but the Court can reasonably infer that there have
been many. More consistent, centralized training for
county clerks would be another less burdensome way to
ensure they understand the State’s eligibility
requirement, and how to ensure to the best of their
abilities that noncitizens do not inadvertently end up
on the voter rolls.
2. DOV
List
Matching
Questionnaires.

and

Juror

Defendant has relied on list matching between the
TDL list and the ELVIS database to produce evidence
of some noncitizen registrations in this case. He could
certainly continue to compare these lists, and confirm
noncitizenship through either the individual records, or
through DHS’s help, as he has done in previous cases.
Moreover, there is evidence that Defendant could
compare and investigate those applicants in the DOV
database that presented green cards during the driver’s
license application process, with the ELVIS database.
Defendant also demonstrated that he can examine
juror questionnaires for self-identified noncitizens who
are called to jury duty from the voter rolls. Although
these methods may generate false positives, as the
Court discussed in its findings of fact, they at least
offer a less burdensome starting point for investigation

App. 204
and confirmation. Given that Defendant currently uses
these alternative means for detecting and addressing
noncitizen registration, Defendant has failed to
establish that nothing less than a DPOC requirement
is sufficient to address the problem of noncitizen
registration.
3. SAVE Database
Defendant maintains that he cannot rely on the
SAVE database to determine noncitizen status of
Kansas voter registration applicants, relying on a 2012
letter from DHS requiring A-numbers and a copy of
immigration documentation in order to share
information with Kansas. Yet, the evidence at trial
demonstrated that DHS has confirmed noncitizenship
status in the past without this information, and that
other states without DPOC laws use SAVE under
agreements with DHS. Mr. Caskey admitted that he
has not attempted to contact these states to determine
how they utilize SAVE, and whether it might be an
acceptable alternative to the DPOC law in Kansas.
And, it is not clear that the SOS’s Office has leveraged
information from other state agencies to access the
information needed by DHS to confirm citizenship
status of voter registration applicants. The Court finds
that such an approach would be less burdensome than
the DPOC law.
4. Prosecutions
Defendant already has prosecutorial authority over
Kansas election crimes. Yet, since obtaining this
authority, and despite claiming to have located 129
instances of noncitizen registration in Kansas,

App. 205
Defendant has filed zero criminal complaints against
noncitizens for registering to vote. To the extent
Defendant takes the position that these are all cases
that meet the definition of perjury, or otherwise involve
fraudulently registering to vote, his own office has
taken the position that prosecuting such individuals
should act as a deterrent to future registrations by
noncitizens. However, as the Court has already found,
the evidence at trial demonstrates that many of the 129
cited instances of noncitizen registration were mistakes
or the result of administrative error, which may not be
prosecutable167 and which may undermine the
deterrent effect of future prosecutions. Given that
Defendant has not meaningfully sought to utilize
criminal prosecutions, at least when he detects
intentional cases of noncitizen registration, he has
failed to establish that nothing less than DPOC is
sufficient to address the problem of noncitizen
registration.
The second prong of the Tenth Circuit’s test does
not require Defendant to establish that an alternative
to DPOC would eliminate noncitizen registration;
indeed, all the experts agree that may not be possible
given the component of human error involved. The test
instead requires that Defendant demonstrate that
nothing less than DPOC would be a sufficient
alternative. He does not satisfy this test. Several
alternatives exist, especially when taken together, that
would be sufficient to reduce the nominal amount of
noncitizen registration that occurs through an
167

It is axiomatic that a person must act with intent in order to be
guilty of committing a crime.

App. 206
attestation regime. Thus, the Court finds that
Defendant has failed to rebut the presumption that the
attestation clause meets the minimum information
principle in § 5 of the NVRA, and therefore orders
judgment in favor of Plaintiffs on this remaining claim.
V. Conclusions of Law: Bednasek v. Kobach
Plaintiff Bednasek claims that the DPOC law
unconstitutionally burdens his right to vote under the
Fourteenth Amendment.168 The Supreme Court has
made clear that there is no “litmus test” for considering
a constitutional challenge to a State’s election laws.169
Instead, the Court is to “first, consider the character
and magnitude of the asserted injury to the rights
protected by the First and Fourteenth Amendments
that the plaintiff seeks to vindicate.”170 Second, the
court “must identify and evaluate the precise interests
put forward by the State as justifications for the
burden imposed by its rule.”171 In considering the
State’s interest, the Court is to both “determine the
168

Plaintiff conceded at the summary judgment oral argument
back on March 3, 2017, that his claim arises under the Equal
Protection clause, and not the Due Process clause. Bednasek Doc.
162 at 41:19–42:4. The Court therefore need not address
Defendant’s lengthy closing argument that there is insufficient
evidence to support a due process claim in this matter.
169

See, e.g., Crawford v. Marion Cty. Election Bd., 553 U.S. 181,
190 (2008); Burdick v. Takushi, 504 U.S. 428, 438–39 (1992);
Anderson v. Celebrezzo, 460 U.S. 780, 789 (1983).
170

Anderson, 460 U.S. at 789.

171

Id.

App. 207
legitimacy and strength of each” State interest, and
also “consider the extent to which those interests make
it necessary to burden the plaintiff’s rights.”172 The
Court has explained the balancing test as follows:
Under this standard, the rigorousness of
our inquiry into the propriety of a state
election law depends upon the extent to
which a challenged regulation burdens
First and Fourteenth Amendment rights.
Thus, as we have recognized when those
rights are subjected to “severe”
restrictions, the regulation must be
“narrowly drawn to advance a state
interest of compelling importance.” But
when a state election law provision
imposes
only
“reasonable,
nondiscriminatory restrictions” upon the
First and Fourteenth Amendment rights
of voters, “the State’s important
regulatory interests are generally
sufficient to justify” the restrictions.173
In 2008, the Supreme Court decided Crawford v.
Marion County Election Board, which considered a
challenge to an Indiana law requiring its citizens to
present photo identification (“photo-ID”) when voting
in-person.174 Indiana identified the following interests
172

Id.

173

Burdick, 504 U.S. at 434 (quoting Norman v. Reed, 502 U.S.
279, 289 (1992); Anderson, 460 U.S. at 788) (citations omitted).
174

Crawford, 553 U.S. at 185.

App. 208
to justify the law’s burden on voters: (1) deterring and
detecting voter fraud; (2) election modernization; and
(3) safeguarding voter confidence.175 As to voter fraud,
the Court acknowledged no record evidence of in-person
voter fraud (the only kind of fraud the statute could
address) at any time in Indiana.176 However, the Court
found that “flagrant examples of such fraud in other
parts of the country,” “occasional examples [that] have
surfaced in recent years” in other places, and “Indiana’s
own experience with fraudulent voting in the 2003
Democratic primary for East Chicago Mayor” involving
the use of absentee ballots, “demonstrate that not only
is the risk of voter fraud real but that it could affect the
outcome of a close election.”177 The Court found that the
State’s interest in preventing voter fraud was
legitimate and proper.178 The Court also found that the
State has an interest in modernizing elections, pointing
to the NVRA and the Help America Vote Act (“HAVA”),
which “indicate that Congress believes that photo
identification is one effective method of establishing a
voter’s qualification to vote and that the integrity of
elections is enhanced through improved technology.”179
Finally, the Court acknowledged the “independent

175

Id. at 191.

176

Id. at 194–95.

177

Id. at 195 (footnotes omitted).

178

Id. at 196.

179

Id. at 193.

App. 209
significance” of the State’s interest in public confidence
in the integrity of the electoral process.180
In considering the burdens imposed by Indiana’s
photo-ID law, the Supreme Court distinguished
between the types of burdens it imposes on voters.
Burdens “arising from life’s vagaries,” such as a lost or
stolen wallet, are not constitutionally significant
because “the availability of the right to cast a
provisional ballot provides an adequate remedy.”181
Instead, the Court considered burdens imposed on
those who are eligible to vote, but who do not possess a
photo ID that complies with Indiana law. The Court
found that the burden on this subgroup was low
because Indiana issued free photo-ID cards to these
individuals, and: “For most voters who need them, the
inconvenience of making a trip to the BMV, gathering
the required documents, and posing for a photograph
surely does not qualify as a substantial burden on the
right to vote, or even represent a significant increase
over the usual burdens of voting.”182 The Court found
that the evidence demonstrated a heavier burden was
placed on elderly persons born outside of Indiana,
persons who have difficulty obtaining a birth certificate
required to obtain a photo-ID, homeless persons, and
persons with religious objections to being
photographed.183 However, the severity of the burden
180

Id. at 197.

181

Id.

182

Id. at 198 (footnote omitted).

183

Id. at 199.

App. 210
on these groups is “mitigated by the fact that, if
eligible, voters without photo identification may cast
provisional ballots that will ultimately be counted. To
do so, however, they must travel to the circuit court
clerk’s office within 10 days to execute the required
affidavit.”184 The burden would only be a constitutional
problem if it was “wholly unjustified,” and even then,
the burden on “just a few voters” would be insufficient
to facially invalidate the statute.185
In balancing the State’s interests against the
burden on voters, the Court stressed that instead of
weighing the burden that the law imposes on all voters,
the plaintiffs asked the Court to look at only a narrow
group of voters that experienced a special burden.186
The Court found that the evidence in the record was
insufficient to quantify “either the magnitude of the
burden on this narrow class of voters or the portion of
the burden imposed on them that is fully justified.”187
The petitioners presented no evidence of the number of
registered voters lacking a photo ID, or of the specific
burdens felt by the categories of burdened voters
identified by the Court.188 Moreover, those with
difficulty obtaining a photo-ID, such as the elderly,
could vote absentee without presenting photo-ID. Thus,
184

Id.

185

Id. at 199–200.

186

Id. at 200.

187

Id.

188

Id. at 200–03.

App. 211
“on the basis of the record that has been made in this
litigation, we cannot conclude that the statute imposes
‘excessively burdensome requirements’ on any class of
voters.”189 The Court declined to invalidate the entire
statute on this showing.190 Given this guidance, the
Court proceeds to consider the balancing test as it
applies to the evidence in this trial record.
A. The State’s Interests
Defendant submits that the DPOC law furthers the
State’s legitimate interests in preventing noncitizen
registration, maintaining accurate voter rolls of only
qualified U.S. citizens, and maintaining confidence in
the electoral process. The Court finds that although all
3 are legitimate interests, Defendant failed to produce
evidence that they are strong enough to outweigh the
tangible and quantifiable burden on eligible voter
registration applicants in Kansas who were not
registered to vote before January 1, 2013.
The Court has already determined that at most, 67
noncitizens registered or attempted to register in
Kansas over the last 19 years. Even looking beyond
Kansas, Defendant’s evidence of noncitizen registration
at trial was weak. Dr. Richman’s Electoral Studies
article concluding that millions of noncitizens
registered and voted was credibly dismantled by Dr.
Ansolabehere, the architect of the survey upon which
Dr. Richman’s conclusions were based. He explained
that Dr. Richman’s findings in that article are based on
189

Id. at 202.

190

Id. at 203.

App. 212
a flawed data analysis, and over 200 political scientists
wrote an open letter criticizing its methodology and
conclusion. Similarly, the Court does not fully credit
Mr. von Spakovsky’s summary of reported incidents of
noncitizen registration, given its inclusion of
misleading and false assertions. While there is
certainly some evidence of noncitizen voter registration
nationally, the trial evidence did not demonstrate the
largescale problem urged by Defendant.
Maintaining accurate voter rolls of only U.S.
citizens is again a legitimate State interest, however,
for the same reasons already described, evidence that
the voter rolls include ineligible citizens is weak. At
most, 39 noncitizens have found their way onto the
Kansas voter rolls in the last 19 years. And, as Dr.
Hersh explained, given the almost 2 million individuals
on the Kansas voter rolls, some administrative
anomalies are expected. In the case of Kansas, this
includes 100 individuals in ELVIS with birth dates in
the 1800s, and 400 individuals with birth dates after
their date of registration.
Finally, the Court concludes that maintaining
confidence in the electoral process has independent
significance, as found in Crawford.
B. Burdens Imposed by the DPOC Law
This Court previously denied summary judgment
based on genuine issues of material fact as to the
burdens imposed by the DPOC law in this case. The
Court explained then that unlike the photo-ID cases
largely relied on by Defendant that deal with
requirements for casting an in-person ballot, the DPOC

App. 213
law is distinguishable because it applies to registration.
There is no safety valve such as a provisional ballot
that can serve to mitigate the burden on voters.191
Therefore, unlike the Indiana law in Crawford, an
eligible Kansas applicant on the suspense or
cancellation list does not have the option to fill out a
provisional ballot, produce DPOC after the election,
and have their ballot counted.
This distinction is illustrated by Mr. Stricker’s
experience—the burden imposed on him by the DPOC
law disenfranchised him in 2014. He was offered a
provisional ballot, but because he was not registered
before the election, there was no way for him to cure
and have his ballot counted after the election. The only
way to cure a violation of the DPOC law is to submit
DPOC before midnight on the day before the election.
Of course, in Mr. Stricker’s case, he did not know he
was not registered the day before the election because
he had provided a birth certificate at the time he
applied to register, he told the driver’s license clerk he
wished to register, he signed the attestation of
eligibility, and he was told that there was nothing more
he needed to do, including that he did not need a
“voting card.” Similarly, Prof. Boynton brought a birth
certificate to the DOV when he sought to register to
vote, and he too believed that he had registered when
he left the DOV. He learned for the first time that he
was not in fact registered when he was offered a
provisional ballot in the 2014 general election. Prof.
191

See, e.g., id. at 199–201; ACLU of N.M. v. Santillanes, 546 F.3d
1313, 1323 (10th Cir. 2008); Frank v. Walker, 768 F.3d 744, 746
(7th Cir. 2014).

App. 214
Boynton was so frustrated by the experience that he
declined to register to vote the next 2 times he applied
for a driver’s license, lamenting that he “might as well
save [him]self the effort and say no this time.”192
The DPOC law’s deterrent effect on registration is
further supported by Ms. Ahrens’s and Dr. McDonald’s
testimony. The DPOC requirement fundamentally
changed the Kansas League’s ability to accomplish its
mission of encouraging and assisting citizens in
registering to vote and voting. Ms. Ahrens explained
that the law was a “dead hit” on this mission, stopping
all its registration efforts until it could conceive of a
safe copying policy—previously, the League could assist
registrants by having them fill out an application and
sign an attestation of eligibility. Now, they were
required to ask for a sensitive, personal document and
maintain a copy of that document with each
registration application. In 2013 in Wichita, for
example, the Kansas League helped register only 400
individuals, compared to 4000 the year before. The
Kansas League was also hampered in helping young
people register to vote for the first time—less than onequarter of all students who tried to register to vote at
one Kansas university could successfully complete their
applications due to lack of immediate access to DPOC.
This testimony supports Dr. McDonald’s expert
opinion formed after analyzing the individual ELVIS
records for those on the suspense and cancellation lists,
that the DPOC law disproportionately affects the
young and unaffiliated. Dr. McDonald explained that
192

Doc. 504, Trial Tr. at 270:10–11.

App. 215
the consensus in social science is that barriers to voter
registration increase the cost of voting and dissuade
individuals from participating in the political process.
Dr. Richman agreed with this proposition. And these
groups—the young and unaffiliated—already have a
lower propensity to participate in the political process
and are less inclined to shoulder the costs associated
with voter registration. As compared to photo-ID laws,
the Kansas DPOC law is an absolute bar to registration
for any applicant lacking access to such DPOC. And
even for those that have access the additional steps to
possess such a document, such as locating it from a
family member or separately obtaining an underlying
document, increase the “costs” of voting that Dr.
McDonald testified dissuade individuals from
participating in the political process.
As the Court explained in its summary judgment
order, another distinguishing feature between this case
and Crawford, is that the number of incomplete and
canceled registration applications for failure to submit
DPOC provides concrete evidence of the magnitude of
the harm. These individuals all sought to register to
vote but were blocked by the DPOC requirement. This
evidence contrasts with the photo-ID cases, where
courts were unable to determine how many people were
unable to vote based on the photo-ID requirement, and
therefore found the burden to be speculative.193 The
administrative data presented in this case, coupled
with the expert opinions of Dr. McDonald, Minnite, and
Hersh, all support the burdensomeness of the law.

193

See Crawford, 553 U.S. at 200; Frank, 768 F.3d at 748–49.

App. 216
Of the tens of thousands of individuals whose voter
registration applications have been suspended or
canceled due to lack of DPOC, less than 1% have been
confirmed to be noncitizens. There is no evidence to
suggest that the rest are not U.S. citizens, and thus
these applicants are all eligible to register to vote but
have been unable to produce DPOC. Defendant argues
that any burden imposed by the law only applies to
individuals on the list who do not have access to DPOC,
and only a small number of those prevented from
registering under the DPOC law do not either possess
DPOC, or have immediate access to it. He points to Dr.
Richman’s estimate that only 2.2% of people on the
suspense list lack immediate access to DPOC. He also
points to the McFerron survey. As discussed earlier in
this opinion, the McFerron Survey is inadmissible. And
even if it was admissible, it is riddled with so many
methodological errors that the Court would give it no
weight. Likewise, Dr. Richman’s estimate that only
2.2% of the individuals on the suspense list lack DPOC
list is flawed for the many reasons discussed in the
findings of fact. Moreover, that survey tells the Court
nothing about those whose applications were canceled,
nor does it provide evidence about the universe of
eligible unregistered Kansas citizens subject to this
law.
Defendant argues that the law is easy to comply
with, pointing to the ability to submit DPOC
electronically, and the State’s attempts to verify
citizenship through the KDOR and KDHE. Moreover,
Defendant argues that the suspense list is dynamic,
and that most of the applicants on the list eventually
come off the list either through the State locating a

App. 217
citizenship document, or because the applicant
eventually submits a compliant document. First, there
is no clear evidence about the number of applicants
that have been cleared through the KDHE and KDOR
process since it went into effect; Defendant opted not to
update discovery requests with new suspense list
figures before trial.194 But the suspense list before this
Court’s preliminary injunction order is a credible
snapshot of the overall burdensomeness of the
law—those figures represent the number of applicants
impacted during the first 3 years it was enforced and
subsumes the KDHE policy that was effective long
before 2016. While the Court acknowledges that the
KDOR agreement likely lowers the number of
individuals on the suspense list somewhat, it could not
resurrect applications that were canceled before the
agreement became effective.195
Ms. Lehman testified that her office received
bounce-back notices from about one-third of the
individuals on the suspense list, and surmised that
194

The Court notes that this KDOR policy was implemented after
the Fish case was filed, and appears to be in direct response to the
allegations in that case that compliant documents were being
submitted at the time of application, but rejected by DOV
employees as a matter of course. The KDOR policy was not yet in
place at the time of the preliminary injunction hearing on April 14,
2016.
195

Instead, Defendant unilaterally cured the applications of
previously canceled applicants only after they were resurrected by
the preliminary injunction. But for the Court’s order, the
applications of Stricker, Boynton, and Hutchinson would have been
canceled and they would have been required to reapply for any
interagency policy to benefit them.

App. 218
because many of them moved, they should not be
counted. First, there is no evidence of statewide
bounce-back notices on this scale. Second, even if that
rate of notices bounced back, it says nothing about the
citizenship status of the recipients. Instead, it shows
how burdensome the notice process is, and the fact that
many of those impacted by the law are not receiving
notice of (1) the fact that they are not registered to
vote, after in at least some cases being told that they
were at the time of application; and (2) what they need
to do to cure the problem. In sum, unlike in the inperson voting photo-ID cases, there is evidence here
that “substantial numbers of persons eligible to vote
have tried” to register but have been unable to do so.196
Defendant suggests that the hearing procedure in
§ 25-2309(m) mitigates the burden imposed by the
DPOC law, because if a person lacks the ability to
obtain one of the 13 forms of DPOC in the statute, the
hearing procedure allows them to submit some
alternative proof of citizenship. He claims that this
procedure is easy to comply with, but the evidence does
not support that statement. First, the hearing
procedure in subsection (m) is not explained to
applicants when they apply to register, nor to
applicants who were suspended for lack of DPOC.
Neither the small DOV receipt, nor the example notices
sent by the counties, contain any language explaining
the hearing option to applicants. None of the named
Plaintiffs in either case recall this option being
196

Frank, 768 F.3d at 746–47 (noting lack of evidence of
“substantial numbers of persons eligible to vote have tried to get
a photo ID but been unable to do so.”).

App. 219
mentioned to them. This explains why only 5
individuals, out of the more than 30,000 individuals on
the suspense and cancellation list in March 2016,
availed themselves of this option in the 5 years that the
law has been in effect.
Second, even for those individuals who were
registered after going through the alternative hearing
process, their experiences were burdensome. One such
individual, Ms. French, testified at trial. Ms. French
admitted to a newspaper after the hearing that she
“thought it was strange that I had to go through this
procedure to be able to vote.”197 Although she wholeheartedly agreed with the law as a policy matter, her
experience illustrates the many steps required to
comply under this procedure, which took five months to
accomplish in the spring and summer of 2016,
incidentally during the very timeframe when the Fish
case was filed and the preliminary injunction in that
case was being heard and decided. The Court does not
find it to be coincidental that Mr. Rucker became Ms.
French’s “friend” during this time period. The Court
would not normally expect a high-level government
official to invest the time and attention Ms. French
described during her testimony to help an applicant
locate citizenship records and navigate the hearing
procedure, much less keep in close personal contact
after the process is complete. Based on this level of
individual attention, and the fact that the media was
present at the hearing, it appears the State was
motivated to help this applicant navigate the system

197

Doc. 511, Trial Tr. at 1421:16–1422:11.

App. 220
and become registered through the hearing process.198
The Court therefore does not find that Ms. French is a
typical example of how an applicant would expect to
experience this process, assuming the average
applicant was aware that this process was available.
The hearing records reveal that another applicant
was represented by retained counsel at the hearing,
and yet another was required to execute his own
affidavit explaining that he had been born on a military
base and was therefore a U.S. citizen.199 The Court
finds that this alternative procedure adds, not
subtracts, from the burdensomeness of the law.
The Court determines that the magnitude of
potentially disenfranchised voters impacted by the
DPOC law and its enforcement scheme cannot be
justified by the scant evidence of noncitizen voter fraud
before and after the law was passed, by the need to
ensure the voter rolls are accurate, or by the State’s
interest in promoting public confidence in elections.
Unlike in Crawford, Plaintiff has presented evidence of
the number of voters who were unable to register to
vote due to lack of DPOC, and the specific burdens felt
by those who lack DPOC.200 Also, there is no mitigating

198

See Ex. 1214 (SOS employees’ text messages indicting that “Eric
. . . prob has her number saved in his phone.”).
199

Ex. 150. The State Election Board orders and records from these
§ 25-2309(m) hearings were produced to Plaintiffs for the first time
at trial.
200

See Crawford, 553 U.S. at 203 n.20 (explaining that record
evidence that 43,000 Indiana citizens lacked photo-ID “tells us

App. 221
provision comparable to the provisional ballot in
Indiana that would cure the failure to register before
an election. Given the evidence in the trial record that
before the Court’s preliminary injunction about 12% of
all new voter registration applicants were either
suspended or canceled, the Court finds that the burden
imposed on Kansans by this law outweighs the state’s
interest in preventing noncitizen voter fraud, keeping
accurate voter rolls, and maintaining confidence in
elections. The burden is not just on a “few” voters, but
on tens of thousands of voters, many of whom were
disenfranchised in 2014. At least one voter, Prof.
Boynton, was deterred from registering again after the
burdensome process he endured in 2014, a result
supported by the testimony of several election experts
in this case that increased “costs,” or steps to
registration, decrease the likelihood of registration and
voting. This deterrent effect on young voters is
particularly acute.
Moreover, the evidence does not support a fit
between the DPOC law and the State’s interest in
ensuring only qualified citizens are included on the
State’s voter rolls. The experts agree that several of the
nominal cases of noncitizen registrations identified by
Defendant can be explained by administrative error
and confusion. Indeed, the evidence showed that other

nothing about the number of free photo identification cards issued
since then” and that “the record does not provide even a rough
estimate of how many indigent voters lack copies of their birth
certificates. Supposition based on extensive Internet research is
not an adequate substitute for admissible evidence subject to crossexamination in constitutional adjudication.”)

App. 222
far less burdensome methods are available to the State
to maintain accurate voter rolls of eligible Kansans by
utilizing tools such as matching DOV lists,
investigating self-reported noncitizens who are called
for jury service, and utilizing the SAVE database.
Moreover, better training of DOV staff could help
ensure that voter registration applications are not
offered to noncitizens.
And while maintaining confidence in the electoral
process has independent significance as Crawford held,
the evidence in this case does not show that the DPOC
law furthers this significant interest. Instead, the law
has acted as a deterrent to registration and voting for
substantially more eligible Kansans than it has
prevented ineligible voters from registering to vote. At
least one applicant testified that he opted not to apply
to register to vote again, despite possessing DPOC,
because of the burdensome experience of being held in
suspense and prevented from voting in 2014 due to the
law. There has also been evidence of incorrect notices
sent to applicants, incorrect information about
registration status communicated over the phone by
State employees, failure to accept DPOC by State
employees, failure to meaningfully inform applicants of
their responsibilities under the law, and evolving
internal efforts to verify citizenship, that have all
caused confusion during the 5 years this law has been
effective. If Kansans who try to register to vote cannot
be sure if they are in fact registered, particularly after
they have been led to believe they complied with all
registration laws, it erodes confidence in the electoral
system. If Kansans receive misinformation from State
officials about whether they are registered to vote, it

App. 223
erodes confidence in the electoral system. If eligible
Kansans’ votes are not counted despite believing they
are registered to vote, it erodes confidence in the
electoral system.
In sum, the type of burden and the quality of the
evidence in support of that burden is distinguishable
from Crawford, which the Supreme Court was careful
to limit to the record in that case. Based on this record,
the magnitude of the burden on unregistered eligible
Kansas voters cannot be justified by the State interests
relied on by Defendant. The evidence at trial
demonstrated that those interests, while legitimate,
are not furthered by the DPOC law. Instead, the DPOC
law disproportionately impacts duly qualified
registration applicants, while only nominally
preventing noncitizen voter registration. It also may
have the inadvertent effect of eroding, instead of
maintaining, confidence in the electoral system given
the confusing, evolving, and inconsistent enforcement
of the DPOC laws since 2013. For all of these reasons,
the Court finds in favor of Plaintiff Bednasek on his
§ 1983 claim alleging a Fourteenth Amendment
violation of his right to vote.
VI. Remedies
Plaintiffs’ requests in both cases for declaratory and
injunctive relief is granted. As already stated, K.S.A.
§ 25-2309(l) and K.A.R. 7-23-15, violate § 5 of the
NVRA and infringe on the right to vote under the
Fourteenth Amendment. Defendant shall not enforce
the DPOC law and accompanying regulation against
voter registration applicants in Kansas. As the Court
stated in an earlier opinion finding Defendant in

App. 224
contempt, Defendant’s well-documented history of
avoiding this Court’s Orders, and providing confusing
notices and information on the State’s websites in
conjunction with this Court’s rulings, warrant specific
compliance measures with this injunction as spelled
out below.
Defendant argues that Plaintiffs lack standing to
seek the specific compliance measures requested by the
Fish Plaintiffs, and that the NVRA does not require
any specific educational materials or ballot types. The
Court disagrees. First, these items are part and parcel
of registering eligible Kansans to vote, and ensuring
that they are not any more confused than necessary by
the change in policy. If Defendant takes the position
that he is entitled under the NVRA to continue to
falsely assert the status of the law on his website, and
that he may require registered voters to complete
provisional ballots, he is invited to file a brief to the
Court, not to exceed ten pages in length, citing
authority for this proposition. Moreover, the Court
rejects Defendant’s standing argument. These
measures would not be required but for past
enforcement problems necessitated by Defendant’s
claims of failing to understand the confines of the
Court’s preliminary injunction order. These specific
compliance measures attempt to address Defendant’s
past complaints that the Court’s directives were not
specific enough, and to avoid the need for further
compliance directives going forward. They allow
Plaintiffs’ claims under § 1983 and the NVRA to be
fully redressed.

App. 225
(1)
To the extent he has not already done so,
Defendant shall provide all registrants covered by the
permanent injunction with the same information
provided to other registrants (including but not limited
to certificates of registration); and must ensure that all
elections-related public education materials (including
but not limited to voter-aimed notices and websites, in
all languages in which those documents are available,
including English and Spanish) make clear that voter
registration applicants need not provide DPOC in order
to become registered to vote, and need not provide any
additional information in order to complete their voter
registration applications.
(2)
Defendant shall instruct all state and county
elections officers, and must ensure that all training and
reference materials for elections officials in Kansas
(including but not limited to the SOS’s County
Elections Manual) make clear, that voter registration
applicants need not provide DPOC in order to be
registered to vote, and need not provide any additional
information in order to complete their voter
registration applications.
(3)
Defendant shall maintain the “Voter View”
website to accurately reflect covered voters’ registration
status.
(4)
Defendant shall ensure that, in counties that
use paper poll books, the names of all registrants
lacking DPOC appear in the same manner and in the
same list as all other registered voters’ names, and that
all registrants covered by this Order shall be entitled
to vote using standard ballots rather than provisional

App. 226
ballots at polling places on Election Day or when they
request advance mail-in ballots.
The parties shall meet, confer, and file a joint status
report 30 days before the next primary election
scheduled in Kansas to verify compliance with the
permanent injunction. Following this joint status
report, the Court may determine whether modification
of its final order is warranted or whether any
additional steps may be necessary to ensure that
effective relief for covered voters is not denied or
otherwise undermined by Defendant.
VII. Sanctions
Throughout this opinion, the Court referenced
several instances when Defendant failed to disclose
evidence under Fed. R. Civ. P. 26(a), or to supplement
discovery under Rule 26(e). In many of these instances,
the Court excluded the evidence. In others, Plaintiffs
either withdrew the objection, or the Court allowed the
evidence with some limitation. At least once, Defendant
attempted to introduce such evidence despite the
Court’s ruling excluding it. These violations led to
objections throughout trial despite the Court’s repeated
efforts to educate Defendant about his Rule 26
disclosure obligations.
The Court’s rulings were governed by Fed. R. Civ. P.
37(c)(1), which states that when a party fails to produce
information or identify a witness in violation of Rule
26(a) or (e),
the party is not allowed to use that
information or witness to supply evidence
on a motion, at a hearing, or at a trial,

App. 227
unless the failure was substantially
justified or is harmless. In addition to or
instead of this sanction, the court, on
motion and after giving an opportunity to
be heard:
(A) may order payment of the reasonable
expenses, including attorney’s fees,
caused by the failure;
(B) may inform the jury of the party’s
failure; and
(C) may impose other appropriate
sanctions, including any of the orders
listed in Rule 37(b)(2)(A)(i)-(vi).201
In determining whether a failure to disclose is
harmless or substantially justified, the Court looks to
several factors: “(1) the prejudice or surprise to the
party against whom the testimony is offered; (2) the
ability of the party to cure the prejudice; (3) the extent
to which introducing such testimony would disrupt the
trial; and (4) the moving party’s bad faith or
willfulness.”202 The burden to demonstrate that the
failure to disclose is harmless or substantially justified
is on the party who failed to properly disclose.203

201

Fed. R. Civ. P. 37(c)(1).

202

Eugene S. v. Horizon Blue Cross Blue Shield of N.J., 663 F.3d
1124, 1130 (10th Cir. 2011) (quoting Woodworker’s Supply, Inc. v.
Principal Mut. Life Ins. Co., 170 F.3d 985, 993 (10th Cir. 1999)).
203

Paliwoda v. Showman, No. 12-2740-KGS, 2014 WL 3925508, at
*5 (D. Kan. Aug. 12, 2014).

App. 228
There were several violations that justified
sanctions under Rule 37(c)(1). First, the Court issued
a pretrial ruling on disclosure issues involving Mr.
McFerron and Dr. Richman.204 The Court found that
Defendant failed to designate Mr. McFerron as an
expert witness after determining that his proffered
testimony was not admissible lay opinion. As a
sanction for failing to properly disclose him as an
expert, the Court required that he testify live, and not
by deposition as urged by Defendant. As for Dr.
Richman, Defendant attempted to submit an untimely
supplemental report by attaching it to his final witness
and exhibit list for trial. This report contained
estimates and extrapolations based on new data that
was available to him in July 2017, yet Defendant failed
to supplement at that time, and failed to disclose to
Plaintiffs that Dr. Richman would be issuing a
supplemental report when the parties informally
exchanged their expert witness lists in January 2018 to
determine whether to file pretrial Daubert motions. As
the Court explained in its previous Order, this lastminute attempt at supplementation with new data
prevented Plaintiffs’ rebuttal experts from evaluating
the report and updating their own opinions. It also
prevented Plaintiffs from filing a Daubert motion by
the deadline challenging the new figures.
At trial, Defendant again attempted to introduce
updated extrapolations by Dr. Richman not included in
his original or supplemental report. For example,
Defendant tried to introduce a new estimate by Dr.
Richman of 3,813 noncitizen registrations in Kansas
204

Doc. 490.

App. 229
through a demonstrative exhibit. Dr. Richman
explained that this figure is derived from multiplying
3.3%—the percentage of noncitizens identified in the
national 2008 CCES dataset with a voter match file
and self-reported registration—by an updated adult
noncitizen population estimate for the State of Kansas
of 115,500, included in his supplemental report. Dr.
Richman had not previously, in his supplemental
report or otherwise, opined that this represented an
accurate estimate of noncitizen registration in Kansas.
Dr. Richman attempted to explain the omission from
his previous reports by testifying that “this initial
report came out just before the source I was getting
that number [the noncitizen population in Kansas]
from updated. And so in the supplemental report,
partly in response to the prompting of one of the
experts for the plaintiffs, I updated the number to the
more current census estimate of the number of adult
non-citizens in the state of Kansas.”205
Dr. Richman’s explanation for his late-disclosed
extrapolation was misleading and conflated Dr.
Ansolabehere’s criticisms of his national estimates with
his Kansas estimates. They are both based on the
CCES, but on different datasets. Page 3 of Dr.
Richman’s original report, which he pointed the Court
to during his testimony, recites the findings of his 2014
Electoral Studies article, that 3.3% of noncitizens
nationally were registered to vote based on 2008 CCES
data.206 Dr. Richman did not extrapolate this 3.3%
205

Doc. 511, Trial Tr. at 1455:8–19.

206

Ex. 952 at 3.

App. 230
figure to Kansas by applying it to the American
Community Survey’s estimate of the number of adult
noncitizens in Kansas at the time of his original report
(114,000). Instead, he presented a different
extrapolation based on self-reported noncitizens who
resided in Kansas (14) from the 2006 through 2012
CCES. That extrapolation was 32,000 noncitizen
registrations.
Dr. Ansolabehere’s report extensively criticized Dr.
Richman’s Electoral Studies article and its findings
about the national rate of noncitizen registration,
including that the CCES is not representative of the
noncitizen population, and that classification error “can
completely account for Dr. Richman’s findings.”207 Dr.
Ansolabehere separately criticized Dr. Richman’s
estimate that 32,000 noncitizens in Kansas (an
estimate abandoned by Defendant during his opening
statement given the small sample size) was flawed, in
part because it did not use the 2014 CCES, which
included only 4 respondents who stated they were
noncitizens, none of whom had a matching voter record.
This criticism targeted the CCES sample he used, not
the number of noncitizens in Kansas.
Therefore, it was disingenuous to suggest during his
testimony that his new estimate of 3,183 noncitizen
registrants in Kansas was merely an updated figure
from his original report to answer Dr. Ansolabehere’s

207

Ex. 102 ¶ 34.

App. 231
criticisms.208 Notwithstanding the fact that Dr.
Richman had an opportunity to answer such criticisms
in his supplemental report, he never opined that the
appropriate way to estimate noncitizen registration in
Kansas would be to multiply 3.3% by the estimated
number of adult noncitizens in Kansas. As the Court
explained at trial, it is troubled by Dr. Richman’s
attempt to insert yet another noncitizen registration
estimate into the record during the trial that had not
been previously disclosed.209 The Court is even more
troubled by his misleading testimony upon closer
inspection of the reports post trial.
Second, Defendant failed to disclose documents
underlying the subsection (m) hearings that have taken
208

Defendant argued that the Court allowed this sort of
supplementation with Plaintiffs’ expert Dr. McDonald in a
demonstrative exhibit. This is a false equivalency. Plaintiffs’
demonstrative exhibit, which included a source citation to Dr.
McDonald’s report, contained the numerical equivalent of a
percentage included in Dr. McDonald’s report. His report stated
that 22,814 out of 35,314 applicants who were suspended on
September 24, 2016 remained suspended or were canceled on
December 11, 2016. The demonstrative stated “22,814 or 70.9% of
applicants who were suspended on Sep. 24, 2016 remained
suspended or were canceled by Dec. 11, 2016.” The Court overruled
Defendant’s objection to the percentage reference. Defendant, by
contrast, attempts to introduce an entirely new estimate of
noncitizen registration, in addition to the many other estimates
that Dr. Richman previously asserted in his reports. The Court
drew the line at the many figures Dr. Richman already calculated,
which Plaintiffs’ experts had a chance to consider. Defendant’s
proffered evidence was no mere update, or conversion of a numeral
to a percentage; he compares apples to oranges.

209

Ex. 511, Trial Tr. at 1460:15–1461–6.

App. 232
place since the DPOC law was passed. Exhibit 150 was
provided to Plaintiffs for the first time during the trial.
These records include the RCD forms for 6 applicants,
and the State Election Board orders and copies of
supporting documentation for 5 registrants, including
Ms. French. As the Court found on the record, this lateproduced discovery violated Rule 26(a) because
Plaintiffs had requested Defendant provide
“correspondence between Defendant Kobach and any
other person concerning the purpose or implementation
of the DPOC. . . . This Request 1 is not intended to
include uniform letters sent to individual registration
applicants regarding their voter registration
applications.”210 Had Defendant properly disclosed
these documents to Plaintiffs, they would have been on
notice of Ms. French, a witness Defendant convinced
the Court to allow as a rebuttal witness mid-trial,
despite his failure to disclose her as a witness before
trial.211 Plaintiffs would have also been aware of the
210

211

Doc. 510, Trial Tr. at 1225:13–22, 1234:7–24.

Defendant disclosed his intention to call Ms. French at the end
of the trial day on Friday, March 9. The Court initially granted the
request, giving Plaintiffs the weekend to interview her and obtain
the documents included in Exhibit 150. After defense counsel
rescheduled a weekend interview for Plaintiffs of Ms. French,
Plaintiffs spoke with her for the first time the following Monday
morning before trial started, a few hours before her testimony.
Although Plaintiffs ultimately decided her testimony was more
helpful than hurtful and backed off their disclosure objection as to
her testimony, Ms. French is another example of a witness that
should have been disclosed under 26(a)(1)(A), because she would
have likely had information that Defendant would use to support
his defense in this case that the DPOC law, including the hearing
procedure, is not burdensome. Nonetheless, the Court allowed her

App. 233
identities of the other individuals who availed
themselves of a subsection (m) hearing who could have
potentially held discoverable information or testified as
witnesses at trial.
Third, Defendant attempted to elicit testimony from
Mr. von Spakovsky about updated information and
opinions not included in his original report, which he
completed in 2016 and never supplemented.
Fourth, Defendant repeatedly attempted to
introduce updated numbers of suspended and canceled
voter registration applicants based on reports that Mr.
Caskey generated the weekend before trial. These
figures had not been disclosed to Plaintiffs during
discovery. Defendant first attempted to introduce these
figures during his opening statement in demonstrative
exhibits. The Court excluded the demonstrative
exhibits. He then tried to elicit the information through
Mr. Caskey. When that did not work, he asked for the
Court to take judicial notice of these figures. The Court
excluded the evidence under Rule 37(c)(1) for failure to
supplement discovery under Rule 26(e), and because
different numbers had been stipulated to in the
Pretrial Order. The Court also found that they were not
appropriate facts for judicial notice because they could
not “be accurately and readily determined from sources
whose accuracy cannot reasonably be questioned.”212
Defendant again attempts to introduce these numbers,
to testify as a rebuttal witness because Ms. Ahrens had testified at
length about the hearing procedure, and was not previously
disclosed as a witness expected to testify in detail about that topic.
212

See Fed. R. Evid. 201(b)(2).

App. 234
despite their exclusion at trial, into his proposed
findings of fact and conclusions of law.213
In responding to Plaintiffs’ disclosure objections,
Defendant was incredulous that the Court would not
allow him to introduce into the record the most recent
statistics on canceled and Rule suspended applications.
But these numbers were provided to Plaintiffs for the
first time a few days before trial in the form of a
demonstrative exhibit. In fact, Plaintiffs argued that
Defendant had not disclosed any updated information
about the suspense and cancellation lists after March
2016. Because they were not previously provided,
Plaintiffs had no way to verify their accuracy with the
underlying ELVIS records. And their experts were not
provided an opportunity to supplement their opinions
based on these new numbers. Both Drs. McDonald and
Hersh relied on the March 2016 records provided to
them by Defendant to render their detailed analysis
about the contents of the suspense and cancellation
lists, and to perform certain list matching. Had these
lists been updated, Plaintiffs could have asked these
experts to reevaluate their original reports and
supplement them based on the new data.
Because the updated information was provided in a
demonstrative exhibit, Defendant suggested that this
Court’s courtesy rule requiring disclosure of
demonstrative exhibits 24 hours in advance of their use
should excuse his failure to abide by Rule 26(e)’s duty
to supplement discovery. This argument was and is
unavailing. Because Defendant failed to provide
213

See Doc. 523 at 36 ¶ 76.

App. 235
updated figures about the number of DOV applicants
suspended or canceled after March 2016, he may not
ambush the Plaintiffs and this Court with updated
information on the eve of, or during, trial. This was a
straightforward violation of Defendant’s ongoing duty
to supplement discovery disclosures under Rule 26(e),
and under Rule 37(c)(1) this Court finds that the
violation was not harmless or substantially justified.
The prejudice described above demonstrates the failure
was not harmless. And, given Mr. Caskey’s testimony
about the ease of running reports to capture this data,
the failure to disclose was not substantially justified.
Indeed, Ms. Ahrens described the Kansas League’s
ability to purchase the suspense list several times after
the DPOC law was passed, as recently as the summer
of 2017. Given this evidence, Defendant’s failure to
supplement his March 2016 disclosure about the
contents of the suspense and cancelation lists was not
substantially justified.
The disclosure violations set forth above document
a pattern and practice by Defendant of flouting
disclosure and discovery rules that are designed to
prevent prejudice and surprise at trial. The Court ruled
on each disclosure issue as it arose, but given the
repeated instances involved, and the fact that
Defendant resisted the Court’s rulings by continuing to
try to introduce such evidence after exclusion, the
Court finds that further sanctions are appropriate
under Rule 37(c)(1), which permits, in addition to
exclusion of the evidence, “other appropriate
sanctions.” It is not clear to the Court whether
Defendant repeatedly failed to meet his disclosure
obligations intentionally or due to his unfamiliarity

App. 236
with the federal rules. Therefore, the Court finds that
an additional sanction is appropriate in the form of
Continuing Legal Education. Defendant chose to
represent his own office in this matter, and as such,
had a duty to familiarize himself with the governing
rules of procedure, and to ensure as the lead attorney
on this case that his discovery obligations were
satisfied despite his many duties as a busy public
servant. The Court therefore imposes a CLE
requirement of 6 hours for the 2018-2019 reporting
year in addition to any other CLE education required
by his law license. These 6 additional hours must
pertain to federal or Kansas civil rules of procedure or
evidence. Defendant shall file a certification with this
Court before the end of the reporting period on June
30, 2019, certifying that this CLE requirement has
been met.
IT IS THEREFORE ORDERED BY THE
COURT that Defendant’s Motion to Exclude the
Testimony and Report of Dr. Steven Camarota (Doc.
429) is granted in part and denied in part, and
Plaintiffs’ Motion to Exclude Patrick McFerron (Doc.
460, Bednasek Doc. 183) is granted.
IT IS FURTHER ORDERED that in Case No. 162105, the Court finds in favor of Plaintiffs Donna Bucci,
Charles Stricker, III, Thomas Boynton, and Douglas
Hutchinson on their remaining claim under § 5 of the
NVRA. Plaintiff Steven Wayne Fish’s remaining claim
is dismissed as moot.
IT IS FURTHER ORDERED that in Case No. 159300, the Court finds in favor of Plaintiff Parker

App. 237
Bednasek on his remaining claim under 42 U.S.C.
§ 1983.
IT IS FURTHER ORDERED Plaintiffs’ requests
for declaratory and injunctive relief are granted as set
forth in this Order. Defendant shall strictly comply
with the directives in this Order meant to enforce the
Court’s permanent injunction of the DPOC law and
K.A.R. § 7-23- 15.
IT IS FURTHER ORDERED that Defendant shall
attend 6 hours in addition to any other CLE
education required by his law license for the 2018-2019
reporting year. The additional CLE must pertain to
federal or Kansas civil rules of procedure or evidence.
Defendant shall file a certification with this Court
before the end of the reporting period on June 30, 2019,
certifying that this CLE requirement has been met.
This sanction is imposed under Fed. R. Civ. P. 37(c)(1)
for the disclosure violations identified in this Order
under Rule 26(a) and (e).
IT IS SO ORDERED.
Dated: June 18, 2018
S/ Julie A. Robinson
JULIE A. ROBINSON
CHIEF UNITED STATES DISTRICT JUDGE

App. 238

APPENDIX C
PUBLISH
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
No. 16-3147
[Filed October 19, 2016]
______________________________________
STEVEN WAYNE FISH; DONNA
BUCCI; CHARLES STRICKER;
THOMAS J. BOYNTON; DOUGLAS
HUTCHINSON; LEAGUE OF WOMEN
VOTERS OF KANSAS,

)
)
)
)
)
)
Plaintiffs - Appellees,
)
)
v.
)
)
KRIS W. KOBACH, in his official
)
capacity as Secretary of State
)
for the State of Kansas,
)
)
Defendant - Appellant,
)
)
and
)
)
NICK JORDAN,
)
)
Defendant.
)
______________________________________ )

App. 239
______________________________________

)
ENGLISH FIRST FOUNDATION;
)
ENGLISH FIRST; U.S. JUSTICE
)
FOUNDATION; PUBLIC ADVOCATE
)
OF THE UNITED STATES; GUN
)
OWNERS FOUNDATION; GUN
)
OWNERS OF AMERICA;
)
CONSERVATIVE LEGAL DEFENSE
)
AND EDUCATION FUND; U.S.
)
BORDER CONTROL FOUNDATION;
)
POLICY ANALYSIS CENTER; and
)
COMMON CAUSE,
)
)
Amici Curiae.
)
______________________________________ )
___________________________________
Appeal from the United States District Court
for the District of Kansas
(D.C. No. 2:16-CV-02105-JAR-JPO)
___________________________________
Dale Ho (Rodkangyil Orion Danjuma and Sophia Lin
Lakin, American Civil Liberties Union Foundation,
Inc., New York, New York; Stephen Douglas Bonney,
ACLU of Kansas and Western Missouri, Overland
Park, Kansas; Neil A. Steiner and Rebecca Kahan
Waldman, Dechert LLP, New York, New York; Angela
M. Liu, Dechert LLP, Chicago, Illinois, with him on the
briefs), American Civil Liberties Union, New York,
New York for Plaintiffs-Appellees.

App. 240
Kris W. Kobach, Secretary of State of Kansas (Garrett
R. Roe, Kansas Secretary of State’s Office, Topeka,
Kansas, with him on the brief), Kansas Secretary of
State’s Office, Topeka, Kansas, for DefendantAppellant.
Herbert W. Titus of William J. Olson, P.C. (William J.
Olson, Jeremiah L. Morgan, John S. Miles, and Robert
J. Olson, William J. Olson, P.C., Vienna, Virginia; Marc
A. Powell, Powell Law Office, Wichita, Kansas; Michael
Connelly, U.S. Justice Foundation, Ramona, California,
with him on the brief), filed an amicus curiae brief for
the English First Foundation, English First, the U.S.
Justice Foundation, Public Advocate of the United
States, the Gun Owners Foundation, the Gun Owners
of America, the Conservative Legal Defense and
Education Fund, the U.S. Border Control Foundation,
and the Policy Analysis Center, in support of
Defendant-Appellant.
Debo P. Adegbile of Wilmer Cutler Pickering Hale and
Dorr LLP, New York, New York (Jason D. Hirsch,
Wilmer Cutler Pickering Hale and Dorr LLP, New
York, New York; Joshua M. Koppel, Tyeesha Dixon,
and Derek A. Woodman, Wilmer Cutler Pickering Hale
and Dorr LLP, Washington, District of Columbia, with
him on the brief), filed an amicus curiae brief for
Common Cause in support of Plaintiffs-Appellees.
___________________________________
Before BRISCOE, HOLMES, and McHUGH Circuit
Judges.
___________________________________

App. 241
HOLMES, Circuit Judge.
___________________________________
INTRODUCTION
In this case, we must resolve whether section 5 of
the National Voter Registration Act (the “NVRA”), 52
U.S.C. § 20504, preempts a Kansas law requiring
documentary proof of citizenship (“DPOC”) for voter
registration, Kan. Stat. Ann. § 25-2309(l), as applied to
the federally mandated voter-registration form that
must be a part of any application to obtain or renew a
driver’s license (the “motor voter” process).1 Section 5
of the NVRA mandates that states include a voterregistration form as part of the application for a
driver’s license, and provides that this voterregistration form “may require only the minimum

1

We refer to the sections of the NVRA as they appear in Pub. Law
No. 103-31, 107 Stat. 77, 77–89 (1993) (codified as amended at 52
U.S.C. §§ 20501–20511), but, naturally, cite to the U.S. Code. The
relevant sections of the U.S. Code beginning at § 20501 of Title 52
are each numbered one lower than the corresponding sections of
the NVRA, when considering only the final two digits of the U.S.
Code sections. Compare, e.g., NVRA § 12, 107 Stat. at 88, with 52
U.S.C. § 20511. It should also be noted that while the NVRA was
originally codified in Title 42, §§ 1973gg to 1973gg-10, see Pub.
Law No. 103-31, 107 Stat. 77, it has since been editorially
reclassified with other voting and election provisions from titles 2
and 42 into Title 52, effective September 1, 2014. See Shelby Cty.
v. Lynch, 799 F.3d 1173, 1178 n.1 (D.C. Cir. 2015); Editorial
Reclassification: Title 52, United States Code, OFFICE L. REVISION
C OUNSEL , http://uscode.house.gov/editorialreclassification/
t52/index.html (last visited Sept. 13, 2016).

App. 242
amount of information necessary to”2 prevent duplicate
registrations and to “enable State election officials to
assess the eligibility of the applicant and to administer
voter registration and other parts of the election
process.”3 52 U.S.C. § 20504(c)(2)(B). Section 5 further
mandates that motor voter forms include the following:
a statement of the criteria for eligibility, “including
citizenship”; an attestation that the applicant meets
those criteria; and the applicant’s signature “under
penalty of perjury.” § 20504(c)(2)(C).4
Granting a motion for a preliminary injunction
against enforcement of Kansas’s DPOC requirements,
the U.S. District Court for the District of Kansas held
that the Plaintiffs-Appellees had made a strong
showing that Kansas’s DPOC law was preempted by
NVRA section 5, insofar as DPOC was more than the
“minimum amount of information necessary” to achieve
the purposes set forth by the statute. DefendantAppellant Kansas Secretary of State Kris Kobach
2

As a convenient shorthand, we frequently refer to the principle
established by this language as the “minimum-information
principle.”

3

Section 5, subparagraph (c)(2)(B)(ii) (“to assess the eligibility of
the applicant and to administer voter registration and other parts
of the election process”), is integral to the NVRA’s minimuminformation principle. As a shorthand for this lengthy statutory
language, we use “eligibility-assessment and registration duties.”

4

We frequently refer to these statutory requirements, collectively,
as the “attestation requirement.” The penalty-of-perjury
component is an essential feature of this requirement, putting
motor voter applicants on notice that false attestations may carry
serious criminal consequences.

App. 243
appeals from the district court’s entry of the
preliminary injunction, which required him to register
to vote any applicants previously unable to produce
DPOC and to cease enforcement of Kansas’s DPOC
requirement with respect to individuals who apply to
register to vote at the Kansas Department of Motor
Vehicles (“DMV”) through the motor voter process.
Exercising jurisdiction pursuant to 28 U.S.C.
§ 1292,5 we hold that the district court did not abuse its
discretion in granting the preliminary injunction
because the NVRA preempts Kansas’s DPOC law as
enforced against those applying to vote while obtaining
or renewing a driver’s license. Specifically, section 5 of
the NVRA provides, as most relevant here, that the
state motor voter form “may require only the minimum
5

Secretary Kobach argued in earlier motions practice before this
court that the Plaintiffs-Appellees would have lacked standing but
for the fact that they chose not to comply with the Kansas DPOC
requirements while being able to do so. Def.-Aplt.’s Resp. to Pls.Aplees.’ Mot. Correct Appellate R. & Strike Extra-R. Materials
from App. 7–10. He claimed that because they had the ability to
comply but did not, their injury was self-inflicted and so could not
provide standing. Id. at 8–9. Secretary Kobach raises essentially
the same argument in his merits brief, but this time with regard
to irreparable harm, again characterizing the Plaintiffs-Appellants
as having inflicted the harm on themselves. This argument is
without merit for the reasons we will address below. See
Discussion infra Section II.D (analyzing the irreparable-harm
prong of the preliminary injunction standard). Standing requires
that plaintiffs have “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3) that
is likely to be redressed by a favorable judicial decision.” Spokeo,
Inc. v. Robins, — U.S. —, 136 S. Ct. 1540, 1547 (2016). We are
confident on the current record that Plaintiffs-Appellees have
standing to sue.

App. 244
amount of information necessary to . . . enable State
election officials to assess the eligibility of the applicant
and to administer voter registration and other parts of
the election process.” 52 U.S.C. § 20504(c)(2)(B)(ii).
Section 5 also requires motor voter forms to include a
signed attestation under penalty of perjury that the
applicant meets the state’s eligibility criteria, including
citizenship. § 20504(c)(2)(C). We hold that this
attestation under penalty of perjury is the presumptive
minimum amount of information necessary for state
election officials to carry out their eligibilityassessment and registration duties. As it pertains to
the citizenship requirement, the presumption
ordinarily can be rebutted (i.e., overcome) only by a
factual showing that substantial numbers of
noncitizens have successfully registered to vote under
the NVRA’s attestation requirement. Having
determined that Secretary Kobach has failed to make
this showing, we conclude that the DPOC required by
Kansas law is more than the minimum amount of
information necessary and, therefore, is preempted by
the NVRA. We affirm the grant of a preliminary
injunction.
I. BACKGROUND
A. Kansas’s DPOC Requirement and Prior
Litigation
Unremarkably, in Kansas, only citizens may vote in
state and federal elections. KAN. CONST. art. V, § 1. The
Kansas Constitution also requires the legislature to
“provide by law for proper proofs of the right to
suffrage.” Id. art. V, § 4. Kansas adopted its DPOC
requirement for voter registration on April 18, 2011.

App. 245
Secure and Fair Elections (“SAFE”) Act, ch. 56, § 8(l),
2011 Kan. Sess. Laws 795, 806, 809–11 (codified at
Kan. Stat. Ann. § 25-2309(l)). The requirement took
effect January 1, 2013. Id. at § 8(u), 2011 Kan. Sess.
Laws at 812. The SAFE Act requires that
(l) The county election officer or secretary of
state’s office shall accept any completed
application for registration, but an applicant
shall not be registered until the applicant
has provided satisfactory evidence of United
States citizenship. Evidence of United States
citizenship as required in this section will be
satisfied by presenting one of the documents
listed . . . in person at the time of filing the
application for registration or by including a
photocopy of one of the following documents
with a mailed registration application. After
a person has submitted satisfactory evidence
of citizenship, the county election officer shall
indicate this information in the person’s
permanent voter file.
Kan. Stat. Ann. § 25-2309(l). The statute then lists
thirteen forms of documentation acceptable to prove
U.S. citizenship, including a birth certificate or
passport. See § 25-2309(l)(1)–(13). For citizens unable
to present DPOC, subsection (m) provides an alternate
means to prove citizenship by the submission of
evidence to the state election board followed by a
hearing. See § 25-2309(m). The state election board is
composed of “the lieutenant governor, the secretary of
state and the attorney general.” § 25-2203(a).

App. 246
Secretary Kobach promulgated regulations for the
DPOC requirement on October 2, 2015. Kan. Admin.
Regs. § 7-23-15 (the “90-day regulation”). Those
regulations provide that applications unaccompanied
by DPOC are deemed to be “incomplete.” § 7-23-15(a).
Once an application is designated as incomplete, a
voter has ninety days to provide DPOC or else the
application is canceled and a new voter-registration
application is required to register. See § 7-23-15(b)–(c).
We believe that it will provide useful context for our
subsequent discussion of the procedural history of the
present case for us to briefly refer to Kansas’s prior
litigation before our court involving the DPOC issue.
Some groundwork must be laid first, however. In 2013,
an Arizona DPOC requirement was challenged as
running afoul of sections 6 and 9 of the NVRA. Arizona
v. Inter Tribal Council of Ariz., Inc. (Inter Tribal), —
U.S. —, 133 S. Ct. 2247, 2252–53 (2013). Section 9
provides for a universal mail-in form for voter
registration for federal elections (the “Federal Form”)
and entrusts the creation and administration of that
form to the Election Assistance Commission (the
“EAC”) in consultation with the chief election officers
of the states. See 52 U.S.C. § 20508(a). Section 6
provides that “[e]ach State shall accept and use the
mail voter registration application form prescribed by
. . . Section 20508(a)(2).” § 20505(a)(1). The case came
before the U.S. Supreme Court, which was faced with
the question of whether the federal statutory
requirement that states “accept and use” the Federal
Form preempted Arizona’s law requiring officials to
reject Federal Form applications unaccompanied by
DPOC. See Inter Tribal, 133 S. Ct. at 2253. The Court

App. 247
held that the NVRA did require Arizona to accept
Federal Forms unaccompanied by DPOC but also
stated that Arizona could petition the EAC to add a
state-specific instruction requiring DPOC and, in the
case of its refusal to add it, the state could obtain
judicial review of the EAC decision. Id. at 2259–60. The
court further held that to raise a constitutional doubt
under the Qualifications Clause (i.e., U.S. CONST. art.
I, § 2, cl. 1), the state would have had to show that the
law precluded it “from obtaining information necessary
for enforcement” of the state’s voter qualifications. Id.
at 2259.
Ken Bennet, then Secretary of State of Arizona,
together with Secretary Kobach, subsequently
requested that the EAC add state-specific instructions
for Arizona and Kansas requiring DPOC. Rebuffed by
the EAC, they filed suit in the District of Kansas
attempting to force the EAC to grant their request to
add Arizona- and Kansas-specific DPOC instructions to
the Federal Form or to obtain a judgment that the
NVRA was unconstitutional as applied. Kobach v. U.S.
Election Assistance Comm’n (EAC), 772 F.3d 1183,
1187–88 (10th Cir. 2014). They prevailed in district
court, but we reversed on appeal. Specifically, we
rejected their challenge and held that the EAC’s refusal
was in accordance with the NVRA and the
Administrative Procedure Act and that no
Qualifications Clause issue had been raised. See id. at
1199. Now we proceed to the procedural circumstances
of this case.

App. 248
B. Procedural Background
Steven Wayne Fish, Donna Bucci, Charles Stricker,
Thomas J. Boynton, and Douglas Hutchinson (together
with the League of Women Voters of Kansas,6 the
“Plaintiffs-Appellees”) filed their initial complaint in
the U.S. District Court for the District of Kansas on
February 18, 2016. The individual Plaintiffs-Appellees
are U.S. citizens eligible to vote who claim that they
have been prevented from registering to vote by
Kansas’s DPOC requirement. Bringing suit under the
private right of action established by the NVRA, 52
U.S.C. § 20510(b), and 42 U.S.C. § 1983, PlaintiffsAppellees allege that Kansas’s DPOC requirement and
the 90-day regulation are preempted by the NVRA and
are unconstitutional under both the Elections Clause
(i.e., U.S. CONST. art. I, § 4, cl. 1) and the Privileges
and Immunities Clause (i.e., U.S. CONST. art. IV, §2, cl.
1). After Plaintiffs-Appellees filed their motion for a
preliminary injunction on February 25, 2016, limited
and expedited discovery ensued. In response to the
preliminary injunction motion, Secretary Kobach
argued that the NVRA did not speak to or preempt
state DPOC requirements and, to so interpret the
statute, would raise a doubt as to whether the NVRA
was constitutional because it would bring the statute
into conflict with the states’ power under the
Qualifications Clause. The district court disagreed,
issuing a memorandum and order on May 17.

6

The League of Women Voters of Kansas was joined as a plaintiff
by an amended complaint filed March 17, 2016.

App. 249
The order granted in part and denied in part the
Plaintiffs-Appellees’ motion for a preliminary
injunction. The court denied the motion as to enjoining
enforcement of the 90-day regulation, holding that the
Plaintiffs-Appellees were unlikely to prevail on their
claim that the regulation was preempted by Section 8
of the NVRA. But the court granted the motion to
enjoin Kansas from enforcing the DPOC requirement
and further enjoined Secretary Kobach to register each
person whose application had been suspended or
cancelled for failure to provide DPOC.7 The court did so
7

The injunction issued by the district court requires Secretary
Kobach to register for purposes of both congressional and
presidential elections those applicants unable to provide DPOC but
who have otherwise filled out valid motor voter forms. The NVRA,
by relying on the definitions of federal campaign finance law,
applies expressly to all federal general and primary elections,
including presidential elections. 52 U.S.C. § 20502(1)–(2)
(incorporating the definitions of “election” and “Federal office” from
§ 30101(1), (3)); § 30101(1) (defining “election” to include general
and primary elections and caucuses); § 30101(3) (defining “Federal
office” to include the presidency, vice presidency, and congressional
offices).

We recognize that, by its literal terms, the Elections Clause
only addresses congressional elections. See U.S. CONST. art. I, § 4,
cl. 1. But both the Supreme Court and our sister courts have
rejected the proposition that Congress has no power to regulate
presidential elections. See id. art. II, § 1, cl. 4 (expressly providing
as to the election of the President and Vice-President, “The
Congress may determine the Time of chusing the Electors, and the
Day on which they shall give their Votes; which Day shall be the
same throughout the United States”). Compare Buckley v. Valeo,
424 U.S. 1, 90 (1976) (per curiam) (“Congress has power to regulate
Presidential elections and primaries . . . .”) and ACORN v. Miller,
129 F.3d 833, 836 n.1 (6th Cir. 1997) (“Congress has been granted
authority to regulate presidential elections . . . .”), with Inter

App. 250
on the grounds that the minimum-information
principle of NVRA section 5 preempted Kansas’s DPOC
requirements and, in that regard, Secretary Kobach
had failed to show that the statute’s attestation
requirement did not meet this statutory principle or to
raise a constitutional doubt under the Qualifications
Clause.
To reach this conclusion, the court first interpreted
the term “minimum” in NVRA section 5 to bear its
plain meaning. Accordingly, under the minimuminformation principle, a “State may require only the
least possible amount of information necessary to
enable State election officials to assess whether the
applicant is a United States Citizen.” Fish v. Kobach,
— F. Supp. 3d —, 2016 WL 2866195, at *16 (D. Kan.
2016). Next the court determined that DPOC was quite
burdensome whereas attestation was less burdensome
and had successfully prevented all but a very few
noncitizens from registering to vote. DPOC was

Tribal, 133 S. Ct. at 2268 n.2 (Thomas, J., dissenting)
(“Constitutional avoidance is especially appropriate in this area
because the NVRA purports to regulate presidential elections, an
area over which the Constitution gives Congress no authority
whatsoever.”).
Regarding this case, no party has raised the issue of whether
the NVRA—which we must infer, for reasons explicated infra at
note 9, was enacted pursuant to the Elections Clause—may
constitutionally extend to presidential elections. Accordingly, we
have no need to opine on this issue. Consequently, as we use the
term in this opinion, “federal elections” reaches the full spectrum
of elections—both congressional and presidential; this is consistent
with both the plain meaning of the NVRA, § 20502(1)–(2), and the
terms of the district court’s injunction, which we affirm today.

App. 251
therefore adjudged to be greater than the least amount
of information necessary and preempted by the NVRA,
while attestation met the statutory minimuminformation principle. Lastly, the court rejected
Secretary Kobach’s Qualifications Clause challenge to
preemption under the NVRA. Guided by Inter Tribal
and EAC, the court held that, because Kansas had
failed to show that the statutory attestation
requirement resulted in a “significant number of
noncitizens voting,” the NVRA’s preemption of
Kansas’s DPOC requirement did not preclude the state
from enforcing its citizenship qualification in
contravention of the Qualification Clause. Id. at *23.
After the court issued its preliminary injunction,
Secretary Kobach timely appealed, arguing that the
district court erred in its interpretation of the NVRA,
that the Plaintiffs-Appellees had failed to meet the
irreparable-harm standard, and that the balance of
harms was improperly weighed.8

8

The district court also denied a motion to dismiss for lack of
subject matter jurisdiction brought by the other defendant in the
case. That defendant, Nick Jordan, the Secretary of Revenue for
the State of Kansas—under whose purview the Kansas DMV
falls—has filed a separate appeal with this court under the name
Fish v. Jordan, No. 16-3175.

App. 252
C. Statutory Background: The National Voter
Registration Act
1. General Purposes and Structure
Acting pursuant to the Elections Clause,9 Congress
crafted and passed the NVRA against a backdrop of
lackluster voter registration and political participation.
Congress found that “discriminatory and unfair
registration laws and procedures can have a direct and
damaging effect on voter participation in elections for
Federal office and disproportionately harm voter
participation by various groups, including racial
minorities.” 52 U.S.C. § 20501(a)(3). In crafting the
NVRA, Congress had four overriding purposes:

9

Although Congress did not expressly invoke the Elections Clause
in enacting the NVRA, both the Supreme Court and our court have
operated on the premise that the Elections Clause was Congress’s
source of authority in enacting the NVRA, in resolving disputes
that are analogous to the present one. See, e.g., Inter Tribal, 133
S. Ct. at 2257 (“We conclude that the fairest reading of the statute
is that a state-imposed requirement of evidence of citizenship not
required by the Federal Form is ‘inconsistent with’ the NVRA’s
mandate that States ‘accept and use’ the Federal Form. If this
reading prevails, the Elections Clause requires that Arizona’s rule
give way.” (emphasis added) (citation omitted)); id. at 2256–57
(holding, with reference to the NVRA, that traditional Supremacy
Clause preemption analysis does not apply to legislation passed
under the Elections Clause); EAC, 772 F.3d at 1194–95 (observing
with reference to the NVRA that “the [Inter Tribal] Court
reaffirmed that the United States has authority under the
Elections Clause to set procedural requirements for registering to
vote in federal elections”). In light of this controlling precedent, we
are constrained to infer that Congress was acting pursuant to its
Elections Clause power when it enacted the NVRA.

App. 253
(1)

to establish procedures that will
increase the number of eligible
citizens who register to vote in
elections for Federal office;

(2)

to make it possible for Federal, State,
and local governments to implement
this chapter in a manner that
enhances the participation of eligible
citizens as voters in elections for
Federal office;

(3)

to protect the integrity of the electoral
process; and

(4)

to ensure that accurate and current
voter registration rolls are
maintained.

§ 20501(b).
To achieve these purposes, the NVRA creates three
federally mandated voter-registration mechanisms, two
of which are implemented almost entirely by the states.
Section 4 provides the basic outlines of the statute’s
requirements:
[N]otwithstanding any other Federal or State
law, in addition to any other method of voter
registration provided for under State law,
each State shall establish procedures to
register to vote in elections for Federal
office—
(1)

by
application
made
simultaneously with an application

App. 254
for a motor vehicle driver’s license
pursuant to section 20504 of this
title;
(2)

by mail application pursuant to
section 20505 of this title;

(3)

by application in person—
....
(B)

at a Federal, State, or
nongovernmental office
designated under section
20506 of this title.

§ 20503(a). Together, these mechanisms ensure that,
whatever else the states do, simple means are available
to register for federal elections and those means are
actively presented to voters by the states. The NVRA
thus mandates both the means by which registration is
achieved and where and how those means will be
presented to potential voters.
The NVRA sets requirements for the contents of
both the Federal Form and any state forms used in the
motor voter or agency registration processes. The
contents of the mail-in Federal Form of sections 6 and
9 (the subject of both Inter Tribal and EAC) are
prescribed partly by statute, § 20508(b), and otherwise
entrusted to the administrative judgment of the EAC,
a federal agency. See § 20508(a); EAC, 772 F.3d at
1195–96. While states are permitted to create their
own mail-in forms, § 20505(a)(2), they must
nevertheless accept and use the Federal Form, see
§ 20505(a)(1)–(2); Inter Tribal, 133 S. Ct. at 2247.

App. 255
Similarly, in the context of Section 7's agency
provisions, state agencies must either distribute the
Federal Form or use “the office’s own form if it is
equivalent to the form described in section
20508(a)(2),” i.e. the Federal Form.
§ 20506(a)(6)(A)(i)–(ii).
By contrast, section 5’s motor voter provisions
require states to develop a form for use in tandem with
applications to obtain or renew a driver’s license. See
§ 20504(c). But the NVRA does not give states a free
hand to determine the contents of their motor voter
forms. The statute sets out requirements for the
contents of state motor voter forms in terms that
largely mirror the requirements for the Federal
Form—but that also differ in important ways. Compare
§ 20504(c)(2) (motor voter form requirements), with
§ 20508(b) (Federal Form requirements).
In addition to mandating and regulating the means
of voter registration, the NVRA requires that states
actively present voters with those means. Alongside the
motor voter regime, section 7's agency provisions
require state public assistance agencies and other
offices designated by the state (as well as armed forces
recruitment offices) to distribute with their
applications for services either the Federal Form or an
“equivalent” state form and to accept completed forms
for transmittal to state election officials.
§ 20506(a)(1)–(4), (6); see also § 20506(c) (military
recruitment office provision). Congress intended with
this provision to reach potential voters who would
otherwise not be reached by the motor voter program.
See H.R. REP. NO. 103-66, at 19 (1993) (Conf. Rep.) (“If

App. 256
a State does not include either public assistance,
agencies serving persons with disabilities, or
unemployment compensation offices in its agency
program, it will exclude a segment of its population
from those for whom registration will be convenient
and readily available—the poor and persons with
disabilities who do not have driver’s licenses and will
not come into contact with the other principle [sic]
place to register under this Act. . . . The only way to
assure that no State can create an agency registration
program that discriminates against a distinct portion
of its population is to require that the agencies
designated in each State include an agency that has
regular contact with those who do not have driver’s
licenses.”), as reprinted in 1993 U.S.C.C.A.N. 140, 144.
The motor voter provision assures that all persons
who drive will sooner or later be presented with an
opportunity to register to vote:
Each State motor vehicle driver’s license
application (including any renewal
application) submitted to the appropriate
State motor vehicle authority under State
law shall serve as an application for voter
registration with respect to elections for
Federal office unless the applicant fails to
sign the voter registration application.
§ 20504(a)(1). Once a valid motor voter registration
form is submitted to a state, the state is required to
ensure registration so long as the form is submitted
within the lesser of thirty days before the election date
or the period provided by state law. See
§ 20507(a)(1)(A). Indeed, section 8 requires that

App. 257
whenever any “valid voter registration form” mandated
by the statute is submitted, the state must ensure
registration to vote in an election so long as the form
was submitted within the requisite time period.
§ 20507(a)(1)(A)–(C). In other words, when an eligible
voter avails herself of one of the mandated means of
registration and submits to the state a valid form,
ordinarily the state must register that person. See Inter
Tribal, 133 S. Ct. at 2255.
2. The Motor Voter Provisions
In the present case, only the motor voter provisions
are at issue—specifically, the requirements for the
contents of motor voter forms. Subsection (c) of section
5 both sets out specific requirements for the motor
voter form and establishes an overarching principle
that restrains the discretion of states to require
additional information in carrying out their eligibilityassessment and registration duties. The relevant
statutory language reads:
(2)

The voter registration application
portion of an application for a State
motor vehicle driver’s license—
(A)

may
not
require
any
information that duplicates
information required in the
driver’s license portion of the
form (other than a second
signature or other information
necessary under subparagraph
(C));

App. 258
(B)

may require only the minimum
amount of information
necessary to—
(i)

prevent duplicate voter
registrations; and

(ii)

enable state election
officials to assess the
eligibility of the
applicant and to
administer voter
registration and other
parts of the election
process;

(C) shall include a statement that—
(i)

states each eligibility
requirement (including
citizenship);

(ii)

contains an attestation
that the applicant meets
each such requirement;
and

(iii)

requires the signature of
the applicant, under
penalty of perjury[.]

§ 20504(c)(2)(A)–(C) (emphasis added). Thus, under
subparagraph (A), no duplicate information may be
required, § 20504(c)(2)(A); under subparagraph (B),
while states may require more than what is expressly
required by the NVRA, such discretion is restricted by

App. 259
the principle that the states not require more than “the
minimum amount of information necessary to” prevent
duplicate registrations and to carry out their eligibilityassessment and registration duties, § 20504(c)(2)(B);
and under subparagraph (C) the application must
include a list of eligibility requirements, “including
citizenship,” and a signed attestation under penalty of
perjury that the applicant meets those requirements,
§ 20504(c)(2)(C).
II. DISCUSSION
After stating our standard of review, we begin by
recalling the elements of the preliminary injunction
standard. We then discuss each prong of the
preliminary injunction standard, beginning with the
likelihood of success on the merits. In determining
whether the district court erred in holding that the
Plaintiffs-Appellees were likely to succeed on the
merits, we consider first the nature of Congress’s power
under the Elections Clause and Congress’s role in
regulating elections vis-à-vis the states. We next
consider preemption questions and the nature of
statutory interpretation under the Elections Clause.
Under the Elections Clause, we apply ordinary tools of
statutory interpretation and any conflicting state
provision is preempted.
Third, we interpret the meaning of the NVRA’s
requirements for state motor voter forms and hold that
the NVRA attestation requirement presumptively
meets the minimum-information principle; it therefore
preempts Kansas’s DPOC requirement absent a factual
showing that the attestation requirement is insufficient
on these facts to satisfy that principle. Next we

App. 260
examine whether Secretary Kobach has succeeded in
showing that attestation is insufficient under the
statutory minimum-information principle and hold that
he has not. Last, we turn to Secretary Kobach’s
Qualifications Clause arguments and the remaining
prongs of the preliminary injunction standard.
A. Standard of Review
On appeal, we review a district court’s decision to
grant a preliminary injunction for abuse of discretion.
See, e.g., Heideman v. S. Salt Lake City, 348 F.3d 1182,
1188 (10th Cir. 2003). An abuse of discretion occurs
where a decision is premised “on an erroneous
conclusion of law or where there is no rational basis in
the evidence for the ruling.” Awad v. Ziriax, 670 F.3d
1111, 1125 (10th Cir. 2012) (quoting Wilderness
Workshop v. U.S. Bureau of Land Mgmt., 531 F.3d
1220, 1223–24 (10th Cir. 2008)). Thus, we review the
district court’s factual findings for clear error and its
conclusions of law de novo. Heideman, 348 F.3d at
1188.
B. Preliminary Injunction Standard
Four factors must be shown by the movant to obtain
a preliminary injunction: (1) the movant “is
substantially likely to succeed on the merits; (2) [the
movant] will suffer irreparable injury if the injunction
is denied; (3) [the movant’s] threatened injury
outweighs the injury the opposing party will suffer
under the injunction; and (4) the injunction would not
be adverse to the public interest.” Beltronics USA, Inc.
v. Midwest Inventory Distrib., LLC, 562 F.3d 1067,
1070 (10th Cir. 2009).

App. 261
Additionally, some preliminary injunctions are
disfavored and require a stronger showing by the
movant—viz., movants must satisfy a heightened
standard. They are “(1) preliminary injunctions that
alter the status quo; (2) mandatory preliminary
injunctions; and (3) preliminary injunctions that afford
the movant all the relief that it could recover at the
conclusion of a full trial on the merits.” Awad, 670 F.3d
at 1125 (quoting Summum v. Pleasant Grove City, 483
F.3d 1044, 1048–49 (10th Cir. 2007), rev’d on other
grounds, 555 U.S. 460 (2009)). In seeking such an
injunction, the movant must “make[] a strong showing
both with regard to the likelihood of success on the
merits and with regard to the balance of harms.”
Beltronics, 562 F.3d at 1071 (quoting O Centro Espirita
Beneficiente Uniao Do Vegetal v. Ashcroft, 389 F.3d
973, 976 (10th Cir. 2004) (en banc)). The parties
dispute whether the injunction requested here falls
under one or more of these categories. The district
court did not reach the question because it held that
the Plaintiffs-Appellees had made a sufficiently strong
showing to meet the heightened standard. Similarly,
we decline to reach the question of whether the
heightened standard for disfavored preliminary
injunctions applies and hold that, even assuming
arguendo that the heightened standard applies, the
Plaintiffs-Appellees meet that standard.
C. Likelihood of Success on the Merits
We first examine the text of the Elections Clause
and the Supreme Court’s jurisprudence concerning
statutory interpretation and preemption under that
clause. We next interpret the NVRA’s requirements for

App. 262
the contents of state motor voter forms and apply that
interpretation to the facts as found by the district
court. Last, we address Secretary Kobach’s arguments
regarding constitutional doubt under the Qualifications
Clause.
1. The Elections Clause
The Elections Clause states:
The Times, Places and Manner of holding
Elections for Senators and Representatives,
shall be prescribed in each State by the
Legislature thereof; but the Congress may at
any time by Law make or alter such
Regulations, except as to the Places of
chusing Senators.
U.S. CONST. art. I, § 4, cl. 1. The plain text of the clause
requires the states to provide for the regulation of
congressional elections. See Inter Tribal, 133 S. Ct. at
2253; Foster v. Love, 522 U.S. 67, 69 (1997). The text
makes equally clear, however, that Congress can step
in, either making its own regulations that wholly
displace state regulations or else modifying existing
state regulations. See Inter Tribal, 133 S. Ct. at 2253
(“The Clause empowers Congress to preempt state
regulations governing the ‘Times, Places and Manner’
of holding congressional elections.”).
This unusual allocation of powers and
responsibilities between the federal government and
the states stems from the Founders’ concern that the
states could refuse to conduct federal elections,
effectively terminating the national government. See
id.; see also THE FEDERALIST NO. 59, at 328 (Alexander

App. 263
Hamilton) (Robert A. Ferguson ed., 2006) (“Nothing can
be more evident, than that an exclusive power of
regulating elections for the national government, in the
hands of the state legislatures, would leave the
existence of the union entirely at their mercy. They
could at any moment annihilate it, by neglecting to
provide for the choice of persons to administer its
affairs.”). Thus, although the regulation of
congressional elections is in the first instance entrusted
by the Elections Clause to the states, Congress can
always intervene. Indeed, the Anti-Federalists
themselves recognized the preemptive power of
Congress under the Elections Clause, although they
discerned more insidious motives in its breadth. See
Federal Farmer No. XII (Jan. 12, 1788), reprinted in 2
THE COMPLETE ANTI-FEDERALIST 294, 300 (Herbert J.
Storing, ed., 1981) (“[T]he true construction is, that
when congress shall see fit to regulate the times,
places, and manners of holding elections, congress may
do it, and state regulations, on this head, must
cease. . . . [But] it was not merely to prevent an
annihilation of the federal government that congress
has power to regulate elections.”).
Justice Story also shared this understanding of the
Elections Clause, despite the fact that in the decades
between the Constitution’s adoption and the drafting of
his commentary on the Elections Clause, Congress had
not exercised this preemptive power. 3 Joseph Story,
COMMENTARIES ON THE CONSTITUTION OF THE UNITED
STATES § 824, at 290–92 (Fred B. Rothman & Co. 1991)
(1833). He characterized the preemptive power of the
clause as constituting a “superintending” or
“supervisory” power over state regulations. See, e.g., id.

App. 264
§§ 813, 820, at 280, 288. He also observed that
opponents of the Constitution “assailed” the Elections
Clause “with uncommon zeal and virulence” because of
the express power granted to Congress to preempt
state election regulations. Id. § 813, at 280.
The Supreme Court has hewn to this view of the
Elections Clause since at least 1880 in Ex parte
Siebold, 100 U.S. 371 (1879) and has reaffirmed it in
both Inter Tribal and in Foster v. Love, 522 U.S. 68
(1997). In Ex parte Siebold, the Court was presented
with the argument—put forth by defendants seeking
habeas relief, following their conviction under federal
law for ballot box stuffing—that when Congress acts
under the Elections Clause, it must, in modern terms,
occupy the field. 100 U.S. at 382–83 (“[T]hey contend
that [Congress] has no constitutional power to make
partial regulations to be carried out in conjunction with
regulations made by the States.”). Although the Court
agreed that Congress could, if it so desired, occupy the
field of election regulations, the Court flatly rejected
the proposition that Congress could not partially
regulate alongside state regulations or alter state
regulations; in doing so, the Court made clear that
when Congress makes or alters regulations and this
action engenders conflict with state election
regulations, state law must give way:
If Congress does not interfere [with state
election regulations], of course they may be
made wholly by the State; but if it chooses to
interfere, there is nothing in the words to
prevent its doing so, either wholly or
partially. . . . If it only alters, leaving, as

App. 265
manifest convenience requires, the general
organization of the polls to the State, there
results a necessary co-operation of the two
governments in regulating the subject. But
no repugnance in the system of regulations
can arise thence; for the power of Congress
over the subject is paramount. It may be
exercised as and when Congress sees fit to
exercise it. When exercised, the action of
Congress, so far as it extends and conflicts
with the regulations of the State, necessarily
supersedes them. This is implied in the power
to “make or alter.”
Id. at 383–84 (emphasis added; emphasis on “alter” in
the original). This concept of the Election Clause’s
preemptive reach has not fallen into desuetude since
then.
The Supreme Court has recently and repeatedly
reaffirmed that “the power the Elections Clause confers
is none other than the power to pre-empt.” Inter Tribal,
133 S. Ct. at 2257. In Foster v. Love, the Court
observed, “The Clause is a default provision; it invests
the States with responsibility for the mechanics of
congressional elections, but only so far as Congress
declines to preempt state legislative choices.” 522 U.S.
at 69 (citations omitted). Indeed, when Congress
legislates under the Elections Clause, “it necessarily
displaces some element of a pre-existing legal regime
erected by the States.” Inter Tribal, 133 S. Ct. at 2257.
Further, both the Supreme Court and this court
have recognized that the power to preempt state

App. 266
regulations of “time, places, and manner” extends to
the regulation of voter registration:
“The Clause’s substantive scope is broad.
‘Times, Places, and Manner,’ we have
written, are ‘comprehensive words,’ which
‘embrace authority to provide a complete
code for congressional elections,’ including, as
relevant here and as petitioners do not
contest, regulations relating to ‘registration.’”
EAC, 772 F.3d at 1195 (quoting Inter Tribal, 133 S. Ct.
at 2253); see also Smiley v. Holm, 285 U.S. 355, 366
(1932) (source for the second-level internal quotations).
Congress therefore has the power to preempt state
voter-registration regulations.
Although the preceding doctrine is well settled, it is
important to define clearly the relationship that the
Constitution establishes between the states and the
federal government and the extent and nature of the
power delegated to each. Congress permissively allows
the states to regulate, but only to the extent that
Congress chooses not to regulate. Congress possesses
the power to alter existing state regulations—not the
other way around. At bottom, Secretary Kobach argues
that states should be able to modify existing federal
election regulations, in order to repurpose an existing
federal registration regime for the states’ own ends.
This would invert the relationship that the Elections
Clause establishes between Congress and the states
because it would give the states—rather than
Congress—the last word. Having established
Congress’s preemptive power under the Elections

App. 267
Clause, we turn now to how to interpret the scope of
preemption.
2. P r e e m p t i o n
and
Statutory
Interpretation Under the Elections
Clause
Sitting en banc, the Ninth Circuit, in Gonzalez v.
Arizona, 677 F.3d 383 (9th Cir. 2012) (en banc), aff’d
sub nom. Inter Tribal, 133 S. Ct. 2247, has offered a
persuasive synthesis of the method of statutory
construction required when a congressional enactment
under the Elections Clause allegedly conflicts with
state election regulations. There, the Ninth Circuit
construed Siebold and Foster as requiring courts to
consider the relevant congressional and state laws as
part of a single statutory scheme but treating the
congressional enactment as enacted later and thus
superseding any conflicting state provision:
Reading Siebold and Foster together, we
derive the following approach for
determining whether federal enactments
under the Elections Clause displace a state’s
procedures for conducting federal elections.
First, as suggested in Siebold, we consider
the state and federal laws as if they comprise
a single system of federal election
procedures. Siebold, 100 U.S. at 384. If the
state law complements the congressional
procedural scheme, we treat it as if it were
adopted by Congress as part of that scheme.
See id. If Congress addressed the same
subject as the state law, we consider whether
the federal act has superseded the state act,

App. 268
based on a natural reading of the two laws
and viewing the federal act as if it were a
subsequent enactment by the same
legislature. Foster, 522 U.S. at 74, 118 S. Ct.
464; see id. at 72–73, 118 S. Ct. 464. If the
two statutes do not operate harmoniously in
a single procedural scheme for federal voter
registration, then Congress has exercised its
power to “alter” the state’s regulation, and
that regulation is superseded.
Gonzalez, 677 F.3d at 394. This framework that the
Ninth Circuit has articulated is supported by close
readings of Siebold and Foster as well the Supreme
Court’s more recent decision, Inter Tribal, as we
demonstrate infra. We first address the closely related
decision, Inter Tribal, to show that the Court did not
repudiate or abandon the framework of Siebold and
Foster—indeed Inter Tribal depends on them—before
turning to those cases.
In Inter Tribal, the Court rejected Arizona’s
argument that the presumption against preemption
applies in Elections Clause cases and held instead that
the plain text of a federal statute “accurately
communicates the scope of Congress’s preemptive
intent.” Inter Tribal, 133 S. Ct. at 2257. First, it
observed that the rationale underlying the presumption
against preemption under the Supremacy Clause does
not apply to the Elections Clause. As to the Supremacy
Clause, “we start with the assumption that the historic
police powers of the States were not to be superseded
by the Federal Act unless that was the clear and
manifest purpose of Congress.” Id. at 2256 (quoting

App. 269
Rice v. Santa Fe Elevator Corp., 331 U.S. 218, 230
(1947)). Thus, “‘Congress does not exercise lightly’ the
‘extraordinary power’ to ‘legislate in areas traditionally
regulated by the States.’” Id. (quoting Gregory v.
Ashcroft, 501 U.S. 452, 460 (1991)); cf. United States v.
Locke, 529 U.S. 89, 108 (2000) (“[A]n ‘assumption’ of
nonpre-emption is not triggered when the State
regulates in an area where there has been a history of
significant federal presence.”).
But the regulation of congressional elections is not
a subject of state police power nor one that is
traditionally the province of the states. Nor could it be,
because the states’ power over congressional
elections—or rather the duty to provide for
elections—derives from an express grant in the
Constitution. See U.S. CONST. art. 1, § 4, cl. 1; U.S.
Term Limits, Inc. v. Thornton, 514 U.S. 779, 802 (1995)
(“As Justice Story recognized, ‘the states can exercise
no powers whatsoever, which exclusively spring out of
the existence of the national government, which the
constitution does not delegate to them . . . .” (quoting 1
Joseph Story, COMMENTARIES ON THE CONSTITUTION OF
THE UNITED STATES § 627)); id. at 804–05 (“It is surely
no coincidence that the context of federal elections
provides one of the few areas in which the Constitution
expressly requires action by the States . . . . This duty
parallels the duty under Article II [to appoint electors
to choose the president].”). Thus “[u]nlike the States’
‘historic police powers,’ the States’ role in regulating
congressional elections—while weighty and worthy of
respect—has always existed subject to the express
qualification that it ‘terminates according to federal
law.’” Inter Tribal, 133 S. Ct. at 2257 (citations

App. 270
omitted) (quoting, respectively, Rice, 331 U.S. at 230;
Buckman Co. v. Plaintiffs’ Legal Comm., 531 U.S. 341,
347 (2001)). The Court concluded, “[T]here is no
compelling reason not to read Elections Clause
legislation simply to mean what it says.” Inter Tribal,
133 S. Ct. at 2257 (emphases added).
Applying these concepts, the Court held that under
“the fairest reading of the statute” Arizona’s DPOC
requirement was inconsistent with the NVRA’s
requirement that states “accept and use” the Federal
Form and, thus, preempted. Id. To arrive at this result,
the Court simply compared Arizona’s DPOC
requirement with the requirements of the NVRA and
asked whether Arizona’s requirement conflicted with
the NVRA—to the extent that it did, Arizona’s DPOC
law was preempted by the NVRA. Id. (“If this reading
prevails, the Elections Clause requires that Arizona’s
rule give way.”).
Further, Siebold and Foster help to more fully flesh
out how to approach this interpretive task and how it
is influenced by Congress’s presumptively preemptive
power under the Elections Clause. In Siebold, the
Court likened the task of statutory construction in a
case of federal-state conflict under the Elections Clause
to that of reading a single, harmonious code of
regulations. This analogy derives from Congress’s
plenary power under the Elections clause: “If
[Congress] only alters [state regulations] . . . there
results a necessary co-operation of the two
governments in regulating the subject. But no
repugnance in the system of regulations can arise
thence; for the power of congress over the subject is

App. 271
paramount.” Siebold, 100 U.S. at 383–84. The court
then likened the analysis to reading the state and
federal provisions as part of a single statutory scheme:
Suppose the Constitution of a State
should say, “The first legislature elected
under this Constitution may by law regulate
the election of members of the two Houses;
but any subsequent legislature may make or
alter such regulations,”—could not a
subsequent legislature modify the
regulations made by the first legislature
without making an entirely new set? Would
it be obliged to go over the whole subject
anew? Manifestly not: it could alter or
modify, add or subtract, in its discretion. The
greater power, of making wholly new
regulations, would include the lesser, of only
altering or modifying the old. The new law, if
contrary or repugnant to the old, would so
far, and so far only, take its place. If
consistent with it, both would stand. The
objection, so often repeated, that such an
application of congressional regulations to
those previously made by a State would
produce a clashing of jurisdictions and a
conflict of rules, loses sight of the fact that
the regulations made by Congress are
paramount to those made by the State
legislature; and if they conflict therewith, the
latter, so far as the conflict extends, ceases to
be operative.
Id. at 384.

App. 272
Foster establishes that the reading to be applied to
the federal and state statutes at issue is a plain one. In
Foster, the Court was presented with the question of
whether a Louisiana statute violated a federal law that
set the date for congressional elections. 522 U.S. at 70.
Louisiana’s law created an open primary in October
such that if no candidate took a majority, a runoff
would be held between the two highest performing
candidates on the federally mandated election day. Id.
But this could and did result in congressional elections
being decided in October, id., rather than on the
federally mandated “Tuesday next after the 1st
Monday of November,” id. at 69. The Court, rather
than getting lost in the “nicety [of] isolating precisely
what acts a State must cause to be done on federal
election day (and not before it) in order to satisfy the
statute,” id. at 72, instead applied a plain meaning
analysis of the two statutes (i.e., the state and federal
statutes): “The State’s provision for an October election
addresses timing quite as obviously as [the federal
statute] does. . . . [T]he open primary does purport to
affect the timing of federal elections: a federal election
takes place prior to federal election day whenever a
candidate gets a majority in the open primary.” Id. at
72–73. In other words, the fact that the federal and
state regulations both spoke to the same issue and
differed in their requirements was sufficient to
preempt the state regulation. Importantly, the Court
reached this conclusion without parsing the
congressional enactment for lacunae or silences where
the state could regulate. Thus, the Court held that “a
contested selection of candidates for a congressional
office that is concluded as a matter of law before the
federal election day, with no act in law or in fact to take

App. 273
place on the date chosen by Congress, clearly violates
[the federal statute].” Id. at 72.
Guided by these cases, it is clear to us that the
Elections Clause requires that we straightforwardly
and naturally read the federal and state provisions in
question as though part of a unitary system of federal
election regulation but with federal law prevailing over
state law where conflicts arise. We do not finely parse
the federal statute for gaps or silences into which state
regulation might fit. We refrain from doing so because
were states able to build on or fill gaps or silences in
federal election statutes—as Secretary Kobach
suggests he is permitted to do with respect to the
NVRA—they could fundamentally alter the structure
and effect of those statutes. If Congress intended to
permit states to so alter or modify federal election
statutes, like the NVRA, it would have so indicated.
The Elections Clause does not require Congress to
expressly foreclose such modifications by the states.
i. The Plain Statement Rule Derives
from the Presumption Against
Preemption and Does Not Apply to
Legislation Under the Elections
Clause
Secretary Kobach argues—while conceding that
there is no presumption against preemption under the
Elections Clause—that the plain statement rule
nonetheless applies. That rule requires that, when
Congress intends to preempt state law, “it must make
its intention to do so ‘unmistakably clear in the
language of the statute.’” Gregory, 501 U.S. at 460
(quoting Will v. Mich. Dep’t of State Police, 491 U.S. 58,

App. 274
65 (1989)). But as the Plaintiffs-Appellees point out,
this argument was forfeited for failure to raise it before
the district court.
“[I]f [a new] theory simply wasn’t raised before the
district court, we usually hold it forfeited.” Richison v.
Ernest Grp., Inc., 634 F.3d 1123, 1128 (10th Cir. 2011).
A forfeited argument, unlike one that is waived, may
nonetheless be presented and considered on
appeal—but we will reverse a district court’s judgment
on the basis of a forfeited argument “only if failing to do
so would entrench a plainly erroneous result.” Id.
Further, under Richison, “the failure to argue for plain
error and its application on appeal—surely marks the
end of the road for an argument for reversal not first
presented to the district court.” Id. at 1131.
Secretary Kobach contends that he “repeatedly
argued below that the NVRA must contain an express
statement prohibiting DPOC if any preemption can
occur.” Aplt.’s Reply Br. 12 n.5. He points to five pages
of his Memorandum in Opposition to Plaintiffs’ Motion
for Preliminary Injunction, but that section of his
briefing before the district court argues only that the
statute is silent and cannot be construed to prohibit
DPOC, reasoning from precedent and ordinary
principles of statutory interpretation. No mention is
made of the plain statement rule. Our review of the
record below does not reveal any other material that
could fairly be read to present Secretary Kobach’s plain
statement theory. Nor does he make an argument for
plain error review on appeal. Consequently, his plain
statement argument has come to the end of the road
and is effectively waived.

App. 275
In seeking to avoid such an outcome, in his reply
brief, Secretary Kobach concedes that in his briefing
before the district court he cited no caselaw regarding
the plain statement rule. Id. But he points to United
States v. Johnson, 821 F.3d 1194 (10th Cir. 2016) for
the proposition that “[o]nce a federal claim is properly
presented, a party can make any argument in support
of that claim; parties are not limited to the precise
arguments they made below.” Id. at 1199 (quoting
Lebron v. Nat’l R.R. Passenger Corp., 513 U.S. 374, 379
(1995)). On the basis of Johnson, he argues that the
“claim (minus the case law) was certainly presented,”
so his theory was not forfeited. Aplt.’s Reply Br. 12 n.5.
But this argument is spurious under our forfeiture and
waiver principles.
The proposition from Johnson is not relevant in this
context because the heart of our waiver and forfeiture
doctrines lies in the recognition that we are not “a
‘second-shot’ forum, a forum where secondary, back-up
theories may be mounted for the first time. Parties
must be encouraged ‘to give it everything they’ve got’ at
the trial level.” Tele-Commc’ns, Inc. v. Comm’r, 104
F.3d 1229, 1233 (10th Cir. 1997) (emphasis added)
(citation omitted). Theories—as opposed to the
overarching claims or legal rubrics that provide the
foundation for them—are what matters. Richison, 634
F.3d at 1127 (“Where, as here, a plaintiff pursues a
new legal theory for the first time on appeal, that new
theory suffers the distinct disadvantage of starting at
least a few paces back from the block.” (emphasis
added)); see Lyons v. Jefferson Bank & Tr., 994 F.2d
716, 722 (10th Cir. 1993) (noting that “a situation
where a litigant changes to a new theory on appeal that

App. 276
falls under the same general category as an argument
presented at trial” constitutes a failure of preservation
where the issue was “not passed upon below [and thus]
will not be considered on appeal” (emphasis added));
accord McDonald v. Kinder-Morgan, Inc., 287 F.3d 992,
999 (10th Cir. 2002) (stating that forfeiture and waiver
apply to a “new theory on appeal that falls under the
same general category as an argument presented at
trial” (quoting Lyons, 994 F.2d at 722)). We have
expressly rejected the notion that Secretary Kobach
urges: “It would force the judicial system to permit
costly ‘do-overs’ in the district court anytime a party
can conceive a new winning argument on appeal—even
when the district court answered perfectly every
question of law the parties bothered to put before it.”
Richison, 634 F.3d at 1130 (emphasis added). Secretary
Kobach failed to raise an argument based on a plain
statement theory before the district court and fails also
to make an argument for plain error. Therefore, we
would be well within the boundaries of our discretion
to decline to consider his plain statement argument.
Even were we to reach Secretary Kobach’s plain
statement argument, we would conclude that it lacks
merit: specifically, it rests both on an incomplete
reading of the plain statement cases that he cites and
on an erroneous distinction between the presumption
against preemption and the plain statement rule. In
this regard, Gregory, which Secretary Kobach cites,
makes clear that the plain statement rule applies only
where “Congress intends to alter the ‘usual
constitutional balance between the States and the
Federal Government.’” 501 U.S. at 460 (quoting Will,
491 U.S. at 65). Or, as Secretary Kobach’s brief quotes

App. 277
Gregory, “This plain statement rule is nothing more
than an acknowledgment that the States retain
substantial sovereign powers under our constitutional
scheme, powers with which Congress does not readily
interfere.” Aplt.’s Opening Br. 28 (quoting Gregory, 501
U.S. at 461). But the states in fact have no inherent
sovereign power in the area at issue here—federal
elections—nor could they have any if not for the
Constitution’s delegation of power to the states. And
this delegation is expressly limited by Congress’s power
to “make or alter” state regulations. See Inter Tribal,
133 S. Ct. at 2256–57, 2257 n.6; U.S. Term Limits, 514
U.S. at 802, 804–05; see also Discussion supra Section
II.C.2.
Unsurprisingly, Secretary Kobach is unable to cite
Elections Clause cases to support his plain statement
argument: Will addressed congressional preemption of
sovereign immunity, 491 U.S. at 64–65; Gregory
concerned whether the Age Discrimination in
Employment Act was intended to preempt state, agebased mandatory retirement provisions for judges, 501
U.S. at 460–61; and Sugarman v. Dougall, 413 U.S.
634, 635–36 (1973), is not even a preemption case,
dealing instead with whether a state may bar aliens
from civil service positions under the Fourteenth
Amendment. This inability to cite even one case
applying the plain statement rule in the Elections
Clause context is telling.
In truth, contrary to Secretary Kobach’s suggestion,
the plain statement rule is not independent of the
presumption against preemption; instead, it is one way
that the presumption is applied. See Gonzales v.

App. 278
Oregon, 546 U.S. 243, 291–92 (2006) (Scalia, J.,
dissenting) (“The clear-statement rule based on the
presumption against preemption does not apply
because the Directive does not pre-empt any state
law.”). “In traditionally sensitive areas, such as
legislation affecting the federal balance, the
requirement of clear statement assures that the
legislature has in fact faced, and intended to bring into
issue, the critical matters involved in the judicial
decision [to interpret a statute as effecting preemption
of state law].” Gregory, 501 U.S. at 461 (quoting Will,
491 U.S. at 65). However, the Supreme Court has noted
that this presumption against preemption occurs
nowhere in its Election Clause jurisprudence. Inter
Tribal, 133 S. Ct. at 2256 (“We have never mentioned
such a principle [i.e., the presumption] in our Elections
Clause cases.”). Similarly, the Ninth Circuit observed
that the Court has never applied either the
presumption or the plain statement rule in the context
of Elections Clause legislation. Gonzalez, 677 F.3d at
392 (“[T]he ‘presumption against preemption’ and
‘plain statement rule’ that guide Supremacy Clause
analysis are not transferable to the Elections Clause
context. . . . [O]ur survey of Supreme Court opinions
deciding issues under the Elections Clause reveals no
case where the Court relied on or even discussed
Supremacy Clause principles.”).
The reason for this absence is patent. Because
Congress’s regulation of congressional elections
necessarily displaces state regulations, and because the
states have no power qua sovereigns to regulate such
elections, Inter Tribal, 133 S. Ct. at 2257 & n.6, the
plain statement rule, as a creature of the presumption

App. 279
against preemption, has no work to do in the Elections
Clause setting—viz., it is unnecessary to prevent
inadvertent or ill-considered preemption from altering
the traditional state-federal balance. See Gonzalez, 677
F.3d at 392 (“[T]he Elections Clause, as a standalone
preemption provision, establishes its own balance
[between competing sovereigns]. For this reason, the
‘presumption against preemption’ and ‘plain statement
rule’ that guide Supremacy Clause analysis are not
transferable to the Elections Clause context.”).
Therefore, Secretary Kobach’s reliance on the plain
statement rule is misplaced.10

10

In light of our prior discussion of Inter Tribal, it is unnecessary
to dissect Secretary Kobach’s argument that Inter Tribal applied
the plain statement rule. To the contrary, Inter Tribal expressly
rejected stricter standards of statutory interpretation predicated
on the presumption against preemption; instead—eschewing such
standards —it simply construed the plain terms of the NVRA. 133
S. Ct. at 2257. Indeed, Secretary Kobach’s approach would cause
us ill-advisedly to embrace the position of the dissent in Inter
Tribal. There, Justice Alito opined, “The NVRA does not come close
to manifesting the clear intent to pre-empt that we should expect to
find when Congress has exercised its Elections Clause power in a
way that is constitutionally questionable.” Id. at 2273 (Alito, J.,
dissenting) (emphasis added). It is beyond peradventure that
Justice Alito was not in this passage speaking for the court or
establishing the law regarding the interpretation of the NVRA.
Quite the contrary is true. Cf. EAC, 772 F.3d at 1188 (noting that
“[t]his is one of those instances in which the dissent clearly tells us
what the law is not”). Accordingly, Inter Tribal lends Secretary
Kobach no succor regarding the plain statement rule’s
applicability. Ultimately, even if the plain statement rule were
doctrinally independent and applicable—apart from the
presumption against preemption—(which it is not) we would still
decline to apply the plain statement rule for the same reason that

App. 280
We also reject Secretary Kobach’s argument that
preemption of Kansas’s DPOC law cannot be inferred
because the NVRA’s express terms are silent as to
whether states may impose a DPOC requirement. Were
we to adopt such interpretive reasoning, we would
upset the relationship that our Constitution establishes
between the state and federal governments regarding
regulation of congressional elections. States, rather
than Congress, would have the power to “alter” or build
on congressional regulations, rather than the other way
around. The Elections Clause clearly does not
contemplate such an eventuality: it empowers Congress
to displace or alter state regulations governing the
procedures for congressional elections.
Having rejected the heightened interpretive
principle advanced by Secretary Kobach—the plain
statement rule—we examine the plain meaning of the
NVRA and apply the canons of construction as we
ordinarily would to determine whether the NVRA’s
minimum-information principle preempts Kansas’s
DPOC requirement. We examine the Kansas statute
and then the NVRA, cognizant that conflicting state
provisions are preempted.
3. NVRA Requirements for State Motor
Voter Forms
Here, the relevant Kansas statute provides: “The
county election officer or secretary of state’s office shall
accept any completed application for registration, but
an applicant shall not be registered until the applicant
the Supreme Court and our court have refused to apply the
presumption in this Elections Clause context.

App. 281
has provided satisfactory evidence of United States
citizenship,” and it enumerates thirteen forms of
documentation, including a birth certificate and a
passport, that meet this requirement. Kan. Stat. Ann.
§ 25-2309(l).
The NVRA provisions at issue are in section 5,
specifically subparagraphs (c)(2)(B) and (C). The
relevant statutory language reads:
(2)

The voter registration application
portion of an application for a State
motor vehicle driver’s license—
....
(B)

(C)

may require only the minimum
amount of information
necessary to—
(i)

prevent duplicate voter
registrations; and

(ii)

enable state election
officials to assess the
eligibility of the
applicant and to
administer voter
registration and other
parts of the election
process;

shall include
that—

a

statement

App. 282
(i)

states each eligibility
requirement (including
citizenship);

(ii)

contains an attestation
that the applicant meets
each such requirement;
and

(iii)

requires the signature of
the applicant, under
penalty of perjury;

52 U.S.C. § 20504(c)(2). By their express terms, these
subparagraphs have related but distinct meanings.
Absent a convincing argument to the contrary, “may”
should be “construed as permissive and to vest
discretionary power,” United States v. Bowden, 182
F.2d 251, 252 (10th Cir. 1950), while “shall” should be
construed as “mandatory,” Milk ‘N’ More, Inc. v.
Beavert, 963 F.2d 1342, 1346 (10th Cir. 1992). Each
provision restricts the discretion of states in fashioning
the motor voter form in unique ways that are
consistent with this permissive-mandatory distinction.
More specifically, subparagraph (B) serves to
restrict what states “may” do—restricting states’
discretion in creating their own DMV voter-registration
forms by establishing the statutory minimuminformation principle. See § 20504(c)(2)(B). This
principle establishes a ceiling on what information the
states can require. Understanding the nature of this
limit on state discretion begins with an examination of
the meaning of the term “minimum.”

App. 283
“If the words of the statute have a plain and
ordinary meaning, we apply the text as written. We
may consult a dictionary to determine the plain
meaning of a term.” Fruitt v. Astrue, 604 F.3d 1217,
1220 (10th Cir. 2010) (quoting Conrad v. Phone
Directories Co., 585 F.3d 1376, 1381 (10th Cir.2009)).
Dictionaries agree on the meaning of “minimum”: “Of,
consisting of, or representing the lowest possible
amount or degree permissible or attainable,” AMERICAN
HERITAGE DICTIONARY OF THE ENGLISH LANGUAGE 1150
(3d ed. 1992); “Of, relating to, or constituting the
smallest acceptable or possible quantity in a given
case,” Minimum, BLACK’S LAW DICTIONARY (10th ed.
2014); “smallest or lowest,” THE NEW OXFORD ENGLISH
DICTIONARY 1079 (2d ed. 2005); “of, relating to, or
constituting a minimum: least amount possible,”
WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY
1438 (1961).
Notably, this is in contrast to NVRA section 9,
which was at issue in Inter Tribal and EAC. Section 5
establishes a stricter principle than that applied in
Inter Tribal and EAC under section 9. Under NVRA
section 5, a state motor voter form “may require only
the minimum amount of information necessary” for
state officials to carry out their eligibility-assessment
and registration duties. § 20504(c)(2)(B). But section 9
states that, as to the Federal Form, the EAC “may
require only such identifying information . . . as is
necessary” for state officials to meet their eligibility-

App. 284
assessment and registration duties.11 § 20508(b)(2).
Because we must, if possible, give effect “to every
clause and word” of a statute, Toomer v. City Cab, 443
F.3d 1191, 1194 (10th Cir. 2006), we hold that section
5’s “only the minimum amount of information
necessary” is a stricter principle than section 9’s “such
identifying information . . . as is necessary.” By adding
“minimum,” Congress intended to restrain the
discretion of states more strictly than it restrains the
EAC’s discretion in composing the Federal Form.
Accordingly, states do not enjoy the same breadth of
discretion as the EAC to require DPOC, see Inter
Tribal, 133 S. Ct. at 2259–60—a higher burden must be
met before a state may require DPOC for its motor
voter form.
11

The relevant portion of section 9, § 20508(b), states:

The mail voter registration form developed under subsection
(a)(2)—
(1) may require only such identifying information
(including the signature of the applicant) and other
information (including data relating to previous
registration by the applicant), as is necessary to enable
the appropriate State election official to assess the
eligibility of the applicant and to administer voter
registration and other parts of the election process;
(2) shall include a statement that—
(A) specifies each eligibility requirement (including
citizenship);
(B) contains an attestation that the applicant meets
each such requirement; and
(C) requires the signature of the applicant, under
penalty of perjury;

App. 285
We reject Secretary Kobach’s argument to the
contrary. Secretary Kobach takes the position that the
principle established in subparagraph (B) of section 5
is no different than that of section 9 because the
former’s “only the minimum amount of information
necessary” and the latter’s “only such . . . information
. . . as is necessary” mean “substantially the same
thing.” Aplt.’s Opening Br. 34. Accordingly, under his
view, states should enjoy the same discretion accorded
to the EAC under Inter Tribal to require DPOC. The
similarity of the language between section 5 and
section 9 is undeniable. Adopting Secretary Kobach’s
reading, however, would make surplusage of section 5’s
term “minimum”—something we cannot do. See
Toomer, 443 F.3d at 1194.
Additionally, this reading logically relies on the
premise that “necessary” here means “necessary” in the
strictest, most demanding sense, such that the addition
of the term “minimum” would not further restrict, in
the section 5 context, the amount of information that
the state could add to the motor voter form. We do
recognize that some dictionaries define the term
“necessary,” at least among other ways, in this rigorous
sense. See, e.g., WEBSTER’S, supra, at 1510–11 (in
defining the term “necessary” stating “that must be by
reason of the nature of the thing . . . that cannot be
done without: that must be done or had: absolutely
required: essential, indispensable”). However,
dictionaries also recognize that in common parlance
“necessary” can mean something less. See, e.g.,
Necessary, BLACK’S LAW DICTIONARY, supra (“1. That is
needed for some purpose or reason.”); THE NEW OXFORD
AMERICAN DICTIONARY, supra, at 1135 (observing in a

App. 286
usage note that “Necessary applies to something
without which a condition cannot be fulfilled . . .
although it generally implies a pressing need rather
than absolute indispensability”). This is not a linguistic
nuance without legal application.
In this regard, the courts also have frequently
interpreted “necessary” to mean something less than
absolute necessity—most famously in M’Culloch v.
Maryland:
Is it true, that this is the sense in which
the word “necessary” is always used? Does it
always import an absolute physical necessity,
so strong, that one thing to which another
may be termed necessary, cannot exist
without that other? We think it does not. If
reference be had to its use, in the common
affairs of the world, or in approved authors,
we find that it frequently imports no more
than that one thing is convenient, or useful,
or essential to another. . . . It is essential to
just construction, that many words which
import something excessive, should be
understood in a more mitigated sense—in
that sense which common usage justifies.
The word ‘necessary’ is of this description. It
has not a fixed character, peculiar to itself. It
admits of all degrees of comparison; and is
often connected with other words, which
increase or diminish the impression the mind
receives of the urgency it imports. A thing
may be necessary, very necessary, absolutely
or indispensably necessary. To no mind

App. 287
would the same idea be conveyed by these
several phrases. The comment on the word is
well illustrated by the passage cited at the
bar, from the 10th section of the 1st article of
the constitution. It is, we think, impossible to
compare the sentence which prohibits a state
from laying “imposts, or duties on imports or
exports, except what may be absolutely
necessary for executing its inspection laws,”
with that which authorizes congress “to
make all laws which shall be necessary and
proper for carrying into execution” the
powers of the general government, without
feeling a conviction, that the convention
understood itself to change materially the
meaning of the word “necessary,” by
prefixing the word “absolutely.” This word,
then, like others, is used in various senses;
and, in its construction, the subject, the
context, the intention of the person using
them, are all to be taken into view.
17 U.S. (4 Wheat.) 316, 414–15 (1819) (emphasis
added); see also United States v. Comstock, 560 U.S.
126, 134 (2010) (“Chief Justice Marshall emphasized
that the word ‘necessary’ does not mean ‘absolutely
necessary.’”); In re Mile Hi Metal Sys., Inc., 899 F.2d
887, 893 (10th Cir. 1990) (interpreting “necessary” in
the context of when a debtor-in-possession may reject
a collective bargaining agreement under the
bankruptcy code and observing that “[t]he word
‘necessary’ in subsection (b)(1)(A) does not mean
absolutely necessary”); Nat. Res. Def. Council, Inc. v.
Thomas, 838 F.2d 1224, 1236–37 (D.C. Cir. 1988) (“But

App. 288
courts have frequently interpreted the word ‘necessary’
to mean less than absolutely essential . . . .”).
Following Chief Justice Marshall’s observation that
“necessary” is frequently qualified so as to add to or
detract from its urgency, we reject Secretary Kobach’s
argument that Congress intended no difference
between “minimum . . . necessary” and a bare,
unadorned “necessary.”12 As in the Constitution, with
its prohibition of state imposts and duties except as
“absolutely necessary” for inspection laws, U.S. CONST.
art. I, § 10, cl. 2, and the “necessary” of “necessary and
proper,” id. art. I, § 8, cl. 18, in the NVRA Congress
distinguished between “minimum . . . necessary,”
§ 20504(c)(2)(B) and merely “necessary,” § 20508(b)(1).
Giving meaning to the term “minimum,” we reject
Secretary Kobach’s argument that the two are identical
in meaning. The term “minimum” contemplates the
least possible amount of information. We now turn to

12

Secretary Kobach also argues that Congress used the term
“minimum” in section 5, in order to establish subparagraph
(c)(2)(B)(i)’s prohibition on requiring more than the minimum
necessary to prevent duplicate voter registrations. According to
this argument, states could otherwise determine how much
additional information to require depending on how thoroughly
they wished to prevent duplicate registrations. This contention is
readily rebutted by the plain meaning of the statute and its
structure. The language “minimum amount of information
necessary to” lies in subparagraph (c)(2)(B) and applies to both of
the clauses that fall underneath it: both the duplicate voterregistration clause, (c)(2)(B)(i), and the clause dealing with state
officials’ eligibility-assessment and registration duties, (c)(2)(B)(ii).
Adopting Secretary Kobach’s suggested reading would contradict
this plain reading of the statute.

App. 289
the attestation requirement and its relationship with
the minimum-information principle.
Subparagraph (C) restricts state discretion in a
distinct way from subparagraph (B)’s minimuminformation principle. Specifically, it commands states
to list qualifications and also to require applicants to
attest that they meet them and to sign the attestation
under penalty of perjury. See § 20504(c)(2)(C). Given
the important discretion-limiting effects of these two
subparagraphs on state power relative to federal
elections, it is essential that we inquire further into the
relationship between them to discern whether Kansas’s
DPOC law conflicts with section 5 of the NVRA. It is
well settled that we are obliged to construe cognate
statutory provisions harmoniously, if possible. See FDA
v. Brown & Williamson Tobacco Corp., 529 U.S. 120,
133 (2000) (“A court must therefore interpret the
statute ‘as a symmetrical and coherent regulatory
scheme,’ and ‘fit, if possible, all parts into an
harmonious whole.’” (citations omitted) (quoting,
respectively, Gustafson v. Alloyd Co., 513 U.S. 561, 569
(1995); FTC v. Mandel Bros., Inc., 359 U.S. 385, 389
(1959))); Pharmanex v. Shalala, 221 F.3d 1151, 1154
(10th Cir. 2000) (same); In re Harline, 950 F.2d 669,
675 (10th Cir. 1991) (“[F]ollowing the rule that,
whenever possible, statutes should be read in harmony
and not in conflict . . . .” (quoting Shumate v. Patterson,
943 F.2d 362, 365 (4th Cir. 1991))).
With the foregoing guidance in mind, recall, on the
one hand, that the statutory minimum-information
principle of subparagraph (B) calls on states to include
the least possible amount of information necessary on

App. 290
the motor voter form and, on the other, that
subparagraph (C) mandates that states include an
attestation requirement on that form.
§ 20504(c)(2)(B)–(C). Reading these two provisions
harmoniously—as we must—we may safely proceed on
the premise that the attestation requirement of
subparagraph (C) does not violate in any instance the
minimum-information principle of subparagraph (B).
Otherwise, we would be forced to contemplate the
absurdity of Congress providing a statutory principle in
one breath and immediately violating it in the next. See
Levy’s Lessee v. McCartee, 31 U.S. (6 Pet.) 102, 111
(1832) (Story, C.J.) (“In any other view of the matter,
this extraordinary consequence would follow, that the
legislature could solemnly perform the vain act of
repealing, as statutes, what, in the same breath, it
confirmed as the common law of the state; that it would
propose a useless ceremony; and by words of repeal
would intend to preserve all the existing laws in full
force. . . . [I]t would be unintelligible and inconsistent
with a design to retain them all as a part of its own
common law.”); Castellano v. City of New York, 142
F.3d 58, 69 (2d Cir. 1998) (“[I]t is inconceivable to us
that Congress would in the same breath expressly
prohibit discrimination in fringe benefits, yet allow
employers to discriminatorily deny or limit postemployment benefits to former employees who ceased
to be ‘qualified’ at or after their retirement, although
they had earned those fringe benefits through years of
service in which they performed the essential functions
of their employment.”); see also Weininger v. Castro,
462 F. Supp. 2d 457, 488 (S.D.N.Y. 2006) (“[I]t would be
contradictory for Congress in the same breath to
expressly make assets subject to execution and at the

App. 291
same time make the owner of those assets immune
from suit to recover those assets.”). That thought we
will not entertain. The attestation requirement, in our
view, cannot contravene or overstep the minimuminformation principle, but we do recognize that in a
given case it may not be sufficient for a state to carry
out its eligibility-assessment and registration duties.
The minimum-information principle does not
operate in a vacuum. It directly pertains to whether
states are able to carry out their eligibility-assessment
and registration duties in registering qualified
applicants to vote. In other words, the NVRA expressly
contemplates that states will undertake these duties
using the motor voter form in registering applicants to
vote, but it limits their discretion to request
information for this purpose to the minimum amount
of information necessary. With the harmonious
relationship between subparagraphs (B) and (C) in
mind, we do believe that section 5 is reasonably read to
establish the attestation requirement as the
presumptive minimum amount of information
necessary for a state to carry out its eligibilityassessment and registration duties; as a result of a
state carrying out these duties, qualified applicants
gain access to the franchise.
In this regard, Congress has historically relied on
an attestation requirement “under penalty of perjury”
as a gate-keeping requirement for access to a wide
variety of important federal benefits and exemptions.13

13

Kansas, too, once depended on an attestation requirement for
such a function. Prior to enacting its DPOC requirement, Kansas’s

App. 292
See, e.g., 7 U.S.C. § 2020(e)(2)(B)(v) (requiring state
applications for Supplemental Nutrition Assistance
Program aid be signed under penalty of perjury as to
the truth of the information contained in the
application and the citizenship or immigration status
of household members); 26 U.S.C. § 6065 (requiring
that any tax “return, declaration, statement, or other
document” be “verified by a written declaration that it
is made under the penalties of perjury”); 42 U.S.C.
§ 1395w-114(a)(3)(E)(iii)(I) (requiring “an attestation
under penalty of perjury” as to assets for receipt of
prescription drug plan subsidies); 42 U.S.C.
§ 1436a(d)(1)(a) (requiring an attestation of citizenship
or “satisfactory immigration status” for the receipt of
housing assistance); United States v. Garriott, 338 F.
Supp. 1087, 1097 (W.D. Mo. 1972) (noting that the
military’s Form 150, accompanied by a conscientious
objector certificate, is “executed by the registrant under
pain of perjury”); cf. 45 C.F.R. § 206.10(a)(1)(ii)
(requiring that application forms for various stateadministered welfare programs be signed “under a
penalty of perjury”); Official Bankruptcy Form B 101,
Voluntary Petition for Individuals Filing for
voter-registration statute tracked the requirements of the NVRA
in relying on attestation for eligibility verification. Compare Kan.
Stat. Ann. § 25-2309 (2001), with Kan. Stat. Ann. § 25-2309 (Supp.
2015) (including the DPOC requirements in section (l) added by
the SAFE Act, 2011 Kan. Sess. Laws 795). And, even after the
institution of the DPOC regime, Kansas recognizes that the
attestation requirement can play a role—albeit a limited one—in
ensuring that only citizens are registered to vote. See, e.g., Aplt.’s
App., Vol. 3, at 711–14 (evincing Secretary Kobach’s admission
that attestation before the state election board would suffice where
documentary proof is unavailable).

App. 293
Bankruptcy, 11 U.S.C.A. (West) (requiring attestation
under penalty of perjury as to the truth of the
information provided to file for bankruptcy); Official
Form DS-11, Application for a U.S. Passport,
http://www.state.gov/documents/organization/
212239.pdf (requiring signed attestation under pain of
perjury). Therefore, it is entirely reasonable for us to
infer from the statutory structure that Congress
contemplated that the attestation requirement would
be regularly used and would typically constitute the
minimum amount of information necessary for state
officials to carry out their eligibility-assessment and
registration duties—more specifically, their duties to
register qualified applicants to vote.
Put another way, we interpret section 5 as
establishing the attestation requirement in every case
as the presumptive minimum amount of information
necessary for a state to carry out its eligibilityassessment and registration duties. But whether the
attestation requirement actually satisfies the miniuminformation principle in a given case turns on the
factual question of whether the attestation
requirement is sufficient for a state to carry out these
duties. Thus, we go no further than to say that the
attestation requirement presumptively satisfies the
minimum-information principle: nothing in the statute
suggests that a state cannot rebut that presumption in
a given case by demonstrating that the attestation
requirement is insufficient for it to carry out its
eligibility-assessment and registration duties. In other
words, we do not conclude here that section 5 prohibits
states from requiring DPOC in all circumstances and
without exception. However, guided by Inter Tribal and

App. 294
our decision in EAC, we hold that in order for a state
advocating for a DPOC regime to rebut the
presumption that the attestation requirement is the
minimum information necessary for it to carry out its
eligibility-assessment and registration duties, it must
make a factual showing that the attestation
requirement is insufficient for these purposes. See
EAC, 772 F.3d at 1195.
We believe that construing section 5 to permit
states to rebut the presumptive sufficiency of the
attestation requirement is in keeping with Inter Tribal
and our precedent. In Inter Tribal, the Court reasoned
that if the NVRA prevented a state from acquiring the
information necessary to enforce its qualifications to
vote—notably, citizenship—it would raise a serious
constitutional concern. 133 S. Ct. at 2258–59. But the
Court also observed that states have the opportunity to
petition the EAC to add state-specific instructions
requiring DPOC and—in the event of an EAC
refusal—the opportunity to “establish in a reviewing
court that a mere oath will not suffice to effectuate its
citizenship requirement and that the EAC is therefore
under a nondiscretionary duty to include [DPOC].” Id.
at 2259–60. Of course, Congress did not entrust an
administrative agency like the EAC with the
interpretation of the requisite content for state motor
voter forms. However, the provisions governing the
content of the Federal Form (i.e., section 9 of the
NVRA) and state motor voter forms are analogous. And
thus just as the Inter Tribal Court construed the
requirements of section 9 to avoid constitutional doubt
by giving states the opportunity—after failing to obtain
relief from the EAC—to obtain state-specific, DPOC

App. 295
instructions by making a factual showing to a court
that the attestation requirement (“a mere oath”) is not
sufficient, 133 S. Ct. at 2260, we construe the
analogous provisions of section 5 as also permitting
states to rebut the presumption that the attestation
requirement of subparagraph (C) satisfies the
minimum-information principle in a particular case.14
More specifically, in order to rebut the presumption
as it relates to the citizenship criterion, we interpret
the NVRA as obliging a state to show that “a
substantial number of noncitizens have successfully
registered” notwithstanding the attestation
requirement. EAC, 772 F.3d at 1198. In EAC, we held
that the EAC was not under a nondiscretionary duty to
add state-specific DPOC instructions to the Federal
Form at two states’ behest. 772 F.3d at 1196. We

14

Whether this step would be dispositive regarding the use of
DPOC appears to be an open question. Should a state advocating
for a DPOC regime succeed in showing in a given case that the
attestation requirement does not satisfy the minimum-information
principle, we would be faced with a question not confronted by the
courts in Inter Tribal and EAC: Does it ineluctably follow that
DPOC should be adjudged adequate to satisfy this principle? It is
logically conceivable that something more than attestation but less
burdensome than requiring DPOC could be sufficient, which would
preclude requiring DPOC. Thus, a two-step analysis would be
required: first a state would bear the burden of showing that
attestation falls below the minimum necessary to carry out its
eligibility-assessment and registration duties and then, second, it
would need to show that nothing less than DPOC is sufficient to
meet those duties. Because Secretary Kobach fails to make a
sufficient showing on this possible first step of the analysis, we
have no need to opine definitively on whether the NVRA mandates
satisfaction of a second step.

App. 296
reached this conclusion because “[t]he states have
failed to meet their evidentiary burden of proving that
they cannot enforce their voter qualifications because
a substantial number of noncitizens have successfully
registered using the Federal Form.” Id. at 1197–98.
The failure to make such an evidentiary showing was
seemingly dispositive there of Secretary Kobach’s
Qualifications Clause challenge.
Here, we of course are concerned with the statutory
principle established by subparagraph (B) of section 5
rather than the Qualifications Clause. And we do
recognize that the questions asked under this principle
and the Qualifications Clause are linguistically distinct
and therefore do not inexorably call for exactly the
same analysis. Compare Inter Tribal, 133 S. Ct. at
2258–59 (“[I]t would raise serious constitutional doubts
if a federal statute precluded a State from obtaining the
information necessary to enforce its voter
q u a l i f i c a ti ons . ” ( e m p h a s i s a d d e d ) ) , w i t h
§ 20504(c)(2)(B) (“[M]ay require only the minimum
amount of information necessary to . . . assess the
eligibility of the applicant and to administer voter
registration and other parts of the election process”
(emphasis added)). However, these questions are
sufficiently similar that it seems logical to apply a
similar proof threshold to them. And Secretary Kobach
has not argued to the contrary.
Thus, we hold that to overcome the presumption
that attestation constitutes the minimum amount of
information necessary for a state to carry out its
eligibility-assessment and registration duties, the state
must show that a substantial number of noncitizens

App. 297
have successfully registered to vote under the
attestation requirement. This results in the preemption
analysis here being quite straightforward: if Kansas
fails to rebut this presumption that attends the
attestation regime, then DPOC necessarily requires
more information than federal law presumes necessary
for state officials to meet their eligibility-assessment
and registration duties (that is, the attestation
requirement). Consequently, Kansas’s DPOC law
would be preempted.15

15

The requirements for the content of motor voter forms and the
Federal Form differ, and thus it should not be surprising that the
analysis applied here to a challenge to a DPOC requirement in the
setting of a state motor voter form differs somewhat from the
analysis we employed in the Federal Form context in EAC with
regard to the requested state-specific DPOC requirement. There,
in evaluating whether the EAC’s decision was arbitrary and
capricious, we noted that the agency decision had discussed five
non-DPOC alternatives to ensure that noncitizens do not register
using the Federal Form. EAC, 772 F.3d at 1197. Here, however, we
need to consider only one alternative because, notably, the
principle established by Congress for state motor voter forms is
stricter than the one that guides the EAC’s determination of
whether to include a state-specific DPOC requirement on the
Federal Form. As we held supra, section 5 sets a stricter principle
than the “necessary” principle of section 9. Under this more
rigorous principle, it is unnecessary to consider alternatives other
than the presumptive minimum amount necessary—the
attestation requirement. If Kansas fails to rebut Congress’s
presumptive conclusion that the attestation requirement satisfies
the minimum-information principle, then DPOC necessarily
requires more than federal law authorizes (i.e., attestation);
accordingly, Kansas’s DPOC law would be preempted.

App. 298
i. The NVRA Does Not Conclusively Bar
State DPOC Requirements in the
Motor Voter Process
Among other arguments for affirming the district
court, both Plaintiffs-Appellees and amicus Common
Cause contend that the NVRA conclusively forecloses
states from requiring DPOC. In other words, they read
section 5’s attestation requirement—found in
subparagraph (C)—as satisfying in every instance the
minimum-information principle of subparagraph (B),
viz., as constituting in every instance the minimum
amount of information necessary for states to carry out
their eligibility-assessment and registration duties.
This argument fails because it requires a strained
reading of the plain text of the statute and risks
making surplusage of the minimum-information
principle.
Although these provisions are related, and
subparagraph (C) cannot be interpreted as running
afoul of subparagraph (B), that does not mean that
Congress intended that subparagraph (C) exclusively
particularize or instantiate the principle set out in
subparagraph (B). Congress did not expressly establish
a relationship of definition or elaboration between
subparagraphs (B) and (C)—though it knows how to
craft such a textual relationship; this suggests to us
that Congress did not intend to create such a
relationship. When Congress knows how to achieve a
specific statutory effect, its failure to do so evinces an
intent not to do so. See, e.g., United States v.
Burkholder, 816 F.3d 607, 615 (10th Cir. 2016)
(“Congress clearly knew how to add a proximate-cause

App. 299
requirement in criminal penalty-enhancement statutes
when it wished to do so. That it nevertheless did not do
so in § 841(b)(1)(E) is thus very telling; indeed, it
suggests that Congress intended to omit a proximate
cause requirement . . . .”).
More specifically, Congress knows how to draft a
provision that specifies or elaborates on a more general
statutory standard. For example, in Chapter 11 of the
Bankruptcy Code, Congress requires that when a class
of creditors or interests has rejected a reorganization
plan, the plan must meet a variety of requirements to
be confirmed, including that the plan be “fair and
equitable” towards impaired classes that rejected the
plan. 11 U.S.C. § 1129(b)(1). Congress then specifies
requirements to meet the fair and equitable standard:
“For the purpose of this subsection, the condition that
a plan be fair and equitable with respect to a class
includes the following requirements[.]” § 1129(b)(2).
Then specific requirements are set out for classes
holding secured claims, unsecured claims, or other
interests. See § 1129(b)(2)(A)–(C).
Similarly, Congress knows how to define with
specificity key statutory terms. For instance, the DoddFrank Act defines the terms “systemically important”
and “systemic importance”—concepts essential to that
regulatory regime. 12 U.S.C. § 5462(9) (“The terms
‘systemically important’ and ‘systemic importance’
mean a situation where the failure of or a disruption to
the functioning of a financial market utility or the
conduct of a payment, clearing, or settlement activity
could create, or increase, the risk of significant
liquidity or credit problems spreading among financial

App. 300
institutions or markets and thereby threaten the
stability of the financial system of the United States.”).
Moreover, in a context nearer to the present one, the
Voting Rights Act (the “VRA”) defines the term “test or
device,” which is frequently used throughout that
statute: “The phrase ‘test or device’ shall mean any
requirement that a person as a prerequisite for voting
or registration for voting [meet one of four kinds of
requirements].” 52 U.S.C. § 10303(c).
But, in the NVRA, Congress did not expressly
elaborate on or define subparagraph (B)’s minimuminformation principle, much less do so in a manner
indicating that the principle equates (in every instance)
to the attestation requirement of subparagraph (C). See
52 U.S.C. § 20504(c)(2). In our view, this omission
strongly suggests a congressional intention not to
equate in every instance the statutory minimuminformation principle with the attestation requirement.
This reading is further supported by the
punctuation that separates the two provisions. In
interpreting these provisions, we must “account for a
statute’s full text, language as well as punctuation,
structure, and subject matter.” U.S. Nat’l Bank of Or.
v. Indep. Ins. Agents of Am., Inc., 508 U.S. 439, 455
(1993). Here, subparagraphs (B) and (C) are set off
from one another by semicolons. See § 20504(c)(2). The
semicolons accentuate the independent nature of each
provision in the statute’s structure—signaling that
they are separate by congressional design. See United
States v. Republic Steel Corp., 362 U.S. 482, 486 (1960)
(concluding that a provision is separate and distinct
where it was followed by a semicolon and another

App. 301
provision). While we are certainly not slaves to
punctuation where its use defies the “natural meaning
of the words employed,” United States v. Shreveport
Grain & Elevator Co., 287 U.S. 77, 83 (1932), its use
here serves to further clarify the statute’s meaning,
and should therefore be “accorded appropriate
consideration.” See Haskell v. United States, 241 F.2d
790, 792 (10th Cir. 1957).16
Reading subparagraph (C) as exhaustively
particularizing subparagraph (B) would effectively
render the latter surplusage. Yet, we must attempt to
“give effect, if possible, to every word of the statute.”
Quarles v. United States ex rel. BIA, 372 F.3d 1169,
1172 (10th Cir. 2004). And interpreting subparagraph
(C) as defining or exclusively particularizing
subparagraph (B)’s minimum-information principle—in
the absence of any explicit direction from Congress that
the two provisions should be so read—fails to give
independent “operative effect” to the diverse language
used in the two subparagraphs. See Finley v. United
States, 123 F.3d 1342, 1347 (10th Cir. 1997). The
reading of the statute that we adopt has the beneficial
effect of avoiding this outcome: under it, subparagraph
(C)’s attestation requirement does no more than
presumptively satisfy the minimum-information
principle of subparagraph (B); it is not coterminous
with or an exclusive particularization of this principle.

16

But, at the same time, as evident from our analysis supra, the
two provisions are only separated by a semicolon—rather than,
say, a period—and also share a common “parent” provision (i.e.,
§ 20504(c)(2)); this suggests that they are in fact interrelated and
should be construed in a harmonious manner if possible.

App. 302
A state still may seek to rebut the presumption—viz.,
to establish that the attestation requirement is not the
minimum amount of information necessary to carry out
its eligibility-assessment and registration duties.
By following this interpretive path, we also are
adopting the reading that best avoids even a shadow of
constitutional doubt and should permit courts to
largely avoid the constitutional question of whether the
NVRA runs afoul of the Qualifications Clause. “A
statute must be construed, if fairly possible, so as to
avoid not only the conclusion that it is unconstitutional
but also grave doubts upon that score.” AlmendarezTorres v. United States, 523 U.S. 224, 237 (1998)
(quoting United States v. Jin Fuey Moy, 241 U.S. 394,
401 (1916)). Although we do not invoke the
constitutional doubt canon to choose among plausible
alternative readings, we may nonetheless employ it to
buttress our plain reading of the NVRA. See Marx v.
Gen. Revenue Corp, 133 S. Ct. 1166, 1181 (2013)
(“Because the text is plain, there is no need to proceed
any further. Even so, relevant canons of statutory
interpretation lend added support . . . .”). The
constitutional doubt canon “is followed out of respect
for Congress, which we assume legislates in the light of
constitutional limitations.” Almendarez-Torres, 523
U.S. at 238 (quoting Rust v. Sullivan, 500 U.S. 173, 191
(1991)).
Were we to adopt the reading that, in every
instance, the attestation requirement is all that a state
may ever mandate in the motor voter application
context, no flexibility would remain for states to make
a statutory showing that something more is

App. 303
necessary—only a constitutional challenge would
remain. We find it implausible that Congress would
intend to adopt a requirement (and to adopt it so
unclearly) under which states are forced to resort
exclusively to constitutional challenges in order to
protect their Qualification Clause powers and related
interests. First, such a result would run counter to the
presumption underlying the constitutional-doubt
canon–i.e., that Congress legislates within the limits
set down for it in the Constitution. Second, such an
interpretation would force a court to reach the
Qualifications Clause question whenever a state
wished to require something more than attestation.
Our reading of section 5 of the NVRA—like the
Supreme Court’s reading of section 9 in Inter Tribal,
133 S. Ct. at 2259–60 (relying on recourse to the EAC
and judicial review to avoid constitutional
doubt)—provides an escape valve. States may respond
to a challenge to a DPOC requirement with a showing
that attestation is insufficient under the statute. That
is to say, there is conceivably room in the NVRA’s
minimum-information principle for more than just
attestation. Thus, challenges to DPOC can be decided,
where appropriate, on statutory grounds—permitting
the courts to largely avoid resolving the merits of
constitutional questions, such as the Qualifications
Clause issue. These considerations lend further support
to the reading we adopt and undercut the reading that
the NVRA conclusively forecloses the use of DPOC.
Having dispensed with that extreme interpretation of
the statute, we turn now to erroneous ones advanced by
Secretary Kobach.

App. 304
ii. Secretary Kobach’s Readings of the
Statute Are Unavailing
Secretary Kobach argues that the district court
erred in interpreting the NVRA in a variety of ways.
First, he argues that “necessary” means “what is
necessary under state law” such that the states are the
final arbiters of what is necessary to meet the
minimum-information principle. Second, Secretary
Kobach argues that the statute’s requirements apply
only to information on the motor voter form itself and
therefore do not preclude the imposition of a DPOC
requirement because DPOC is not information written
on the form. Third, he argues that Young v. Fordice,
520 U.S. 273 (1997), holds that the NVRA does not
constrain what states may request of applicants.
Finally, he argues that it is absurd to construe the
motor voter requirements as establishing a standard
different from that established for the Federal Form or
agency registration requirements.
Secretary Kobach argues that “the minimum
amount of information necessary to . . . enable State
election officials to assess the eligibility of the applicant
and to administer voter registration and other parts of
the election process,” § 20504(c)(2)(B), means
essentially “what is necessary under state law.” In
particular, he argues that this is the “natural reading
of ‘administering voter registration and other parts of
the election process,’” because what is necessary for
administering voter registration and the election
process is determined by state law. Aplt.’s Opening Br.
32. We reject this argument because the Supreme
Court in Inter Tribal rejected such an understanding of

App. 305
federal election regulation and confirmed that the
NVRA’s plain language evinces Congress’s intent to
restrain the regulatory discretion of the states over
federal elections, not to give them free rein.
The notion that the NVRA “lets the States decide
for themselves what information ‘is necessary’” was
Justice Alito’s position in his dissent in Inter Tribal,
133 S. Ct. at 2274 (Alito, J., dissenting) (quoting
statutory text currently found at 52 U.S.C. § 20508).
The majority rejected that position and held that the
NVRA requires states to register voters who provide a
valid Federal Form. Id. at 2255–56 (majority opinion).
Although Inter Tribal dealt with a different section of
the NVRA, the same reasoning applies here. The
NVRA creates a federal regime intended to guarantee
“that a simple means of registering to vote in federal
elections will be available.” Id. at 2255. Allowing the
states to freely add burdensome and unnecessary
requirements by giving them the power to determine
what is the “minimum amount of information
necessary” would undo the very purpose for which
Congress enacted the NVRA. Drawing on our reasoning
in EAC, we may similarly conclude that “the dissent [of
Justice Alito] clearly tells us what the law is not,” EAC,
772 F.3d at 1188; consequently, Secretary Kobach’s
argument here is legally untenable.
Secretary Kobach next argues that the limitations
of section 5 of the NVRA—most saliently, the
minimum-information principle—only define the scope
of the information that can appear on the motor voter
form itself. As his argument goes, because Kansas’s
DPOC requirement does not appear on the motor voter

App. 306
form and does not involve a supplemental request for
form information, the DPOC requirement does not run
afoul of section 5’s restraints. However, Secretary
Kobach points to nothing in the statute’s text that
indicates that the minimum-information principle does
not extend beyond the four corners of the motor voter
form. Indeed, as we see it, Secretary Kobach simply
seeks to repackage here his failed argument that, as
long as Congress is silent in the NVRA’s express terms
regarding DPOC, Kansas may tack onto the NVRA’s
regulatory scheme a DPOC requirement, without
conflicting with that scheme. But, as we have noted
supra, such an argument rests on an erroneous
understanding of the relationship established between
the states and Congress by the Elections Clause. And
it would involve applying the presumption against
preemption or the plain statement rule; doing so,
however, would be improper here.
Our rejection of Secretary Kobach’s reading of the
statute is also supported by Inter Tribal’s reasoning.
There, Arizona argued that the NVRA “requires merely
that a State receive the Federal Form willingly and use
that form as one element in its (perhaps lengthy)
transaction with a prospective voter.” Inter Tribal, 133
S. Ct. at 2254. But subparagraph (B) of section 8 of the
NVRA in the Federal Form context requires states to
register applicants who have submitted “valid voter
registration form[s]” within a period of no less than 30
days before the election. See § 20507(a)(1)(B). The
Court reasoned that Arizona’s ability to reject a
Federal Form unaccompanied by DPOC could only be
“squared”with its short-time-fuse registration
obligation under section 8—i.e, 30 days or less—if the

App. 307
completed form could be deemed not a “valid voter
registration form” because of the absence of the DPOC
required by state law. 133 S. Ct. at 2255. The court
discussed the EAC’s role in crafting the form and
concluded that it was “improbable” that the completed
form was not valid standing alone because the statute
“takes such pains to create” the form. Id.
Secretary Kobach’s argument that the NVRA does
not prevent states from requiring additional
documentation not on the motor voter form creates a
similar squaring problem to the one present in Inter
Tribal. A provision of section 8 of the NVRA that is
analogous to the one at issue in Inter Tribal governs
the states’ obligations in the motor voter context to
register applicants who submit valid voter-registration
forms, up to thirty days prior to the election.
Specifically, subparagraph (A) requires states to
“ensure that any eligible applicant is registered to vote
in an election . . . if the valid voter registration form of
the applicant is submitted . . . not later than the lesser
of 30 days, or the period provided by State law, before
the date of the election.” § 20507(a)(1)(A). While we
recognize that the present case is distinct from Inter
Tribal insofar as the creation of motor voter forms is
entrusted to the state, § 20504(c)(1), and not the EAC,
Congress has carefully crafted the motor voter form
requirements and has restricted states to requesting
the least possible amount of information necessary to
effect their eligibility-assessment and registration
duties. And, as in the Federal Form context, Congress
has imposed on the states a short-time-fuse
registration obligation, presumably with an interest in
ensuring that the public has ready access to the

App. 308
franchise, see § 20501(b) (1) (“establish[ing] procedures
that will increase the number of eligible citizens who
register to vote in elections for Federal office”).
Given these circumstances, we find it “improbable,”
Inter Tribal, 133 S. Ct. at 2255, that Congress would
envision that the states could routinely deem a motor
voter form to be the starting place in a more elaborate
state registration scheme that required the
presentation of DPOC, where the inescapable effect of
this approach would be (1) to render the motor voter
form—the requirements of which Congress carefully
limited to the least amount of information
necessary—an invalid voter-registration form because
it is not accompanied by DPOC, and (2) to shut pollingplace doors on citizens who have submitted otherwise
valid motor voter forms. Thus, Inter Tribal’s reasoning
bolsters our conclusion that Secretary Kobach’s
argument that the NVRA does not prevent states from
requiring additional documentation not on the motorvoter form is untenable and misguided.
Furthermore, the fact that Congress spoke only to
requiring information on the motor voter form tends to
cut against rather than in favor of Secretary Kobach’s
approach. The omission of requirements for, or
prohibitions on, other documents that states might
require does not suggest that states may require
anything that they desire to facilitate the registration
process beyond the form itself. To the contrary, it
suggests by the negative-implication canon, expressio
unius est exclusio alterius, that Congress intended that
the motor voter form would—at least presumptively—
constitute the beginning and the end of the registration

App. 309
process. See, e.g., Marx, 133 S. Ct. at 1181 (“[W]hen
Congress includes one possibility in a statute, it
excludes another by implication.”).17
Third, Secretary Kobach argues that Young v.
Fordice held that the NVRA places no restrictions on
what a state may require in the motor voter
registration process. The relevant language from Young
states:
In saying this, we recognize that the NVRA
imposes certain mandates on States,
describing those mandates in detail. The
NVRA says, for example, that the state
driver’s license applications must also serve
as voter registration applications and that a
decision not to register will remain
confidential. It says that States cannot force
driver’s license applications to submit the
same information twice (on license
applications and again on registration
forms). Nonetheless, implementation of the
NVRA is not purely ministerial. The NVRA
still leaves room for policy choice. The NVRA
does not list, for example, all the other
information the State may—or may

17

Although we have decided this case on the basis of the plain text
of the statute, we may nonetheless use the canons to buttress our
adopted reading and to reject Secretary Kobach’s reading. See
Marx, 133 S. Ct. at 1181 (“Because the text is plain, there is no
need to proceed any further. Even so, relevant canons of statutory
interpretation lend added support to reading § 1692k(a)(3) as
having a negative implication. . . . [Expressio unius] reinforces
what the text makes clear.”).

App. 310
not—provide or request. And a decision about
that other information—say, whether or not
to tell the applicant that registration counts
only for federal elections—makes
Mississippi’s changes to the New System the
kind of discretionary, nonministerial changes
that call for federal VRA review. Hence,
Mississippi must preclear those changes.
Young, 520 U.S. at 286 (emphasis added) (citations
omitted). This language—especially the italicized
passage—cannot fairly be read as “indicat[ing] that
there is no constraint in the NVRA over what
additional documentation a State may request beyond
the form itself.” Aplt.’s Opening Br. 27. Instead, Young
simply states that the NVRA does not comprehensively
and specifically prescribe what may or may not be
included on state motor voter forms and thus allows
space for the states to exercise discretion regarding this
matter; consequently, they must invoke the
preclearance process under the VRA. 520 U.S. at 286
(“The NVRA does not list, for example, all the other
information the State may—or may not—provide or
request.”). Put another way, Young is a VRA
preclearance case from beginning to end. The Court’s
discussion of the NVRA occurs in the context of
explaining why states that conform to the NVRA must
nonetheless preclear planned changes—specifically,
because room for potentially discriminatory policy
choice remains. See id. Young says nothing about the
minimum-information principle at issue here. And
under no circumstances can it be read as giving the
states carte blanche under the NVRA to fashion

App. 311
registration requirements for their motor voter forms.
In short, Young is not on point.
Finally, Secretary Kobach argues that reading
Section 5 to establish a standard different from that
applied to the Federal Form or agency registration is
absurd and so the district court erred in adopting such
an interpretation. “The absurdity doctrine applies ‘in
only the most extreme of circumstances,’ when an
interpretation of a statute ‘leads to results so gross as
to shock the general moral or common sense,’ which is
a ‘formidable hurdle’ to the application of this
doctrine.” In re Taylor, 737 F.3d 670, 681 (10th Cir.
2013) (quoting United States v. Husted, 545 F.3d 1240,
1245 (10th Cir. 2008)). To explicate the requirements
of this rigorous doctrine is to answer the question here:
Secretary Kobach’s absurdity argument must fail.
There is nothing absurd about Congress creating a
stricter principle—i.e., the minimum-information
principle—to govern the states in fashioning motor
voter forms, which are the NVRA’s central mode of
registration,18 than the principle applicable to the other

18

That Congress intended and understood the motor voter
provisions as the center of the NVRA is reflected in Congress’s
treatment of section 7’s agency provisions as a kind of gap filler to
capture potential voters unlikely to go to the DMV. H.R. REP. NO.
103-66, at 19 (1993) (Conf. Rep.) (“If a State does not include either
public assistance, agencies serving persons with disabilities, or
unemployment compensation offices in its agency program, it will
exclude a segment of its population from those for whom
registration will be convenient and readily available—the poor and
persons with disabilities who do not have driver’s licenses and will
not come into contact with the other principle [sic] place to register
under this Act.”), as reprinted in 1993 U.S.C.C.A.N. 140, 144.

App. 312
two forms of registration under the statute.19 Even if
one could reasonably say that Congress acted in an
unusual manner in failing to craft a uniform principle
for the NVRA’s three modes of registration (which one
cannot), this congressional slip-up would fall well short
of “the most extreme of circumstances” or engender a
result “so gross as to shock the general moral or
common sense.” Taylor, 737 F.3d at 681. The absurdity
doctrine thus finds no purchase here.
Having rejected Secretary Kobach’s readings of the
NVRA, we turn now to whether he put forward the
required factual showing to overcome the presumption
that the attestation requirement satisfies the
minimum-information principle with respect to the
state’s eligibility-assessment and registration duties.
To overcome the presumption, a state must show that
a substantial number of noncitizens have successfully
registered to vote under the attestation requirement.
4. Kobach Fails to Rebut the Presumption
that the Attestation Requirement Is the
Minimum Amount of Information
Necessary
The district court found that between 2003 and the
effective date of Kansas’s DPOC law in 2013, only
19

Secretary Kobach also asserts that there is no “minimum
necessary” principle in section 7’s agency registration
requirements and that this is an example of the district court’s
absurd reading of the statute as requiring different standards
under the NVRA’s various programs. But section 7 requires use of
the Federal Form or the agency’s own form if “it is equivalent to”
the Federal Form. § 20506(a)(6)(A). Thus, the agency provisions
rely on the same principle required for the Federal Form.

App. 313
thirty noncitizens registered to vote—no more than
three per year. Secretary Kobach was only able to show
that fourteen noncitizens had attempted to register to
vote in Sedgwick County, Kansas, since the enactment
of the DPOC requirement.20 These numbers fall well
short of the showing necessary to rebut the
presumption that attestation constitutes the minimum
amount of information necessary for Kansas to carry
out its eligibility-assessment and registration duties.
Finally, as the district court pointed out in its order
granting the preliminary injunction, Secretary Kobach
conceded that the state election board will accept as
sufficient proof of citizenship a declaration or affidavit
from an applicant at a hearing under subsection (m) of
the SAFE Act.21 That concession, in our view,

20

Of those fourteen cases, the district court found that twelve
could have been avoided by better training at the DMV because
those registrations resulted from misunderstandings of the
eligibility requirements rather than intentional fraud.
21

At the preliminary injunction hearing, when asked whether the
state election board would accept as sufficient proof of citizenship
the affirmation of an individual unable to otherwise provide
DPOC, Secretary Kobach responded:
[H]e can also make the allegation himself, too. He can
file his own declaration. . . . I would be willing to bet
that the State Election Board would take simply his
own declaration as sufficient. The State Election Board
has yet to tell anyone no. And that’s perfectly fine if a
person is willing to make an attestation, a declaration
to the State Election Board, “Here are my
circumstances, here’s why I don’t have my document.”
Fish v. Kobach, 2016 WL 2866195, at *5 (emphasis added); accord
Aplt.’s App., Vol. V, at 1133–34 (providing transcribed comments

App. 314
undermines the legitimacy of Secretary Kobach’s
of Secretary Kobach). Based largely on these representations the
district court found:
The state election board is comprised of the Secretary
of State, the Attorney General, and the Lieutenant
Governor. Secretary Kobach represents that this
hearing before the election board may be telephonic,
that three people have so far availed themselves of this
provision, and that all three were approved by the
election board. Examples provided by Secretary
Kobach of alternative forms of citizenship
documentation under subsection (m) include an
affidavit from a sibling stating the date and place of
birth, school records, or even an applicant’s own
affidavit.
Id. (emphasis added). The court further found that “[a]s an
example of an acceptable form of DPOC under subsection (m) of
the law, which may be triggered when an applicant is unable to
obtain one of the thirteen forms of DPOC listed in subsection (l),
Mr. Kobach suggested that a person’s own declaration of
citizenship would satisfy the state election board.” Id. at *22.
We recognize that Secretary Kobach’s remarks on this matter
at the preliminary injunction hearing are not pellucid. They are
amenable to more than one permissible reading. In that regard,
they could be reasonably read as indicating that an applicant’s
sworn affidavit or declaration of citizenship, while acceptable and
important evidence of citizenship, could not fully satisfy the
applicant’s evidentiary burden; notably, there is some suggestion
in Secretary Kobach’s comments that an applicant might be
required to explain his personal reasons for not being able to
secure statutorily acceptable DPOC. However, in finding that
Secretary Kobach’s comments amounted to a concession that the
state election board would accept a sworn affidavit or declaration
of citizenship as sufficient evidence “the district court made a
choice between two permissible views of the evidence, and it is not
our role to label this choice clearly erroneous.” Attorney Gen. of
Okla. v. Tyson Foods, Inc., 565 F.3d 769, 777 n.2 (10th Cir. 2009);
see Anderson v. City of Bessemer City, 470 U.S. 564, 574 (1985).

App. 315
assertion that a written attestation on a motor voter
registration form is insufficient to allow State officials
to meet their eligibility assessment and registration
duties.
Secretary Kobach does not appear to contest the
district court’s factual findings as to how many
noncitizens registered or attempted to register to vote.
Instead, he contests the conclusion to be drawn from
those findings. Secretary Kobach argues that if even
one noncitizen successfully registers under the
attestation regime, then DPOC is necessary to ensure
applicant eligibility. However, as we have already
noted, “necessary” should not be understood in an
absolute sense here. See Discussion supra Section
II.C.3. Section 5 does not require whatever is strictly
necessary to prevent even a single noncitizen from
registering. Moreover, recall that in EAC we held that
“to establish in a reviewing court that a mere oath will
not suffice,” 772 F.3d at 1197 (quoting Inter Tribal, 133
S. Ct. at 2260), the state has an “evidentiary burden of
proving that they cannot enforce their voter
qualifications because a substantial number of
noncitizens have successfully registered.” Id. at
1197–98 (emphasis added). Although the context there
was the Federal Form and the Qualifications Clause,
we have held here that the same rule applies. See
Discussion supra Section II.C.3.
Moreover, it cannot be that, while intending to
create a simplified form of registration for federal
elections, Congress adopted such a malleable statutory
principle (i.e., minimum information) that the states
could effectively become the final arbiters of what is

App. 316
required under the NVRA by the simple expedient of
claiming that one noncitizen managed to register to
vote. Congress adopted the NVRA to ensure that
whatever else the states do, “simple means of
registering to vote in federal elections will be
available.” Inter Tribal, 133 S. Ct. at 2255. This
purpose would be thwarted if a single noncitizen’s
registration would be sufficient to cause the rejection of
the attestation regime. Indeed, under Secretary
Kobach’s “one is too many” theory, even the DPOC
regime could conceivably be found to require less than
the minimum information necessary,22 allowing states
to employ still harsher and more burdensome means of
information gathering to prevent noncitizen
registration. The NVRA does not require the least
amount of information necessary to prevent even a
single noncitizen from voting.
5. Secretary Kobach Fails to Make the
Showing Required by Inter Tribal to
Raise Constitutional Doubt Under the
Qualifications Clause
In addition to challenging the district court’s
reading of the NVRA as being contrary to the statute,
Secretary Kobach argues that the court’s reading of the

22

For example, our immigration laws—despite requiring
documentary proof of identity and authorization to work in the
United States—are frequently circumvented. See, e.g., Hoffman
Plastic Compounds, Inc. v. NLRB, 535 U.S. 137, 148 (2002) (“There
is no dispute that Castro’s use of false documents to obtain
employment with Hoffman violated these provisions.”). Even
DPOC is unlikely to prevent a determined noncitizen from
successfully registering to vote.

App. 317
NVRA raises doubt as to the statute’s constitutionality
by preventing Kansas from exercising its
constitutionally delegated power to enforce
qualifications for congressional elections under the
Qualifications Clause and the Seventeenth
Amendment. He further argues that the court’s
interpretation would result in different qualifications
for state and federal elections in Kansas, running afoul
of the Qualifications Clause and the Seventeenth
Amendment. Both arguments fail.
First, Secretary Kobach has failed to make any
showing that the NVRA prevents Kansas from
enforcing its qualifications. It is true that the
states—not Congress—have the power to determine
“who may vote in” elections. Inter Tribal, 133 S. Ct. at
2257. This includes the power “to enforce those
requirements.” Id. at 2258. But Inter Tribal held that
no constitutional doubt was raised under the
Qualifications Clause unless the NVRA “precluded a
State from obtaining the information necessary to
enforce its voter qualifications.” 133 S. Ct. at 2259. In
EAC, we deemed it determinative of whether Secretary
Kobach had demonstrated such preclusion that he had
failed to show that substantial numbers of noncitizens
had registered to vote. 772 F.3d at 1197–98. Here,
Secretary Kobach offers us nothing more than the
meager evidence of noncitizens registering to vote that
he proffered in connection with his statutory
arguments supra—evidence that we deemed
insufficient to show that substantial numbers of
noncitizens had registered to vote. He does not contend
that something about the Qualifications Clause
preclusion standard should lead us to evaluate this

App. 318
evidence in a different light. Consequently, we reach
the same conclusion of insufficiency as to his
evidentiary showing in the Qualifications Clause
context. Thus, given this evidentiary failing, we need
not engage in a constitutional doubt inquiry. Id. at
1996 (observing as to Inter Tribal and the
constitutional doubt question that “[t]he Court did not
have to resolve this potential constitutional question in
[Inter Tribal], nor did it employ canons of statutory
construction to avoid it, because such steps would only
be necessary if Arizona could prove that federal
requirements precluded it from obtaining information
necessary to enforce its qualifications.”).
Secretary Kobach also argues that the district
court’s decision creates separate qualifications for state
and federal elections in Kansas, in violation of the
Qualifications Clause and the Seventeenth
Amendment, which specify that the qualifications for
state and congressional elections should be the same.
See U.S. CONST. art. I, § 2, cl. 1; id. amend. XVII.
According to Secretary Kobach, this occurs because the
injunction issued by the district court and the NVRA
itself require that motor voter applicants without
DPOC be registered for federal elections, see
§ 20503(a), whereas Kansas law of course requires
applicants for state and local elections to present
DPOC. Thus, some voters will be registered to vote in
Kansas’s federal elections but not its state and local
elections.
This argument fails because the divergence in who
is registered for purposes of Kansas’s state and federal
elections results not from a substantive distinction in

App. 319
the qualifications required to vote but from Kansas’s
choice to impose greater procedural burdens by
demanding more information of applicants than federal
law requires. In EAC, we interpreted Inter Tribal as
holding that while the states have the final say over
the substantive qualifications required, Congress can
preempt state procedures to enforce those substantive
qualifications so long as doing so does not preclude the
states from enforcing their qualifications. EAC, 772
F.3d at 1195. And, significantly, we construed Inter
Tribal as holding that, while citizenship is indeed a
substantive qualification, the state registration
mechanisms, like DPOC, that are designed to enforce
it are not substantive, but instead procedural. In this
regard, we observed there:
Even as the [Inter Tribal] Court reaffirmed
that the United States has authority under
the Elections Clause to set procedural
requirements for registering to vote in
federal elections (i.e. that documentary
evidence of citizenship may not be required),
it noted that individual states retain the
power to set substantive voter qualifications
(i.e., that voters be citizens).
Id.23 Properly understood, then, citizenship is the
substantive qualification, while attestation and DPOC
are the procedural conditions for establishing that

23

“That federal authority to establish procedural rules can coexist
with state authority to define substantive rights is familiar from
other contexts, such as the federal rules of civil procedure.” EAC,
772 F.3d at 1195 n.8.

App. 320
qualification for registration purposes. Consequently,
the district court’s order enjoining the use of the DPOC
requirement in federal elections did not effect a
difference in the substantive qualifications applicable
in federal elections and Kansas state and local
elections, only the procedures for enforcing that
qualification.
This distinction between substantive voter
qualifications and procedural requirements for
registration also forecloses Secretary Kobach’s
argument (made under both the irreparable-harm and
likelihood-of-success-on-the merits prongs) that
registration itself—including a DPOC requirement—is
a qualification to vote in Kansas. Although Inter
Tribal, by its strict terms, refrained from addressing
this argument, 133 S. Ct. at 2259 n.9 (noting that
Arizona raised for the first time in its reply brief the
theory that registration itself is the relevant
qualification, not citizenship, but declining to address
that theory), in EAC we read Inter Tribal as effectively
pointing the way toward resolution of this question.
There, we determined, in the shadow of Inter Tribal,
that DPOC constitutes a procedural condition—not a
substantive qualification. See EAC, 772 F.3d at 1195.
Thus, under our precedent, Secretary Kobach is
incorrect to contend that registration itself—and thus
DPOC—is a qualification to vote.
Secretary Kobach’s arguments under the
Qualifications Clause fail for one final reason: his
arguments regarding the extent of the states’ power
under the Qualifications Clause and its relationship
with Congress’s power under the Elections Clause

App. 321
mirror those of Justice Thomas’s dissent in Inter
Tribal. Like Justice Thomas, Secretary Kobach
contends that this is essentially a case not about
regulating voter registration for federal elections but
about who is qualified to vote in federal elections.
Compare Aplt.’s Opening Br. 45–46 (“If a state requires
proof of citizenship prior to registration to be a
qualified elector, then Article I, § 2, Cl. 1, and the
Seventeenth Amendment command that the federal
government must respect the State’s decision and
acknowledge that the same qualification applies to
federal elections.”), with Inter Tribal, 133 S. Ct. at 2269
(Thomas, J., dissenting) (“Arizona has the independent
constitutional authority to verify citizenship in the way
it deems necessary.” (emphasis added)), and id. at
2269–70 (“Given States’ exclusive authority to set voter
qualifications and to determine whether those
qualifications are met, I would hold that Arizona may
request whatever additional information it requires to
verify voter eligibility.”). But “[t]his is one of those
instances in which the dissent clearly tells us what the
law is not.” EAC, 772 F.3d at 1188 (referring to Justice
Thomas’s dissent in Inter Tribal).
Under the rule we adopt today, Plaintiffs-Appellees
have more than adequately shown a likelihood of
success on the merits and Secretary Kobach’s
arguments to the contrary fail. The district court did
not abuse its discretion or otherwise err in finding that
Plaintiffs-Appellees met their burden to show a
likelihood of success on the merits, even under the
heightened standard for a disfavored preliminary
injunction that we have assumed is applicable. Of
course, we have only considered the record as it stands

App. 322
at this early stage of the proceedings. Further
discovery will presumably ensue. If evidence comes to
light that a substantial number of noncitizens have
registered to vote in Kansas during a relevant time
period, inquiry into whether DPOC is the minimum
amount of information necessary for Kansas to carry
out its eligibility-assessment and registration duties
would then be appropriate. We now address the
remaining prongs of the preliminary injunction
analysis.
D. Threat of Irreparable Harm
To show a threat of irreparable harm, a plaintiff
must demonstrate “a significant risk that he or she will
experience harm that cannot be compensated after the
fact by money damages.” RoDa Drilling Co. v. Siegal,
552 F.3d 1203, 1210 (10th Cir. 2009). Irreparable harm
also occurs if “the district court cannot remedy [the
injury] following a final determination on the merits.”
Prairie Band of Potawatomi Indians v. Pierce, 253 F.3d
1234, 1250 (10th Cir. 2001).24
24

The Plaintiffs-Appellees argue that under our precedent,
particularly Atchison, Topeka & Santa Fe Ry. Co. v. Lennen, 640
F.2d 255 (10th Cir. 1981), no showing of irreparable harm is
necessary when “the defendants are engaged in, or about to be
engaged in, the act or practices prohibited by a statute which
provides for injunctive relief to prevent such violations,” id. at 259.
But Lennen and our other decisions following it (Star Fuel Marts,
LLC v. Sam’s E., Inc., 362 F.3d 639, 651–52 (10th Cir. 2004); Mical
Commc’ns, Inc. v. Sprint Telemedia, Inc., 1 F.3d 1031, 1035 (10th
Cir. 1993)), must be read in light of the Supreme Court’s decision
in Weinberger v. Romero-Barcelo, 456 U.S. 305 (1982) (postdating
Lennen) and the line of cases that follow Romero-Barcelo. Those
cases clarify the narrow circumstances when a presumption of

App. 323

irreparable injury could apply stemming from a congressional
enactment.
The Court held in Romero-Barcelo that courts should “not
lightly assume that Congress has intended to depart from
established principles” of equity jurisprudence simply because a
federal statute specifies that courts have the power to dispense
equitable relief for statutory violations. 456 U.S. at 313 (reversing
the First Circuit, which had held that the district court had a duty
under the relevant statute to issue an injunction). Further, the
Court specified in Amoco Production Co. v. Village of Gambell, 480
U.S. 531 (1987), that applying a presumption of irreparable harm
for violation of a federal statute, without a proper textual basis in
the statute, is a departure from traditional equitable principles. Id.
at 544–45 (“This presumption is contrary to traditional equitable
principles and has no basis in [the Alaska National Interest Lands
Conservation Act].”). Following Romero-Barcelo, we have held that
only an “unequivocal statement” by Congress may modify the
courts’ traditional equitable jurisdiction. Garcia v. Bd. of Educ.,
520 F.3d 1116, 1129 (10th Cir. 2008). Of course, a court’s choice in
weighing factors under such equitable jurisdiction—viz., in
fashioning a remedy to enforce a congressional enactment—does
not extend to a choice regarding whether to enforce the statute at
all. See United States v. Oakland Cannabis Buyers’ Coop., 532 U.S.
483, 497–98 (2001) (“Their [i.e., district courts acting in equity]
choice (unless there is statutory language to the contrary) is
simply whether a particular means of enforcing the statute should
be chosen over another permissible means; their choice is not
whether enforcement is preferable to no enforcement at all.”).
Here, there is no indication in the NVRA’s text that Congress
intended to constrain or otherwise guide the traditional exercise of
equitable jurisdiction in weighing whether an injunction should
issue to remedy violations of the statute. The NVRA simply lays
out time periods in which an aggrieved person may bring suit for
either declaratory or injunctive relief. § 20510(b). In that sense, the
NVRA is unlike section 10 of the Administrative Procedure Act,
which requires that a “reviewing court shall . . . compel agency
action unlawfully withheld or unreasonably delayed.” 5 U.S.C.

App. 324
We have held that irreparable harm “does not
readily lend itself to definition,” Prairie Band of
Potawatomi Indians, 253 F.3d at 1250 (quoting Wis.
Gas Co. v. Fed. Energy Regulatory Comm’n, 758 F.2d
669, 674 (D.C. Cir. 1985)), and is “not an easy burden
to fulfill,” Greater Yellowstone Coal. v. Flowers, 321
F.3d 1250, 1258 (10th Cir. 2003). “The court’s
discretion is to be exercised in light of the purposes of
the statute on which plaintiff’s suit is based.” Roe v.
Cheyenne Mountain Conference Resort, Inc., 124 F.3d
1221, 1230 (10th Cir. 1997).
There can be no dispute that the right to vote is a
constitutionally protected fundamental right. See, e.g.,
Dunn v. Blumstein, 405 U.S. 330, 336 (1972) (“By
denying some citizens the right to vote, such laws
deprive them of a ‘fundamental political right, . . .
§ 706 (emphasis added); see also Forest Guardians v. Babbitt, 174
F.3d 1178, 1191 (10th Cir. 1999) (“In sum, we hold that Congress,
through 5 U.S.C. § 706, has explicitly removed from the courts the
traditional equity balancing that ordinarily attends decisions
whether to issue injunctions.”). Similarly, the NVRA is unlike the
Endangered Species Act of 1973, which was at issue in TVA v. Hill,
437 U.S. 153 (1978). As the Court later explained, “That statute
contains a flat ban on destruction of critical habitats of endangered
species and it was conceded that completion of the dam would
destroy the critical habitat of the snail darter. . . . Congress, it
appeared to us, had chosen the snail darter over the dam. The
purpose and language of the statute [not the bare fact of a
statutory violation] limited the remedies available . . . [and] only
an injunction could vindicate the objectives of the Act.’” Amoco, 480
U.S. at 543 n.9 (alteration in original) (quoting Romero-Barcelo,
456 U.S. at 314). The NVRA is far from approaching the specificity
required to limit the courts’ traditional equitable discretion.
Accordingly, we apply our traditional abuse of discretion standard
to the familiar four-pronged preliminary injunction analysis.

App. 325
preservative of all rights.’” (quoting Reynolds v. Sims,
377 U.S. 533, 562 (1964))); accord Hellebust v.
Brownback, 42 F.3d 1331, 1333 (10th Cir. 1994). “When
an alleged constitutional right is involved, most courts
hold that no further showing of irreparable injury is
necessary.” Kikumura v. Hurley, 242 F.3d 950, 963
(10th Cir. 2001) (quoting 11A Charles Allen Wright et
al., FEDERAL PRACTICE AND PROCEDURE § 2948.1 (2d ed.
1995)). Accordingly, while we must nonetheless engage
in our traditional equitable inquiry as to the presence
of irreparable harm in such a context, we remain
cognizant that the violation of a constitutional right
must weigh heavily in that analysis. Cf. Elrod v. Burns,
427 U.S. 347, 374 & n.29 (1976) (holding that “[t]he
loss of First Amendment freedoms, for even minimal
periods of time, unquestionably constitutes irreparable
injury[,]” while noting that this is so because “[t]he
timeliness of political speech is particularly
important”). This is especially so in the context of the
right to vote. Because there can be no “do-over” or
redress of a denial of the right to vote after an election,
denial of that right weighs heavily in determining
whether plaintiffs would be irreparably harmed absent
an injunction. League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224, 247 (4th Cir. 2014); accord
Obama for Am. v. Husted., 697 F.3d 423, 436 (6th Cir.
2012); Williams v. Salerno, 792 F.2d 323, 326 (2d Cir.
1986).
The district court did not legally err or otherwise
abuse its discretion in finding irreparable harm. The
district court found that several of the named plaintiffs
had registered in 2013 or 2014 to vote in the 2014
elections and that they desired to vote in the upcoming

App. 326
2016 elections. Further, as of March 2016, 12,717
applications had been cancelled since Kansas’s DPOC
requirement went into effect and another 5,655
applications were suspended as incomplete. In other
words, over 18,000 Kansans stood to lose the right to
vote in the coming general elections—elections that are
less than one month away. The district court further
found that the DPOC requirement has a chilling effect,
discouraging otherwise qualified citizens, once rejected,
from reapplying. Taking these findings together, we
determine that the court did not abuse its discretion in
concluding that there was an almost certain risk that
thousands of otherwise qualified Kansans would be
unable to vote in November. This denial of the right to
vote constitutes a strong showing of irreparable harm,
and one which cannot be compensated by money
damages.
Against these findings of fact, Secretary Kobach
makes two arguments. First, he argues that the
Plaintiffs-Appellees delayed at least thirty months in
bringing their claims, and their delay forecloses a
finding of irreparable harm. Second, he argues that the
plaintiffs’ harm is self-inflicted and so cannot
constitute irreparable harm. We address each
argument in turn.
As for delay, it is true that “delay in seeking
preliminary relief cuts against finding irreparable
injury.” RoDa Drilling, 552 F.3d at 1211 (quoting Kan.
Health Care Ass’n, Inc. v. Kan. Dep’t of Soc. & Rehab.
Servs., 31 F.3d 1536, 1543–44 (10th Cir. 1994)).
However, delay is only one factor to be considered
among others, id., and there is no categorical rule that

App. 327
delay bars the issuance of an injunction, see id. at 1210,
1211–12 (“We note that the Supreme Court has
rejected the application of categorical rules in
injunction cases. . . . [D]elay is but one factor in the
irreparable harm analysis . . . .”). The question instead
is whether the delay was reasonable, was not a decision
by the party to “sit on its rights,” and did not prejudice
the opposing party. See id. at 1211–12.
Here, Secretary Kobach points to delay as though it
should conclusively defeat a preliminary injunction but
fails to make any argument as to how the particular
delay at issue here undercuts a finding of irreparable
harm. He argues only the length of the delay and fails
to show how that delay prejudiced him. This failure
alone is sufficient for us to reject his delay rationale.
See Kan. Health Care Ass’n, 31 F.3d at 1544 (“Finally,
we agree with the district court that defendants have
not claimed that they are somehow disadvantaged
because of the delay. We therefore find no error or
abuse of discretion in the district court’s conclusion
that plaintiffs established that they have or will suffer
an irreparable harm, which is not undermined by their
delay in commencing this action.”).
Secretary Kobach next argues that PlaintiffsAppellees’ harm is self-inflicted because they could
have complied with the DPOC requirement but simply
chose not to do so. The district court made factual
findings that cut against his self-inflicted harm
contention, and they were not clearly erroneous. For
instance, the court found that there was no evidence in
the record to establish either Kansas’s efforts to inform
voters of the new requirements or that the named

App. 328
plaintiffs received the individual notices of failure to
meet the DPOC requirements. The district court also
found that the plaintiffs had established that they
faced financial and administrative obstacles to
obtaining DPOC. Further, the court found that the
administrative hearing alternative to DPOC, Kan. Stat.
Ann. § 25-2309(m), was too burdensome and vague to
serve as an effective safety valve—particularly given
that only three voters had ever availed themselves of it.
Moreover, our cases show that typically a finding of
self-inflicted harm results from either misconduct or
something akin to entering a freely negotiated
contractual arrangement, not from a failure to comply
with an allegedly unlawful regime. For example, in
Davis v. Mineta, 302 F.3d 1104 (10th Cir. 2002), we
discerned self-inflicted harm because the defendant
improperly entered “into contractual obligations that
anticipated a pro forma result” from National
Environmental Protection Act review. Id. at 1116; see
also Sierra Club v. Bostick, 539 Fed. App’x 885, 893
(10th Cir. 2013) (“A close reading of Davis reveals that
what led us to brand the state defendants’ harm with
the ‘self-inflicted’ label, and decline to weigh it, was the
fact that the harm-inducing contractual conduct of
those defendants . . . was predicated on the federal
agency’s improper actions, and the impropriety of those
actions was attributable to the state defendants. . . .
The state defendants expected a ‘pro forma result’
because they had been knowingly collaborating with
the federal agency defendant while it improperly
‘prejudged the NEPA issues.’”). Even the lone case cited
by Secretary Kobach concerns harms caused by “the
express terms of a contract [the plaintiff] negotiated,”

App. 329
Salt Lake Tribune Publ’g Co. v. AT&T Corp., 320 F.3d
1081, 1106 (10th Cir. 2003), not harms caused by an
allegedly unlawful state statute.
In short, the circumstances that breathe vitality
into the doctrine of self-inflicted harm are not present
here. Moreover, we reject the notion that the source of
an injury is a litigant’s decision not to comply with an
allegedly unlawful state regime, rather than the regime
itself. Cf. Meese v. Keene, 481 U.S. 465, 475 (1987)
(noting that “the need to take such affirmative steps to
avoid the risk of harm . . . constitutes a cognizable
injury”). Were this notion to apply in a case like this
one, a court could never enjoin enforcement of an
unlawful statute if the plaintiffs could have complied
with the statute but elected not to; this hypothetical
scenario borders on the absurd.
In the end, our task is not de novo review. “[W]e
need only evaluate whether the district court’s
remedial decision is within the range of reasonable
choices.” Garcia v. Bd of Educ., 520 F.3d at 1129. Put
succinctly, the NVRA’s statutory purposes are to
“enhance[] the participation of eligible citizens as
voters in elections for Federal office” while protecting
election integrity and the accuracy and currency of
registration rolls. § 20501(b). In light of these purposes
and the imminent disenfranchisement of over 18,000
Kansans, we conclude that there is no error or abuse of
discretion in the district court’s finding of irreparable
harm.

App. 330
E. Balance of Equities
“We must next balance the irreparable harms we
have identified against the harm to defendants if the
preliminary injunction is granted.” Davis, 302 F.3d at
1116. Again we review for abuse of discretion. We do
not reject out of hand that the administrative burdens
of compliance with the preliminary injunction are a
real harm or conclude that the state has no legitimate
interest in preventing even small numbers of
noncitizens from voting. But the district court found
that Secretary Kobach had shown only three cases of
noncitizens actually voting and that the administrative
burden of altering the registration status of the roughly
18,000 applicants in question was limited to a largely
automated process that would be neither unduly time
consuming or costly. The district court further found
that Kansas managed to cope with a bifurcated election
in 2014.25 Most importantly, however, the court found
25

In the run-up to oral argument, the parties informed the court
of ongoing litigation in the Kansas state courts concerning whether
Kansas law prohibited Secretary Kobach from operating bifurcated
registration and election systems. A temporary injunction was
issued in that case, which requires Secretary Kobach to count the
votes of those registered for federal elections in both state and
federal elections, Brown v. Kobach, Case No. 2016CV550 (Shawnee
Cty. Dist. Ct. July 29, 2016). Secretary Kobach informed us at oral
argument, however, that a further hearing was to take place on
this matter, but we have not received an update from either party
as to further developments in that case. Lacking further
information, we proceed on the assumption that Kansas may still
go forward with a bifurcated system. We remind the parties that
[i]t is the parties, not the court, who are positioned
to remain abreast of external factors that may
impact their case; this is of particular importance

App. 331
that the burden of a bifurcated system was of Kansas’s
own creation because Kansas chose to pass and enforce
a law that conflicts with the NVRA and, thus, that law
cannot apply to federal elections.
Furthermore, we reject as based on conjecture
Secretary Kobach’s invitation to consider as “just the
tip of the iceberg” the twenty-five cases in Sedgwick
County of aliens registering or attempting to register.
Aplt.’s Opening Br. 55. The assertion that the “number
of aliens on the voter rolls is likely to be in the
hundreds, if not thousands” is pure speculation. Id. at
56. The extent of the harm to Secretary Kobach by the
issuance of the injunction consists of essentially two
things: (1) light administrative burdens, and (2) any
costs associated with the hindering of Kansas’s choice
to pursue a zero-instance policy regarding the
registration of noncitizens.
On the other side of the equation is the near
certainty that without the preliminary injunction over
18,000 U.S. citizens in Kansas will be disenfranchised
for purposes of the 2016 federal elections—elections
less than one month away. We cannot ignore the
irreparable harm of this denial of the right to vote,
particularly on such a large scale. There is no contest
between the mass denial of a fundamental
constitutional right and the modest administrative

where, as here, those factors directly pertain to
this court’s substantive inquiry. We look to the
parties to inform us of such developments, and we
should be assured that they will do so diligently.
Jordan v. Sosa, 654 F.3d 1012, 1020 n.11 (10th Cir. 2011).

App. 332
burdens to be borne by Secretary Kobach’s office and
other state and local offices involved in elections. Nor
does the negligible risk that a few votes might be cast
by noncitizens alter our equitable calculus—especially
given the certainty of irreparable harm to the rights of
so many citizens. We also reject Secretary Kobach’s
arguments that the Plaintiffs-Appellees suffer no harm,
as he merely rehashes the arguments we addressed in
the context of the irreparable harm analysis. Those
arguments fail, and the district court did not abuse its
discretion in finding that the balance of equities
strongly favors the Plaintiffs-Appellees.
F. Whether an Injunction Is in the Public
Interest
“A movant also has the burden of demonstrating
that the injunction, if issued, is not adverse to the
public interest.” Heideman, 348 F.3d at 1191. We note
that our “democratically elected representatives . . . are
in a better position than this Court to determine the
public interest[;] . . . [t]he courts’ peculiar function is to
say what the law is, not to second-guess democratic
determinations of the public interest.” Id. In RomeroBarcelo, the Supreme Court noted that although courts
should exercise their traditional equitable practices in
evaluating requests for injunctive relief for violation of
a federal statute, those practices are “conditioned by
the necessities of the public interest which Congress
has sought to protect.” 456 U.S. at 320.
There is no question that Kansas’s interest in
ensuring that not a single noncitizen (or an
insubstantial number of them) should vote is in tension
with the right to vote of over 18,000 Kansans. Kansas’s

App. 333
interest is also in tension with the registration
procedures that Congress required in the NVRA.
Congress has spoken clearly by ensuring that whatever
else the states do, “a simple means of registering to
vote in federal elections will be available.” Inter Tribal,
133 S. Ct. at 2255.26 The registration requirements set
forth by Congress in the NVRA—requirements
designed to increase the number of eligible voters who
register and vote—demonstrate Congress’s
determination that the public interest in the
widespread exercise of the franchise trumps the
narrower interest of ensuring that not a single
noncitizen votes (or an insubstantial number of them).
Indeed, as the district court observed, exceedingly few
noncitizens have been shown to have voted compared
to the number of Kansans who stand to lose the right
to vote in the coming elections. The public interest in
broad exercise of the right to vote will be furthered
rather than harmed by the district court’s injunction.
III. CONCLUSION
Based on the foregoing, we AFFIRM the district
court’s grant of a preliminary injunction and
REMAND the case for further proceedings not
inconsistent with this opinion.

26

Secretary Kobach argues that a bifurcated election will produce
“great confusion for voters.” Aplt.’s Opening Br. 59. However,
Kansas’s concerns about voter confusion thus ring hollow; the
principal source of that confusion is Kansas’s own voterregistration laws. As the district court found, “the record suggests
that Kansas motor voters are already confused about the current
DPOC law and how to meet its requirements.” Fish v. Kobach,
2016 WL 2866195, at *29.

App. 334

APPENDIX D
U.S. Const. art. I, § 2, cl. 1 (House of Representatives)
provides in part:
[T]he Electors in each State shall have the
Qualifications requisite for Electors of the most
numerous Branch of the State Legislature.
U.S. Const. amend. XVII (Senate) provides in part:
The electors in each State shall have the
qualifications requisite for electors of the most
numerous branch of the State legislatures.
U.S. Const. art. I, § 4, cl. 1 provides:
The Times, Places and Manner of holding
Elections for Senators and Representatives,
shall be prescribed in each State by the
Legislature thereof; but the Congress may at
any time by Law make or alter such
Regulations, except as to the Places of chusing
Senators.
U.S. Const. amend. XIV, § 1 provides in part:
[N]or shall any state . . . deny to any person
within its jurisdiction the equal protection of the
laws.
Kan. Const., Art. V, § 1 provides in part:
Every citizen of the United States who has
attained the age of eighteen years and who

App. 335
resides in the voting area in which he or she
seeks to vote shall be deemed a qualified elector.
Kan. Const., Art. V, § 4 provides:
The legislature shall provide by law for proper
proofs of the right of suffrage.

App. 336

APPENDIX E
1. 52 U.S.C. § 20504 provides in part:
(c) Forms and procedures
(1) Each State shall include a voter registration
application form for elections for Federal office as part
of an application for a State motor vehicle driver’s
license.
(2) The voter registration application portion of an
application for a State motor vehicle driver’s license-(A) may not require any information that duplicates
information required in the driver’s license portion
of the form (other than a second signature or other
information necessary under subparagraph (C));
(B) may require only the minimum amount of
information necessary to-(i) prevent duplicate voter registrations; and
(ii) enable State election officials to assess the
eligibility of the applicant and to administer
voter registration and other parts of the election
process;
(C) shall include a statement that-(i) states each eligibility requirement (including
citizenship);
(ii) contains an attestation that the applicant
meets each such requirement; and

App. 337
(iii) requires the signature of the applicant,
under penalty of perjury;
2. 52 U.S.C. § 20507, provides in part:
(a) In general
In the administration of voter registration for elections
for Federal office, each State shall-(1) ensure that any eligible applicant is registered
to vote in an election-(A) in the case of registration with a motor
vehicle application under section 20504 of this
title, if the valid voter registration form of the
applicant is submitted to the appropriate State
motor vehicle authority not later than the lesser
of 30 days, or the period provided by State law,
before the date of the election;
(B) in the case of registration by mail
under section 20505 of this title, if the valid
voter registration form of the applicant is
postmarked not later than the lesser of 30 days,
or the period provided by State law, before the
date of the election;
(C) in the case of registration at a voter
registration agency, if the valid voter
registration form of the applicant is accepted at
the voter registration agency not later than the
lesser of 30 days, or the period provided by State
law, before the date of the election; and
(D) in any other case, if the valid voter
registration form of the applicant is received by

App. 338
the appropriate State election official not later
than the lesser of 30 days, or the period provided
by State law, before the date of the election;
(2) require the appropriate State election official to
send notice to each applicant of the disposition of
the application;
(3) provide that the name of a registrant may not be
removed from the official list of eligible voters
except-(A) at the request of the registrant;
(B) as provided by State law, by reason of
criminal conviction or mental incapacity; or
(C) as provided under paragraph (4);
(4) conduct a general program that makes a
reasonable effort to remove the names of ineligible
voters from the official lists of eligible voters by
reason of-(A) the death of the registrant; or
(B) a change in the residence of the registrant,
in accordance with subsections (b), (c), and (d);
(5) inform applicants under sections 20504, 20505,
and 20506 of this title of-(A) voter eligibility requirements; and
(B) penalties provided by law for submission of
a false voter registration application; and

App. 339
(6) ensure that the identity of the voter registration
agency through which any particular voter is
registered is not disclosed to the public.
3. Kan. Stat. Ann. § 25-2309 (2012 Supp.) states in
part:
(l) The county election officer or secretary of state’s
office shall accept any completed application for
registration, but an applicant shall not be registered
until the applicant has provided satisfactory evidence
of United States citizenship. Evidence of United States
citizenship as required in this section will be satisfied
by presenting one of the documents listed in
subsections (l)(1) through (l)(13) in person at the time
of filing the application for registration or by including
a photocopy of one of the following documents with a
mailed registration application. After a person has
submitted satisfactory evidence of citizenship, the
county election officer shall indicate this information in
the person’s permanent voter file. Evidence of United
States citizenship shall be satisfied by providing one of
the following, or a legible photocopy of one of the
following documents:
(1) The applicant’s driver’s license or nondriver’s
identification card issued by the division of vehicles
or the equivalent governmental agency of another
state within the United States if the agency
indicates on the applicant’s driver’s license or
nondriver’s identification card that the person has
provided satisfactory proof of United States
citizenship;

App. 340
(2) the applicant’s birth certificate that verifies
United States citizenship to the satisfaction of the
county election officer or secretary of state;
(3) pertinent pages of the applicant’s United States
valid or expired passport identifying the applicant
and the applicant’s passport number, or
presentation to the county election officer of the
applicant’s United States passport;
(4) the applicant’s United States naturalization
documents or the number of the certificate of
naturalization. If only the number of the certificate
of naturalization is provided, the applicant shall not
be included in the registration rolls until the
number of the certificate of naturalization is
verified with the United States bureau of
citizenship and immigration services by the county
election officer or the secretary of state, pursuant to
8 U.S.C. § 1373(c);
(5) other documents or methods of proof of United
States citizenship issued by the federal government
pursuant to the immigration and nationality act of
1952, and amendments thereto;
(6) the applicant’s bureau of Indian affairs card
number, tribal treaty card number or tribal
enrollment number;
(7) the applicant’s consular report of birth abroad of
a citizen of the United States of America;
(8) the applicant’s certificate of citizenship issued
by the United States citizenship and immigration
services;

App. 341
(9) the applicant’s certification of report of birth
issued by the United States department of state;
(10) the applicant’s American Indian card, with KIC
classification, issued by the United States
department of homeland security;
(11) the applicant’s final adoption decree showing
the applicant’s name and United States birthplace;
(12) the applicant’s official United States military
record of service showing the applicant’s place of
birth in the United States; or
(13) an extract from a United States hospital record
of birth created at the time of the applicant’s birth
indicating the applicant’s place of birth in the
United States.
(m) If an applicant is a United States citizen but does
not have any of the documentation listed in this section
as satisfactory evidence of United States citizenship,
such applicant may submit any evidence that such
applicant believes demonstrates the applicant’s United
States citizenship.
(1) Any applicant seeking an assessment of
evidence under this subsection may directly contact
the elections division of the secretary of state by
submitting a voter registration application or form
as described by this section and any supporting
evidence of United States citizenship. Upon receipt
of this information, the secretary of state shall
notify the state election board, as established under
K.S.A. 25-2203, and amendments thereto, that such
application is pending.

App. 342
(2) The state election board shall give the applicant
an opportunity for a hearing and an opportunity to
present any additional evidence to the state election
board. Notice of such hearing shall be given to the
applicant at least five days prior to the hearing
date. An applicant shall have the opportunity to be
represented by counsel at such hearing.
(3) The state election board shall assess the
evidence provided by the applicant to determine
whether the applicant has provided satisfactory
evidence of United States citizenship. A decision of
the state election board shall be determined by a
majority vote of the election board.
(4) If an applicant submits an application and any
supporting evidence prior to the close of registration
for an election cycle, a determination by the state
election board shall be issued at least five days
before such election date.
(5) If the state election board finds that the
evidence presented by such applicant constitutes
satisfactory evidence of United States citizenship,
such applicant will have met the requirements
under this section to provide satisfactory evidence
of United States citizenship.
(6) If the state election board finds that the
evidence presented by an applicant does not
constitute satisfactory evidence of United States
citizenship, such applicant shall have the right to
appeal such determination by the state election
board by instituting an action under
8 U.S.C. § 1503. Any negative assessment of an

App. 343
applicant’s eligibility by the state election board
shall be reversed if the applicant obtains a
declaratory judgment pursuant to 8 U.S.C. § 1503,
demonstrating that such applicant is a national of
the United States.

